<html>
<title> - BREAKING NEW GROUND IN AGRIBUSINESS OPPORTUNITIES IN INDIAN COUNTRY</title>
<body><pre>[Senate Hearing 115-382]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 115-382
 
  BREAKING NEW GROUND IN AGRIBUSINESS OPPORTUNITIES IN INDIAN COUNTRY

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 17, 2018

                               __________

         Printed for the use of the Committee on Indian Affairs
         
         
         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]         







                   U.S. GOVERNMENT PUBLISHING OFFICE
                   
32-783 PDF                 WASHINGTON : 2018      





                      COMMITTEE ON INDIAN AFFAIRS

                  JOHN HOEVEN, North Dakota, Chairman
                  TOM UDALL, New Mexico, Vice Chairman
JOHN BARRASSO, Wyoming               MARIA CANTWELL, Washington
JOHN McCAIN, Arizona                 JON TESTER, Montana,
LISA MURKOWSKI, Alaska               BRIAN SCHATZ, Hawaii
JAMES LANKFORD, Oklahoma             HEIDI HEITKAMP, North Dakota
STEVE DAINES, Montana                CATHERINE CORTEZ MASTO, Nevada
MIKE CRAPO, Idaho                    TINA SMITH, Minnesota
JERRY MORAN, Kansas
     T. Michael Andrews, Majority Staff Director and Chief Counsel
       Jennifer Romero, Minority Staff Director and Chief Counsel
       
       
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on January 17, 2018.................................     1
Statement of Senator Cantwell....................................    23
Statement of Senator Cortez Masto................................    31
Statement of Senator Daines......................................    36
Statement of Senator Hoeven......................................     1
Statement of Senator Smith.......................................     3
Statement of Senator Tester......................................     4
Statement of Senator Udall.......................................     2

                               Witnesses

Berrey, Hon. John L., Chairman, Quapaw Tribe of Oklahoma.........     8
    Prepared statement...........................................     9
Cullo, Diane, Advisor to the Secretary; Director, Office of 
  Partnerships and Public Engagement, U.S. Department of 
  Agriculture....................................................     4
    Prepared statement...........................................     6
Haskie, Lionel, Operations and Maintenance Manager, Navajo 
  Agricultural Products Industry.................................    22
    Prepared statement...........................................    23
Hipp, Janie Simms, Director, Indigenous Food and Agriculture 
  Initiative, University of Arkansas School of Law...............    13
    Prepared statement...........................................    14

                                Appendix

Anderson, Keith B., Vice-Chairman, Shakopee Mdewakanton Sioux 
  Community, prepared statement..................................    43
Baker, Hon. Harlan, Chairman, The Chippewa Cree Tribe of the 
  Rocky Boy's Reservation, prepared statement....................   125
Begaye, Hon. Russell, President, Navajo Nation, prepared 
  statement......................................................    69
Cleveland, Wilfrid, President, Ho-Chunk Nation, prepared 
  statement......................................................    87
Ferguson, Camille, Executive Director, American Indian Alaska 
  Native Tourism Association, prepared statement.................    41
Floyd, Hon. James R., Principal Chief, Muscogee (Creek) Nation, 
  prepared statement.............................................   123
Gasco-Bentley, Hon. Regina, Tribal Chairperson, Waganakising 
  Odawak, Little Traverse Bay Bands of Odawa Indian, prepared 
  statement......................................................    82
Goudy, Hon. JoDe, Chairman, Yakama Nation, prepared statement....   123
Iyall, Hon. William P.E., Chairman, Cowlitz Indian Tribe, 
  prepared statement.............................................    73
Jackson, Ryan, Chairman of the Hoopa Valley Tribe, prepared 
  statement......................................................    65
Keel, Hon. Jefferson, President, Chickasaw Nation, prepared 
  statement......................................................   114
Lewis, Cheryl Jackson, Division Director, Nutrition Promotion and 
  Technical Assistance Division, prepared statement..............   121
Lummi Tribe of Indians (Lummi Nation), prepared statement........    61
Miles, Hon. Mary Jane, Chairman, Nez Perce Tribe, prepared 
  statement......................................................    79
Palmer, Carole M., Food Systems Specialist, COPE, prepared 
  statement......................................................   107
Payment, Hon. Aaron, Chairman, Sault Ste. Marie Tribe of Chippewa 
  Indians, prepared statement....................................    51
Racine, Ross, Executive Director, Intertribal Agriculture 
  Council, prepared statement....................................    44
Response to Written Questions Submitted by Hon. Tom Udall to 
  Diane Cullo....................................................   130
Riley, Sr. Joshua, Policy Analyst, Choctaw Nation of Oklahoma, 
  prepared statement.............................................    85
Siow, Hon. Virgil, Governor, Pueblo of Laguna, prepared statement    51
Torres, Hon. Amber, Chairman, Walker River Paiute Tribe, prepared 
  statement......................................................    72
Trahan, Hon. Ronald Chairman, Confederated Salish and Kootenai 
  Tribes, prepared statement.....................................    75
United South and Eastern Tribes Sovereignty Protection Fund (USET 
  SPF), prepared statement.......................................    53
Valencia, Hon. Robert, Chairman, Pascua Yaqui Tribe, prepared 
  statement......................................................   110
Watchman, Pete, President, Navajo Nation Soil and Water 
  Conservation District, prepared statement......................   127
Weston, Hon. Troy Scott, President, Oglala Sioux Tribe, prepared 
  statement......................................................    57
Wildcat, Hon. Joseph, President, Lac du Flambeau Band of Lake 
  Superior Chippewa, prepared statement..........................    90
Yellowbird Stevens, Hon. Brandon, Vice-Chairman, Oneida Nation, 
  prepared statement.............................................   109
Zorn, James E., Executive Administrator, Great Lakes Indian Fish 
  and Wildlife Commission, prepared statement....................    81

*ROUNDTABLE--Advancing Native Food Traditions in Indian Country*.   133


  BREAKING NEW GROUND IN AGRIBUSINESS OPPORTUNITIES IN INDIAN COUNTRY

                              ----------                              


                      WEDNESDAY, JANUARY 17, 2018


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:30 p.m. in room 
628, Dirksen Senate Office Building, Hon. John Hoeven, 
Chairman of the Committee, presiding.

            OPENING STATEMENT OF HON. JOHN HOEVEN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    The Chairman. I call this hearing to order. Good afternoon.
    Today, the Committee will hold an oversight hearing on 
Breaking New Ground in Agribusiness Opportunities in Indian 
Country.
    Agribusiness is of particular importance in Indian Country. 
The National Congress of American Indians has noted that 
approximately 35 percent of American Indians and Alaska Natives 
live in rural communities, and nearly 40 percent of tribal jobs 
are dependent on agriculture.
    According to the 2012 Census of Agriculture, there are 
nearly 59,000 Indian farmers and ranchers in the United States 
with 35,000 farms principally owned and operated by Indian 
farmers. In my home State of North Dakota, over 83 percent of 
farms on the Turtle Mountain Reservation are tribally-operated.
    Agribusiness is critical for Indian Country, and it is a 
growing industry. According to the most recent USDA Census of 
Agriculture, between 2007 and 2012, there was a 9 percent 
increase in American Indian principal farm operators. That is a 
good sign. This increase occurred in Indian Country while we 
saw a national decrease in principal farmers.
    This Committee has worked to reduce the regulatory burden 
in Indian Country and it is time we do the same for the growing 
industry of Indian agribusiness. We are here today to discuss 
just that and to examine how tribes and their members can 
capitalize on opportunities in agribusiness.
    We have a diverse group of witnesses who are joining us 
today to review how Congress, the Administration, tribes, and 
other stakeholders may work together to find common ground and 
help Native Americans continue to have success in agribusiness.
    I want to thank our witnesses for being with us today. As a 
North Dakotan and a member of the Agriculture Committee, I am 
particularly interested in Indian agribusiness. I look forward 
to hearing your testimonies.
    Before we hear from our witnesses, I want to turn to 
Senator Udall for his opening statement.

                 STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. Thank you so much, Chairman Hoeven. I really 
appreciate working with you on this hearing.
    We are going to have our new member join us later today. I 
will welcome her when Tina arrives.
    I would like to extend a warm welcome to Lionel Haskie from 
NAPI. I am looking forward to hearing more about NAPI's efforts 
to expand access to traditional foods, workforce development 
for Native youth, and innovative stewardship. NAPI is doing 
tremendous work.
    Once every five years, Congress sets Federal nutrition, 
agricultural and conservative policies in the Farm Bill 
reauthorization. These policies naturally have significant 
impacts to Indian Country.
    Tribal lands, natural resources, foods and economic 
development opportunities are all affected by Federal food 
policy. For many decades now, Indian Country has been summarily 
excluded from both discussions that shape these policies and 
the policies themselves.
    That is why I am thankful to the Chairman for calling this 
hearing today. Indian Country's interest in agribusiness is 
real and growing. There are over 56,000 Native farmers and 
ranchers operating on 57 million acres of land.
    In 2012, Native farmers bought more than $3 billion worth 
of products to the market. I hope to hear more from our 
witnesses today about how Congress can better support these 
efforts to get Native agricultural products on the grocery 
store shelves all across America.
    Market value is only one piece of what Native farmers and 
ranchers bring to Indian Country. These hardworking folks help 
their communities address issues related to nutrition, cultural 
revitalization, climate change mitigation and research 
innovation. In fact, the testimony from our witnesses today 
underscores this point.
    This Committee must take a broad approach to its review of 
Federal agricultural policy. That is why tomorrow afternoon, 
Chairman Hoeven and I will convene a bipartisan roundtable to 
discuss the many ways Congress and the USDA can support tribal 
efforts around traditional foods, especially in light of the 
new Farm Bill actively being considered by the Committee on 
Agriculture.
    I have seen the important cultural, health and economic 
roles traditional foods play for tribes of my home State of New 
Mexico. Many of my fellow members on this Committee can 
probably attest to the same in their home States.
    It is important that the record fully reflect this 
priority. I request the transcript from tomorrow's roundtable 
be included in the record for today's hearing.
    The Chairman. Without objection.
    Senator Udall. Thank you, Mr. Chairman.
    Both today's hearing and tomorrow's roundtable represent a 
solid start when it comes to the Farm Bill in Indian Country. I 
am calling upon everyone on this dais today to share what we 
learn from our colleagues who do not sit on this Committee and 
to work together to see the legislative changes we can secure 
for tribes and Native farmers in the upcoming Farm Bill 
reauthorization.
    For too long now, Indian Country has been knocking at the 
door of the Farm Bill asking for a seat at the table with 
States, counties and other stakeholders, asking for their due 
as sovereign governments. We all need to come together to push 
that door open and make room at the table.
    With that, Mr. Chairman, I want to thank you again for 
calling today's hearing and working with me on tomorrow's 
roundtable. I am very encouraged by our joint efforts. I look 
forward to working with you and the leadership of the Ag 
Committee where you and several other Indian Affairs members 
also sit on the legislative side of things.
    I see that our newest member has joined us, Senator Hoeven. 
I want to recognize her. Senator Smith is present.
    I also want to say there is a special connection with Tina 
because she was born and raised in Albuquerque and I believe 
graduated from high school there. I share that with her, 
obviously, and in a sense, adopt her.
    I would also like to begin by giving her a very warm 
welcome today. We are glad to have you join us. I look forward 
to working with you to advance the priorities of the Minnesota 
tribes and Indian Country as a whole in the Senate.
    I know you want to work and have a very good relationship 
with your tribes. I am willing to work hard with you on that 
behalf. Thank you.
    Thank you, Senator Tester, for joining us today. When we 
talk about farming, there is nobody that has his hands in the 
dirt more than Senator Tester.
    Senator Tester. Seven fingers.
    Senator Udall. Seven fingers, got it.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Vice Chairman Udall.
    Welcome to Senator Smith. Did you have opening comments, 
Senator?

                 STATEMENT OF HON. TINA SMITH, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Smith. Thank you very much, Chairman Hoeven.
    Senator Udall, I appreciate very much being on this 
Committee. I want you both to know that serving on this 
Committee was very important to me. It was something I 
specifically asked to do because I know it is so important and 
especially important to Minnesota and our 11 sovereign Nation 
tribes.
    The Chairman. Again, welcome, Senator Smith. It is good to 
have you with us.
    Senator Tester.

                 STATEMENT OF HON. JON TESTER, 
                   U.S. SENATOR FROM MONTANA

    Senator Tester. Very quickly, Mr. Chairman, thank you and 
the Vice Chairman for holding what I think is a very important 
hearing.
    There is incredible opportunity in Indian Country for 
agriculture. I have seen it firsthand but I think today is an 
opportunity to find out what is holding it back and what are 
the impediments. Is it a lack of capital, input costs, not 
having adequate mentorship or communication between Federal 
agencies, lenders and tribes? We need the answers.
    This is so important today because we have a Farm Bill 
coming up. We might be able to address some of those issues in 
the Farm Bill if you can point us in the right direction. We 
are looking to your for guidance from the Native community's 
perspective.
    I think if we have a particularly good hearing today, we 
will be able to transfer that information over to the Ag 
Committee and hopefully have some influence on that bill as it 
is being written.
    Thank you all for being here.
    The Chairman. Thank you, Senator Tester. I agree. I think 
that sentiment is very appropriate. We want any and all good 
ideas as we write this Farm Bill.
    Senator Crapo, any opening statement?
    Senator Crapo. No.
    The Chairman. I would like to again welcome our witnesses. 
Today, we will hear from Ms. Diane Cullo, Advisor to the 
Secretary and Director, Office of Partnerships and Public 
Engagement, U.S. Department of Agriculture; the Honorable John 
L. Berrey, Chairman of the Quapaw Tribe of Oklahoma; Ms. Janie 
Simms Hipp, Director, Indigenous Food and Agriculture 
Initiative, University of Arkansas, School of Law, 
Fayetteville, Arkansas; and Mr. Lionel Haskie, Operations and 
Maintenance Manager of the Navajo Agricultural Products 
Industry, Farmington, New Mexico.
    Again, welcome to all of you.
    Ms. Cullo, you may proceed.

    STATEMENT OF DIANE CULLO, ADVISOR TO THE SECRETARY AND 
 DIRECTOR, OFFICE OF PARTNERSHIPS AND PUBLIC ENGAGEMENT, U.S. 
                   DEPARTMENT OF AGRICULTURE

    Ms. Cullo. Thank you, Mr. Chairman, Vice Chairman Udall and 
members of the Committee.
    My name is Diane Cullo. I am the Director of the Office of 
Partnerships and Public Engagement at the U.S. Department of 
Agriculture.
    Thank you for the opportunity to testify on how USDA is 
addressing agribusiness opportunities for tribal Nations and 
citizens. Thank you for your leadership and insight to be able 
to highlight the need to support new agricultural and economic 
enterprises in Indian Country.
    Based on the 2012 Census of Agriculture data, we know that 
the average reported age of Native agricultural operators is 
58. A study the NCAI reported that over one-third of the Native 
population is under the age of 18. There is a rising Native 
youth cohort that USDA is poised to help address so that Native 
American agriculture continues to thrive.
    I had the pleasure of meeting and speaking with many young 
tribal members last month at the Intertribal Ag Council's 
annual meeting. I look forward to working with this Committee 
on identifying areas where we can provide more support to help 
feed our population and create a sustainable livelihood for 
Native youth.
    We also know that by 2020, 39 percent of new openings in 
the agriculture, food and natural resources sector may not be 
filled by graduates with the necessary degrees. That is almost 
23,000 jobs nationwide.
    One of the ways USDA is addressing this is through a 
cooperative agreement with the American Indian Higher Education 
Consortium to develop a career ready curriculum for tribal 
colleges and universities. We continue to seek other 
opportunities to collaborate with Native and non-Native youth-
serving organizations.
    One of Secretary Perdue's highest priorities is customer 
service. Through that, USDA programs are bridging need with 
opportunity. Through our Rural Business Development Grant 
Program, Rural Development awarded over $520,000 in fiscal year 
2017 to Native projects helping support agribusiness jobs and 
fortifying those community-based economic markets.
    Those projects include forestry, establishing a greenhouse 
incubator, providing technical assistance and developing a 
commercial market for local tribally-produced foods. Also, 
through USDA's network of boots on the ground in the Farm 
Service Agency, Native farmers and ranchers received over $29 
million in financing to support their operations since 
September 2017.
    Of that, over $15 million directly supported Native 
producers becoming owner-operators of farms, expanding current 
operations, increasing agricultural productivity, and assisting 
with land tenure.
    USDA is committed to establishing a network of lasting 
success. Agricultural operations take time, capital and energy 
to ensure the production model thrives. USDA welcomes the 
opportunity to work with this Committee to attain our mutual 
goal of increasing the number of Native producers in Indian 
Country.
    I would be remiss if I did not recognize our tribal 
partners who continue to broaden the footprint of agriculture. 
Last year, the Quapaw Tribe of Oklahoma announced the grand 
opening of the first tribal-owned and operated meat slaughter 
facility in the Country.
    USDA actively consulted with Quapaw to ensure a full 
understanding of USDA regulatory requirements and under 
Chairman Berrey's leadership, the tribal is now serving as a 
resource for other tribes interested in doing the same.
    Other tribes have met with us and expressed interest in 
pursuing similar ventures in other production areas like 
seafood. Just last week, KivaSun Foods, a Native-owned company, 
was approved to participate in USDA's salmon products program, 
specifically for salmon destined for the FDPIR program. This is 
a perfect example of a Native-owned enterprise working with a 
USDA program that supports feeding families in Indian Country.
    Within the first month, Secretary Perdue, Deputy Secretary 
and several Under Secretaries met with tribal representatives 
to discuss critical issues. We will continue to have these 
important conversations.
    With the upcoming Farm Bill, we look forward to working 
with Indian Country. I will take this opportunity to announce 
that Secretary Perdue and USDA will hold a tribal consultation 
meeting on the 2018 Farm Bill in Oklahoma in April.
    I am here to reaffirm USDA's commitment to partnering with 
Indian Country. I thank you for your time. I am happy to answer 
any questions you might have.
    [The prepared statement of Ms. Cullo follows:]

Prepared Statement of Diane Cullo, Advisor to the Secretary; Director, 
   Office of Partnerships and Public Engagement, U.S. Department of 
                              Agriculture
    Good afternoon Chairman Hoeven, Ranking Member Udall, and Members 
of the Committee. My name is Diane Cullo and I am the Director of the 
Office of Partnerships & Public Engagement (OPPE) and an Advisor to the 
Secretary at the U.S. Department of Agriculture (USDA). Prior to 
joining USDA, I served as Executive Director for the White House 
Initiative on Tribal Colleges and Universities, as well as at the 
American Indian Higher Education Consortium, so the issues regarding 
access and education across Indian Country are close to my heart.
    Thank you for the opportunity to testify before the Senate 
Committee on Indian Affairs on how USDA is addressing new agribusiness 
opportunities for tribal nations and citizens. Mr. Chairman and Ranking 
Member Udall, thank you for your leadership and for highlighting the 
need to support new agricultural economic enterprises in Indian 
Country.
    Based on 2012 Census of Agriculture data, we know that the average 
reported age of Native agricultural operators is 58 years old. A study 
by the National Congress of American Indians reports that over a third 
of the Native population is under the age of 18. There is a rising 
Native youth bubble that USDA is poised to help address, so that Native 
American agriculture continues to thrive. I had the pleasure of 
interacting with many young tribal members in attendance at the 
Intertribal Agriculture Council's annual meeting this past December. 
Native youth are part of the future of American agribusiness. I look 
forward to working with the Committee on identifying areas in which we 
can provide more support and help to not only feed our population, but 
create a sustainable livelihood for Native youth.
    We also know that by 2020, 39 percent of new openings in the 
agriculture, food, and natural resources sector may not be filled by 
graduates with those degrees. That is nearly 23,000 jobs nation-wide 
not only in farming, but also in STEM and bio-materials production, 
communication, government, and education. One of the ways USDA is 
actively addressing this is through a cooperative agreement with the 
American Indian Higher Education Consortium. We are supporting the 
Consortium's efforts to develop career-ready curriculum for tribal 
colleges and universities. This partnership is still early, and USDA is 
continuing to explore other opportunities for collaboration with 
Native- and non-Native youth serving organizations, such as internship 
opportunities and targeted resources.
    One of Secretary Perdue's highest priorities is to enhance USDA's 
customer service, and I am pleased to report that USDA programs are 
helping bridge need with opportunity. Through its Rural Business 
Development Grant program, Rural Development awarded over $520,000 in 
fiscal year (FY) 2017 to Native projects, helping support jobs in 
agribusiness and fortifying those economic markets in their 
communities. Those projects included forestry, establishing a 
greenhouse incubator, providing technical assistance for tribal 
producers, and developing a commercial market for local, tribally 
produced foods.
    Furthermore, through USDA's network of boots on the ground in the 
Farm Service Agency, Native farmers and ranchers received over $29 
million in financing to support their own operations since September 
2017. Of that total, more than half--which is over $15 million--
directly supported Native producers becoming owner-operators of farms, 
expanding current operations, increasing agricultural productivity, and 
assisting with land tenure. Equally worth noting, the Farm Service 
Agency lent more than $250,000 to youth aged 10-20 to finance income-
producing, agriculture-related projects, up to $5,000 each. These 
Native youth now have the opportunity to see exactly what they can do 
with their own hands.
    USDA is committed to establishing a network of lasting success. 
Agricultural operations are ultimately business endeavors and, as such, 
they take time, capital, and energy to ensure their production model 
thrives. USDA welcomes the opportunity to work with this Committee to 
attain our mutual goal of increasing the number of current and future 
Native producers in Indian Country.
    We are also appreciative of our tribal partners who continue to 
broaden the footprint of agriculture across Indian Country. Last year, 
the Quapaw Tribe of Oklahoma announced the grand opening of the first 
tribal-owned and -operated meat slaughter facility in the country. 
USDA's Food Safety and Inspection Service actively consulted with 
Quapaw to ensure a full understanding of USDA regulatory requirements, 
informing the Tribe's decision to operate as a federally-inspected 
facility. Under Chairman Berrey's leadership, the Tribe is taking it a 
step further, serving as a resource for other tribes interested in 
establishing their own facility.
    Other tribes have met with us and expressed interest in pursuing 
similar ventures in other areas of production, such as seafood. As of 
last week--January 11th--KivaSun Foods, in partnership with Odyssey 
Foods, a seafood processing and distribution company based in Seattle, 
Washington, was approved to participate in the Agricultural Marketing 
Service Salmon Products Program, specifically for salmon fillets 
destined for the Food Distribution Program on Indian Reservations. 
There is currently a solicitation out for 12 loads--which comes out to 
432,000 pounds--of salmon fillets. KivaSun is a Native-owned food 
company that reintroduced traditional foods to tribal communities in 
the form of bison and wild pacific salmon. This is a shining example of 
a Native-owned enterprise working with a USDA program that supports 
feeding families in Indian Country.
    Additionally, USDA's ongoing partnership with the Intertribal 
Agriculture Council (TAC) is expanding agricultural market access for 
tribal producers through two courses, amongst others. First, USDA has a 
cooperative agreement with TAC to provide technical assistance on land-
management practices and to help interested producers navigate through 
the diverse array of USDA programs and services available to meet their 
needs. Second, USDA's Foreign Agricultural Service has regularly 
awarded TAC under the Market Access Program, or MAP. In FY 2018, the 
IAC received $737,270 in MAP funds to promote products and secure 
export sales of American Indian and Alaska Native agriculture and food 
products. Under IAC's American Indian Foods program, USDA saw combined 
on-sites sales of $8.2 million (and estimated 12month sales of $12 
million) at trade shows around the world in FY 2016.
    On Secretary Perdue's first day in office in April 2017, President 
Trump called on USDA to lead a concerted effort identifying issues 
important to rural and agricultural prosperity. This led directly to 
the Report to the President from the Task Force on Rural Prosperity. We 
will continue seeking to identify these barriers and support their 
resolution. A copy of the report is posted online at www.usda.gov/
ruralprosperity.
    Within Deputy Secretary Censky's first 10 days in office, he met 
with Tribal Leaders at NCAI to consult on the Secretary's intended 
reorganization of USDA, and just last month, one of our Acting Under 
Secretaries consulted with Tribal Leaders to identify how we can come 
together in improving the USDA food package. One of the important 
points of discussion was how USDA can work with tribal agribusinesses 
to include their food in the package that feeds so many Native 
families. The KivaSun foods example I previously mentioned is one small 
step in that direction.
    With an upcoming Farm Bill on the horizon, we look forward to 
working collectively with Indian Country. I would like to take this 
opportunity to announce that Secretary Perdue and the U.S. Department 
of Agriculture will hold a Tribal Consultation on the 2018 Farm Bill in 
Oklahoma in April.
    In the short month following Secretary Perdue's appointment to 
USDA, he fulfilled his promise to meet with tribes. When he visited 
Oglala Lakota College to hear from Tribal Leaders and Tribal College 
Presidents on how we can leverage our resources, he walked away from 
that meeting affirming that USDA is here to partner with Indian 
Country, and I echo that sentiment. I would like to thank the Committee 
for your time and look forward to any questions you may have.

    The Chairman. Thank you.
    Now we will turn to Chairman Berrey.

  STATEMENT OF HON. JOHN L. BERREY, CHAIRMAN, QUAPAW TRIBE OF 
                            OKLAHOMA

    Mr. Berrey. Good afternoon, Chairman Hoeven and Vice 
Chairman Udall. Thank you very much for the opportunity to 
speak to you all today.
    I want to acknowledge that you have two Razorback alumni 
sitting before you so if we break into a calling of the hogs, 
please forgive me. I also want to recognize Senator Lankford 
who has been very good to the Quapaw Tribe. We are sorry that 
he is not here today.
    I want to tell you a little bit about who we are. We are 
the O-Gah-Pah people, the indigenous tribe of Arkansas. We are 
a Sioux Tribe and speak a Siouan language. Back in the day, 
there was a buffalo herd on the Grand Prairie in southwest 
Arkansas which we chased. We also grew crops along the 
Mississippi and the Arkansas River, so we have a very long 
history of agriculture within our DNA, our cultural background 
and history. We are very proud of that.
    Fortunately, we are right on Interstate 44 which has about 
10 million cars going past our reservation in Oklahoma. We have 
a very successful casino resort. The tribe has pointed me in 
the direction of taking that money and investing it in 
agriculture.
    Agriculture is our history, it is our future and we are 
dedicated to that in many ways. We are a 638 tribe. We do self 
governance. We do everything that the Bureau was doing for 
ourselves except for IIM account management. We leave that up 
to the Office of the Special Trustee.
    We have courts, law enforcement, four full service fire 
stations and all of our work is community broad and spread. We 
are an Oklahoma tribe so we are a little more integrated than 
you would find tribes in the Northern Plains and other parts of 
the Country. It works well for us to be very much a part of the 
community. We have mutual aid agreements, cross deputization 
agreements and work daily with the local community trying to 
feed people, trying to protect people and trying to make life 
better in our community.
    We think there are ways you can help us to grow. Our 
promise to other tribes has been, come see what we do, let us 
show you how we got to where we are, and let us provide you any 
help or assistance we can provide to spread this to the other 
Native Nations.
    We have been approached by 20 tribes that have come to 
visit our facility. It is a state-of-the-art facility. It is 
USDA inspected. We have a tribal member going through a USDA 
grading school so we will have a tribal member who is a USDA 
grader that will work in our facility.
    It is a jobs program but more than anything, it is bringing 
hope and opportunity to young people in my tribe and our 
community that is outside of the gaming industry. We see that 
gaming is not the end all but it helps us with what our future 
will be. We see that in agriculture.
    We are dedicated to that. We are looking at land in 
Arkansas, our homeland, to purchase more land for agriculture. 
We grow our own feed for our feeding program for our animals. 
We feed other animals with feed we grow.
    We have actually taken land at a Superfund site and 
converted it to agricultural land. We test the plant life to 
make sure it is not uptaking any heavy metals. We have been 
very successful working with Administrator Scott Pruett and 
Senator Inhofe in turning what was at one time the worst 
Superfund site in the United States to now a site that is 
transforming into an agricultural opportunity.
    We do not want to bring people back to live on that 
Superfund site, but we want to make it productive land. We see 
it as capping and fencing, capping and institutional controls 
as a reduction of the size of our land base but we see if we 
can convert that land to viable agricultural land. That is 
where we want to go.
    A phase that I think would help us from you would be to 
look at the way environmental law works for tribes to be 
treated as a State under the Clean Water Act and the Clean Air 
Act. I have had a conversation with Secretary Perdue about 
that. We would like to pursue that conversation.
    Even at our plant, if we had a Quapaw stamp right next to a 
USDA stamp, that would be movement in the right direction. We 
think it is incumbent upon us as Native people who care for the 
land we live on culturally to be very much a part of turning 
that land into helping people feed themselves.
    Under Title VI, for instance, we supply bison for free to 
our Title VI program which feeds over 600 people a day and most 
are non-tribal members, so they can concentrate on other parts 
of the plate than protein.
    It saves their budget tremendously because we donate bison 
to the program. We have 400 Meels on Wheels a day and about 200 
sit-down meals a day. It is interesting that the elderly people 
now prefer bison over beef. They are converted now because of 
the health benefits of the bison itself.
    It is a good program and we would like to share those other 
programs with other tribes. We have made comments that we will 
submit for the Farm Bill and look forward to Secretary Perdue 
coming to see our USDA-inspected beef and bison facility on 
trust land.
    We want to continue to help your Committee in any way we 
can to help promote and ensure that Native Americans can be 
very much a part of doing good things and feeding people for 
this Country.
    If you have any questions, I would be happy to answer them.
    [The prepared statement of Mr. Berrey follows:]

 Prepared Statement of Hon. John L. Berrey, Chairman, Quapaw Tribe of 
                                Oklahoma
Introduction
    Good afternoon Chairman Hoeven, Vice Chairman Udall and members of 
the Committee. My name is John Berrey and I am the Chairman of the 
Quapaw Tribe of Oklahoma (O-Gah-Pah).
    I appreciate the opportunity to appear before you today to talk 
about agriculture and my Tribe's activities in these fields. This 
hearing is very timely and particularly important given the 
reauthorization of the Farm Bill this year.
Background on the Quapaw Tribe
    The Quapaw Tribe is a federally-recognized Indian tribe with a 
mature, sophisticated government providing a full menu of programs and 
services to its tribal members as well as to surrounding communities.
    The Tribe has also demonstrated the kind of strategic vision and 
business savvy that has generated employment and incomes for tribal 
members and others, and has put the Tribe on a path to real economic 
self-sufficiency undreamed of in years past. In addition to a world-
class gaming facility and accompanying resort, the Tribe has launched a 
USDA-certified, tribally-owned bison and cattle operation to grow, 
process and market Quapaw products both domestically and, shortly, in 
the international markets.
A Brief History of the Downstream People
    Historically, the Tribe was located in the American southeast, and 
our name --``O-Gah-Pah''--(anglicized as ``Quapaw'') means the ``people 
who went downstream'' or the ``Downstream People.'' The Tribe's 
homeland for many centuries was near the confluence of the Mississippi 
and Arkansas Rivers in present-day State of Arkansas.
    Not satisfied with its earlier removal and other actions vis a vis 
the Quapaw people, the United States removed the Quapaw, this time to a 
location along the present-day Oklahoma-Kansas border, where the Quapaw 
have resided ever since. Under the Treaty of May 13, 1833, the United 
States set aside a reservation for the Tribe, consisting of 150 
sections of land west of the Missouri state line, largely located 
within present-day Oklahoma, but with some twelve sections of land in 
present-day Kansas, which became known as the ``Quapaw Strip.''
    Following removal, the Tribe faced new hardships and mistreatment. 
The Quapaw resettled themselves, only to have the federal government 
discover a ``survey error'' and force many of them to move again. This 
time, many Quapaws left the reservation, some settling in Kansas and 
others in present-day central Oklahoma, while others fled to Texas. At 
the outset of the American Civil War, the United States withdrew the 
federal troops protecting the tribe, and the reservation--located in a 
crossroads--became a lawless place.
    At the end of the Civil War, the reservation was devastated, and 
the Quapaws were also unfairly accused of siding with the Confederate 
States of America. Under the Treaty of February 23, 1867, the Tribe 
sold to the United States most of the tribal land within the Quapaw 
Strip. Under the same treaty, the Tribe also sold approximately 18,500 
acres in the western part of the reservation to the United States for 
use by another tribe.
    As a result of these forced relocations and treaties with the 
federal government, the Tribe's present-day reservation consists of 
approximately 92 square miles.
The Quapaw Tribe's Long Road to Self-Determination
    Indian tribes are not only culturally and ethnically unique, they 
are functioning governments. Through the first half of the 20th 
century, the Tribe's leadership attempted to avoid increasing federal 
involvement. In 1956, the federal government forced the Tribe to re-
organize as a condition to payment of its claim representing the loss 
of its land in Arkansas. Since then, the Tribe has been governed 
pursuant to the ``Resolution Delegating Authority to the Quapaw Tribal 
Business Committee to Speak and Act in Behalf of the Quapaw Tribe of 
Indians,'' its primary organic document.
    Beginning in the late 1960s, federal Indian policy changed and 
began to encourage and support Indian self-determination and self-
governance. In view of its lack of resources and capital, however, the 
Tribe's return to self-governance after more than 150 years of federal 
domination was a long and slow path.
    A decade ago, in addition to focusing on generating revenues to 
fund tribally-provided services to its members, the Tribe's leadership 
began a legal initiative to regain control of its governmental 
functions. Under federal law, tribes that meet certain basic criteria 
have the right to withdraw from federal management the control of their 
basic governmental functions, including law enforcement, courts, 
probate, realty, trust services, and others.
    I very much believe that the vast array of programs and services 
offered by the USDA can and should be made available for tribal 
management through the Indian Self-Determination and Education 
Assistance Act (Pub.L.93-638) or similar legal authority. I can assure 
you that my Tribe would take every advantage of such an opportunity.
    The larger structural barrier Indian tribes have in getting 
meaningful access to the USDA programs is the fact that the agency has 
settled on a state-centric method of operation. Despite good efforts by 
some in the past, this has led to the agency's unfamiliarity with and 
reluctance to engage with Indian tribes on par with the states. On this 
score, I have met personally with Secretary Perdue and we have 
discussed ways to foster better federal-tribal collaboration.
The Quapaw Tribe Today
    The Tribe has succeeded in developing its Downstream Casino Resort, 
which is one of many initiatives in the last decade to develop a 
revenue stream to fund tribal governmental services. With the resort 
and other enterprises, the Tribe has begun funding governmental 
functions that are providing an unprecedented level of services to its 
members. The Tribe operates or provides:

  <bullet> Law enforcement services;

  <bullet> A Fire and Emergency Medical Services Department, which was 
        one of the vital first-responders after the 2011 Joplin 
        tornado;

  <bullet> Tribal courts;

  <bullet> A water utility;

  <bullet> A tribal library;

  <bullet> A tribal cultural center and museum;

  <bullet> Modern day care centers, which serve tribal and surrounding 
        families;

  <bullet> A tribal wellness center; and

  <bullet> The Quapaw Counseling Services, which offers free and for-
        profit substance abuse programs and other forms of treatment.

    The Tribe also owns and operates commercial enterprises, including

  <bullet> Downstream Casino Resort. including the Downstream Q Store;

  <bullet> Eagle Creek Golf Club;

  <bullet> Quapaw Services Authority, a construction business;

  <bullet> Saracen Solutions, LLC, a tribally chartered company 
        developing federal contracting opportunities.

    The Tribe, which provided less than 50 jobs in 2002, has become one 
of the largest employers in the Tri-State area, with the result that it 
is offering jobs to many tribal members as well as to members of the 
surrounding community. With its revenues, the Tribe funds not only 
basic governmental services, but also provides health insurance to all 
of its some 4,500 enrolled members, and which includes life insurance 
and death benefits. This, and other services and benefits, have 
markedly begun improving the quality of the lives of tribal members.
The Quapaw Tribe's Agricultural Activities
    The Tribe is very active in the fields of agriculture and 
agribusiness. We operate a substantial nutrition program for our tribal 
members, focused on traditional foods and healthy lifestyles.
The Quapaw Tribe's Beef and Bison Processing Plant
    In September 2017, the Tribe opened its $5 million, 25,000 square-
feet Quapaw Processing Plant--the nation's first USDA-inspected 
processing plant owned and operated by an Indian tribe.
    The meat processing facility is part of the Tribe's agricultural 
programs aimed at community and economic development for the tribe and 
the surrounding communities. The new plant, equipment, and feed lot 
were funded through a combination of federal grants and tribal 
contributions.
    Because the Tribe is located in an agriculture-heavy region, the 
Tribe is intent on building an agriculture-based economy to support 
local businesses and feed local people.
    The Quapaw now have over 5,000 acres of cattle grazing land, by 
next year 2,000 acres of row crops.
    The processing plant is both an outlet for our own bison and beef 
products, but also an opportunity to take other peoples' product and 
process it. The plant includes processing equipment, smokers, a test 
kitchen, packaging rooms, coolers that hold 200 head, a quality control 
office, as well as a USDA inspector's office and a training area. 
Currently employing nine, once at full capacity it will employ up to 30 
people.
    Once the Tribe developed herds of top quality, genetic-registered 
Black Angus cattle and bison, it was only logical to build the plant to 
process meat from tribal herds and others. The Tribe uses most of the 
meat in its restaurants and but also sells beef and bison products 
through the tribe's Quapaw Cattle Company and at a store located in the 
town of Quapaw.
    The plant serves these objectives, but also collaborates with the 
University of Arkansas, Oklahoma State University, Missouri State 
University and Northeastern Oklahoma University as a training facility 
for their agricultural departments.
    The Tribe continues to work closely with Ms. Janie Hipp, the 
University of Arkansas's director of Indigenous Food and Agriculture 
Initiative. She has been an advocate for Indian agriculture for many 
years and helped with the processing plant and other projects.
Conclusion
    Improving tribal access to USDA programs is a noble and worthy goal 
of this committee. But what is upon us is even more significant: the 
reauthorization of the Farm Bill this year presents a rare opportunity 
to restructure the federal-tribal relationship when it comes to USDA 
programs and services.
    In an appendix to this prepared statement, I have included a number 
of capital and credit-related proposals for the committee's 
consideration. At this point I would be happy to answer any questions 
you might have.

       Appendix--No Cost Proposals Related to Credit and Capital
    Included in the June 2017 report entitled ``Regaining Our Future: 
An Assessment of Risks and Opportunities for Native Communities in the 
2018 Farm Bill,'' prepared by Janie Hipp and Colby Duren of the 
Indigenous Food and Agriculture Initiative, are many thoughtful and 
business-minded proposals for legislative and policy changes to aid 
Indian tribes take better advantage of agribusiness opportunities. 
These include the following:
    Structuring Loans to Suit the Business. For example, currently the 
FSA will lend 100 percent the cost of bred livestock. It will then 
subordinate its lien position to a local commercial lender for annual 
production costs, increasing the amount of debt secured by the same 
amount of assets, sometimes by as much as 25 percent. If the first year 
of operating expenses could be included in the original loan, and 
amortized over the life of the secured asset, producers would end the 
year with cash in the bank, allowing producers to take advantage of 
pricing opportunities on input materials, replacement stock, or 
expansion opportunities. Such an approach would incentivize operating 
from available resources, instead of what could be borrowed on an 
annual basis.
    Debt Restructuring for FSA Planning Prices. When commodity price 
cycles run contrary to the mandated FSA Planning Prices, despite a 
producer's inclination to plan conservatively, producers are often 
faced with choice of accepting a plan based on those planning prices or 
shutting down their operation. In cases that FSA planning prices are 
more than 20 percent higher than the actual prices, a producer should 
be able to restructure their debt in a way that will not count towards 
lifetime limits on loan servicing.
    Socially Disadvantaged Interest Rates. By updating the Socially 
Disadvantaged Rate (SDR) interest rate for FSA loans from a static 
number (currently 5 percent) to be indexed to the prevailing rate and 
set a commensurate proportion of that rate, 50 percent of the standard 
rate. The current rate was set years ago when the prevailing interest 
rate was in the double digits.
    FSA Food Loan Authority. Under current program guidelines, there is 
some latitude for producers whose production will take a period to 
fully ramp up. Initial payments can be made at an 18-month mark rather 
than within the first year. This same methodology should be employed 
for producers wishing to take their raw product to the next step in the 
value chain.
    Remove the FSA Program Graduation Requirement. Due to the general 
lack of credit availability on and near Indian reservations, it is 
difficult to access viable credit rates for even experienced producers 
operating farms and ranches on trust lands. Removing the statutory 
requirement for producers on Indian reservations to have graduated from 
FSA programs would allow agriculture operations to be more stable and 
assist other producers who farm and ranch in areas where credit access 
is tenuous at best.
    Remove the FSA Requirement for Private Credit Denials. The lack of 
private lending available in Indian Country renders this requirement 
onerous and unduly burdensome, and it can be overcome by exempting 
tribal producers from the FSA requirement of obtaining three denial 
letters from private credit sources in order to participate in an FSA 
loan program.
    Create a Commonly-used Definition of ``Land Owned by Indian 
Tribes.'' Currently, there is no common definition of ``land owned by 
Indian Tribes'' across all USDA programs, creating inconsistent program 
access even within programs run by a single agency.
    GAO Study and Report on Credit and Access to Capital. In 2001 the 
U.S. Treasury's CDFI Fund issued its ``Native American Lending Study'' 
which identified a lot of barriers to credit access and capital 
accumulation. The GAO, or similarly equipped entity, should revisit and 
update the 2001 study and report into the nature of credit in Indian 
Country, specifically examining compliance with the Community 
Reinvestment Act by banks on and near Indian reservations.

    The Chairman. Thank you, Chairman Berrey.
    Ms. Hipp.

 STATEMENT OF JANIE SIMMS HIPP, DIRECTOR, INDIGENOUS FOOD AND 
  AGRICULTURE INITIATIVE, UNIVERSITY OF ARKANSAS SCHOOL OF LAW

    Ms. Hipp. Thank you, Chairman Hoeven and Vice Chairman 
Udall. It is a pleasure to be here with all of the members 
today.
    I am here today in my personal capacity and I have comments 
I hope will be made a part of the record. My opinions and 
insights today are going to be based on 30-plus years in the 
area of agriculture and food law and Indian law.
    I may hold the medal for having been in this space the 
longest but also my thoughts today are going to be informed 
also by my time in the Bush Administration as a national 
program leader at NIFA at USDA but also in the Obama 
Administration as a senior advisor to Secretary Vilsack for 
tribal relations for the department and the director of the 
Office of Tribal Relations.
    We work, at our Initiative, across all tribes across the 
Country on all matters related to tribal governments, economic 
development related to food and agriculture and, beginning 
farmers. Thank you, Diane, for mentioning beginning farmers. 
They are very important in our hearts. We also work on 
strategic planning on anything that a tribe, tribal leader or 
tribal food business picks up the phone and calls us to ask.
    I cannot imagine anything I do not having the Intertribal 
Agriculture Council there with me at our elbow as a partner. It 
is very important that organization continue to be supported by 
USDA and we recognize this is a partnership of all of us, not 
just our initiative or the Intertribal Ag Council, the tribal 
leadership themselves and most importantly, the Native farmers 
and ranchers who are out there on the land every day actually 
getting it done.
    I wanted to also point to a few other things in my written 
testimony. You may know by now that there is a Native Farm Bill 
Coalition that has been stood up. The Shakopee Mdewakanton 
Sioux Community in Minnesota is very active and involved in 
helping that get stood up. Over 30 tribes have passed 
resolutions to be a part of that coalition to have a voice, as 
both of you said earlier.
    I am not going to go over the data. Diane has already done 
that. It is important though to note that scaling up is 
happening everywhere. It is happening with the Alaska Tribes, 
all over the southwest and all over the Great Plains.
    It is not just small producers anymore. It really is tribes 
stepping up and being that significant player we have always 
known we were and now fully are and can be. I think we are just 
beginning to realize the importance of agribusiness in Indian 
Country.
    I will tell you this from my time at USDA. USDA's 
authorities are the most powerful way that tribal governments, 
tribal citizens and Native farmers and ranchers can achieve 
success. The powers and authorities of USDA are critical to 
this conversation.
    We cannot do this just with the powers and authorities of 
the Bureau of Indian Affairs. It is not possible. We have to 
have access that is easier to accomplish with USDA itself. In 
the past, I think USDA could have done a better job.
    I think we are poised right now to have a full partnership 
with USDA and can realize such success that I think our 
ancestors would be stunned. I will tell you also that there are 
a lot of things I could bring up but I will leave it to the 
questions from the Committee to tease out some of those 
specific issues.
    I want to share with you that treatment as a State is 
extremely important to this conversation. Chairman Berrey 
mentioned it. It has not yet happened at USDA and it must 
happen. It must happen not just so the powers of the 
conservation title, the credit title and the commodities title, 
and all those other titles happen but it also needs to happen 
for the nutrition title.
    We have to be able to feed our people. We cannot do that if 
we work through another governmental entity. As Chairman Berrey 
shared with you, tribal governments are best suited to actually 
be able to deliver on the nutritional needs, food access and 
food security needs of our people.
    In closing, I would give a shout out to all of the Native 
youth who I know are tuning in today because we could not do 
any of this without them. We need their leadership. We are 
going to be pushing them forward to step into these spaces.
    I can tell you right now from our work with Native youth, 
they are ready, willing and smart as a tack. They can get this 
accomplished but we need your help to actually bring life to 
the amendments, powers and authorities that are going to be the 
key that unlocks the door.
    Thank you.
    [The prepared statement of Ms. Hipp follows:]

 Prepared Statement of Janie Simms Hipp, Director, Indigenous Food and 
      Agriculture Initiative, University of Arkansas School of Law
Introduction
    Chairman Hoeven, Vice-Chairman, and members of the Committee, my 
name is Janie Simms Hipp, and I am a citizen of the Chickasaw Nation 
and Director of the Indigenous Food and Agriculture Initiative at the 
University of Arkansas School of Law. I am appearing today solely in my 
personal capacity. My university affiliation is provided for 
identification purposes only; the views expressed are my own and not 
those of the institution where I am employed.
    I would like to thank the Committee for asking me to testify today 
on the very important topics of agriculture, agribusiness, and the Farm 
Bill. Agribusiness is and has always been important to Indian Country, 
but we must recalibrate these critical U.S. Department of Agriculture 
(USDA) programs so that we can capitalize on current successes in 
Indian Country agriculture and agribusiness and ensure these successes 
continue into the future and are scaled up in new Tribal communities 
throughout Indian Country. Guiding my work at the Initiative on a daily 
basis is the need to feed the people who live in our most rural and 
remote places, create jobs, and stabilize economies for Native people 
who we all know have deep connections to the land on which they live, 
to farming and ranching, and to the foods they produce every day. In 
addition, Tribal governments and Tribal communities have always been 
and are continuing to rise in importance as the providers of essential 
governmental services in countless rural, remote, and isolated 
communities throughout the United States.
    I am here to provide practical insights based on my almost 35 years 
of working as an agriculture lawyer in Indian Country, a lawyer and 
policy advisor in the broader food and agriculture sector, as a former 
national program leader at the USDA National Institute of Food and 
Agriculture, and as a Senior Advisor to Secretary Tom Vilsack and 
former Director of the Office of Tribal Relations at USDA. In my career 
as an ag lawyer, I have found that, as most of us here know, food and 
agriculture is a bipartisan issue. Today, I want to talk about creating 
job opportunities and contributing to greater food security for people 
all across Indian Country.
    Thanks to data collected by the USDA and the National Agricultural 
Statistics Service (NASS) for the Census of Agriculture every five 
years, we have a glimpse of what we know exists today. Their work in 
researching, gathering, and compiling data in Indian Country 
agriculture has been improving every year, but they will readily tell 
you that they inherited a census process that was fundamentally flawed. 
They have diligently focused on improving Indian Country ag data. In 
the 2012 Census of Agriculture, NASS counted over 56,000 American 
Indian and Alaska Native Farmers and Ranchers, working on more than 57 
million acres of land, with a market value of products producing 
reaching over $3.3 billion--including $1.4 billion in crops and $1.8 
billion in livestock and poultry. \1\ If you talk to experts in this 
area, like Ross Racine and Zach Ducheneaux at the Intertribal 
Agriculture Council, you will know that the data is undercounted by 
half, as is also acknowledged by NASS itself. What the data also 
reveals is that Indian Country operations are twice the size of non-
Native operations but with half the income and involvement in federal 
farm security programs.
---------------------------------------------------------------------------
    \1\ The U.S. Department of Agriculture, National Agriculture 
Statistics Service, 2012 Census of Agriculture.
---------------------------------------------------------------------------
    These numbers tell us that with the proper focus that whole arena 
of food and agriculture could be a huge economic driver for Tribes, the 
entirety of Indian Country, and the rural communities in which their 
communities are found. It could equal the revenue generated by gaming 
at some point and provide opportunities for Tribes that will never 
benefit from gaming because of their location and isolation. Further, 
if properly calibrated and approached with a practical plan with 
realistic deadlines and unique approaches, it is possible to lower the 
number of people who participate in federal food assistance programs as 
they would be feeding themselves and food secure and self-sufficient, 
through jobs in communities that are land-based, resource rich, and 
meeting opportunities in a food sector that is hungry for connecting 
with the producers of their food. The whole world is feeling 
disconnected from their farmers and their food. Indian Country, as much 
any one, has a unique role to tell stories around the food it produces 
and has produced for millennia and has a unique ability to help feed 
people in our communities as well as around the world.
    There are a number of opportunities in the Farm Bill and at USDA 
where programs or authorities can be strengthened or expanded to 
support Native farmers and ranchers. A full list can be found in the 
Regaining Our Future: An Assessment of Risks and Opportunities for 
Native Communities in the 2018 Farm Bill report, a report drafted with 
the support of the Shakopee Mdewakanton Sioux Community, and in 
partnership with the Intertribal Agriculture Council, National Congress 
of American Indians, and the Intertribal Timber Council. That report is 
attached to my testimony along with one-page summaries of the 
opportunities discussed within the report.
    I would like to focus my testimony on several key provisions and 
themes which could have the greatest impact to support and grow 
agriculture and agribusiness in Indian Country if implemented in the 
2018 Farm Bill reauthorization.
Treatment as a State for Tribal Governments and Recognition of Tribal 
        Departments of Agriculture
    One of the largest steps that can be taken in the 2018 Farm Bill is 
for Congress to permanently recognize the role Tribal governments and 
Tribal Departments of Agriculture have in furthering agriculture on par 
with State governments and State Departments of Agriculture. Tribal 
Departments charged with administration of agriculture and food systems 
must have the authority to interface with all agencies within USDA and 
the Office of Intergovernmental Affairs at USDA and with other offices 
of the federal government. This would include full treatment as a state 
for Tribal governments thus recognizing their Tribal laws, authority, 
and jurisdiction.
    The simple act of including ``Tribal governments'' in the existing 
intergovernmental approaches through which many of the USDA programs 
are delivered will not only create parity and acknowledge Tribal 
government's sovereignty and importance, but will work to help expand 
the reach of programs, create jobs, and build more food businesses in 
Indian Country. Many Tribes are taking steps to create ``Tribal 
Departments of Food and Agriculture'' within their tribal governments. 
These departmental offices at the Tribal level must be incorporated 
into the existing intergovernmental relationships honored for decades 
by USDA. Most USDA programs have not begun to be seriously utilized by 
Tribes because, for the most part, we are invisible in those relevant 
Farm Bill sections authorizing the programs. But we need to and can act 
now to change that. Tribal governments are in the process of adopting 
complete food and agriculture laws and regulations, just as their state 
and local counterparts have adopted. As an agriculture lawyer, I can 
share with the committee that this is an important step which must be 
taken as agriculture and food (and health law for that matter) hinges 
on state and local regulatory interface. If those pieces are missing at 
the Tribal government level, then things are disjointed and confusing, 
not just for Tribal communities but for those residing close by or 
those with whom Tribal governments already interact for purposes of 
buying food, engaging in joint agriculture enterprises, or planning for 
food safety, animal health, plant health, and related functions of 
government.
    Treatment as a State and supporting Tribal Departments of Food and 
Agriculture are important ways to place ourselves squarely in an 
intergovernmental position vis- . . . -vis the USDA. It is equally 
important as these steps realize the existing trust and treaty 
obligations, which are still relevant today, and which are necessary to 
stabilize Tribal communities and accelerate the ability of Tribes to 
meet their economic, food, infrastructure, and health needs. We need to 
cut out the inefficiencies, but not the trust and treaty relationship.
Tribal Government Management of All Nutrition and Food Assistance 
        Programs
    Simply put, Tribal governments need to directly manage all federal 
nutrition and food assistance programs, especially the Supplemental 
Nutrition Assistance Program (SNAP). Tribal governments know where the 
hungry people are in their communities, they know the resources they 
have to feed those people, they know the venues to feed people in, and 
they know their challenges of their disabled, elders, and single 
parents. Tribes know whether they have grocery stores, convenience 
stores, or any food retail outlets. Tribes also know who needs food in 
emergencies and disasters, both within their own Tribal communities and 
the broader rural communities as well.
    Tribal citizens have high usage rates of all federal feeding and 
nutrition programs. In some rural and remote reservation communities, 
25 percent of all community citizens are taking part in the feeding 
programs, and in other communities those numbers can climb as high as 
60 to 80 percent. These participation rates remain high because of the 
relative unemployment rates of individuals in the communities that are 
directly caused by the lack of meaningful employment opportunities, 
poor transportation options to not only jobs but to food sources or 
food retail, the age and population characteristics of the individuals 
in the communities, and the prevalence of chronic health problems, 
among other issues. Because the rate of obesity, diabetes, chronic 
heart diseases, cancer, and rated health problems is so high in so many 
communities in Indian Country, participation rates in the feeding 
programs when coupled with the prevalence of persistent poverty create 
a fragile system of food security and food access across Indian 
Country. Yet, most of these feeding program participants live on the 
lands that could feed them yet those lands are used to grow foods that 
must either be made into some other food item or are destined for far 
away markets. Calibrating this equation to address food security while 
not ignoring the market is critical; it can't be done overnight but it 
can be done in much more efficient and effective ways that ensure 
people can feed themselves and also engage in a meaningful career.
    A consistent, comprehensive, and Tribal government-led approach 
that is tailored to the needs of Indian Country is paramount. Linking 
or ``coupling'' the feeding programs to the food production 4 that 
occurs on Tribal lands will do two things simultaneously. First, it 
will ensure that over time (conceivably less than two decades) the use 
of feeding programs in Indian Country will precipitously decline and in 
some regions, could disappear altogether. Second, it will ensure that 
food produced on Indian lands are focused on three simultaneous goals: 
(1) retaining enough food products that Tribal citizens will be fed by 
food produced locally or regionally; (2) ensuring that fresher foods 
are available to Tribal citizens needing access to feeding programs; 
and (3) ensuring the stabilization of food businesses because the foods 
are being used to feed people who lack food access and, at the same 
time, offering a consistent, albeit federal, market and anchor contract 
that gives food producers the economic stability to confidently access 
additional markets off tribal lands.
    However, key and vexing issues remain that are critical to the 
future of the feeding programs and how those programs are delivered to 
or serve Indian Country citizens and these must be addressed in the 
2018 Farm Bill.
    In a report authorized by the 2014 Farm Bill, USDA reviewed the 
feasibility of Tribal administration of federal food assistance 
programs. Nearly all Tribes participating and more than 90 percent of 
all respondents expressed interest in administering federal nutrition 
assistance programs as an expression of sovereignty and to provide 
direct service to Tribal citizens in need of assistance. These 
respondents felt the ability to provide flexibility in the management 
of nutritional quality of the food provided and culturally appropriate 
programming and service delivery were also critical.
    While there are many additional infrastructure needs identified to 
achieve these interrelated goals, the report states that USDA, and its 
Food and Nutrition Service (FNS), does not have the requisite ``638- 
like authority'' that explicitly provides Congressional support for 
executing contracts between federal agencies and Tribes to coordinate 
the management of specific federal programs. This can be achieved by 
introducing legislative language modeled after the Indian Self-
Determination and Education Assistance Act, Pub. L. No. 93-638, as 
amended, or by providing treatment as a state for Tribes to manage 
these programs within the context of the Farm Bill.
    Further, we must continue the model of Tribal consultation that has 
existed since 2014 between the FNS at USDA and Tribal elected officials 
regarding the Food Distribution Program on Indian Reservations (FDPIR). 
Our team has assisted this consultation work since its inception. What 
we have found, in what has been the only standing consultation activity 
between USDA and elected Tribal leadership, is that we can work 
together to address many of the systemic issues with these programs. 
This working consultation group has systematically tackled many long-
standing problems in the FDPIR program. We have seen that such 
successes are also possible for every single title and agency within 
USDA structure. Let's get people in the room talking to each other 
about how to make these programs better, because there are 
opportunities all across the titles of the Farm Bill and all across 
USDA agencies to do so and those opportunities have not been 
systematically pursued except in isolated ways. We know the importance 
of consultation because we have seen it. It has solved longstanding 
problems in the FDPIR but also shown USDA the power of actually getting 
Tribal governments in the room to problem-solve in a deeper and more 
meaningful way.
    However, Tribal governments must directly manage all the nutrition 
and feeding programs, because they are best able to ensure that food 
security needs in their reservation, rural, and very remote communities 
are met and they are more capable of directly linking agribusiness food 
production to the long-term vision of getting people off feeding 
program participation and into the local job market, which in many 
multitude of locations around Indian Country can and should have as its 
centerpiece a strong and viable agribusiness approach. For Tribal 
governments, you have to marry the food security needs of the people 
with food job opportunities at the Tribal level so that you can better 
calibrate food security and economic diversification in Indian Country.
Improve Credit Access in Indian Country and Support Authority for Farm 
        Service Agency and the Farm Credit System
    Due to the capital-intense nature of farming and ranching and 
agribusiness in general, the many titles have long been important parts 
of the Farm Bill: credit, commodity, conservation, crop insurance. 
Farming, ranching, and agribusiness are high-risk enterprises. Good 
times for agriculture can very quickly be followed by bad times. 
Agribusiness activities are linked to production systems that are risky 
and which have unique regulatory requirements and challenges. Having 
access to a lending entity willing to understand these financial 
realities is critical. During turbulent times, Indian Country is always 
hit as hard or harder than most other areas of the country because of 
the remote and isolated nature of our farms, ranches, and 
agribusinesses and the reality that in most reservation communities a 
``credit desert'' exists alongside food deserts.
    First, our important partners in lending in rural areas, like those 
in the Farm Credit System (FCS), must have no questions concerning 
their authority to lend to Indian Country agribusinesses and Tribal 
governments. Making sure that Tribal governments, tribal producers, and 
groups of producers, who often organize their business engagement in 
ways not required of non-Tribal entities and governments (because of 
unique issues associated with federal Indian law) are clearing entities 
to borrow under FCS laws and regulations is important. Due to the 
nature of landholding and land ownership in Indian Country, which is a 
matter controlled by federal law, some clarification of this 
requirement is in order to help provide certainty for the FCS in 
lending in Indian Country.
    Additionally, the improvements the Farm Service Agency (FSA) has 
made in the extension of credit to farmers and ranchers in Indian 
Country in the post-Keepseagle era must continue, but separate programs 
that allow for unique training and technical assistance concerning 
financial issues and loan servicing for tribal producers must be 
included in future Farm Bills. Access to credit through FSA and Rural 
Development must not be hampered by outdated program rules that do not 
match our credit needs. Further, we must make sure that the program 
officers at RD and FSA have deep awareness of the way in which Tribal 
governments, Tribal agribusinesses, and Tribal producers do business, 
and ensure they are not constrained by an additional regulatory burden, 
and are not shut out of lending opportunities available to all other 
types of producers.
    Many smaller producers who are not yet ready for FSA or FCS lending 
relationships utilize the services of smaller retail banking entities 
at the local level, community development financial institutions (or 
CDFIs), credit unions, or other means of acquiring needed capital. 
Native CDFIs must be included in all FSA and Rural Development lending 
authorities in order to leverage access to credit for Indian Country 
producers and Tribal governments. Ensuring that Native-owned banks can 
easily interface with FSA, RD, and FCS lending institutions on 
agribusiness and agriculture infrastructure business opportunities is 
also important.
Improving Interdepartmental Coordination with USDA and the 
        Department of the Interior--Bureau of Indian Affairs
    In this Farm Bill and through the work of this Committee, we must 
improve the efficiency and effectiveness of how Tribal governments and 
Tribal producers are served by improving the coordination between USDA 
and the Department of the Interior-Bureau of Indian Affairs/Office of 
the Special Trustee or its successors. This will ensure that meaningful 
assistance is provided by those who have deep familiarity with Tribal 
governments, Tribal law, Native communities, and the challenges unique 
to us. We cannot expect people who have no knowledge of agriculture to 
manage agriculture; we also cannot expect people who have no knowledge 
of Indian law to manage Tribal programs. Everyone at both Departments 
need to forge new interdepartmental relationships and rely on each 
other to serve Tribal governments, Tribal communities, and individuals 
in better ways.
    This can be achieved by authorizing the Secretaries of Agriculture 
and Interior to develop a technical committee made up of Tribal 
government representatives from each of the BIA regions to formulate a 
set of initiatives and programs that can be carried out under existing 
laws as well as a set of programs that may be needed under future 
conservation program authorities to improve the conditions of Tribal 
lands and individual Indian-owned lands throughout the United States. 
Other topic areas could be included. This needs to be a working 
committee, not a committee that comes together to meet for an hour 
every quarter and say they did something. When I was at USDA we had an 
informal gathering of individuals who were senior enough to identify 
needed improvements and execute on those identified needs. Our work led 
to a provision in the 2014 Farm Bill that did away with duplicate 
appraisals--something that had been in existence for far too long that 
was more time-consuming and more expensive for Tribal producers than 
anyone else in the U.S. But that ``fix'' is just one of many.
    Establishing this type of committee will be able to work through 
the many systemic issues that have faced Native farmers and ranchers, 
such as issues with appraisals and mortgage documentation and 
approvals, conservation plans and easements, coordination of 
Agriculture Resources Management Plans under the American Indian 
Agricultural Resource Management Act of 1993 with NRCS, U.S. Forest 
Service, or other agencies' plans for access to conservation programs 
like the Environmental Quality Incentives Program (EQIP), and many 
others.
Ensure the Commodity, Conservation, and Crop Insurance Farm Bill Titles 
        Support Indian Country and Native Producers
    The Commodity, Conservation, and Crop Insurance Titles of the Farm 
Bill all work together to provide not only farm security for producers, 
they also support the health of our lands that will continue to provide 
food for the world and our communities. The programs in these titles 
must be improved to take into consideration the unique jurisdictional 
and agribusiness/product needs of Tribal governments and Tribal 
producers.
    First and foremost, many Tribal governments and Tribal farming, 
ranching, and food businesses are already engaged in producing covered 
commodity crops of wheat, corn, soybeans, and are deeply engaged in 
livestock operations impacted by the Commodity Title. We must ensure 
equitable access to these programs for Tribal producers, including 
making sure that federal or Tribally chartered corporations, especially 
those created under Tribal law or Section 17/Section 3, are 
acknowledged as eligible for Title I disaster assistance programs. 
Further, the definition of ``livestock'' must be amended to include 
commonly raised livestock like ``reindeer,'' ``caribou,'' ``elk,'' 
``horses,'' or other animals raised or harvested in Tribal communities. 
All of these animals must be recognized as livestock and eligible for 
full protection and program participation Department-wide. 
Additionally, due to the lack of fair and reasonable access to credit, 
and redlining by lenders, Native producers do not have the ability to 
use their land as collateral to secure financing.
    Since the Conservation Title programs are often the gateway to 
participate in other USDA programs, it is vital that Tribal governments 
and producers are provided with parity through all of the program 
authorities and funding. All sections of the Conservation Title must 
recognize that Tribal governments, Tribal producers, and Tribal 
entities or organizations created for conservation and natural resource 
protection purposes have full access to every program. Wherever there 
is a reference to ``state'' or ``local'' or ``regional'' agricultural 
producer, the terms ``tribal'' should be inserted into that section to 
ensure that any inadvertent failure to list Tribal governments, Tribal 
producers, or Tribal organizations does not preclude them from 
participating or relegate them to a lesser importance or priority 
within the relevant section. This also includes making sure any 
reference to ``state law'' in the Conservation Title says ``state law 
or tribal law'' to acknowledge the conservation laws and codes our 
Tribal governments pass and enforce each day with regard to the lands 
over which they have jurisdiction.
    Crop insurance is an important tool of risk management and the 
products in place now must be examined to ensure they are suitable for 
Tribal food production systems. The Risk Management Agency (RMA) must 
conduct a study to ascertain the efficacy and applicability of the 
current crop insurance products as they relate to Indian Country 
agriculture production. If that study reveals that either the specific 
crop insurance products or the general guidance documents of RMA do not 
adequately consider unique tribal production issues, a separate 
administrative guidance or notice should be issued by RMA to solve 
these concerns, and unique crop insurance products and crop insurance 
administration systems should be pursued. Regardless, the goal should 
be to make sure that crop insurance products are utilized more fully in 
Indian Country and that there are no inadvertent barriers to such 
usage. USDA must engage Native-owned insurance companies and Native 
CDFIs and other entities to encourage the offering of crop insurance 
products in Indian Country. The current crop insurance research, 
product development, and policy sales areas are not developed for, and 
do not adequately reach, Tribal producers. That isn't to say that 
Tribes don't purchase and maintain crop insurance; they do. But 
improvements can be achieved.
Apply the Substantially Underserved Trust Area designation to all Rural 
        Development and USDA Funding Authorities
    The Substantially Underserved Trust Area (SUTA) designation 
authorized by the 2008 Farm Bill helps USDA's Rural Utility Service 
(RUS) offer low interest rates, waive non-duplication, matching, and 
credit support requirements; extend loan repayment terms; and provide 
the highest funding priority for SUTA projects. Currently, SUTA is only 
applied to a small segment of infrastructure programs, but more 
explicit instruction must be provided to allow the Secretary to 
exercise this discretion more broadly.
    This change will help ensure more equitable access to Rural 
Development (RD) programs and authorities in these substantially 
underserved areas, and can be used to provide much-needed support to 
Tribal citizens living in rural communities. The change would, among 
other things, allow the waiver of matching requirements for projects 
funded through RD, which can be a significant barrier to applicant 
participation in RD business and infrastructure projects where 
remoteness and related lack of tax base is a problem. In the 
determination of eligibility and repayment ability, local school 
district social demographics should be utilized instead of county-wide 
data. A broader application of SUTA will recognize the unique and 
essential Tribal infrastructure needs and will help build rural 
America, as many tribal governments are the backbone of the rural 
infrastructure now and those trends appear to be unrelenting.
Equal Access to Research, Education, and Extension Funding for Tribal 
        Colleges and Universities and the Federally Recognized Tribes 
        Extension Program
    All entities working within research, extension, and education in 
Indian Country, including Tribal Colleges and Universities (TCUs) and 
the Federally Recognized Tribes Extension Program (FRTEP) must have the 
same access to research, education, and extension funding as all other 
entities. Further, FRTEP must maintain its unique program authorities 
and be protected from over-subscription by those who have access to 
other program funding like the 1862, 1890, and 1994 land-grant 
institutions and TCUs. FRTEP was created by Congress to address the 
needs of those Tribes not served by Tribal colleges. The extension 
funding for TCUs is very low and the FRTEP funding is very low. 
Entities serving Indian Country must be entitled to the same level of 
eligibility and access to NIFA funding as any other entity.
    Agriculture research, education, and extension programs are 
critical to our food, health, and selfsufficiency. According to the 
latest USDA Agriculture Census, there are only 2 million farmers or 
ranchers in the United States. Agriculture research is important 
because it monitors and explores old and new knowledge regarding plant 
and animal health, explores the impact of science to solve food 
problems, tackles societal issues related to health, and ensures our 
food supplies are sound and resilient. The reasons for the initial 
establishment of the land grant research institutions, the original 
extension services, and research stations are as relevant today as they 
were many decades ago. These resources are extremely critical to Indian 
Country.
    Accessing research, building our own research systems within Tribal 
Colleges and Universities, and supporting educational institutions and 
faculty within Tribal communities is essential to stabilizing 
agriculture production and communities. Focusing on the importance of 
traditional knowledge and exploring its use in modern communities is 
best done at Tribal-owned and managed institutions. Extending knowledge 
and research outcomes into communities and onto tribal farms, ranches 
and food businesses is critical to their growth and stabilization.
    Educating the next generation of producers, scientists, technical 
specialists, business managers, engineers, lawyers, and related 
professionals who advise and support the agriculture and food sectors 
is vital and making sure that Native youth aspire to those career paths 
is important to the survival of Tribal communities and to creating 
viable occupations that support food and agriculture sectors in Indian 
Country. We are in an intergenerational shift in agriculture, and 
Indian Country is no different. Our farmers are older and our young 
people are hungry for a meaningful career. They would prefer--the young 
people we see--they want to stay home on their land doing something 
they know and excel at, and have a decent rural economy within which 
they can be the next generation of leaders.
    We must address these issues in a thoughtful and comprehensive 
manner. FRTEP cannot be opened up in such a way that it becomes 
available to institutions with thirty thousand students and billion-
dollar endowment funds. TCUs have a very paltry and totally inadequate 
formula fund for extension services, research. Even with low funding 
levels, TCUs do a lot incredibly well and need to be respected and 
looked at as equals, and fully eligible for all of the funding 
authorities within the Research Title of the Farm Bill and research 
programs at USDA.
    We need more research stations housed within Tribal governments in 
conjunction with TCUs. Why do we not already have that? The Natural 
Resources Conservation Service (NRCS) just put 30 new weather stations 
on reservations, and that's wonderful. What do we do with that? What's 
the next step? What is on the horizon? What do we need to know to have 
full capacity and knowledge rolling out of those weather stations that 
will benefit all of American agriculture?
    Think about the depth of new knowledge we will have just by having 
those weather stations positioned in Indian Country, where they've 
never been before. NRCS, Farm Service Agency, and Risk Management 
Agency programs can be calibrated in a better way because better 
information will be available. The future of agribusiness depends on 
access to markets and information and technology. We need a deeper 
knowledge of the carrying capacity of the land, the sustainable use of 
the land, what the best time to actually access a market is, and what 
can we do to better utilize the water we have access to so we don't 
waste a single drop. All of that is data driven and data dependent. 
TCUs have a huge role to play in that, but so do our FRTEP agents. They 
cannot continue to do it if they are cut off from the funding 
authorities that are available to everyone else.
    I have been at a large flagship land grant university, except when 
I was at USDA, since the early 1990's. I have at my fingertips a 
breadth of knowledge and capacity that, if I was at a smaller 
institution, I may not have. But how do we actually make sure the 
relationships between larger and smaller institutions in the land grant 
system are equitable, balanced, and that people have full access to 
actual resources they need to make those great strides we will continue 
to need.
    We need data. A farmer has better productivity if they have good 
records and data access. Back in the day you could ask a farmer or 
rancher anything but all that data was carried around in their head. 
Now, we can use mobile technology in new ways with a new generation of 
farmers and ranchers, but we must make sure Tribes have access to that 
technology as well. E-connectivity and rural broadband is incredibly 
important for all rural America and for Tribes--that was among the 
first recommendations made to support prosperity for all rural America 
by the USDA Interagency Task Force of Agriculture and Rural Prosperity. 
Their report to the President, which was released last week, noted that 
econnectivity is ``a tool that enables increased productivity for 
farms, factories, forests, mining, and small businesses.'' TCUs and 
FRTEP agents must be a part of the technological revolution in farming 
and ranching and agribusiness growth and be afforded access to improved 
research, education, extension funding.
Interdepartmental Coordination to Support Tribal Trade
    A special interdepartmental coordination group should be seated to 
include USDA, Department of Commerce, Department of State, and other 
applicable agencies to ensure that tribal food production is made a 
part of the U.S. trade missions and efforts to promote US agricultural 
trade. The responsibility for coordination must extend beyond USDA 
Foreign Agriculture Service and other USDA programs to other applicable 
departments and agencies of the federal government such as BIA and 
Commerce so that Tribal businesses have access to promotion programs 
and support that will improve their visibility and viability in foreign 
markets. To that end, IAC's continuation in the important MAP trade 
program must be supported and required. They have over 15 years of 
experience in providing greater market access and export readiness 
training to tribal businesses and that must continue.
Parity in Forestry Service Programs and Authorities
    Many American Indian and Alaska Native Tribes have long-standing 
and deeply spiritual relationships with the forests within which they 
lived for centuries. Their deep engagement with forests of North 
America was fundamentally changed upon European contact when the 
relationships they had with the land, including forests, was severed. 
The U.S. Forest Service now maintains National Forests that coexist 
within and among the boundaries of current and historic Tribal 
homelands. Since many Tribes either live within the jurisdiction of 
federal agencies with forest responsibilities or have trust and treaty 
rights resources located on federal forest lands, the intensely 
specific and expertise-dependent issues around forests require a 
specialized eye towards policy change.
    The 2018 Farm Bill must extend the Good Neighbor Authority to 
include Tribal governments, just as it does to State government as well 
as to specifically include Tribes in the title of the State and Private 
Forestry Program as well as its authorities. Partnering together, in a 
cooperative manner, to manage the nation's forests and Tribal forests 
alongside other governments (state and local) and private landowners is 
critical if we are to help our forestlands recover from wildfire and 
become healthier. This recognition and parity will also ensure that 
tribal agribusiness interests reliant on those forest resources can 
continue to grow to address the unique problems in Native communities 
that no other group of people can, while promoting jobs in the forestry 
sector for Native youth.
Additional Efforts
    The growth of agribusiness in Indian Country and the further 
support of tribal farmers and ranchers also requires simple changes to 
current approaches. For instance, in the implementation of Food Safety 
Modernization Act of 2011 (FSMA), Native training and technical 
assistance must embody a unique approach to training growers and food 
businesses due to the unique jurisdictional and enforcement issues that 
abound in Indian Country. Tribal departments of agriculture are missing 
altogether in the funding being provided to state departments of 
agriculture; yet state and local authorities have no jurisdiction on 
Tribal lands. This should be addressed by including Tribal departments 
of agriculture as eligible for FSMA funding. All producers need 
continued support for understanding these new requirements but the 
current system of providing assistance and training is not calibrated 
to meet these needs. The simple change of ensuring Tribal governments 
can have access to the existing funding resources can address these 
looming issues.
Conclusion
    I would like to again thank the Committee for holding this 
important hearing on ways to continue to grow agriculture and 
agribusiness in Indian Country and inviting me to share my experience 
working with Tribal governments and Tribal food producers and the 
federal government. For too long, our voice in the Farm Bill debate has 
been limited to a few incredible individuals and organizations who have 
carried the water for the past several decades. The next Farm Bill will 
be among the most important in my lifetime, not only for Indian 
Country's future but for addressing the needs of the agriculture and 
food sector, which is changing, and the needs of rural communities 
around the country. Tribal governments must be seen as equal 
governmental partners and additional improvements must be made to 
ensure access to USDA programs and funding authorities.
    By adjusting, developing and improving the Farm Bill's programs, we 
can build upon the already great work happening in Tribal communities 
surrounding food and agriculture. We can improve and expand our 
infrastructure. We can develop our Tribal food systems. We can provide 
the means for our agriculture businesses to thrive. We can continue to 
address and improve the health of our people. We can feed our 
communities in vibrant Native food systems with foods raised and grown 
by Tribal people. But equally important, the country can acknowledge 
the role Tribes have always played in our nation's food security and we 
can now become better partners in food security, food production, and 
the agriculture sector. Improving the Farm Bill for Indian Country will 
help bolster the important work ahead.
        * The Appendix, Charts and Graphs and Regaining Our Future (An 
        Assessment of Risks and Opportunities for Native Communities in 
        the 2018 Farm Bill) attached to this testimony have been 
        retained in the Committee files.*

    The Chairman. Thank you, Ms. Hipp.
    Mr. Haskie.

          STATEMENT OF LIONEL HASKIE, OPERATIONS AND 
           MAINTENANCE MANAGER, NAVAJO AGRICULTURAL 
                       PRODUCTS INDUSTRY

    Mr. Haskie. Thank you, Chairman Hoeven, Vice Chairman Udall 
and members of the Committee.
    My name is Lionel Haskie. I am a professional engineer and 
the Operations Maintenance Manager at the Navajo Agricultural 
Products Industry, NAPI, an enterprise 100 percent owned by the 
Navajo Nation.
    NAPI farms approximately 75,000 acres of crops annually 
with the potential to develop an additional 35,000 acres. We 
employ between 200-500 people, depending on the season. More 
than 90 percent of our workforce is Navajo. We are the largest 
employer in the Navajo Nation.
    NAPI features state-of-the-art, precision agricultural 
equipment, producing an array of crops including alfalfa, corn, 
small grains, potatoes, beans, and even pumpkins which you can 
buy here in Washington. D.C.
    We are proud to be a leader in American agribusiness. We 
have the talent, vision and capacity to continue our growth in 
new and exciting opportunities domestically and 
internationally.
    I would like to highlight a few points from our written 
testimony. In 1962, Congress passed Public Law 87-483 to 
construct an 110,630 acre, irrigated farm called the Navajo 
Indian Irrigation Project. Unfortunately, after 50 years, this 
project has not been completed.
    We would like Congress to appropriate the full amount to 
complete NIIP. We request the appropriations cap be lifted for 
the project and that adequate operations, maintenance and 
replacement funding is appropriated.
    Based on a 2012 economic study, NAPI has lost approximately 
$4 billion in revenue due to delay in project completion. The 
revenue could have been used for business development and 
business expansion. However, waiting on the Federal Government 
has not stopped us from becoming an international agribusiness. 
NAPI participates in the USDA Agricultural Risk Coverage-County 
Program for corn and wheat.
    The program has benefitted corn and wheat production when 
commodity prices were below the county average and is vital to 
supporting employment stability. We would like to see the Price 
Loss Coverage and Agriculture Risk Coverage crop insurance 
programs reauthorized in the 2018 Farm Bill.
    In 2017, NAPI ventured into new markets to help mitigate 
the commodity price volatility. Notably, we began to produce 
organic crops including organic corn, potatoes, winter squash, 
cantaloupe and melons.
    We plan to continue this build out with new organic 
vegetable crops planned for 2018 as the company gains 
experience in the expanding organic product industry. There is 
an inherent risk involved in organic production. The lack of 
registered organic controls can make combating weeds, pests and 
disease costly and unstable.
    Another challenge to beginning a new organic crop is the 
significant financial risk for the first three years. This risk 
would specifically occur for us because crop insurance uses 
three year averages from the region to establish crop coverage.
    Since we are the only entity of our kind in the region, we 
would have to establish our own averages. We would like to work 
with this Committee, the Agriculture Committee and the USDA to 
address this unique situation for development of new crops.
    Another barrier is the wait time for USDA product 
inspections required to obtain organic certification. NAPI 
would like to see increased funding for the New Mexico 
Department of Agriculture through the Organic Certification 
Program so that there is an increase in the number of 
accredited and certified agents in the office.
    We currently participate in several USDA conservation 
programs including EQUIP, the Conservation Stewardship Program, 
and the WaterSmart Program. Each program is vital to NAPI and 
we fully support their reauthorization in the 2018 Farm Bill 
for producers on working agricultural land.
    We collaborate with the Navajo Nation farming communities 
as well by providing technical assistance and marketing our 
goods locally. In addition, we partner with local schools to 
promote careers in agriculture. We would like to see the USDA's 
Farmers' Market and Local Food Promotion Program, Healthy Food 
Financing Initiative, and Community Food Projects reauthorized 
in the 2018 Farm Bill.
    We are proud to serve our local, national and international 
customers with high quality products produced on the Navajo 
Nation. We are proud to be an employer of the Navajo Nation. We 
look forward to continued growth and developing new markets.
    Thank you for providing the opportunity for me to submit 
this statement for the record. I stand ready to answer your 
questions.
    [The prepared statement of Mr. Haskie follows:]

    Prepared Statement of Lionel Haskie, Operations and Maintenance 
             Manager, Navajo Agricultural Products Industry
    Thank you, Chairman Hoeven, Vice Chairman Udall and members of the 
Committee on Indian Affairs for inviting and giving me this opportunity 
to testify today regarding, ``Breaking New Ground in Agribusiness 
Opportunities in Indian Country.'' My name is Lionel Haskie. I am the 
Operations and Maintenance Manager at the Navajo Agriculture Products 
Industry (NAPI), an enterprise 100 percent owned by the Navajo Nation. 
NAPI serves the Navajo people and our governance board members are 
directly accountable to our elected leaders and are nominated by the 
president of the Navajo Nation and are confirmed by the Resources and 
Development Committee of the Navajo Legislative Council.
    NAPI has more than 72,000 acres fully developed and producing farm 
crops, with the potential to develop an additional 35,000 acres. We 
employ between 200 and 500 individuals, depending upon the season--more 
than 90 percent of our workforce is Navajo. All of these employees are 
from the Four Corners Area, and NAPI purchases tens of millions of 
dollars in goods and services both locally and across the Nation. At 
NAPI, we stress the use of state-of-the-art technology and 
environmentally friendly practices. NAPI agribusiness features state-
of-the-art farming equipment, including high-tech radio control, and a 
computerized center-pivot irrigation system that reduces operational 
costs and efficiently manages water resources. We produce an array of 
crops from alfalfa, corn, small grains, to potatoes, beans, and even 
pumpkins which you can buy here in the Washington DC-area. We are proud 
to be a leader in American agribusiness.
Navajo Indian Irrigation Project (NIIP)
    In 1962, in the midst of post-war water projects that provided 
water to neighboring non-Navajo communities, the U.S. Congress passed 
Public Law 87-483 to fulfill the stipulations of the United States--
Navajo Nation Treaty of 1868. The law provided for the furnishing of 
water for arable lands in the San Juan Basin of northwestern New 
Mexico. To meet the requirements of the law, Congress created the 
Navajo Indian Irrigation Project (NIIP) to support an irrigation system 
capable of delivering 508,000 acre-feet of water annually to support 
110,630 acres of Navajo farmland. Unfortunately, while Congress passed 
this law in 1962 to benefit the Navajo people, it remains the only 
large federal water project from the post-war era that was authorized 
but has yet to be fully completed.
    NAPI was established to operate the NIIP and to manage an 
industrial agribusiness and has been in operation since April 15, 1970. 
The idea behind NAPI was not only to manage the NIIP but ultimately 
create economic opportunities for the Navajo people to build upon our 
heritage as leaders in American agriculture.
NAPI Objectives
    The NAPI's objectives, as identified in the council resolution, 
are:

  <bullet> To use the Navajo Nation's agricultural and related 
        resources for profitable commercial enterprises;

  <bullet> To provide jobs and training for the Navajo people including 
        opportunities in management; and

  <bullet> To expand markets for the NAPI products within and outside 
        the Navajo boundaries.

Breaking New Ground in Organics
    Since our foundation, NAPI has become an international agribusiness 
that cultivates multiple crops in multiple markets. In 2017, the NAPI 
continued ventures in new markets, notably, we began to produce value-
added organic crops including corn, table stock potatoes, winter 
squash, cantaloupe, and melons. We plan to continue this buildout with 
new organic vegetable crops planned for 2018 as the company gains 
experience in the expanding organic industry.
    Approximately three-quarters of NAPI's overall acreage can be found 
in production in any given year, the remaining acreage is set aside as 
part of the NAPI's commitment to sustainable farming practices. Based 
on improving agricultural prices, expected premiums from organic sales, 
and good management practices; NAPI's management expects to see a 
significant improvement in net income in 2017 and 2018, with a 
projected net farm income after payroll and expenses of nearly $3 
million in 2017.
    NAPI has long-standing relationships with regional customers for a 
majority of our conventionally produced agricultural products. These 
customers include both end-users, such as livestock producers, non-
profit organizations, and wholesalers, such as grain brokers. Through 
these relationships, NAPI has access to large and small livestock 
producers, multi-national feed companies, retail food chains, 
processors, food service companies, international & domestic aid 
programs, food wholesalers and restaurants.
Importance of Employment Opportunities
    While the NAPI has enjoyed international success, we stay connected 
to the local community. The NAPI is located on the Navajo Nation 
located near Farmington, New Mexico. We are proud to serve our local 
community; however, given the lack of employment options in the Navajo 
Nation, some of our team members drive long distances for the 
opportunity to support their families. One NAPI employee starts his 
journey to NAPI every day at 2:00 a.m. to get to work at 7:00 a.m and 
then does the same commute home in the evening. This is a testament to 
the importance of job security and employment for many of our Navajo 
people.
Commodity Foods and Crop Insurance
    There are two crop insurance programs for which producers can 
enroll under covered commodities for the Price Loss Coverage (PLC) and 
the Agriculture Risk Coverage (ARC). NAPI participates in the United 
States Department of Agriculture (USDA) Agricultural Risk Coverage-
County (ARC-CO) program for the crops corn and wheat. The ARC-County 
provides a base of acres of covered commodities on a commodity-by-
commodity basis when county crop revenue drops below 86 percent of the 
county benchmark revenue. The program has benefited the corn and wheat 
programs at NAPI when commodity prices were below the county average.
    In 2012, crop sales peaked in the U.S. due in part to a nationwide 
drought, and have decreased since then, primarily a result of declining 
commodity prices. These external price declines, characteristic of the 
competitive market for agricultural products, have impacted NAPI's net 
farm income. Income has declined from a peak of more than $13 million 
in fiscal 2012 to a projected loss of $3 million in fiscal 2016 
primarily due to the unexpected failure of our water delivery system 
(siphon breach) and declining commodity prices.
    Fortunately for bad farming years such as 2016, NAPI purchases 
insurance for our bean, corn, wheat, and potato crop. These USDA 
programs have proved vital to supporting employment continuity over an 
otherwise volatile short time period. NAPI would like to see the Price 
Loss Coverage (PLC) and Agriculture Risk Coverage (ARC) crop insurance 
programs reauthorized in the 2018 Farm Bill.
    Barriers to Organics. To help mitigate the commodity price 
volatility, NAPI's management is moving to diversify its crop mix by 
moving into the organic market, which has higher margins and growing 
demand. NAPI has a competitive advantage in this market due to its 
national resources.
    Currently, NAPI does not have a presence in the organic perishable 
fruit and vegetable market segments. However, NAPI would like to 
leverage relationships with experienced brokers and distributors to 
take advantage of their established brands to ``co-brand''. NAPI 
management plans to partner with brokers and distributors on a 
commission basis to market new NAPI organic products. Not only do we 
want to compete in the domestic organic market, but we plan to compete 
in the international market as well. NAPI will continue our growth in 
the organic market and we hope to find new partners for procurement of 
unprocessed fruits and vegetables.
    Crop Insurance for Organics. While the NAPI expands its organic 
crops, there is an inherent risk involved in organic production. The 
lack of registered organic controls can make combating weeds, pests, 
and disease not only costly but also volatile. If the producer is 
producing a product for the first time on the property, in most cases, 
the crop cannot be insured. In the rare event that the new crop can be 
insured, the coverage rate would be based on historical and not site-
specific data. In NAPI's region, that type of data is not available. In 
this case, values referred to as T Yields are used for computation, 
which are averages taken from other producers in the region for 
comparison and are often not favorable to our conditions.
    NAPI is in an isolated geographical area that is so unique that 
there are literally no other comparable farming operations for 
insurance companies to base forecasts upon. Unfortunately, as a result 
of standard crop insurance calculations, a new organic crop would be a 
significant financial risk for at least the first three years, after 
which NAPI would establish its own averages. NAPI would like to work 
with this Committee, the Agriculture Committee, and the USDA regulators 
to address this unique situation for the development of new crops. 
Updating standards for organic crop insurance will assist NAPI in our 
work to take our organic products and business to the next level.
    Organic Certification Services. Another barrier is the 
extraordinary wait times for processing and inspections required for 
obtaining an organic certification. In one case, the process took so 
long that we had to sell the product as conventionally grown because we 
had not received our official organic certification in time. NAPI would 
like to see increased funding for the New Mexico Department of 
Agriculture through the Organic Certification Program so that there is 
an increased number of accredited certified agents in the office. There 
should never be any reason for NAPI to market our organically grown 
crops as conventionally grown--we support smartly applying funding 
alleviating the bottleneck at certain accrediting agencies.
    In order to be eligible for the USDA National Organic Certification 
Cost-Share Program, one must be a certified producer and handler and 
pay annual fees. Once certified, an organic producer and handler are 
eligible to receive reimbursement for up to 75 percent of certification 
costs each year, up to a maximum of $750 per certification scope. NAPI 
supports this program.
    Barriers to Increased International Trade. The USDA has yet to 
utilize tribal farms for international trade. NAPI suggests that one 
way the USDA could do this is to include tribal representatives that 
are experts in agriculture on U.S. trade missions. Tribal 
representatives deserve a seat at this table to help grow our 
economies.
    NAPI requests the creation of a special tribal-federal-
international group to ensure that tribal food production is included 
in discussions with international governments to further assist tribal 
food growth and production.
Infrastructure and Rural Development
    One of the greatest challenges comes from our greatest blessing, 
the NIIP. The NIIP has yet to be completed since it was authorized by 
Congress and the President on June 3, 1962. Currently, the Bureau of 
Reclamation (BOR) is responsible for construction. After construction, 
the BOR then transfers the project to the Bureau of Indian Affairs 
(BIA) for maintenance. We request the appropriations cap be lifted for 
construction costs and that appropriations construction be increased to 
finally complete the NIIP. NAPI would more successful if all 11 Blocks 
of the NIIP were completed. For example, recently completion of Stage 1 
of Block 9 and has resulted in successfully growing, harvesting, and 
selling watermelons. An estimated 75,000 acres have been developed 
acres out of the federal responsibility of 110,630 total acres. The 
completion of the NIIP would cost approximately $177,000,000. Based on 
a 2012 study by researchers at the University of Arizona and economists 
with Compass-Lexecon Consulting, NAPI has lost approximately $4 billion 
thanks to federal inability to complete construction.
    NAPI is being proactive in implementing precision agriculture 
technologies to help manage our water resources to raise yield, lower 
input costs. Precision agriculture technologies manage the underground 
water levels, which avoids the need to spend government funds on 
surface drainage projects. The scope of these projects takes years to 
implement due to the cost of the commodities such as small grains and 
corn.
    With the development of new ``Row Crops'' whether they be organic 
or conventionally grown, there are many steps involved in the 
production, harvest and packaging in preparation for ``Value Added'' 
Marketing which provides the best return. The NAPI would like to see 
the USDA Value- Added Agricultural Product Market Development Grants 
and Rural Business Development Grants reauthorized in the 2018 Farm 
Bill.
    NAPI will continue to invest in our internal infrastructure as well 
as facilities. NAPI has several value-added agricultural operations 
that complement our agricultural production. These operations include 
grain storage facilities, a flour mill, a cattle feedlot, and 
conventional processing plants for beans and potatoes. There are 
different facilities for organic products. In most cases, separate 
processing facilities must be used for organic products to eliminate 
the risk of contamination and comingling with the conventionally grown 
product. Organic processing facilities are very costly installations, 
but once implemented, can guarantee that the projects can be scaled up.
Conservation
    The NAPI currently participates in several USDA Conservation 
Programs including Environmental Quality Incentive Programs (EQUIP), 
the Conservation Stewardship Program (CSP), and the WaterSmart Program. 
The EQUIP provides financial assistance to install and maintain 
conservation practices. The CSP provides financial assistance for 
meeting stewardship requirements to adopt conservation practices, 
activities, and structures. The WaterSmart assists to preserve land for 
agricultural or environmental uses. The CSP, EQIP, and Water Smart 
grants provide financial and technical assistance based on acres 
enrolled in various conservation programs. Each one of these programs 
is vital to NAPI and we fully support their reauthorization.
    The NAPI operated no-burn on fields, improved the irrigation 
systems, improved the cover cropping, and improved the rangeland areas 
on the farm under its first CSP participation. The CSP continues to 
provide NAPI assistance in adopting conservation activities to protect 
and to improve water quality, soil health, wildlife habitat, and air 
quality. NAPI would like to see the EQUIP and the Conservation 
Stewardship Program reauthorized in the 2018 Farm Bill with increased 
funding for producers for conservation on working the agricultural 
land. NAPI participated in the Wildlife Habitat Incentive Program 
(WHIP) but this program was since repealed.
    NAPI also markets goods directly to the local community. NAPI 
provides a roadside local stand of crops for consumers in the four 
corners area. NAPI would like to see the USDA's Farmers' Market and 
Local Food Promotion Program, Healthy Food Financing Initiative, and 
Community Food Projects reauthorized in the 2018 Farm Bill.
    NAPI is proud to serve our customers, whether they are local, 
national and international with high-quality products produced on the 
Navajo Nation. We look forward to continued growth and partnership in 
2018 and beyond. Thank you for providing me the opportunity to submit 
this statement for the record, and I stand ready to assist the 
Committee in any way I can.

    The Chairman. Thank you, Mr. Haskie.
    We will now have five minute rounds of questioning. I would 
like to begin with Ms. Cullo.
    In USDA, you have both the Council for Native American 
Farmers and the Office of Tribal Relations. How are you 
bringing forward recommendations to the Secretary to support 
and enhance agriculture on the reservation and tribally-owned 
farms?
    Do you have some ideas for the Farm Bill that would 
particularly benefit Native American-owned agriculture?
    Ms. Cullo. Thank you, Mr. Chairman.
    The Council for Native American Farmers and Ranchers was 
extended by Secretary Vilsack even though it was originally 
supposed to expire last year with that extension going through 
this summer.
    We are actually looking at ways to continue the Council 
because we find it very valuable to be able to guide and work 
with our Office of Tribal Relations to be able to have these 
very important conversations.
    We are looking into it and as we continue that process, I 
would be more than happy to report back on the ability to 
continue the Council moving forward.
    The Chairman. Have you had that dialog with Secretary 
Perdue and where are you in the process?
    Ms. Cullo. We are looking at ways financially to make sure 
that as it is within the Office of Tribal Relations, with their 
limited resources, to be able to continue not only with 
teleconferences with those members but actually finance the 
ability to have regular in-person meetings so their 
recommendations can be responded to efficiently, effectively 
and transparently. There are over 30 right now.
    The Chairman. Are you working to reduce the regulatory 
burden and help with streamlining that process on the 
reservation?
    Ms. Cullo. Most definitely. Right now, the USDA has found 
almost 150 unnecessary regulatory burdens. We are continuing 
that process to eliminate any hindrances Indian Country has to 
accessing USDA programs and services.
    The Chairman. Thank you.
    Mr. Berrey, one of the things I have introduced and hope to 
make a part of the Farm Bill is legislation we call Capital for 
Farmers and Ranchers. Basically, it takes the FSA guaranteed 
loan and direct loan and increases the limits on the direct 
loan from $300,000 to $600,000 and the guaranteed loan from 
$1.39 million to $2.5 million.
    What are your thoughts on that and whether that would be 
helpful in terms of Native Americans accessing capital for 
agriculture?
    Mr. Berrey. I think it would be helpful, sir, although I 
think what is needed in Indian Country is capacity. I mean that 
in terms of understanding the waiver of sovereign immunity to 
the limit of reliability. For tribes like mine that deal in the 
gaming industry, it becomes part of your everyday business 
activity.
    I think for tribes looking for financing in the ag market, 
they need some capacity help so maybe giving more funding to 
the Intertribal Ag to help educate tribes in how they approach 
credit and the limited waiver of sovereign immunity would be a 
good step forward.
    The Chairman. Ms. Hipp, what about trade? We are working on 
trade agreements obviously and finding ways to expand access to 
markets for our producers. What can the Federal Government do 
to help promote, for example, tribal agricultural products 
which I think have a cache and a niche globally.
    Ms. Hipp. They certainly do, Chairman. Thank you for that 
question.
    The Intertribal Ag Council has, I believe, an over 15-year 
relationship with the Foreign Ag Service through the MAP 
Program, the Market Access Program. There is entry into the 
international marketplace but to my knowledge, there has never 
been a tribal food business or a tribal agribusiness.
    Navajo may end up correcting me but to my knowledge, there 
has never been a tribal government leader or a tribal food 
business included on any trade mission.
    Attending the different food fairs and meetings around the 
globe, Intertribal Ag Council has folks on the road all the 
time that do that, but being included in the trade missions is 
really a different level of incorporation of tribes and their 
presence in the agribusiness industry. We would encourage that 
to take place as soon as possible.
    The Chairman. That would seem like a natural, I would 
think, and reinforce not only marketing on behalf of Native 
Americans but just to strengthen the overall United States 
agricultural marketing effort. To me, that seems like something 
that would have real potential.
    Mr. Haskie, she referenced Navajo. Have you been involved 
in any of those trade arrangements or groups? Has anyone at 
Navajo been involved?
    Mr. Haskie. Thank you, Chairman.
    No. That was one of the items that we listed in our 
testimony, to be included in these tribal food missions, to 
expand their reach in the international markets.
    The Chairman. Ms. Cullo, it seems to me that would be a 
natural. Your thoughts?
    Ms. Cullo. Thank you, Mr. Chairman.
    Actually, the Secretary and Chairman Berrey, in their first 
meeting, discussed international opportunities for Indian 
Country.
    The Chairman. Vice Chairman Udall.
    Senator Udall. Thank you, Mr. Chairman.
    As you know, ensuring tribal sovereignty is a key aspect of 
what we do here in this Committee. That is something I take 
very seriously.
    With respect to agriculture, in the last Congress, I 
introduced, and intend to introduce again this session, 
legislation that would allow tribes and tribal organizations to 
administer their own nutrition programs.
    However, I understand that some folks in Indian Country are 
interested in an even broader approach to self government at 
USDA. I am aware of the innovations that providing 638 
authority for food programs can mean for access to healthier 
and more culturally appropriate food.
    I am interested in hearing more about the potential 
benefits of authorizing tribes to manage other USDA programs. 
Ms. Hipp, in your opinion, would providing tribes and tribal 
organizations 638 authority help them combat food insecurity 
and improve public health across Indian Country?
    Ms. Hipp. Yes, Mr. Vice Chairman, it most definitely would. 
In fact, the Farm Bill before the last had a requirement that 
USDA do a study on the feasibility of having tribes administer 
all the feeding programs.
    The study was accomplished a couple of years ago and the 
findings were released. The findings were that it was entirely 
feasible. It is going to be a lift obviously to get the 
regulatory piece in place within the tribal governments 
themselves, but any tribe that does 638 has already gone 
through that special process on any number of other programs. 
It is really not an issue. It is an issue of getting it 
started.
    However, as far as the impact on food security, if you 
could actually marry the food production that is happening in 
Indian Country on tribal lands across the Country and literally 
regionalize the food purchasing for those feeding programs, 
this would be new. It is not being done this way now and it is 
a fairly embedded process of national purchasing 
infrastructure.
    If you were to actually deconstruct that and regionalize 
it, then you could actually make the program more cost 
effective, but it would also be able to link the producers 
themselves with the tribes involved in food and create a stable 
market.
    Obviously, it would not be their highest price point market 
but it would be a stable market nonetheless that would further 
stimulate more food production. It would also allow those foods 
to arrive fresher and more palatable at their location and the 
homes of the people who actually need the foods.
    That sort of concept has been floating around for some time 
now. Our Initiative has actually done a preliminary study of 
the financial feasibility of that sort of approach. It is in a 
draft format and we are running our second phase of economic 
analysis. We are already seeing in our economic processes and 
studies that there would be a cost saving across the board 
every month. We believe this sort of new approach would really 
place tribal leadership in the centerpiece of this conversation 
and is ripe and ready to be launched.
    It has come up quite a bit in the regular tribal 
consultation meetings that the Food and Nutrition Service has 
been having with tribal leadership. Governor Mountain, who is 
in the room with us today, has been leading that process.
    I will tell you those tribal consultation meetings are 
unique within the department. They augment what the council 
does but they get down into the actual specifics of that 
particular agency within the department. You need that level of 
specificity.
    They have been able to uncover lots of efficiencies and 
lots of things that could be done better and need to be fixed 
and reach a partnership to fix them.
    Senator Udall. Thank you very much. Welcome Governor 
Mountain.
    Briefly, Chairman Berrey, what things would you do 
differently at Quapaw if you were given 638 authority?
    Mr. Berrey. I think we would do more and more of what we 
are doing now, Mr. Vice Chairman, because we are at home; we 
understand our people. We understand the needs of the local 
community. We would just be able to get more efficiency from 
the money within the Department of Agriculture or get it spent 
more on the ground for the people who need it. We would 
continue to expand what we are doing.
    Senator Udall. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Senator Smith.
    Senator Smith. Thank you, Chairman Hoeven.
    It is very interesting to me because I am also going to be 
serving on the Agriculture Committee, so this conversation is 
very apt.
    I think agriculture in Indian Country has the potential to 
not only strengthen local economies but also build health care 
communities. I think this is exactly what you are talking about 
Ms. Hipp when you described how this might all work together.
    We have such a challenge with extreme poverty and also the 
loss of traditional food ways. I think this is a lot of what 
contributes to the huge health disparities that we often see. I 
am especially worried about diabetes but there are so many ways 
in which these health disparities manifest themselves.
    I am glad you mentioned the innovative work that the 
Shakopee Mdewakanton Sioux Community is doing with their Seeds 
of Native Health Strategy which I have had a chance to see up 
close. It is really, really great work. It is making real 
headway towards improving nutrition and supporting indigenous 
foods. I know we are going to be hearing more about this 
strategy tomorrow at the roundtable we are doing.
    I will direct this to you, Ms. Hipp, but anyone should feel 
free to chime in. What more do you think we can do to increase 
access to indigenous foods in Indian Country? From your 
perspective, how do you think this could contribute to 
healthier communities?
    Ms. Hipp. Thank you for the question.
    It is hard for me to restrain myself. I just don't want to 
respond in a book. I will tell you that one of the other things 
the Seeds of Native Health effort has undertaken is the pulling 
together of western nutrition scientists and traditional food 
people within our communities and our traditional food 
scientists.
    Getting them talking together on the research issues and 
the intertwining of really following the betterment of health 
outcomes, they will tell you linking that to as much 
traditional food as you can really strengthens the whole 
nutrition education conversation and strengthens changing 
peoples' food consumption habits because it brings it closer to 
home, as Chairman Berrey discussed.
    You actually see the preferences shift because it is a 
connection with culture, tradition and language, but it is also 
a connection with what is readily available. I think that 
cannot be ignored.
    The other thing I will share with you is that when you talk 
about these issues with regard to USDA and its powers and 
authorities, historically the conversation tends to be isolated 
into a tiny, little piece of the puzzle. We have this amount of 
money for traditional foods and that is all we have. That is 
just not appropriate anymore.
    The availability of traditional and healthy foods in Indian 
Country is on the upswing. To relegate the conversation to a 
small funding stream or just one agency is really not 
appropriate. For instance, when you are purchasing foods for 
the feeding programs, you actually have to have the Ag 
Marketing Service, FSA, used to be, and FNS in the room. They 
all have to be there because they all play a part.
    Calibrating those interrelationships within the department 
itself to broaden the ability to bring those healthier foods 
into the plates of people is really, really important. Making 
sure that the interdepartmental problems we have between USDA 
and the Bureau of Indian Affairs are fixed is really vital as 
well to really scale that up.
    Senator Smith. Thank you.
    Does anyone else have a quick comment on that?
    Mr. Haskie. Chairman Hoeven and Senator Smith, at the NAIP 
farm we do have a product line of Native American foods. We 
understand that there needs to be some upfront educational 
awareness of the benefits of these Native American foods across 
the Navajo Nation.
    Education on the benefits of these Native American foods, 
reintroduction of them into the diets, and identification of 
the pipeline will get them back into the communities. 
Currently, our Navajo Nation is a food desert. We have a lot of 
convenience stores. There are not many markets, so fresh foods 
are very rare.
    I think the conveyance system would have to target 
convenience stores, the schools and governments. If we grow it, 
we believe they will buy it given the fact of the benefits of 
the traditional foods.
    Senator Smith. Thank you.
    Mr. Chair, I know my time is up. I just want to say that I 
am so struck by the great assets you are all talking about in 
Indian Country. It is inspiring to think about how we can bring 
those assets, whether it is around young farmers, 
diversification, or access to capital but how we can bring that 
thinking to the Farm Bill and enhance the thinking over there.
    The Chairman. Senator Cortez Masto.

           STATEMENT OF HON. CATHERINE CORTEZ MASTO, 
                    U.S. SENATOR FROM NEVADA

    Senator Cortez Masto. Thank you.
    Welcome. Thank you for this conversation today. It is so 
important.
    Today, the Center of Budget Policy and Priority has 
released a report adding to the growing evidence that says 
increased investment in SNAP, the Supplemental Nutrition 
Assistance Program, can save money in other ways like lowering 
health care costs. The report actually examines research that 
found, on average, low income adults participating in SNAP have 
almost 25 percent less in medical costs annually than non-
participants in the same income bracket.
    I am curious. I will open it to all of you. I would like to 
start with Ms. Hipp. Can you talk about the positive economic 
and health correlation between Indian Country participation in 
food and nutrition programs and a healthy lifestyle? Have you 
seen that?
    Ms. Hipp. If you don't mind, could I defer that to Chairman 
Berrey?
    Senator Cortez Masto. Absolutely.
    Ms. Hipp. Because he literally has on the ground impact.
    Senator Cortez Masto. Fantastic. Chairman Berrey, your 
thoughts on this, the healthy lifestyle and the fact that SNAP 
has actually helped lower health care costs.
    Mr. Berrey. I think it is very evident at Quapaw, ma'am, 
not only with the Quapaw Tribe but within the Quapaw greater 
community.
    I spoke earlier about our Title VI program. The tribe 
donates bison as the main protein for our Title VI program. We 
feed about 600 people a day. About 70 percent of them are non-
Indian and they receive great health benefits from just that.
    Also, if you look at our production and our processes, we 
are holistic. All of our surface water is managed so it goes 
through wetlands to clean it up at our processing facility. 
Whenever we work on recontouring and preparing land for 
agriculture, we take into account runoff and make sure the 
environment is healthy in the process of developing 
agriculture.
    If tribes and local communities focus on SNAP and other 
programs and give them a good healthy diet, it is obvious just 
looking at the people that they are healthier, they are feeling 
better and that the cost to the tribe of providing health care 
to our members is going down in terms of diabetic medication 
and other things of that sort.
    Senator Cortez Masto. I appreciate that. Thank you.
    Can Congress do a better job? What else can we do to 
facilitate not only quality diabetes treatment and intervention 
programs with access to quality health food to combat the 
growing rate of obesity and the rate of diabetes in Indian 
Country? What else should we be doing?
    I know we have discussed a number of things today. Is there 
anything else that we have left on the table?
    Mr. Berrey. I think we need to go back to treatment as a 
State for our tribes to be considered. If we are treated as a 
State like they do in environmental laws, we are treated as a 
State under the Clean Air Act, it gives us a better opportunity 
and a bigger voice to participate in what is happening with the 
local community where the dollars are spent.
    I think it is incumbent for the Department of Agriculture 
to have the opportunity to speak to tribes as Nations and to 
work together through MOUs to be able to provide a better 
quality food source for the local communities.
    Senator Cortez Masto. Thank you.
    Ms. Hipp?
    Ms. Hipp. We speak to this in our Regaining our Future 
report. If you actually look at the nutrition education 
funding, the Food Distribution on Indian Reservations Program 
has less than $1 million a year to provide nutrition education 
funding to 276 tribes whose members utilize that program. That 
does not equal very much per person or per tribe to actually 
deliver that sort of nutrition education information.
    Tribes are not allowed to directly access the SNAP ed 
funds. If they receive them at all, they receive them through a 
State. To me, that absolutely makes no sense whatsoever. SNAP 
ed is a large repository of education funding.
    The best thing that Navajo, as well as Quapaw and others, 
can tell you is that when you actually link the nutrition 
education conversation with actual foods produced by the tribe 
or tribes in the region, then you have a more powerful 
conversation with the folks who actually need to have their 
health outcomes turned around.
    Senator Cortez Masto. Sure. That makes sense.
    I notice my time is up. Thank you very much. I appreciate 
you all being here today.
    The Chairman. Senator Cantwell.

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Mr. Chairman. Thank you for 
holding this hearing and for the witnesses.
    I did not get to be here for the entire hearing but I have 
looked at many of your testimonies. I think Ms. Hipp may be the 
best person to answer this question which concerns the large 
amount of interest, at least for us in the northwest, in forest 
policies as related to things like good neighbor, which I think 
you mentioned in your testimony.
    I do think, Mr. Haskie, there is a lot of interest in what 
I would call branding of fish product and figuring out how to 
get it delivered cost effectively to consumers, very specific 
programs that allow tribes to brand their own caught product 
and figure out how to get it into the supply chain without 
various barriers that exist today.
    On the timber issue, cost relating to timber is something 
we are interested in, trying to figure out how to make sure the 
opportunities for new building materials are there. What do we 
need to do to better help with the timber side of management 
and coordination to get that kind of product produced from 
tribes around the Country? Ms. Hipp.
    Ms. Hipp. We continue to receive input from tribal 
leadership around the Country, particularly in the Pacific 
Northwest and Alaska, that good neighbor authority is terribly 
important. It is critical for tribes to be equal partners at 
the table in the management of forests.
    If you actually look at the U.S. Forest Service, there is a 
component called State and private forestlands. It is a big 
part of the agency itself but it does not say State, tribal and 
private forestland which really misses a huge piece of the 
puzzle, in my opinion.
    I grew up in two forests in southeastern Oklahoma. People 
assume that all of Oklahoma is flat but it is not. There were 
small lumber mills all over the place. People forget, I think, 
that forestry and forest products are forms of silviculture 
business-agribusiness. It is really as vital to rural 
communities as any other form of business or economic 
development.
    Taking a close look at the U.S. Forest Service components 
of this conversation, I think, is very important to bringing 
tribal parity into that conversation, but also making sure that 
forest-related products industries and sustainable forest 
products are incorporated into the potential eligibilities in 
the other agencies and programs within the department is an 
important step as well.
    Senator Cantwell. I think we already are taking steps in 
our State in the school construction program to build schools 
out of cross-laminated timber, so I think everyone thinks it is 
a win-win situation. You give mills the predictability to stay 
open because they are going to be producing product.
    We have this kind of new building which is beginning to 
take off even at the high-rise level. You are right, why can't 
we look at our backlog in the school construction program, 
which seems to be this big dark hole as it relates to Indian 
Country, and get some clarity? I am sure people would be 
excited about a program that was marrying better timber policy 
and solving school construction issues, particularly with new 
product.
    Mr. Haskie, do you think Indian Country uses the MAP 
Program? I don't think there is any prohibition on their using 
the MAP Program. That is our marketing access program to take 
U.S. products to help reach overseas markets. Do you know if 
that is used at all?
    Mr. Haskie. I am not aware of NAPI utilizing the MAP 
Program.
    Senator Cantwell. I know our seafood industry has used it a 
lot to help develop markets in Asia for our aquaculture 
products. It has been quite successful.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator.
    I have one question I would put out there for all of you. 
As we write the Farm Bill, there are certain priorities that we 
are working on. There have been priorities in the past as well, 
things like crop insurance and making sure we have strong crop 
insurance as a risk management tool for our producers; a 
counter cyclical safety net working to strengthen ARC and PLC; 
ag research; strong funding for ag research; trade; marketing; 
things like following MAP which Senator Cantwell referred to; 
McGovern-Dole Food for Peace, those types of programs; reducing 
the regulatory burden which we talked about a bit here; and 
access to capital which I brought up. There are others.
    From your perspective, I want to ask what ideas do you 
have, in terms of things you think are important for the Farm 
Bill and that we are cognizant of, particularly as it relates 
to Native American agriculture, as we work on the Farm Bill and 
trying to pass as strong a Farm Bill as we can for all of 
agriculture? Ms. Cullo.
    Ms. Cullo. Thank you, Mr. Chairman.
    The conversations need to continue to take place. At no 
point during this process can we allow this to be a partisan 
issue. As the Secretary said, agriculture is not. Making sure 
we eliminate barriers to Indian Country accessing USDA programs 
and services is our objective.
    Let us continue to look at, identify and eliminate 
regulatory burdens. Previously, it was stated that in many 
cases tribes do have to apply for some programs through their 
States. Let us have that conversation. Let us look at the 
tribal colleges and universities, our 1994 program, look at 
truly educating the next generation of USDA employees, farmers, 
ranchers, producers and agribusiness owners.
    Let us make sure that in this Farm Bill, we are working 
toward giving the ability of those tribal colleges and other 
minority-serving institutions the tools, research abilities and 
capacity they need to be able to graduate and give 
opportunities to those students.
    The Chairman. Chairman Berrey.
    Mr. Berrey. I would echo Ms. Cullo's comments as well, Mr. 
Chairman. It is about education and capacity and actually, 
conversation. That goes back to my earlier statement about 
recognizing tribes as States. It is more about giving them the 
opportunity and access.
    When I grew up, we relied much on the extension services to 
the land grant colleges. That seems to be kind of fading away 
as well. We need to have people in the community, not only in 
the Native American space, but throughout the agriculture 
community who are dedicated to educating young people and 
giving them the capacity to go after the monetary support, the 
understanding, and the education.
    I think the tribes need to be a part of that conversation 
but we need to make sure the extension services upheld groups, 
like Intertribal Ag, to have the budget base to spread the word 
to Indian tribes about how to get more involved in credit and 
agriculture. I think it is capacity, education and 
conversation.
    The Chairman. Ms. Hipp.
    Ms. Hipp. I have a couple of items. Food deserts exist but 
credit deserts are equally as important or dramatic in Indian 
Country. Revisiting the credit components of USDA is really 
critical.
    There have been improvements over the years in how tribes 
access, individual farmers and ranchers, but also tribal 
governments and tribal businesses, credit programs at RD as 
well as FSA but we need to keep working at that. Those credit 
deserts have existed for a very long time and it is not going 
to be fixed overnight.
    The other thing I will share with you is I keep remembering 
how it was when I was at USDA. We solved so many problems by 
interdepartmental coordination and rolling up our sleeves and 
sitting down with the key people at BIA as well as all the 
various agencies of USDA. I do not think that is done near 
enough.
    A lot of these problems cannot be solved just by USDA 
talking to itself. They have to have the tribal leadership at 
the table as well as the Bureau itself.
    Finally, I will echo Chairman Berrey's comments regarding 
education and extension. The formula funds need a little 
recalibration to make sure they are really reaching the tribal 
leadership and tribal communities that are, in many areas, the 
rural backbone of that community and region.
    Those are the three items I have not covered before in my 
testimony but would take this opportunity to share with you 
today.
    The Chairman. Where do most of Native American producers 
access capital, in your opinion? Where do they go for capital?
    Ms. Hipp. That is interesting. It depends on how much they 
need. If you are accessing capital for something the size of 
NAPI or the slaughter facility at Quapaw, it is a different 
conversation than if you are an individual farmer looking to 
expand your operation.
    They go to FSA; for some issues, they go to RD; but they 
also go to Farm Credit. I hope I am not speaking out of turn 
from our Farm Credit friends who are here because they have 
been very supportive and kind of in the weeds with jobs around 
these issues. Making sure their authorities are clear with 
regard to their capacity to do more lending in Indian Country 
is also terribly important. Local banks can come into play as 
well.
    The Chairman. Mr. Haskie, your thoughts.
    Mr. Haskie. We have different sources for capital funds and 
requests for funds. For the larger scale of capital funding, we 
rely on the Bureau of Indian Affairs, Irrigation. That is just 
the main high costing infrastructure repairs that have been 
deferred for many years. NAPI began reinvesting some of their 
profits to maintaining some of those deferred maintenance items 
even though it is not their responsibility.
    As far as the business of processing facilities, we 
typically finance those because they exceed the available 
grants in our State and area for any type of development. We 
financed our own flour mill and our own pellet mill.
    On the smaller grant funding, we have been able to utilize 
the WaterSmart Grant for which we have successfully been 
approved the last two years to rehabilitate some of our 
irrigation sprinkler systems.
    The Chairman. Vice Chairman Udall.
    Senator Udall. I will defer.
    The Chairman. Senator Daines.

                STATEMENT OF HON. STEVE DAINES, 
                   U.S. SENATOR FROM MONTANA

    Senator Daines. Thank you, Mr. Chairman. Vice Chairman 
Udall, I appreciate it.
    In the great State of Montana, ag is our number one 
industry. In fact, it is the hard work of our farmers and 
ranchers that keeps the food on the table not only in Montana 
and the United States, but around the world as we depend 
heavily on exports.
    I also chair the Senate Western Caucus. I am working to 
ensure that we shape the Farm Bill in a way that it provides 
robust benefits to the western States, certainly including 
benefits to Indian tribes and Native American farmers and 
ranchers.
    I have heard from our Intertribal Ag Council based in 
Billings, Montana, regarding their priorities for the 2018 Farm 
Bill. In fact, one of their most pressing requests is to ensure 
there is parity between tribal, State and local ag producers in 
reauthorizing and changing existing programs, especially with 
respect to some of the important conservation programs.
    Ms. Hipp, I know you discussed this topic in your 
testimony. I know Vice Chairman Udall touched on a related 
question with respect to some of these important nutrition 
programs.
    From your perspective, could you share why empowering 
Indian tribes to have more direct input in the implementation 
and conservation practices on Indian lands is so important?
    Ms. Hipp. There are so many examples I could give you. I am 
going to give you a microcosm approach.
    In some areas of Indian Country, the land base is so large 
that the failure of the Farm Bill's conservation title to be 
written with those tribal lands in mind has exacerbated the 
inability for those conservation programs, that a lot of other 
farmers and land owners rely on, to actually press into tribal 
lands.
    NRCS and the conservation title programs are written from 
the standpoint of an individual fee private landowner 
standpoint. It has always been a torturous contortion, if you 
will, to actually effectively push those programs into Indian 
Country.
    There are success stories that are out there but it is just 
extremely difficult to get those programs properly calibrated 
so that the principles of conservation and the presence of 
those cost share programs can deeply be pushed into tribal 
lands which are in dire need of those conservation efforts.
    You don't have to go very far across Indian Country to see 
conservation programs are much needed. Many, many tribes kind 
of take the bull by the horns and do it themselves but the 
reality is, those conservation title programs can be really 
pushed into tribal lands a lot better with a tight 
recalibration of how the actual language is written. It 
literally goes that deep into the weeds, if you will.
    Senator Daines. Thank you. That is something we will pay 
attention to as we move this Farm Bill through the Ag Committee 
which I serve on.
    Chairman Berrey, I have had the pleasure of meeting with 
Rose Bear Don't Walk and Abaki Beck who hail from St. Ignatius 
and Missoula, Montana, respectively. Both serve on the National 
Indian Health Board's Tribal Youth Health Advisory Board which 
passed a resolution encouraging policies that support 
incorporation of healthy and culturally appropriate food for 
Indian communities. I am glad my colleagues and our friends on 
the witness panel have discussed these goals today.
    Chairman Berrey, my staff member told me you like to fish 
around the Innes area. I grew up fishing around there myself, 
probably Madison, I would guess?
    Mr. Berrey. Yes, sir.
    Senator Daines. And O'Dell Creek. We could probably talk 
about that for a long time.
    Mr. Berrey. Yes.
    Senator Daines. Could you also share some details on the 
success the Quapaw Tribe has had incorporating Native foods in 
your community such as bison and any related health benefits 
you see?
    Mr. Berrey. I think there are tremendous health benefits. 
You might represent us because we are kind of a Country and 
western State, Oklahoma.
    Healthwise, our bison program worked very well with the 
Intertribal Bison Cooperative. We have access to a large 
quantity of bison. In that process, we donate the bison to the 
Title VI Program.
    We also donate it to the local public schools to help youth 
get a source of protein for their daily education. There are a 
lot of poor kids in our community so we give bison and donate 
it to our Title VI Program that feeds elderly and we get health 
benefits from that.
    We give it to the local schools, the Quapaw and Cardin 
schools. We give it in the form of either beef steaks or ground 
burger to food to feed program at school.
    We see a lot of benefits. We see the health benefit of a 
better protein, less fat, and better amino acids. It manifests 
itself in lowering the diabetes problem and other health 
problems that come with poor nutrition.
    We also see a benefit to education. It helps young and 
hungry kids pay attention better in class. Whenever we are 
asked, we freely donate. We are always open to donating protein 
to any kind of school in our area to help young kids who do not 
have access to protein.
    It is not only a health initiative, it is an education 
initiative because it gives these young kids the ability to 
focus and not listen to their stomachs growling all day and not 
be able to focus on the basics of school. We send them home on 
the weekends also with bison steaks as well to help supplement 
their diet at home. It not only helps with the health of the 
people that consume it but it helps the kids that consume it in 
school.
    I also want to point out in all of our processes, we take 
into account our surface water management, to make sure we are 
not contributing to pollution of the local waterways. All of 
our surface water in all of our facilities goes through a 
wetland process to ensure the environment is in better shape as 
we produce these different agricultural products.
    Senator Daines. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Vice Chairman Udall.
    Senator Udall. Thank you, Mr. Chairman.
    Earlier this Congress at a hearing on the Special Diabetes 
Program for Indians, we heard that food insecurity is a real 
problem across Indian Country. Food insecurity leads to many 
real health challenges for Native families and communities.
    Ms. Hipp's testimony underscored that one way to tackle 
this issue of food deserts and food insecurity is to find ways 
to match up tribal agricultural potential with local market 
needs on reservations. This approach seems especially promising 
because it would let tribes increase access to traditional 
foods which are not just healthier but in many cases, carry 
important cultural significance.
    Chairman Berrey and Mr. Haskie, does NAPI or any of 
Quapaw's agribusiness pursuits include production of 
traditional foods and if so, what percentage of your products 
would you say fall into that category?
    Mr. Haskie. Vice Chairman Udall, NAPI grows sumac berries 
usually used for various uses within the cultural and also 
ceremonial uses. It comes in the form of either a pudding or a 
dried good or just the basic berries. The branches on that are 
also used for traditional and cultural purposes.
    The other traditional foods that we offer are based on the 
blue corn and white corn, the Native corns that we have. We 
intend to upgrade our processing facilities because we package 
these crops on our farm. As far as the ratio, it makes up about 
3 percent of the entire farm.
    Senator Udall. Thank you.
    Chairman Berrey.
    Mr. Berrey. Percentage-wise, Mr. Vice Chairman, I am not 
100 percent sure but I will tell you some of the things we 
produce that are culturally significant.
    We have a large honey bee operation. Honey is used quite a 
bit mixed with meat in our traditional diet. Like the Navajo, 
we produce a red corn product. We have a very extensive 
greenhouse system that grows heirloom products. They are 
historically of cultural importance to us and are important to 
others in our community.
    We grow a lot of heirloom tomatoes, peppers, all kinds of 
gourds and squashes that have been part of the Quapaw story as 
far back as we can remember. It is very much a part of what we 
do on a daily basis.
    I have spoken often about our bison program. We have the 
only USDA inspected bison cure facility in Indian Country. It 
is becoming unbelievable how many bison we are now processing 
not only for our tribe but other tribes to help them with 
promoting bison in their diets.
    Senator Udall. Bison, as we all know, is a traditional food 
that is also very healthy, with very lean meat.
    Mr. Berrey. Yes, sir.
    Senator Udall. Mr. Haskie, I know that access to healthy 
foods can be a challenge on the Navajo Reservation and that 
many families rely on Federal food programs. Is NAPI currently 
able to sell any of your traditional food crops to these 
programs?
    Mr. Haskie. No, we do not.
    Senator Udall. Chairman Berrey and Mr. Haskie, what could 
the Federal Government be doing to support tribal efforts to 
grow traditional foods and expand local tribal food markets?
    Mr. Berrey. I think we have discussed it all today. It is 
access to capital and giving us better regulatory authority 
over what products we produce. We want a healthy product for 
the consumer whether they are Native or non-Native. We think we 
can do a better job because we are where the rubber meets the 
road.
    I think everything discussed here today by Janie, Ms. Cullo 
and also Mr. Haskie. Everything combined with education and 
conversation gets us further down the road to doing these 
things and letting tribes participate in doing good things and 
feeding people. That is really what it is all about, feeding 
people, not only Native people but our local community. We want 
to make sure that no one goes to bed at night in our community 
hungry.
    Senator Udall. Thank you to the whole panel. This was 
excellent testimony. This is clearly an important topic with 
lots of potential for improvements in Federal policy. I really 
look forward to diving in a bit deeper tomorrow at the 
Committee's roundtable. I really appreciate your testimony 
today.
    Thank you, Mr. Chairman, for working so hard on this and 
making this a real success.
    The Chairman. Thank you.
    I want to again thank all of our witnesses for being here 
today and for your testimony.
    If there are no more questions for today, members may also 
submit follow-up written questions for the record. The hearing 
record will be open for two weeks.
    Again, thanks to all of our witnesses. We appreciate it so 
much.
    We are adjourned.
    [Whereupon, at 3:59 p.m., the Committee was adjourned.]

                            A P P E N D I X

 Prepared Statement of Camille Ferguson, Executive Director, American 
                Indian Alaska Native Tourism Association
    Chairman Hoeven, Vice-Chairman Udall, and members of the Committee, 
I offer testimony on behalf of the American Indian Alaska Native 
Tourism Association (AIANTA) about breaking new ground in agritourism 
opportunities in Indian Country. Agritourism and cultural tourism are a 
vital part of rural development in the United States, including Indian 
Country. AIANTA is requesting that the economic strides being made in 
tribal tourism--and the needs and interests of a growing number of 
tribes and tribal entrepreneurs--be reflected in the next Farm Bill.
    AIANTA provides tribes and tribal members with training, technical 
assistance, educational resources, international and domestic marketing 
assistance and public land partnerships in a wide variety of cultural 
and agritourism development areas.
Indian Country Tourism Growth
    Indian Country is a unique part of the national and international 
visitor experience in America and is a strong contributor to the U.S. 
travel/tourism industry. International tourism to tribal destinations 
and experiences is an especially vital and growing market. Since AIANTA 
began marketing tribal destinations internationally in 2007, overseas 
visitors to Indian Country have increased 180 percent. According to the 
Department of Commerce, overseas travelers to Indian Country stay on 
average 12 days longer in the U.S., visit more states and destinations, 
take more domestic flights and rent more cars. In short, they spend 
significantly more travel dollars in the U.S. than other visitors.
    Tribal interest and investment is rising in agritourism as well as 
cultural tourism in Indian Country and both are excellent opportunities 
for rural development and small-business and job creation.
Agritourism Growth in the U.S.
    According to the Agricultural Marketing Resource Center and U.S. 
Census data, from 2007-2012 the number of farms with agritourism 
products increased by 30 percent and income from agritourism increased 
by a corresponding 23 percent during the same period. It is a popular 
and growing visitor activity domestically and internationally.
    We are also seeing opportunities emerging in farm rich communities 
throughout Indian Country. As of the 2012 census (new data anticipated 
with the upcoming census survey), there were 58,475 American Indian 
farm operators in the United States (2012 U.S. Census) with signs of 
growth: American Indian farmers, particularly those that are Principal 
Operators (37,851 in 2012), increased by 9 percent from the 2007 to 
2012 Census reporting.
    Sustainable agricultural infrastructure development and expansion 
creates a localized source for food access for communities and expands 
the impact of agriculture as an economic engine. As Native farmers grow 
their farming operations, agritourism and culinary tourism supports 
economic development goals and, in many tribal communities, an 
opportunity to further food sovereignty initiatives and efforts. Tribal 
agritourism development offers unique visitor experiences while 
supporting culture and the greater economy. Examples include farmers 
markets with tribal artisans; packaged food products to sell in 
galleries and gift shops; farm to table and culinary tourism; native 
food menus; cooking demonstrations, classes and participatory cooking; 
bed and breakfasts; buffalo culture; fishing culture; native food 
gathering tours and more.
    Currently, there are efforts by individuals and tribes to promote 
and preserve the agricultural assets specific to their communities, but 
there has not been a collective effort to identify where these efforts 
are and to document the methods used to preserve cultural integrity 
through sustainable practices. Further, there is a significant lack of 
access to training opportunities specific to tribal communities 
developing, enhancing or expanding direct producer to consumer 
operations and products. Due to lack of connectivity and resources, 
networking continues to be a challenge for tribes and native 
communities-especially for new and emerging ideas and approaches such 
as establishing and implementing best practices for tribal agritourism.
    There are few divisions of the Federal Government more capable of 
assisting tribes and tribal entrepreneurs in their tourism aspirations 
than Rural Development. Among Rural Development's programs, of special 
importance to tribes developing tourism programs and infrastructure and 
tribal members creating tourism businesses are: the Rural Business 
Development Grant Program, Rural Community Development Initiative 
Grants, Rural Micro-Entrepreneur Assistance Program, Special Evaluative 
Assistance for Rural Communities and Households (SEARCH) and the 
Business and Industry Loan Guaranty Program.
The Role of the NATIVE ACT of 2016
    Public Law 114-221 (NATIVE Act of 2016) directs federal agencies, 
including the Department of Agriculture, in Section 5 of the Act, to 
``(1) take actions that help empower Indian tribes, tribal 
organizations, and Native Hawaiian organizations to showcase the 
heritage, foods, traditions, history, and continuing vitality of Native 
American communities; (2) support the efforts of Indian tribes, tribal 
organizations, and Native Hawaiian organizations--(A) to identify and 
enhance or maintain traditions and cultural features that are important 
to sustain the distinctiveness of the local Native American community; 
and (B) to provide visitor experiences that are authentic and 
respectful; (3) provide assistance to interpret the connections between 
the indigenous peoples of the United States and the national identity 
of the United States; (4) enhance efforts to promote understanding and 
respect for diverse cultures and subcultures in the United States and 
the relevance of those cultures to the national brand of the United 
States; and (5) enter into appropriate memoranda of understanding and 
establish public-private partnerships to ensure that arriving domestic 
travelers at airports and arriving international visitors at ports of 
entry are welcomed in a manner that both showcases and respects the 
diversity of Native American communities.''
    One of the key actions the Department of Agriculture can take to 
implement the NATIVE Act is reference its provisions in the 2018 Farm 
Bill. This will ensure that Rural Development programs are responsive 
to the most viable tribal tourism development efforts in the Nation.
Examples of How the Farm Bill Can Support Rural Tourism
    The ways in which Rural Development can support the NATIVE Act and 
tribal tourism through the next Farm Bill are too numerous to mention.
    Research has shown there is significant demand for visitors to see 
and experience tribal cultures, landscapes, traditional agriculture and 
culinary experiences. As part of AIANTA's work to expand tribal 
capacity to respond to the demand, in 2017 AIANTA launched a tribal 
agritourism pilot program, which provided outreach and technical 
assistance and training to hundreds of tribal agribusinesses and tribal 
representatives. AIANTA intends to expand the impact of our work by 
providing technical assistance, resources and tools for rural tribes 
and tribal communities to develop tribal tourism and tribal agritourism 
products and programming. AIANTA is also working to market Indian 
Country tourism products domestically and internationally to continue 
to grow visitor demand. AIANTA's business plan includes tailored 
training opportunities and plans for more on-the-ground local and 
regional efforts to bring tourism training and technical assistance 
directly to Indian Country.
    A regional co-location approach (a tourism expert sharing space 
with other rural development experts for deployment to rural areas) or 
a circuit rider approach (such as the one offered by Rural Development 
for assistance with waste management issues) could make tourism experts 
from the industry and academia available to work directly with tribes 
in early stages of tourism development and management.
    With FY18 NATIVE Act funding, tribal Destination Marketing 
Organizations (DMOs) can begin to be organized in up to 10 states. 
North Dakota is working on a tribal DMO and Tribes in Montana/Wyoming, 
Arizona, New Mexico, Washington, Minnesota, Alaska and others have 
expressed an interest in developing this multi-tribal development and 
marketing strategy. These tribes can carry out their product 
development and destination marketing with Rural Development 
programming to create demonstrable results in income and jobs in the 
next 4-5 years.
Summary
    The 2018 Farm Bill can accelerate business and job creation through 
proven tourism development practices in Indian Country. AIANTA and its 
partners are doing this work and ready to assist the Senate Committee 
on Indian Affairs, the Congressional Agriculture Committees and USDA 
Rural Development in devising language that includes best practices and 
programs in rural tourism.
    Inclusion of rural tourism in the 2018 Farm Bill will ensure that 
tribal tourism, a burgeoning area of economic development, will 
continue to grow rapidly-to the benefit of rural, state and national 
economies.
    Thank you.
                                 ______
                                 
   Prepared Statement of Keith B. Anderson, Vice-Chairman, Shakopee 
                      Mdewakanton Sioux Community 
                      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 ______
                                 
  Prepared Statement of Ross Racine, Executive Director, Intertribal 
                          Agriculture Council
    ``Agriculture is the tradition.''--Ross Racine

        ''Again, we realize our future will come from the Indian uses 
        of Indian resources. There has never been a society in the 
        history of the world that has survived without the ability to 
        feed itself. A return to our proud stature will come through 
        the ability to sustain ourselves on what we have left of our 
        homelands. The use of those lands must come as goals set by the 
        individual reservations and be done in a manner prescribed by 
        the respective residents.''

    The preceding is a quote from Intertribal Agriculture Council (IAC) 
testimony to a Joint Hearing of the Senate Indian Affairs and Ag 
Committees in 1998. That is the last time a joint effort including the 
Senate Indian Affairs Committee has been undertaken to examine the 
needs of Indian Agriculture. In the spirit of that collaboration, our 
testimony will center around the opportunity that exists in the 
formation of farm policy through Farm Bill discussions, however it will 
also highlight several opportunities for improvement outside the 
parameters of the 2018 Farm Bill which are fully within the 
jurisdiction of this committee to address.
Agriculture Is the Tradition--The Farm Bill
    The Intertribal Agriculture Council fully supports and endorses the 
efforts and priorities of the Native Farm Bill Coalition as laid out by 
Janie Hipp during her oral testimony given at the hearing. While the 
witnesses did a very good job of explaining the particulars of 
Agriculture in Indian Country from the perspective of Tribes and Tribal 
farming and ranching operations, we are offering our additional 
testimony, not only to buttress their oral testimony, but to provide 
insight on the the issues that are important to the over 70,000 
individual Indian producers operating on 50,000,000 acres throughout 
Indian Country.
    Many of our initiatives address capacity building in Indian Country 
so our people are empowered to take care of their own needs. Credit 
Deserts exist in Indian Country, and improving access to fair and 
reasonable credit is imperative in order to improve profit margins, and 
will allow personal investment in further infrastructure to engage in 
value-added agriculture. Federal resources are needed to address the 
shortfalls in available capital and increasing flexibility in Rural 
Development programs can alleviate this. We will delve more deeply into 
each of these items in turn; but the need for additional capacity 
development must first be discussed.
Unique Needs in Indian Country and The Quapaw Exception
    Chairman John Berrey does a tremendous job at Quapaw, and we are 
proud of the work they are doing. It is the essence of value-added 
Agriculture. The question that needs to be asked however is: ``If your 
territory wasn't right alongside an interstate highway with `10 million 
cars a year' driving by; offering up the customer base for a `lucrative 
Resort and Casino' that provides the capital that fuels your 
Agriculture operation; how far along would you be in your efforts to 
construct your state of the art $5 million processing plant, or in your 
efforts to provide free bison meat to people in your community?''
Quapaw is a notable exception to the norm in Indian Country.
    More than half of the 567 Federally Recognized Tribes do not have a 
casino. Fewer still have casinos that do much more than struggle to 
stay in the black in unpopulated areas as a means to provide some 
employment to their members. While the visionary leadership at Quapaw 
should be lauded and held up as an example of what can be, when 
commitment, resources, and planning converge, the entire picture must 
be examined more closely.
    The willingness of the Quapaw Tribe to share not only their 
operational and conceptual plans freely with their fellow Tribes only 
gets part way to the solution. There exists a gaping chasm between 
Native American Agriculture and Native American Food that can only be 
bridged by accessible capital resources.
Rural Development and SUTA Language
    The lack of available capital to develop resources pervades Indian 
Country and serves to stifle economic development, and is the very 
foundation upon which impoverished communities exist. The willful 
extraction of resources that forced a growing nation to acquire these 
lands in the name of progress continues to this day in our reservation 
food economies.
    In 2012, $3.4 Billion in gross sales were attributed to Indian 
Country Agriculture. This number is representative of the 14.3 percent 
of a dollar's worth of food that actually constitutes the producer's 
share according the Economic Research Service at USDA. The potential 
economic impact of changing Indian Agriculture from commodities to 
ready to eat food, The Food Opportunity Multiplier, can therefore be 
summed up by the following equation:

        100 percent (Total Food Dollar)/14.3 percent (Producer's Share) 
        = FOM (Food Opportunity Multiplier) 6.99 = FOM

    In all likelihood, 14.3 cents is probably an overstatement of the 
producer's share in Indian Country, given the cost of capital and the 
distance from the infrastructure needed to create food; but we will use 
this number for effect. The FOM in this case is 6.99. A generous 
estimate of the percentage of Indian Agriculture that is already turned 
into food is 1 percent, but again for the sake of explanation we will 
use 10 percent, leaving us with only $3,000,000,000 to apply the FOM 
to. Table 1. below provides some perspective.


                                 Table 1. Food Opportunity Modifier Illustrated
----------------------------------------------------------------------------------------------------------------
                                                   Raw Ag Products       BIA Budget 2012       IHS Budget 2012
----------------------------------------------------------------------------------------------------------------
Value                                                 $3,000,000,000        $2,531,000,000        $5,380,000,000
FOM                                                             6.99
Retail Potential                                     $20,970,000,000      IHS/BIA Combined        $7,911,000,000
----------------------------------------------------------------------------------------------------------------

    The missing part of this equation is infrastructure to develop 
Agriculture products into food. Without access to casino revenues, most 
Tribal ag ventures must compete for meager capital resources balanced 
against the emergent needs of impoverished populations. Much of the 
other potential for enhancing this opportunity is within the USDA's 
Rural Development programs. Prohibitive requirements for participation 
in Rural Development programs; serve to prevent value added agriculture 
in Indian Country. The solution however is clear, and has already 
demonstrated a modicum of success in one such program. Within the Rural 
Utilities Service, there exists a provision wherein the Secretary of 
Agriculture can waive cash matching requirements and offer other more 
favorable terms to facilitate and incentivize development. The 
Substantially Underserved Trust Areas provisions, if applied more 
broadly through the Farm Bill, where Tribal participation is 
contemplated; could help eliminate one barrier to improved production.
Credit Deserts
    As stated earlier, it is a matter of fact that the access to credit 
taken for granted by much of American Agriculture is nonexistent in 
Indian Country. Our work over the past 30 years has helped to improve 
access to Farm Service Agency loans for many of our producers, however 
the policy of the FSA is to prepare producers for a credit environment 
that simply doesn't exist in Indian Country. FSA policy however, has 
been promulgated with the notion that there is a norm of credit 
availability in rural America that can be equally and fairly accessed 
by all by developing their business through the FSA Loan Programs. Our 
standing recommendation that serves as the foundation for all of our 
policy requests within the Credit title is an examination of Credit 
Deserts in Indian Country. Our definition from one of our early reports 
of a Credit Desert is the ``lack of presence and availability of credit 
at fair and reasonable terms.''
Redlines in the Margins
    The impact of Credit Deserts are far reaching and much broader than 
first glance. For producers operating on a tight margin, oftentimes 
there is precious little difference between poor financing and no 
financing at all. The average Net Farm Cash Income across all sectors 
of agriculture for 2017 is projected to be 4 percent. Absent a study on 
this metric, specific to Indian Country, we must look to Ag Census 
numbers that indicate the average Annual Market Value of Products Sold 
is , of the All Farm Average (American Indians = $57,801; All Farms = 
$187,097). Not only are Indian producers faced with lower disposable 
income, they are also faced with interest rates that quickly consume 
any profit margin that may be realized in the best of years. The 
difference between and FSA Farm Operating Loan at 3 percent vs. a loan 
from a commercial lender at 7-13 percent can literally determine 
whether you stay in business or not.
    Now this isn't to say that non-Indians don't suffer a similar 
dilemma from time to time, but this is far more likely to be the norm 
in the Credit Deserts that are Indian Country. What makes Credit Desert 
environments even more devastating is the ever-pervasive myth that 
``you can't mortgage trust land.'' When non-Indian producers with real 
estate assets find themselves in economic distress due to market 
volatility or weather related disasters, they can always fall back on 
the ability to go to virtually any lender, pledge land as security, and 
receive an extended period of time to repay the debt; typically 20-40 
years. The capital secured by the mortgage can be used for annual 
operating expenses to get to the next production cycle, acquisition of 
income enhancing chattel, and can be paid back on a schedule that 
allows positive cashflow.
    Clients of our Technical Assistance Network have been told, in no 
uncertain terms, by several banks in Indian Country that they ``will 
not take trust land as collateral.'' What they are in fact saying is 
this: Because of our lack of familiarity with Federal and Tribal laws 
and policies that you as and American Indian are subject to, we are 
choosing not to serve you as we would a non-Indian member of our 
lending community. What this lack of willingness to serve the community 
has created is an environment where confusion and misunderstanding 
dictate lending policy. Even Indian law experts have uttered the phrase 
``you can't mortgage trust land.'' Congress has, in fact, legislated 
solutions to a problem that ceased to exist in when it first addressed 
the matter in 1956. The confusion that remains is because ``Indian 
land'' or ``trust land'' is used generally to describe of various types 
of ownership without distinction. Tribal Land, held in common by the 
membership of the Tribe is subject to prohibitions on encumbrance of 
based on Tribal Constitutions and Tribal law; not as a matter of 
Federal policy. Individuals have had the authority (with approval of 
the Secretary of Interior) to secure financing with their trust land, 
through an actual mortgage since the 1950's. The Department of 
Interior's administration of this process contributes to the banks 
ability to hide behind the myth, and is further elaborated on below 
(see Legislating Process to Address Inconsistency ). For now, a further 
examination of the impact of the Credit Desert reality.
    In 7 years of operation throughout Indian Country (primarily in the 
Great Plains, Rocky Mountain, and Northwest Regions), only one client 
of hundreds the TA Network has worked with was able to secure financing 
from a commercial lender to acquire trust land. The bank in this case 
offered him the loan at 6 percent, with a repayment term of 6 years. 
For the sake of simplicity, let's assume it was 200 acres at a purchase 
price of $500 per acre.


           Table 2. Credit Desert Lending-Impact on Cash Flow
------------------------------------------------------------------------
                                                    Bank Mortgage or FSA
                               Indian Country Loan          Loan
------------------------------------------------------------------------
Amount                                    $100,000              $100,000
Term                                       6 years              30 years
Interest Rate                                   6%                    3%
Annual Payment                             $20,336                $5,101
------------------------------------------------------------------------

    To the largest of operations $14,885 in available cash flow can 
make a huge difference. To an Indian Producer operating on the redlined 
margin, it was the difference between being able to diversify and open 
a lumber company, and foreclosure over poorly structured debt.
GAO Study on Agriculture Credit in Indian Country
    In order to improve the ability of Indian borrowers and Tribes to 
fit the lending environment, an analysis of the availability of credit 
for agriculture enterprises must be conducted. This analysis should be 
conducted through the lens of legislation such as the Community 
Reinvestment Act, and the Federal Home Loan Bank lending agreements, or 
other policies aimed at ensuring banks are serving their communities in 
return for access to affordable currency. The IAC would welcome the 
opportunity to collaborate with the Committee and/or Senators in 
developing the parameters of such a study request based on our 
extensive experience assisting producers in this environment. Until 
this is done, the following constitute our requests for the Credit 
Title of the 2018 Farm Bill.
Structuring Loans to Suit the Business
    Authorize several innovative loan structuring measures in the 2018 
Farm Bill. For example, currently FSA will lend 100 percent the cost of 
bred livestock. It will then subordinate its lien position to a local 
commercial lender for annual production costs, increasing the amount of 
debt secured by the same amount of assets, sometimes by as much as 25 
percent. If the first year of operating expenses could be included in 
the original loan, and amortized over the life of the secured asset, 
producers would end the year with cash in the bank, allowing producers 
to take advantage of pricing opportunities on input materials, 
replacement stock, or expansion opportunities. Such an approach would 
incentivize operating from available resources, instead of what could 
be borrowed on an annual basis.

        Example: Current Situation: Cow Loan; $200,000 @ 3 percent over 
        5 years = $43,000 Annual Debt Service ($37k P $6k I) Operating 
        capital: $75,000 at 6-7 percent paid annually = $79,000 Annual 
        Debt Service Total Debt Service of $120,000 in an average year 
        will consume all production income. No opportunity to expand or 
        mitigate market or other disasters. Security position of FSA: 
        2nd on $200,000 in assets1

        Under Proposed Solution: Cow and Operating Loan of $275,000 @ 3 
        percent over 7 year = $43,000 Annual Debt Service Total Debt 
        Service of $43,000 ($35k P, $8k I) At least $75,000 in bank or 
        retained assets for operating, expansion, or disaster. Security 
        position of FSA; 1st on 200,000 in chattel.

Debt Restructuring for FSA Planning Prices
    When commodity price cycles run contrary to the mandated FSA 
Planning Prices, despite a producer's inclination to plan 
conservatively, producers are often faced with choice of accepting a 
plan based on those planning prices, shutting down their operation, or 
being forced into the hostile world of unfair commercial credit in 
Indian Country. In cases that FSA planning prices are 20 percent lower 
than the actual prices, a producer should be able to restructure their 
debt in a way that will not count towards lifetime limits on loan 
servicing.

        Example: Producer A will have 100 head of 500 lb. calves for 
        sale. FSA planning price is 1.75 per pound. Repayment of FSA 
        debts and operating capital are based on this price, and under 
        current practices FSA will try to shorten the term of the loan. 
        Actual price at sale time is $1.35. A shortfall of $20,000 
        results in a lack of capital to make all necessary obligations, 
        placing the borrower at risk of default.
Socially Disadvantaged Interest Rate
    Update the Socially Disadvantaged Rate (SDR) interest rate for FSA 
loans from a static number (currently 5 percent) to number indexed to 
the prevailing rate and set at 50 percent of the standard rate. The 
current rate was set years ago when the prevailing interest rate was in 
the double digits and should already have been revisited and revised.
    Example:
    Borrower A seeks FSA loan and is offered SDR of 5 percent results 
in a 2 percent HIGHER rate than non-Socially Disadvantaged producers. 
(3 percent as of January 1, 2018)
    FSA Food Loan Authority
    Under current program guidelines, there is some latitude for 
producers whose production will take a period to fully ramp up. Initial 
payments can be made at an 18-month mark rather than within the first 
year. This same methodology should be employed for producers wishing to 
take their raw product to the next step in the value chain.

        Example: Borrower A would like to borrow $50,000 to start a 
        custom beef business. Will not have first beef in the box until 
        18-20 months after loan closing. First payment is due one year 
        from date of loan closing; binding Borrower A to the commodity 
        market. 2016 Market price for live calves = $800/hd (500 lb. @ 
        $1.60). 2017 Market price for beef $2,527 (675 lb. @ $3.60). 
        $1,700 in gross profit leaves the local due to FSA 
        inflexibility. It also eliminates the possibility for the 
        original dollar to turn in the local economy by causing the 
        animal to fed, processed, and marketed in other locations off-
        reservation.

FSA Forgiveness for American Indians
    Under current FSA practices, many producers that have received a 
debt write-down, write-off or other forms debt servicing are barred 
from further participation in FSA loan programs; giving them literally 
nowhere to go for financing. Native American producers feel the impact 
of this disparately, because they live in Credit Deserts. Any producer 
with debt forgiveness prior to 2004 should be allowed participation in 
FSA loan programs without regard to previous circumstances.

        Example: For Borrower A, everything is in order, and the loan 
        has a positive cash flow allowing him to improve his standard 
        of living, and improve the local economy. He is denied because 
        of loan servicing he had in the late 1980's when active 
        discrimination was taking place against Indian producers all 
        across the country. He is unable to appeal, or have any other 
        recourse.

Remove the Graduation Requirement for FSA programs
    Due to the existence of Credit Deserts on and near Indian 
reservations, it is difficult to access viable credit rates for even 
experienced producers operating farms and ranches on trust lands. 
Removing the statutory requirement for Indian producers operating on or 
near Indian Reservations to graduate from FSA programs would allow 
agriculture operations to be more stable and assist other producers who 
farm and ranch in areas where credit access is tenuous at best.

        Example: Borrower A has an FSA Farm Operating loan and is in 
        their 10th year of participation. FSA pushes producer towards 
        graduation. As an example of the nature of commercial credit in 
        Indian Country, one local hometown bank on the reservation 
        offers a loan of 12.9 percent on a ranch vehicle to a known 3rd 
        generation customer. That customer seeks financing from a chain 
        bank in another state and receives an offer of less than 3 
        percent. That is the environment that FSA Graduation 
        requirements force Indian producers into.

        Borrower B through thoughtful planning has the opportunity to 
        use a Disaster Set-Aside to establish a working capital reserve 
        to secure more land which will serve to further mitigate 
        further disaster impacts. Borrow B is told by their loan 
        officer that isn't allowed, and that ``we can't make you look 
        to good or I have to send you to a bank.''

Remove the Requirement for Private Credit Denial
    Pending the outcome of the GAO Report, explicitly exempt tribal 
producers from the FSA requirement of obtaining denial letters from 
private credit sources in order to participate in an FSA loan program. 
The general lack of private lending available in Indian Country renders 
the requirement onerous and unduly burdensome.

        Example: Producer A, who meets the definition of a Beginning 
        Farmer or Rancher, downloads and completes an FSA Farm 
        Operating Loan Application. Upon submitting this complete 
        application, containing everything the FSA might need to 
        approve a loan, a letter is generated that tells the borrower 
        he must complete the process of applying for a loan at a bank, 
        and get denied, TWICE, before their application can be 
        considered. As an example of the nature of commercial credit in 
        Indian Country, one local hometown bank on the reservation 
        offers a loan of 12.9 percent on a ranch vehicle to a known 3rd 
        generation customer. That customer seeks financing from a chain 
        bank in another state and receives an offer of less than 3 
        percent.

Legislating Process to Address Inconsistency
    The Farm Bill notwithstanding, our service to Indian Country 
agriculture in the last 30 years has shed light on other instances 
where thoughtful action on behalf of Indian Country by the Senate 
Committee on Indian Affairs, and subsequently Congress as a whole, and 
finally the Executive Branch, can have a meaningful, and nearly 
immediate impact on enhancing the economic opportunities afforded 
through Agriculture development. It is worth noting that each of these 
challenges is and has been surmountable under current law, but the 
breakdown in policy or willingness inhibits progress. The solution is 
best arrived at by legislating streamlined policies that aren't subject 
to interpretation or burdensome process and policy. These policies will 
serve to eliminate duplicative and costly federal processes, in 
addition to clearing the way for commercial credit to participate on a 
more robust level in Indian Country.
Streamlining the Mortgage Process
    As discussed earlier, the ability of an individual Indian or a 
group of individual Indians desirous of pledging their trust land as 
security for financing has been available since 1956. Confusion and 
unwillingness on the part of some lenders, compounded by a process that 
within the same region can take from 2 weeks to 2 years. As it is 
currently written there are no requirements for timely review built in 
to the regulations. BIA officials receive an application for mortgage 
from Farm Service Agency for example, to review for approval. 
Oftentimes, because of different delegations of authority, that review 
may include a review of the business plan by the local BIA credit 
officer, or even the BIA regional credit official. Bear in mind, the 
business plan has been prepared by an individual that has done the 
requisite research to convince a trained professional to allow for the 
use of taxpayer dollars to finance the project.
An Appraisal is an Appraisal
    The unwillingness of one Department to accept the appraisal 
generated at the request of another Department can cause further 
untoward delays in economic development. The appraisal function of the 
Interior Department being relegated outside the line of authority of 
the local designee of the Secretary (Interior) and the funding 
limitations of the OST in carrying out those appraisals, can result in 
an individual with a valid appraisal, by a certified appraiser, and a 
willing lender, to put their plans on hold while they wait for the OST 
(BIA's) appraisal to be funded and completed. Further lending to the 
the inefficiency, in many places, the same appraiser serves both 
Departments. An appraisal provided by a certified appraiser should 
suffice for either, or both Departments, regardless of requesting 
entity, or payment therefrom.
BIA Guaranteed Lending
    Currently there is a 20 percent equity requirement for applicants 
for the 90 percent BIA Guaranteed Loan. This requirement, when taken in 
the context of Credit Deserts and the lack of available capital 
resource and assets in Indian Country can serve to stymie progress as 
well. Simply aligning the two at 10 percent along with eliminating the 
aforementioned bureaucratic hurdles, could facilitate increased lender 
participation.
CDFIs-Automatic Certification Upon Treasury Certification
    The unmet credit need in Indian Country (and elsewhere) has lent 
itself to the creation of a burgeoning market of non-typical lenders. 
Community Development Financial Institutions serve as the advance team, 
or special forces, if you will, in lending in Indian Country. A 
familiarity with local policy, custom, and risk, makes these entities 
often the best equipped to serve their community. Each of these lenders 
must pass through a rigorous process within the Department of Treasury 
in order to be Certified CDFIs. Upon reaching this milestone, they 
would then have to largely repeat the process to become a Guaranteed 
Lender in the BIA, FSA, HUD, or SBA programs. Treasury Certification as 
a CDFI should be the standard that provides automatic qualification for 
participation in any federal guarantee programs.
Conclusion
    Since establishment at the recommendation of the then Senate Select 
Committee on Indian Affairs, the Intertribal Agriculture Council has 
sought to fulfill its overarching mission of improving the use of 
Indian resources by Indian people for the betterment of their 
communities. The IAC welcomes the opportunity to engage in further 
discussions with the Senate Committee on Indian Affairs, and would like 
to thank Chairman Hoeven, Vice-Chairman Udall, the members of the 
Committee, and the staff for their attention to what we feel is an 
inextricable piece of true sovereignty, self sufficiency, and self 
determination.
                                 ______
                                 
  Prepared Statement of Hon. Virgil Siow, Governor, Pueblo of Laguna 
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 
 Prepared Statement of Hon. Aaron Payment, Chairman, Sault Ste. Marie 
                       Tribe of Chippewa Indians
    My name is Aaron Payment. As a member and as the leader of the 
Sault Ste. Marie Tribe of Chippewa Indians, I am speaking on behalf of 
the Tribe. As always, my Tribe and I want to work in partnership with 
you.
    The Sault Ste. Marie Tribe of Chippewa Indians is located in the 
Great Lakes area, along the Michigan--Canadian border. With over 44,000 
members, my Tribe is the largest Tribal government east of the 
Mississippi River. Although our Tribal service area extends over 7 
counties in rural Michigan, we have very limited reservation lands.
    Our goals are similar to the goals of other rural Americans: We 
want successful rural communities, strong economic growth, solid 
infrastructure, and sustainable development. To achieve these goals, we 
will all need to work together.
    Overall, reforms are needed within the Farm Bill. The United States 
economy requires all Americans to do more, with less. This testimony 
provides insight as to how the Farm Bill can be improved in ways that 
will enable rural America to thrive, without significantly increasing 
the overall budget.
Parity Treatment
    Tribes are sovereign governments, recognized by the United States 
Constitution. \1\ The U.S. Constitution places Indian Tribal 
governments at the same level as state governments and foreign nations. 
\2\ Although the Farm Bill recognizes state and local government 
authorities throughout its text, very few places within the Farm Bill 
recognize the direct authority of Tribes. This needs to change.
---------------------------------------------------------------------------
    \1\ Article I, Section 8 (The Commerce Clause); Article II Section 
2, Clause 2 (The Treaty Clause); Article IV, Section 3, Clause 2 (The 
Property Clause).
    \2\ Article I, Section 8
---------------------------------------------------------------------------
Government-to-Government Relationship
    Tribal governments have been recognized in the U.S. Constitution, 
the federal court system, and by law makers throughout the history of 
the United States. The relationship between the federal government and 
the Indian governments is long established. The Farm Bill needs to 
require the establishment of Tribal Offices within the U.S. Department 
of Agriculture that reflect this relationship.
Farm Bill Accessibility
    The success of the Farm Bill can be measured by its accessibility 
to rural America. Although the Bill provides easy access to programs 
for most, it largely fails to accomplish this, for Tribes. This failure 
needs to be rectified.
Reaching Our Goals
    Achieving parity treatment for Tribes, expanding recognition of the 
government-to-government relationships, and creating improved Farm Bill 
accessibility can all be achieved if we work together. For example, my 
Tribe encourages Tribal representation on Advisory Committees and 
Technical Committees. Furthermore, as Congress drafts the Farm Bill, we 
urge lawmakers to work with national inter-Tribal organizations (Native 
Farm Bill Coalition, the Inter-Tribal Agricultural Association, and the 
National Congress of American Indians) and with individual Tribes, like 
the Sault Ste. Marie Tribe of Chippewa Indians.

         *The in-depth analysis and proposed solutions regarding each 
        of the issues has been retained in the Committee files.*

    Attachment
    Dear Senator Hoeven:
    As the elected Tribal Chairperson of the Sault Ste. Marie Tribe of 
Chippewa Indians, I am writing on behalf of my Tribe. This letter 
concerns existing challenges and opportunities within the 2018 Farm 
Bill.
    Success of the Farm Bill can be measured by its accessibility to 
rural America. Although the bill provides easy access to programs for 
most, it largely fails to accomplish this, for Tribes. My Tribe has 
been able to identify areas requiring reform, as well as concrete ways 
to accomplish necessary changes. We have also provided suggested 
legislative language. This information is available in our ``2018 Farm 
Bill--Challenges and Opportunities'' document, *
---------------------------------------------------------------------------
    * The information referred to has been retained in the Committee 
files.
---------------------------------------------------------------------------
    Some of the issues can be easily solved: For example, one reason it 
is difficult for Tribes to access Farm Bill programs is because there 
is not a common definition of ``land owned by Indian Tribes'' across 
all the USDA programs. There is inconsistency in the definition even 
within programs run by a single agency. By requiring a common 
definition, the Farm Bill can create greater program accessibility for 
Tribes across the United States. Another example of a ``quick fix'' is 
the need for the Farm Bill to require clarification that the Farm 
Credit Administration and its Farm Credit System member institutions 
are authorized to provide lending services to tribal governments, 
tribal farmers and ranchers, tribal businesses (including but not 
limited to cooperatives). Clarification will quickly create 
significantly greater loan accessibility for Tribes.
    Some issues merely require greater interdepartmental cooperation. 
For example, Tribal members are required to meet multiple requirements 
from multiple US agencies and departments. Some have been found in 
violation of USDA program requirements because of conflicting 
requirements required by the US Department of Interior. The Farm Bill 
needs to require agencies and departments to hold harmless, members who 
have been directed by federal agencies to act in a way that is contrary 
to requirements set by another federal agency.
    Other issues are more challenging, but are already close to 
achieving solid solutions: For example, Tribes want to have direct 
authority to administer their own federal food assistance programs 
which they are currently not allowed to directly manage. The USDA has 
already done a study, released in 2016, that found Tribes can manage 
food programs, but need clear 638 Overall, greater Tribal 
representation is needed in all advisory bodies (including technical 
advisory bodies). It is also recommended that wherever the Farm Bill 
makes reference to ``states'', it needs to include ``Tribes'' as well.
    Other issues are more difficult to easily fix. For example, we need 
to change the way we use FDPIR and SNAP. Our people are not being fed 
enough. Allowing those who participate in FDPIR to also simultaneously 
participate in SNAP would make positive change. Neither program 
provides enough food for participants in remote places; by allowing 
simultaneous usage of the programs these two supplemental feeding 
programs can be combined to actually result in addressing food 
insecurity.
    Before closing, I would be remiss if I did not address the 
possibility of program restructuring. It is understood that facing 
significant federal budget constraints, lawmakers may restructure food 
programs in the 2018 Farm Bill. Two changes have been discussed in the 
past, and my Tribe wishes to discuss them, here:
    Block granting federal food programs: President Trump's March 2017 
Skinny Budget included the possibility of block granting SNAP through 
state governments. If Congress chooses to restructure federal food 
programs by block granting them through state governments, the Sault 
Ste. Marie Tribe of Chippewa Indians strongly recommends the federal 
treatment of Tribes as state governments. The alternative (blocking 
food programs through state governments and requiring Tribes to go 
through state processes to access federal programs) is impractical, 
unworkable, and, we believe, illegal: State governments do not have a 
government-to-government relationship with the Tribal Nations, nor do 
they have treaty obligations to provide for the health and general 
welfare of Tribes. The relationship between Tribal and state 
governments has been historically inconsistent and unreliable. 
Recently, state government administration of federal programs (like, 
LIHEAP) has hampered Tribes' abilities to fully implement needed 
services. To make Tribal governments dependent upon state governments 
for food distribution programs would be wholly unacceptable.
    Work Requirements: Work requirements should be recognized as 
inapplicable to federally-recognized Tribes. Tribal people don't need 
to ``work'' for federal benefits. Food and health benefits (and more) 
are already owed to us. Within the Treaties between the United States 
and the Indian Nations, the federal governments promised Tribes that, 
in exchange for all the Tribal lands and resources, it would continue 
to recognize Tribal sovereignty and provide forth health and general 
welfare of Tribal members, in perpetuity. Tribal nations met our part 
of the bargain. We gave the federal government everything we had. In 
the end, food benefits, is exactly the kind of thing that has been 
``bought and paid for'' by the Tribal people. Any work requirements 
necessary for federal programs are inapplicable to federal recognized 
Tribes.
    I close this letter with my sincerest hope that we can work with 
you to achieve the changes discussed, herein. Again, please note the 
in-depth analysis and proposed solutions regarding each of the issues 
can be found in the ``2018 Farm Bill--Challenges and Opportunities'' 
document.
        Respectfully,
                                           Aaron A. Payment
                                 ______
                                 
   Prepared Statement of United South and Eastern Tribes Sovereignty 
                       Protection Fund (USET SPF)
    On behalf of the United South and Eastern Tribes Sovereignty 
Protection Fund (USET SPF), we are pleased to provide the Senate 
Committee on Indian Affairs with the following testimony for the record 
of the Committee's recent hearing, Breaking New Ground in Agribusiness 
Opportunities in Indian Country held on January 17, 2018. As it 
considers the reauthorization of the Farm Bill nears in 2018, Congress 
must use this opportunity to uphold the federal trust responsibility 
and fully engage with Tribal Nations in the development and negotiation 
of this important legislation.
    USET SPF is an intertribal organization comprised of twenty-seven 
federally recognized Tribal Nations, ranging from Maine to Florida to 
Texas. \1\ USET SPF is dedicated to enhancing the development of 
federally recognized Tribal Nations, to improving the capabilities of 
Tribal governments, and assisting USET SPF Member Tribal Nations in 
dealing effectively with public policy issues and in serving the broad 
needs of American Indian and Alaska Natives (AI/ANs).
---------------------------------------------------------------------------
    \1\ USET SPF member Tribal Nations include: Alabama-Coushatta Tribe 
of Texas (TX), Aroostook Band of Micmac Indians (ME), Catawba Indian 
Nation (SC), Cayuga Nation (NY), Chitimacha Tribe of Louisiana (LA), 
Coushatta Tribe of Louisiana (LA), Eastern Band of Cherokee Indians 
(NC), Houlton Band of Maliseet Indians (ME), Jena Band of Choctaw 
Indians (LA), Mashantucket Pequot Indian Tribe (CT), Mashpee Wampanoag 
Tribe (MA), Miccosukee Tribe of Indians of Florida (FL), Mississippi 
Band of Choctaw Indians (MS), Mohegan Tribe of Indians of Connecticut 
(CT), Narragansett Indian Tribe (RI), Oneida Indian Nation (NY), 
Pamunkey Indian Tribe (VA), Passamaquoddy Tribe at Indian Township 
(ME), Passamaquoddy Tribe at Pleasant Point (ME), Penobscot Indian 
Nation (ME), Poarch Band of Creek Indians (AL), Saint Regis Mohawk 
Tribe (NY), Seminole Tribe of Florida (FL), Seneca Nation of Indians 
(NY), Shinnecock Indian Nation (NY), Tunica-Biloxi Tribe of Louisiana 
(LA), and the Wampanoag Tribe of Gay Head (Aquinnah) (MA).
---------------------------------------------------------------------------
    Agriculture is among the largest economic development industries in 
Indian Country, providing $3.4 billion per year in revenue. In 
addition, more than 50 million acres of Tribal land throughout Indian 
Country is engaged in food and agriculture to some extent. Though 
agriculture has had such a big impact within Indian Country, Tribal 
Nations have been left out as key partners in the development of 
previous Farm Bill negotiations. As a result, Tribal Nations are left 
without access to vital programs, such as nutrition programs, within 
the U.S. Department of Agriculture (USDA) that would help to provide 
healthy, sustainable and traditional food to Tribal Citizens. Though 
USET SPF appreciates the importance of Tribal agribusiness, we 
underscore the need to address larger agricultural needs for Tribal 
Nations within the Farm Bill, including the Nutrition and Conservation 
titles. With this in mind, we strongly support the testimony and 
legislative initiatives of the Native Farm Bill Coalition on the wide 
variety of Tribal priorities for this reauthorization. Below, USET SPF 
would like to highlight several Farm Bill priorities on behalf of our 
member Tribal Nations.
Tribal Parity
    Overall, Tribal Nations must have parity when it comes to accessing 
all federal programs that would address any sort of disparities 
experienced within Tribal communities, including but not limited to 
infrastructure, health and safety. Full parity provides Tribal Nations 
with the tools that state and local governments already enjoy, to make 
important investments in their own communities. Therefore, Tribal 
Nations and Tribal producers must have equitable access to programs 
under all the titles within the Farm Bill. Full parity would allow 
Tribal governments, producers, and organizations access to every 
program allowed within USDA. Greater access to USDA programs would 
provide Tribal Nations with a wide range of support to build and 
strengthen agricultural economies, including:

  <bullet> Providing direct assistance to Tribal agricultural 
        enterprises and individual AI/AN producers;

  <bullet> Increasing access to credit and capitol for AI/AN farmers 
        and ranchers;

  <bullet> Promoting conservation and best practices to enhance 
        vitality of Tribal lands for agricultural production and forest 
        land management;

  <bullet> Directly supporting Tribal Nations to meet their nutritional 
        needs by increasing access to Tribal traditional foods, helping 
        to address health disparities; and

  <bullet> Developing infrastructure, such as water and electricity 
        utilities.

    Unfortunately, many of these programs, with some notable 
exceptions, are not currently tailored to the needs of Tribal Nations. 
The Farm Bill establishes the framework for USDA programs to serve 
America, therefore, now is the time to address the limitations to full 
access to crucial USDA programs by Tribal Nations. It is imperative 
that the reauthorization of the Farm Bill achieve Tribal parity within 
each title of the Farm Bill and not just a handful of provisions.
    Specifically, USET SPF requests full parity for Tribal Nations 
under the Conservation title. There is a growing need for Tribal 
Nations to access the USDA programs that provide conservation services. 
Parity for Conservation programs is essential to Tribal Nations, as 
these programs help to provide protection and sustainability of Tribal 
land as well as Tribal agricultural products. USET SPF recommends that 
this can be accomplished by including or inserting the term ``Tribal'' 
into provisions where reference is made to ``state'', ``local'' or 
``regional'' producer.
    Improving access to USDA programs and funding for Indian Country 
will help to ensure Tribal governments have the ability to establish 
long-term plans and goals for their communities and the surrounding 
rural communities. In addition, improving revenue streams for Tribal 
Nations within the Farm Bill will help Native farmers and ranchers 
continue to grow their food businesses and build Tribal food systems to 
support their economies and communities.
Tribal Set-Asides and Technical Assistance
    The Farm Bill must reflect the unique status of Tribal Nations and 
the government-to-government relationships with the United States. 
Currently, Tribal Nations compete with states and other Tribal entities 
to attain vital USDA funding. Tribal Nations should not have to compete 
with states or other Tribal entities to provide their citizens with the 
resources they critically need. This is contrary to the federal trust 
responsibility to Tribal Nations, and results in a severe lack of 
parity in access to resources for Tribal citizens. Tribal set-asides 
within each title of the Farm Bill will help to address the inadequate 
agricultural funding in Indian Country as well as help to address the 
unmet federal trust obligations for Tribal Nations. For example, many 
Tribal governments manage central infrastructure within their 
communities such as critical electric and water systems, which are 
covered by the Rural Development title of the Farm Bill. A Tribal set-
aside within Rural Development would help to address a lack of utility 
infrastructure on Tribal land.
    In addition, due to the unique characteristics of Tribal Nations, 
including the unique status of some Tribal lands and legal jurisdiction 
in Indian Country, specialized technical assistance must be provided to 
Tribal Nations within the Farm Bill. At times, those providing 
technical assistance on USDA programs have little to no experience in 
working with Tribal producers or other Tribal entities. Lack of 
technical assistance has contributed to Tribal Nations not being able 
to access vital USDA programs.
Traditional Foods
    Though Tribal Nations have access to millions of acres of land that 
are already engaged in some form of agriculture or food production, 
these foods do not stay within Tribal communities. At this time, the 
$3.4 billion generated annually through Tribal agriculture efforts is 
more than 99 percent raw commodities, instead of the healthy, local, 
economically beneficial, and nutritious food needed in Tribal 
communities and rural areas. Access to traditional and healthy foods is 
not just an economic issue, but a health and sustainability issue as 
well. When it comes to the production and access of traditional foods, 
the Farm Bill plays a important role within Indian Country to ensure 
Tribal Nations have the resource they need to address the health 
disparities within their communities.
    Food sovereignty is crucial to the health and overall wellbeing of 
Tribal communities. A lack of healthy foods has only exacerbated health 
disparities, including the prevalence of diabetes, heart disease, 
obesity, cancer and other chronic diseases within Tribal communities. 
Across Indian Country, Tribal Nations and Tribal producers are actively 
engaging in food sovereignty projects that would increase the amount of 
traditional food, including fresh fruit, meat, and vegetables within 
Tribal communities. The Farm Bill must include provisions that would 
ensure Tribal food sovereignty and traditional food programs are 
supported under USDA. This includes ensuring Tribal Nations and Tribal 
agriculture programs have equal access to vital agriculture programs 
that would support traditional food programs, including, for example, 
the Specialty Crop Block Grant Program. The sustainability of 
traditional foods and crops are vital to the cultural and spiritual 
lives of Tribal citizens.
    In addition to equal access to USDA program funding for the 
enhancement of Tribal traditional food programs, the Farm Bill must 
direct USDA to take the necessary steps, including engaging in 
comprehensive Tribal consultation, to ensure that Tribal products are 
given the maximum protection under federal law so that they are 
protected from non-Tribal commercialized purposes. Tribal products are 
often derived from traditional seeds, which are among the most sacred 
items to individual Tribal Nations. The Farm Bill must reflect the 
inherent right and sovereign status of Tribal Nations to protect 
traditional seeds not just to ensure biosecurity and food security for 
their communities, but to preserve market competitiveness for Tribal 
products as well.
Self-Governance of SNAP and other Nutrition Programs
    Finally, barriers to Tribally-run nutrition programs must be 
addressed within the Nutrition title of the Farm Bill. As a matter of 
governmental parity, Tribal Nations must have the authority to engage 
in Tribal Self-governance to administer the Supplemental Nutrition 
Assistance Program (SNAP), Food Distribution Program on Indian 
Reservations (FDPIR) and other vital nutrition programs. Tribal 
Nations, like other units of government, are responsible for providing 
essential services to their citizens, including those related to 
nutrition. However, and in spite of a 2014 USDA feasibility study, 
Tribal Nations continue to be excluded from administering SNAP and 
other nutrition programs under P.L. 93-638 contracting and compacting. 
USET SPF joins Tribal Nations and organizations across the country in 
calling upon this Committee and this Congress to ensure that Tribal 
sovereignty and self-determination for federal nutrition programs is 
included as part of the 2018 Farm Bill.
Conclusion
    As this nation's first farmers, ranchers, and stewards of the land, 
Tribal Nations must be engaged as full partners in the development of 
the Farm Bill reauthorization. The 2018 Farm Bill negotiations must 
include and incorporate perspectives from Indian Country to afford 
parity, opportunity, and consistency under the federal food and 
agriculture laws, funding policies, and programs. Though there have 
been great strides made for Indian Country agriculture by individuals 
and organizations in previous Farm Bills, there are still many steps 
needed to reach full parity in 2018.
    Attachment

                  USET SPF Resolution No. 2018 SPF:004
SUPPORT FOR REAUTHORIZING THE FARM BILL WITH TRIBAL PROVISIONS
    WHEREAS, United South and Eastern Tribes Sovereignty Protection 
Fund (USET SPF) is an intertribal organization comprised of twenty-
seven (27) federally recognized Tribal Nations; and
    WHEREAS, the actions taken by the USET SPF Board of Directors 
officially represent the intentions of each member Tribal Nation, as 
the Board of Directors comprises delegates from the member Tribal 
Nations' leadership; and
    WHEREAS, the U.S. Congress is deliberating on the nature of food 
and agriculture policy for the nation and the world, as it must 
reauthorize the multiyear Farm Bill in 2018, which governs all farm 
programs, rural development, and nutrition initiatives within the U.S. 
Department of Agriculture; and
    WHEREAS, agriculture is among the largest economic development 
industries in Indian Country, providing $3.4 billion per year; and the 
policies that provide the framework for Indian Country's agriculture 
production constitute a large portion of the Farm Bill; and
    WHEREAS, an overwhelming majority of the land throughout Indian 
Country is involved in agriculture production; and
    WHEREAS, many Tribal citizens live in rural areas and communities 
where the cost of building or repairing basic infrastructure systems is 
often prohibitively high, and the 2018 Farm Bill will provide an 
authorization of federal funding for rural infrastructure initiatives; 
and
    WHEREAS, Tribal citizens in rural areas are often afflicted by 
poverty of place, where they are unable to find suitable employment to 
provide adequate income that supports good nutrition for their 
families; and thus, may rely on federal nutrition programs authorized 
in the Farm Bill; and
    WHEREAS, even with the great strides made for Indian Country 
agriculture in previous Farm Bill negotiations, the $3.4 billion 
generated annually through Indian agriculture efforts is still more 
than 99 percent raw commodities, instead of the healthy, local, 
economically beneficial, and nutritious food needed in Tribal 
communities and rural areas; and
    WHEREAS, the 2018 Farm Bill negotiations, resulting policies, and 
funding must include and incorporate perspectives from Indian Country 
to afford parity, opportunity, and consistency under the federal food 
and agriculture laws, policies, and programs; and
    WHEREAS, improving programs and funding for Indian Country will 
help to ensure Tribal governments have the ability to establish long-
term plans and goals for their communities and the surrounding rural 
communities, and help Native farmers and ranchers continue to grow 
their food businesses and build Tribal food systems to support our 
economies and communities; and
    WHEREAS, the 2018 Farm Bill effort being promoted by the Native 
Farm Bill Coalition is the best opportunity in decades for Indian 
Country to effectively create positive and truly relevant change in 
federal agriculture policy to enhance the development of Indian 
agriculture beyond raw commodities, support infrastructure, research, 
and education in Tribal communities, and improve federal food nutrition 
programs in Indian Country while providing Tribal governments the 
authority to manage these programs; and
    WHEREAS, in December 2010, the United States recognized the rights 
of its First Peoples through its support of the United Nations 
Declaration on the Rights of Indigenous Peoples (UNDRIP), whose 
provisions and principles support and promote the purposes of this 
resolution; therefore, be it
    RESOLVED that the USET SPF Board of Directors calls upon the U.S. 
Congress to fulfill its federal trust responsibility to Indian Country 
during the development and negotiation of the 2018 reauthorization of 
the Farm Bill to incorporate Tribal parity, opportunity, and 
consistency throughout, and encourage and support continued 
participation, development, and progress in Indian Country's 
agriculture businesses, food systems, infrastructure, and nutrition 
programs.
                CERTIFICATION
    This resolution was duly passed at the USET SPF Annual Meeting, at 
which a quorum was present, in Cherokee, NC, October 12, 2017.
    Chief Kirk E. Francis, Sr., President/Chief Lynn Malerba, 
Secretary, United South and Eastern Tribes, Inc.
                                 ______
                                 
 Prepared Statement of Hon. Troy Scott Weston, President, Oglala Sioux 
                                 Tribe
    On behalf of the Oglala Sioux Tribe, I am submitting testimony for 
the January 17, 2018 hearing about ``Breaking New Ground in 
Agribusiness Opportunities in Indian Country'' to provide preliminary 
comments on the priorities and needs of the Tribe for the upcoming Farm 
Bill. The Farm Bill is extremely important to Indian Country, and we 
will be actively engaged as the bill is further developed. We request 
that the Senate Committee on Indian Affairs work closely with the 
Senate Agriculture Committee to share its expertise for addressing 
Indian Agriculture in this important piece of legislation.
    We thank Chairman Hoeven and Vice Chairman Udall for continuing the 
important discussion of Agribusiness Opportunities in Indian Country at 
a roundtable on January 18, 2018, titled ``Advancing Native Food 
Traditions for Indian Country.'' We were encouraged by the testimony of 
a representative from the National Indian Health Board who spoke of the 
fact that tribes have long carried out the administration of complex 
health systems, which demonstrates that they have the necessary 
experience to administer the United States Department of Agriculture 
(USDA) programs.
Tribal History and Background
    The Oglala Sioux Tribe is a sovereign band of the Teton Division of 
the Great Sioux Nation. \1\ Our unique political relationship with the 
United States, and our rights and the United States' obligations to us, 
are set forth in a series of treaties. Under the 1825 Treaty, the 
Oglala Band of the Teton Division of the Sioux Nation became a 
protectorate of the United States. \2\ In 1851, the United States 
recognized the seven Teton bands' title to sixty million acres of 
territory in the present-day states of North Dakota, South Dakota, 
Nebraska, Montana, and Wyoming. \3\ However, the United States did not 
abide by the treaty terms. Continued westward expansion resulted in the 
Powder River War of 1866-1868. The war culminated with the signing of 
the 1868 Fort Laramie Peace Treaty. \4\
---------------------------------------------------------------------------
    \1\ The Oglala Band reorganized as the ``Oglala Sioux Tribe'' under 
Section 16 of the 1934 Indian Reorganization Act. 25 U.S.C.  5123. All 
pre-existing treaties of the Oglala Band still apply to the Oglala 
Sioux Tribe under 25 U.S.C.  5128.
    \2\ Treaty of July 2, 1825 (7 Stat.252).
    \3\ September 17, 1851 (11 Stat. 749).
    \4\ Treaty of April 29, 1868 (15 Stat. 635).
---------------------------------------------------------------------------
    Significantly, the Sioux Treaty of 1868 provided for a quid pro 
quo: by the terms of the Treaty, the United States promised to provide 
certain benefits and annuities to the Sioux bands each year in exchange 
for peace. The United States discontinued negotiating treaties with 
tribes in 1871 by statute, yet that statute provides that ``no 
obligation of any treaty lawfully made and ratified with any such 
Indian nation or tribe prior to March 3, 1871 shall be hereby 
invalidated or impaired.'' Our treaties are still in full force and 
effect, and the United States' obligations to us are not discretionary; 
they are legal and moral obligations. The Oglala Sioux Tribe's treaties 
are of utmost importance to us. They are what define our relationship 
with the United States and we rely on them to press the United States 
to act in accordance with the solemn promises it made to us in them. 
Treaties are the supreme law of the land. \5\
---------------------------------------------------------------------------
    \5\ United States Constitution, Art. VI, Cl. 2.
---------------------------------------------------------------------------
    The Oglala Sioux Tribe is a body politic comprised of approximately 
46,855 tribal members, of which approximately 28,000 reside on the Pine 
Ridge Indian Reservation. \6\ Our Reservation consists of approximately 
2,785,658 acres of territory in the southwestern portion of South 
Dakota. The Tribe and its members hold over 1.7 million acres of trust 
land \7\ within the Reservation. As such, the Tribe is one of the 
largest land based tribes in the United States. Unfortunately, while we 
have vast land holdings and natural resources, our members suffer from 
some of the worst quality of life indicators in the country from 
unemployment to overcrowded housing to health disparities and beyond. 
Oglala Lakota County (formerly Shannon County), which is the western 
part of our Reservation, is consistently one of the three poorest 
counties in the entire United States. Our Reservation is also the most 
highly fractionated in all of Indian Country, as recognized by the 
Department of the Interior's Buy-Back Program, and this hinders the use 
of our lands. We need economic development and community infrastructure 
suitable to meet the needs of our members.
---------------------------------------------------------------------------
    \6\ There are different statistics available. The cited membership 
number is from the United States Bureau of Indian Affairs' website page 
about the Reservation and the member resident number is from a study 
conducted by Colorado State University (Dr. Katherine Pickering and 
David Bartecchi, Pine Ridge Project director for Village Earth) in 2005 
that the United States Department of Housing and Urban Development 
accepted. HUD's Indian Housing Block Grant Formula Data, 2014, has 
Tribal Enrollment at 43,146 with an American/Indian Alaska Native 
Population Residing on the Reservation as 33,935. The Tribe's 
Enrollment Office also tracks the figures.
    \7\ The figures for Reservation size and trust land amount are from 
the Oglala Sioux Tribe's Land Office and the United States Bureau of 
Indian Affairs' website page about the Reservation, respectively.
---------------------------------------------------------------------------
    Agribusiness is critical for our Tribe and the whole of Indian 
Country. However, there are significant opportunities to increase 
agribusiness success on Pine Ridge Reservation. According to the 2012 
Census of Ag-American Indian Reservations--USDA, only 55 percent of the 
363 farms located on Pine Ridge are operated by Native Americans, and 
of those 200 farming enterprises, at least 64.5 percent meet USDA's 
definition of small farm (gross sales less than $250,000) with farm 
value sales of less than $99,999. Furthermore, 39 percent report sales 
of less than $50,000. \8\
---------------------------------------------------------------------------
    \8\ U.S. DEP'T OF AGRIC., PINE RIDGE AGRICULTURE ECONOMY, at 4 
(2017), available at https://www.rd.usda.gov/files/USDARD-
PRAEJanuary2017.pdf.
---------------------------------------------------------------------------
    Given the importance of treaties and our government-to-government 
relationship with the United States, in addition to Indian Country's 
large presence in the agriculture industry, we call on Congress to 
support tribal interests and recognize the significant impact Farm Bill 
policies have on our communities.
Legislative Priorities for the Farm Bill
    The Farm Bill authorizes USDA programs and addresses numerous areas 
of law and policy related to agriculture. Considering the importance of 
agriculture for our community, the Tribe requests that the Senate 
Committee on Indian Affairs and the Senate Agriculture Committee 
include the following in any legislation regarding the Farm Bill:

  <bullet> Ensure tribal governmental parity with state and local 
        governments throughout the entire Farm Bill.

  <bullet> Provide for tribal administration of the Supplemental 
        Nutrition Assistance Program (SNAP) and all federal food 
        assistance programs through extending ``638'' selfgovernance 
        contract authority.

  <bullet> Expand the Substantially Underserved Trust Area (SUTA) 
        provision across all Rural Development programs.

    As the Farm Bill has many titles and covers numerous issues deeply 
important to Indian Country, the following recommendations are not an 
exhaustive representation of the Tribe's priorities to be included in 
any agriculture legislation in this Congress. However, we hope that 
they serve to highlight for the Committee some of the matters that the 
Tribe supports for the Farm Bill reauthorization at this stage in its 
development. The Tribe will continue to engage and supplement this 
testimony going forward.
Title I: Commodities
  <bullet> Amend definitions for the Supplemental Agricultural Disaster 
        Assistance Programs in Section 1501(a)(1)(B)(iv) to create 
        parity for tribal governments and extend recognition of the 
        authority of entities organized under tribal law or under 
        federal law. Revise the law to recognize commonly raised or 
        harvested animals in tribal communities as livestock and 
        eligible for full protection and program participation across 
        USDA.

  <bullet> Increase Livestock Indemnity Payments for tribal producers 
        to 90 percent under Section 1501(b), to address the lack of 
        land equity that exists for tribal producers on trust lands and 
        account for the unique challenges tribal livestock producers 
        have in obtaining secure markets for their animals, which 
        generally causes a lower rate of market return.

  <bullet> Ensure tribal eligibility in the Livestock Forage Disaster 
        Program by ensuring that payment rates are set at 90 percent 
        levels. Additionally, tribal producers must be explicitly 
        exempt from any limitations on receiving payments on any losses 
        due to fire on ``public managed land.'' Tribal lands \9\ are 
        not ``public'' lands. \10\

    \9\ The term ``Indian country'' means ``(a) all land within the 
limits of any Indian reservation under the jurisdiction of the United 
States Government, notwithstanding the issuance of any patent, and, 
including rights-of-way running through the reservation, (b) all 
dependent Indian communities within the borders of the United States 
whether within the original or subsequently acquired territory thereof, 
and whether within or without the limits of a state, and (c) all Indian 
allotments, the Indian titles to which have not been extinguished, 
including rights-of-way running through the same.'' 18 U.S.C.  115.
    \10\ E.g., Federal Land Policy and Management Act, 43 U.S.C.  
1702(e)(2) (enabling act for the Bureau of Land Management; excluding 
``lands held for the benefit of Indians, Aleuts, and Eskimos'' from the 
definition of ``public lands'').
---------------------------------------------------------------------------
  <bullet> Amend Section 1606 to explicitly recognize tribal 
        governments, entities, and producers as farmers or ranchers 
        eligible to participate in the Geographically Disadvantaged 
        Farmers and Ranchers Program.

Title II: Conservation
  <bullet> Give priority consideration to tribal governments, tribal 
        entities, and individual tribal landowners and operators to 
        participate in Environmental Quality Incentives Program (EQIP) 
        activities, in addition to the 5 percent tribal set-aside. 
        Among many ways to increase tribal priority, ensure increased 
        consultation between tribal governments and state 
        conservationists and notification to tribes regarding all 
        activities related to the EQIP program and other NRCS programs 
        in their state.

  <bullet> Enhance the use and continuity of conservation programs on 
        tribal lands and individual Indian owned land by authorizing 
        the USDA Secretary to create a permanent technical assistance 
        fund for tribal governments and organizations.

  <bullet> Authorize the Secretary to work with the Bureau of Indian 
        Affairs (BIA) and a Tribal Conservation Technical Committee 
        made up of tribal government representatives from each of the 
        BIA regions to identify initiatives and programmatic 
        opportunities to improve the conditions of tribal lands and 
        individual Indian-owned lands.

Title IV: Nutrition
  <bullet> With 25 percent of all Native Americans receiving some type 
        of federal food assistance, and in some tribal communities as 
        high as 60-80 percent, the importance of the Nutrition Title 
        programs in Indian Country cannot be overstated. SNAP provides 
        benefits to 24 percent of American Indian and Alaska Native 
        households. Further, American Indians and Alaska Natives make 
        up more than 12 percent of the participants in the Special 
        Supplemental Nutrition Program for Women, Infants, and Children 
        (WIC).

  <bullet> Significant legislative changes need to occur within the 
        Food Distribution Program on Indian Reservations (FDPIR) and 
        other Federal feeding programs. Since 2015, USDA has consulted 
        with tribal leaders on how to make improvements to these 
        programs and many of these improvements should be adopted in 
        the 2018 Farm Bill. There needs to be improvement in funding 
        and flexibility in the FDPIR.

  <bullet> Provide for tribal administration of SNAP and all other 
        federal food assistance programs that tribes are currently not 
        allowed to directly manage by providing tribes with ``638'' 
        contract and compact authority for nutrition programs, which 
        already exists for Department of the Interior and Indian Health 
        Service programs.

Title VI: Rural Development
    As one of the largest land based tribes in the United States and 
due to the rural nature of Pine Ridge Reservation, Rural Development 
(RD) Title programs and funding are vitally important to our Tribe and 
members. The USDA Economic Research Service classifies South Dakota as 
``frontier and remote'' in both land area and population and our Pine 
Ridge Reservation represents Level 4, the ``most isolated group.'' \11\ 
The RD programs provide important tools for the Tribe to build or 
update infrastructure, which is essential to our communities and to 
spur economic development on our Reservation. One recent example is our 
work with the USDA to upgrade certain community water systems so they 
can be transferred into the Mni Wiconi Project. Much work remains on 
this monumental work and RD is critical to our efforts.
---------------------------------------------------------------------------
    \11\ U.S. DEP'T OF AGRIC., PINE RIDGE AGRICULTURE ECONOMY, at 17 
(2017), available at https://www.rd.usda.gov/files/USDARD-
PRAEJanuary2017.pdf.

  <bullet> Broaden the Substantially Underserved Trust Area (SUTA) 
        provision to include all RD programs and allow the Secretary to 
        exercise this discretion more broadly, so that, among other 
        things, the waiver of matching requirements for projects funded 
---------------------------------------------------------------------------
        through RD would also be extended.

  <bullet> Provide a tribal set-aside for tribal applications within 
        each of the RD program authorities to address the inadequacy 
        and general lack of rural infrastructure in Indian Country. 
        Many shovel-ready tribal infrastructure and community 
        development projects have gone unfunded over the past several 
        years. We need dedicated funding for our infrastructure 
        projects.

  <bullet> Establish a permanent rural development tribal technical 
        assistance office to provide tribes with technical assistance 
        across all RD funding authorities within the USDA.

  <bullet> Maintain an Under Secretary for Rural Development. Having an 
        Under Secretary whose primary duties are to focus on RD 
        programs and funding is critical for Indian Country. Any 
        changes that would impact the role of Under Secretary for Rural 
        Development must be the subject of tribal consultation.

  <bullet> Maintain rural water and wastewater program funding. Rural 
        water and wastewater systems are essential to community support 
        and economic growth for our Tribe and all of Indian Country. 
        This funding should never be lost.

Title IX: Energy
  <bullet> Establish a Tribal Bio-Based Energy Development Grant 
        Program to help spark economic development and energy 
        infrastructure development in tribal communities, while 
        providing low-cost energy to tribal communities and surrounding 
        rural areas.
Title XII: Miscellaneous
  <bullet> Fully fund the USDA Office of Tribal Relations (OTR) at a 
        minimum of $1.5 million. Adequate funding is essential to 
        carrying out OTR duties, including the oversight of all USDA 
        tribal consultation.

  <bullet> Authorize the establishment of an Office of Tribal 
        Agriculture within the Office of the Secretary to coordinate 
        all USDA programs as those programs apply to tribes, maximize 
        the value of the programs, address issues in compliance and 
        access of programs that are carried out within USDA, and serve 
        as a liaison between the USDA, tribes, and individual Indian 
        producers.

  <bullet> Develop a new program, based on those USDA already has, that 
        focuses on educating and training the tribal agriculture labor 
        force, provides key scholarships to Native producers, and 
        encourages Native scholars and scientists to focus on food and 
        agriculture.

  <bullet> Create an Interdepartmental Task Force on Indian Agriculture 
        within the OTR, the Office of the Secretary, and 
        representatives of each of the agencies and offices of the 
        USDA, along with the BIA, to develop administrative efficiency 
        and regulatory changes needed to ensure Native agriculture is 
        supported.

  <bullet> Require the USDA to recruit and appoint tribal citizens to 
        each of the federal advisory committees it seats and supports.

  <bullet> Permanently establish the Council for Native American 
        Farming and Ranching to advise the Secretary and USDA, and 
        fully fund its work.

Conclusion
    We thank the Senate Committee on Indian Affairs for taking the time 
to conduct this hearing and think it is crucial for Congress to 
continue to engage with tribes on these important issues through 
additional hearings and roundtables. Tribal Nations have considerable 
experience and much to share regarding the federal nutrition, 
agriculture, and conservation policies included in the Farm Bill. We 
encourage Congress to support tribal interests and recognize the 
significant impact Farm Bill policies have on our communities.
                                 ______
                                 
    Prepared Statement of the Lummi Tribe of Indians (Lummi Nation)
    Dear Chairman Hoeven and Vice-Chairman Udall,
    Good morning and thank you Mr. Chairman and distinguished Committee 
members for the opportunity to share with you our priorities. On behalf 
of the Lummi Tribe of Indians (Lummi Nation) of the State of 
Washington, we write to submit testimony for the record urging the 
Senate Committee on Indian Affairs to ensure that Indian Country is 
included in the upcoming Farm Bill.
    With Congress considering the Farm Bill this session, we request 
the Senate Committee on Indian Affairs to work closely with the Senate 
Committee on Agriculture; Senate Committee on Energy and Natural 
Resources; and the Senate Committee on Environment and Public Works to 
address this important piece of legislation.
Background Information
    Since time immemorial, the Lummi people have been, and still are, 
referred to as the Lhaq'temish (people of the sea). We are the original 
inhabitants of Washington's northernmost coast and southern British 
Columbia. The Lummi Indian Reservation (Reservation) is located 
approximately eight (8) miles west of Bellingham, WA; 90 miles north of 
Seattle, WA; and 60 miles south of Vancouver, BC. The Reservation is 
comprised of a five (5) mile long peninsula (known as the Lummi 
Peninsula) and separates the Lummi Bay (located on the eastern side of 
the Reservation) and Bellingham Bay (located on the western side of the 
Reservation). The mouth of the Nooksack River is located at the 
northern end of the Reservation, whereas Portage Island is located at 
the southern end of the Reservation. There are approximately 32 miles 
of highly productive marine shoreline that surrounds the Reservation. 
The Reservation is approximately 13,500 acres of uplands and 10,500 
acres of tidelands.
    Today, the Lummi Nation is the third largest Tribe in the State of 
Washington serving a population of over 5,000 tribal members. We are 
connected to the lands and waters that provide us with the cultural and 
traditional foods including, but not limited to, animals, berries, 
birds, fish, plants, and shellfish that physically and spiritually 
sustain us as a people. We understand the challenge of respecting the 
environment and our traditions. The wisdom of our ancestors and 
previous leaders allow us to teach our children and grandchildren to 
care for the lands and waterways, to educate them about the importance 
of the environment, and to strengthen our appropriate ties with 
neighboring communities, governments, and jurisdictions.
Aquaculture of the Tribe
    For thousands of years, and still today, our people fish, gather, 
harvest, hunt, and celebrate life on the shores and waters of the 
Salish Sea (formally known as the Puget Sound). On January 22, 1855 the 
Lummi Nation was one of the signatories to the Point Elliot Treaty of 
1855 (Treaty). Article V of the Treaty secured us the ``right of taking 
fish at usual and accustomed [U & A] grounds and stations.'' Article 
XIII of the Treaty states that the United States agreed to ``enable the 
said Indians to remove to and settle upon their aforesaid reservation, 
and to clear, fence, and break up a sufficient quantity of land for 
cultivation.'' Article XIV of the Treaty states that the United States 
agreed to ``establish. . .an agricultural and industrial school, to be 
free to children of said tribes and bands,'' and ``to furnish them with 
the necessary tools. . .''
    The Nooksack River watershed is comprised of approximately 786 
square miles within Whatcom County, WA. The North, Middle, and South 
forks of the Nooksack River originate on federal lands near Mt. Baker 
and are within the Water Resources Inventory Area No. 1 (WRIA 1). The 
Nooksack River watershed hosts nine (9) species of salmonids. One-third 
(3 of 9) of the species of salmonids are listed under the Endangered 
Species Act (ESA): Chinook, Steelhead, and Bull trout. There are 
twenty-five (25) salmonid stocks within WRIA 1 and only three (3) 
salmonid stocks are currently considered healthy. Twelve (12) percent 
(3 of 25) of the salmonid stocks are considered healthy in the WRIA 1. 
Factors that impact the number of healthy salmonid stocks include, but 
are not limited to, habitat degradation, low quality water, high levels 
of fecal coliform, dissolved oxygen, and sedimentation.
    The 2018 Farm Bill is an important piece of legislation that 
primarily focuses on agriculture. Many tribes throughout the United 
States are tied to agriculture production; however, the Lummi Nation is 
unique and do not consider ourselves as agriculturalists, we consider 
ourselves as aquaculturists (farmers of the sea). The Lummi people 
established hatcheries and programs during the early 1970s in response 
to environmental threats to fish and shellfish populations. The Skookum 
Creek Fish Hatchery was built in 1970 and is located near the mouth of 
Skookum Creek in Acme, WA. The Skookum Creek Fish Hatchery produces 1.5 
million yearling Coho salmon each year. These yearlings are released 
into the South Fork Nooksack River each spring.
    The Lummi Bay Hatchery was built in 1971 and is located on the 
western side of the Reservation. The Lummi Bay Hatchery works in 
coordination with the Washington State Department of Fish and Wildlife 
(WDFW) Kendall Creek Hatchery and Samish Hatchery and the Bellingham 
Technical College (BTC) Whatcom Creek Hatchery. The Lummi Bay Hatchery 
releases 1 million juvenile Coho salmon and 500,000 juvenile fall 
Chinook salmon for its program. Another 500,000 juvenile fall Chinook 
salmon are released from an acclimated pond located in Bertrand Creek 
near Lynden, WA. Furthermore, the Lummi Bay Hatchery produces and 
releases more than 400 million shellfish seed to local tidelands and 
buyers (geoduck, manila clams, and oysters).
United States Department of Agriculture (USDA) Programs Utilized by the 
        Lummi Nation
    It is estimated that twenty-five (25) percent of American Indian 
and Alaska Native (AI/AN) people in the United States receive some type 
of federal food assistance. However, in some tribal communities, 
participation in these federal food assistance programs is as high as 
sixty (60) to eighty (80) percent. Furthermore, approximately sixty-
eight (68) percent of AI/AN children in the United States qualify for 
free and reduced-price lunches. More importantly, more than twelve (12) 
percent of AI/AN participants in the Supplemental Nutrition Assistance 
Program (SNAP) utilize the Women, Infants, and Children (WIC) food 
assistance program.
    Considering the state of agriculture/aquaculture for our community, 
the Lummi Nation requests the Senate Committee on Indian Affairs; 
Senate Committee on Energy and Natural Resources; and the Senate 
Committee on Environment and Public Works include the following in any 
legislation regarding the Farm Bill:

  <bullet> Tribal Government Parity with State and Local Governments 
        throughout the entire Farm Bill;

  <bullet> Tribal Administration of the SNAP and all Federal Food 
        Assistance Programs through the Self-Determination Contracts 
        pursuant to P.L. 93-638; and

  <bullet> Expand the Substantially Underserved Trust Area (SUTA) 
        provisions across all Rural Development programs

    In addition, the Lummi Nation supports the following 
recommendations to be included in any Farm Bill legislation in the 
Congress.
Title I (Commodity Programs)
    The Lummi Nation is deeply invested in the production, 
distribution, and consumption of hatchery fish and shellfish. Below are 
the Lummi Nation recommendations:

  <bullet> The Lummi Nation requests that the 2018 Farm Bill include 
        support for commercial fishing harvests that are deemed 
        disasters (e.g. Sockeye disaster) caused by adverse weather.

  <bullet> Update the farm-raised fish definition in  1501 (a)(2) of 
        the Agriculture Act of 2014 to include fish and shellfish 
        hatcheries. The Lummi Nation does not have agriculture land; we 
        are aquaculture-based using hatcheries to supplement the lack 
        of harvestable fish and shellfish.

  <bullet> Update the livestock definition in  1501 (a)(3) of the 
        Agriculture Act of 2014 to include other commonly raised 
        livestock like ``Chinook salmon,'' Coho salmon,'' ``geoduck,'' 
        and ``manila clams'' or other animals raised or harvested in 
        tribal communities. All of these animals must be further 
        recognized as a livestock and eligible for full protection and 
        program participation Department-wide.

  <bullet> Ensure that tribal producers' (agriculture/aquaculture) are 
        eligible for all disaster assistance programs in Title I, and 
        increase payments to 90 percent of value to acknowledge their 
        unique land and market issues.

  <bullet> Create parity for tribal producers in the Farm Agency 
        Committees and decisionmaking.

Title II (Conservation)
    Conservation programs are an essential part of land protection and 
product development. Below are the Lummi Nation recommendations:

  <bullet> The Lummi Nation requests that the USDA conservation 
        programs allow for the use of traditional, ecological, 
        knowledge-based conservations practices.

  <bullet> Update 16 U.S.C.  3838d(4)(A)(i) to include aquaculture 
        commodities and update 16 U.S.C.  3838d(4)(B) to include 
        tidelands. Expanding the USDA conservation programs to include 
        aquaculture and tidelands would allow fishing tribes to utilize 
        these programs and services to improve tideland habitats.

  <bullet> Update 16 U.S.C.  3839aa-2(g)(1) to include tideland 
        habitats. The Lummi Nation has approximately 10,500 acres of 
        tidelands. In 1996 the Lummi Nation closed 60 acres of 
        shellfish beds in Portage Bay due to poor water quality. In 
        1997 the Lummi Nation closed an additional 120 acres of 
        shellfish beds in Portage Bay due to poor water quality. During 
        these two closures, it was estimated that a lost value of the 
        shellfish products was approximately $825 thousand dollars, 
        which does not include the multiplier effect on the economy.

  <bullet> The Lummi Nation requests that the USDA implement a Self-
        Governance block grant within the conservation programs. The 
        Lummi Nation is the largest fishing fleet in the State of 
        Washington. About nineteen (19) percent of our tribal members 
        (988 of 5238) depend on the fish and or shellfish harvesting 
        either for ceremonial, commercial, or subsistence use.

Title IV (Nutrition)
    Over a five (5) year period (2014-2018), the Congressional Budget 
Office (CBO) projected that the Farm Bill would cost $489 billion 
dollars. The 2014 Farm Bill authorized $2 million dollars to be 
appropriated for the Food Distribution Program on Indian Reservations 
(FDPIR) for each fiscal year of 2014 through 2018. This authorization 
represents only 0.002 percent of the $489 billion dollars projected for 
the 2014 Farm Bill. Below are the Lummi Nation recommendations:

  <bullet> Allow tribes the option to enter into Self-Determination 
        Contracts pursuant to P.L. 93-638 for administration of the 
        SNAP and all other federal feeding programs.

  <bullet> Improve the funding, flexibility, and infrastructure of the 
        FDPIR.

  <bullet> Include a provision for Food Sovereignty. For the Lummi 
        people, we define food sovereignty as the ability to produce, 
        distribute, and consume our cultural and traditional foods that 
        include, but not limited to, animals, berries, birds, fish, 
        plants, and shellfish. Food sovereignty is our ability to 
        cultivate, fish, gather, harvest, and hunt for our cultural and 
        traditional foods.

Title VI (Rural Development)
    Stretching over thirty-four (34) states, more than 100 million 
acres of tribal lands are located in rural areas. Tribal businesses, 
tribal entrepreneurs, tribal governments, and local communities rely on 
rural development (RD) funding to build new infrastructure, sustain 
economic development and growth, but face issues when accessing this 
type of funding. Below are the Lummi Nation recommendations:

  <bullet> Increase the RD funding available for tribal governments. An 
        increase in RD funding will allow reservations, tribal 
        businesses, tribal entrepreneurs, tribal governments, and rural 
        communities to develop and improve declining infrastructure 
        systems, create jobs, and ensure that the federal government 
        trust responsibility is upheld by providing tribal consultation 
        for tribes within the USDA RD programs.

  <bullet> Maintain the rural water and wastewater funding. A vast 
        majority of tribal reservations are located in rural 
        communities. Tribal governments, individual tribal and non-
        tribal business owners, reservations, and rural communities 
        rely on this type of funding, which is essential for economic 
        growth.

Title VII (Research, Extension, and Related Matters)
    The Northwest Indian College (NWIC) is a direct result of the Lummi 
Indian School of Aquaculture (LISA). The LISA was founded in 1973 as a 
training program. The program was designed to develop and prepare 
technicians for employment in Indian-owned and operated fish and 
shellfish hatcheries. In 2010, the NWIC was granted accreditation at 
the baccalaureate level. Today, the NWIC offers four (4) bachelor 
degree programs: Bachelor of Arts in Native Studies Leadership; 
Bachelor of Arts in Community Advocates and Responsive Education in 
Human Services; Bachelor of Science in Native Environmental Science; 
and a Bachelor of Arts in Tribal Governance and Business Management. 
Below are the Lummi Nation recommendations:

  <bullet> Programs within this Title allow for the development of 
        tribal research and education at Tribal Colleges and 
        Universities (TCUs). The NWIC incorporates traditional 
        knowledge and practices while providing education. One of the 
        functions within the Cooperative Extension program at NWIC is 
        food sovereignty. Fund the Federally Recognized Tribes 
        Extension Program (FRTEP) at a minimum of $10 million to 
        address agriculture programming and food sovereignty.

  <bullet> Update funding systems to reflect the research and 
        educational needs of tribal communities. With 567 federally 
        recognized tribes, each tribe is unique. We must continue to 
        focus on the tribal research and education, and traditional 
        knowledge and practices that are incorporated within tribally 
        owned and managed institutions.

Title VIII (Forestry)
    The Federal Government manages 57 million acres of Indian land held 
in trust. One-third (18.6 million acres) of these lands are Indian 
forests and woodlands. The Healthy Forest Reserve Program (HFRP) is 
administered by the USDA Natural Resources Conservation Service. The 
HFRP is designed to help landowners restore, enhance, protect 
forestland resources, and aid in the recovery of endangered or 
threatened species under the ESA. Below are the Lummi Nation 
Recommendations:

  <bullet> Improve the Tribal Forest Protection Act (TFPA) and adopt 
        the Section 301 and 303 (114th H.R. 2642 Rep. Westerman) 
        legislative language into the 2018 Farm Bill. Streamline the 
        TFPA to improve the timelines for review and implementation of 
        forest restoration projects requested by tribes.

  <bullet> The Nooksack River watershed hosts three (3) salmonid 
        species that are listed under the ESA. Restoring the forest is 
        critical to the survival of salmonids. For many decades, the 
        Lummi Nation has worked to restore the wildlife habitat to 
        ensure that the fish and shellfish populations continue to 
        thrive. We ask for parity so that we can access, manage, and 
        develop tribal and federal forests and woodlands to protect the 
        environment, tribal resources, and wildlife habitat.

Title X (Horticulture)
    Horticulture primarily focuses on specialty crops and organic 
farming operations. As mentioned previously, the Lummi people are 
aquaculturists (farmers of the sea). Our Reservation is approximately 
13,500 acres. In 1999 the Lummi Natural Resources Department conducted 
a study to determine how many acres of our Reservation were considered 
wetlands. The study concluded that 5,432 acres (or 40 percent) of our 
Reservation was wetlands. We simply do not have agriculture land. Below 
are the Lummi Nation recommendations:

  <bullet> Food sovereignty is important to the AI/AN people. We ask 
        that the Farm Bill support food sovereignty throughout Indian 
        Country. The Farm Bill needs to include provisions that protect 
        cultural and traditional foods.

  <bullet> We ask that the USDA consult with tribes to ensure that our 
        cultural and traditional foods are given maximum protection 
        under federal laws.

Title XII (Miscellaneous)
    Through cooperative agreements (National Aquatic Animal Health 
Plan), the USDA, National Oceanic and Atmospheric Administration 
(NOAA), and the US Fish and Wildlife Service work together to detect, 
control, or eradicate diseases of aquaculture species while promoting 
species-specific best management practices. In August 2017, Cooke 
Aquaculture Inc. failed to notify tribes that an Atlantic salmon net 
pen collapsed releasing hundreds of thousands of non-Native finfish 
species into the Salish Sea. Below are the Lummi Nation 
recommendations:

  <bullet> We ask that the Farm Bill fully fund, at a minimum $1.5 
        million dollars, the Office of Tribal Relations at USDA.

  <bullet> When conducting agriculture, aquaculture, and food 
        operations on our own lands, tribes and individual landowners 
        should not be required to conduct a full NEPA. This requirement 
        is far more excessive than any applicable law, and violates our 
        right to food, food access, environmental and food justice, and 
        food sovereignty.

  <bullet> Amend the language that controls USDA contracting and 
        procurement to recognize and support a ``Buy Indian'' 
        provision. We ask that Indian preference be given when the USDA 
        is purchasing any product being utilized by AI/AN people within 
        our communities (like the FDPIR).

Conclusion
    For thousands of years, our people have flourished in and around 
the Salish Sea. The land and water provide us with the cultural and 
traditional foods (animals, berries, birds, fish, plants, and 
shellfish) that sustain us as a people. We are a fishing community; we 
farm the sea for a lack of better term. We request that you consider 
fish and shellfish hatcheries when deliberating this piece of important 
agriculture legislation.
    In 1985, the average Lummi fisherman made $22,796 ($51,860 in 2017 
dollars). Eight (8) years later, in 1993, the average income from 
fishing was $5,555 ($12,693 in 2017 dollars). Today, our fishermen/
women are working hard to financially sustain themselves through fish 
and shellfish harvesting. We request that Congress consider legislative 
language for tribes who rely on aquaculture. Forty (40) percent of our 
Reservation is wetlands, and since time immemorial, we have always been 
a fishing community. We simply cannot farm our lands the way 
agriculturalists do, we are aquaculturists.
    In 2013 the Port of Bellingham in the State of Washington 
commissioned a study title, ``The Economic Impacts of the Commercial 
Fishing Fleet at the Port of Bellingham 2013.'' There are 2,220 fishing 
jobs at the Port of Bellingham. There are 988 jobs (596 fishers, 258 
crabbers, 49 divers, and 85 clam diggers) within the Lummi Nation. The 
total number of commercial fish and shellfish jobs in Whatcom County is 
3,208. The Lummi Nation accounts for thirty-one (31) percent of those 
jobs. The total economic value of fishing (tribal and non-tribal) on 
Whatcom County is a little more than $519 million dollars. The economic 
value of Lummi fishing on Whatcom County is nearly $161 million 
dollars, or thirty-one (31) percent of $519 million dollars. The 
economic value of non-Lummi fishing on Whatcom County is a little more 
than $358 million dollars, or sixty-nine (69) percent of $519 million.
    In January 2017, the Lummi Nation entered into a Memorandum of 
Agreement (MOA) with seven (7) dairy farmers of Whatcom County, WA. We 
(Lummi Nation and dairy farmers) depend on the health and productivity 
of the lands and waters of Whatcom County. The purpose of the MOA was 
designed so that the Lummi Nation and dairy farmers can work 
cooperatively to improve the water quality of the Nooksack River Basin. 
The goal of this MOA is to develop Water Quality Improvement Plans 
(WQIPs) that are specific to each facility, which is still an ongoing 
process.
    Lastly, the Lummi Nation (tribal government, tribal business 
enterprises, and the NWIC) is the largest employer in Whatcom County. 
One (1) in every thirty-three (33) people employed in Whatcom County 
receive their paycheck from the Lummi Nation. There are 1,888 direct 
jobs from the Lummi Nation, an additional 2,939 indirect and induced 
jobs, for a total of 4,827 jobs. The economic output of the Lummi 
Nation is $496 million dollars per year. We are a tribal government 
that strives to strengthen our appropriate ties with neighboring 
communities, governments, and jurisdictions.
                                 ______
                                 
 Prepared Statement of Ryan Jackson, Chairman of the Hoopa Valley Tribe
    Dear Chairman Hoeven and Vice Chairman Udall,
    On behalf of the Hoopa Valley Tribe of California, we write to 
submit testimony for the record urging the Senate Committee on Indian 
Affairs to ensure that Indian Country is included in the upcoming Farm 
Bill.
    With Congress considering the Farm Bill this session, we request 
the Senate Committee on Indian Affairs to work closely with the Senate 
Agriculture Committee to address Indian Agriculture in this important 
piece of legislation.
    The Hoopa Valley Tribe (HVT) is located on the Hoopa Valley 
Reservation (HVR) in the remote and beautiful rugged mountain terrain 
of the Six Rivers National Forest in northern California. HVT has the 
distinction of being the largest land base Indian reservation within 
the state of California. Presently, there are approximately 3,400 
enrolled members of the Tribe. The HVR was established in 1864 by 
executive order and is commonly referred to as the twelve-mile square 
representing nearly 93,000 Acre of lands that have been the home of the 
Hupa people since time immemorial. Nearly the entire reservation is in 
trust, with less than 5 percent of the lands held in fee status by non-
tribal members. The HVT has existed within the same aboriginal lands 
within the valley floor of the HVR where ancient village sites have 
been radiocarbon dated and shown continuous usage for over 10,00 years. 
The Hupa people have lived along the banks of the Trinity River which 
bisects the valley floor.
    The Trinity River represents the lifeblood of the Hupa people who 
have sustained themselves with the bounty of resources that the Trinity 
River has provided to the Hupa people such as fish and related 
resources. The remote location has maintained a heavy reliance on 
fishing, hunting, gathering, and organic agricultural practices by Hupa 
people.
    The Tribe has designated itself as a Self-Governance Tribe, thereby 
administering the breadth of its programming through direct services to 
its membership. Many USDA programs are administered on the Hoopa 
Reservation including SNAP, FDPIR, Rural Development Community 
Facilities, NRCS EQIP, and more. The following guidance offered to the 
Senate Committee on Indian Affairs stems from direct experience with 
the following programs and agencies.
    Considering the state of agriculture for our community, Hoopa 
Valley Tribe requests the Senate Committee on Indian Affairs and the 
Senate Agriculture Committee include the following in any legislation 
regarding the Farm Bill:

  <bullet> Tribal Governmental Parity with State and Local Governments 
        throughout the entire Farm Bill (see below)

  <bullet> Tribal Administration of the SNAP and all Federal Food 
        Assistance Programs through 638 Contracts (see below)

  <bullet> Expand the Substantially Underserved Trust Area (SUTA) 
        provision across all Rural Development programs

    In addition, as a member of the Intertribal Agriculture Council 
(lAC), the Hoopa Valley Tribe supports the lAC testimony and 
incorporates it herein by reference. In addition, the Hoopa Valley 
Tribe would like to add the following recommendations to be included in 
any agriculture legislation in this Congress.
Treatment as a State for Tribal Governments
    It is important that Congress insist on parity for tribes 
throughout the Farm Bill. Congress should finally and permanently 
recognize the role of tribal governments, in parity with state and 
local governments. Tribal governments and departments must have the 
authority to engage with all of USDA and federal agencies related to 
the Farm Bill. USDA must seriously recognize and work with tribes, and 
provide tribal liaisons that are more responsive and knowledgeable 
about Indian Country issues. Tribes should receive full treatment as a 
state for tribal governments, including recognition of their tribal 
laws, authority, and jurisdiction. The Hoopa Valley Tribe already has a 
complete food code and economic development program similar to our 
local and state counterparts.
638 Authority and Tribal Management of USDA programs
    For the Hoopa Valley Tribe, particularly as an early and successful 
Self-Governance Tribe, it is essential that Congress grant USDA the 638 
authority necessary so that Hoopa and other tribes can administer and 
control the delivery and success of the many USDA programs that are 
important in Indian Country, especially the Supplement Nutrition 
Assistance Program (SNAP). We know best how to administer these 
programs for our people, and who most needs food assistance and what 
type. A Hoopa led government approach will bring us more success 
efficiencies and engagement of our people, including the incentive to 
grow and produce more of our own locally produced traditional foods. 
Management of these USDA food programs is important both for our 
sovereignty and to better provide direct service to Tribal citizens in 
need of assistance. We need Congress to fully recognize our wisdom in 
providing flexibility in the management of nutritional quality of the 
food provided and culturally appropriate programming and service 
delivery.
    Tribes need a mechanism to more effectively engage with all the 
USDA agencies; 638 authority would help that. 638 authority is 
particularly important in the Nutrition, Forestry, and Conservation 
Titles for the Hoopa Valley Tribe. Hoopa stands ready, as a sovereign, 
to administer its own food assistance programs for the benefits of our 
citizens. Contract support costs must be included as well. Managing our 
own nutrition and feeding programs allows us to both exercise our 
sovereignty in the best interest of our people's nutritional needs, but 
also do so with an eye towards economic development and self-
sufficiency. We are best equipped to know our own community's needs and 
how best to ensure we are creating jobs at the same time.
    We also request that USDA incorporate more traditional foods into 
the variety of feeding programs. USDA has not fully taken advantage of 
the wealth of traditional tribal and locally grown foods for inclusion 
in FDPIR. USDA also needs to provide improved technical assistance to 
tribes in accessing and understand USDA programming and requirements. 
Matching fund requirements under FDPIR should be stricken.
Recommendations Pertaining to the 2018 Farm Bill Titles
    Commodities Title--The Hoopa Valley Tribe supports the lAC 
testimony that can be incorporated herein as reference.
Conservation Title
    Priority: Maintain and further the flexibility of the Environmental 
Quality Incentives Program (EQIP) to insure that Tribal traditional 
management practices, such as cultural burning, can be supported to 
manage for culturally significant plants, fibers, foods, and animals.
    Issue: The reimbursement incentive payment rates established for 
many NRCS practices do not adequately incentivize conservation work 
within Tribal contexts. The size/scale of operations in CA Indian 
Country tend to be much more diverse and smaller than conventional 
agricultural operations in other parts of the state (with few 
exceptions). Reimbursement incentive payments must reflect the distance 
contractors/supplies must travel to remote locations, which is a 
financial burden on many producers.
    Priority: Native producers in Hoopa only have at largest 12 acres 
lots to develop conservation planning. EQIP practices need to be more 
accessible to small scale producers. Tribal EQIP set asides need to be 
adopted as protocol within states that have substantial populations of 
Tribes to insure that the competition for program dollars is amongst 
other Tribal projects, rather than competing with substantial 
commercial agriculture operations.
    Additionally, the Hoopa Valley Tribe supports the lAC testimony 
that can be incorporated herein as reference.
    Trade Title The Hoopa Valley Tribe supports the lAC testimony that 
can be incorporated herein as reference.
Nutrition Title
    The HVIR resides in Humboldt County where 16 percent of the 
population receives SNAP benefits. The Hoopa Food Distribution Program 
services 800-900 people in 12 counties (native/non-native) and 10 
Tribes in Northern California. Native Americans face the highest rates 
of obesity, heart disease, and nutritional deficiencies. With our 
Tribal Grocery Store set to open this spring, a Community Canning and 
Kitchen Facility, and irrigation infrastructure projects also in the 
works, we are constantly making strides towards our goals of 
selfsufficiency. By reducing or eliminating these programs at such a 
critical time, we will run the risk of being set back years while our 
local agriculture production is set to expand and flourish. Reducing 
these programs will block access to healthy, locally produced foods and 
thus reduce local producers' ability to expand and take advantage of 
the favorably changing local market conditions that are emerging with 
the development of local markets. Shrinking local markets by 
eliminating these programs will also reduce job opportunities, while 
demand for locally produced goods would be lessened by the elimination 
and/or reduction of these programs. Producing more of our own goods and 
services in Hoopa, while investing in infrastructure that will allow 
for this, have been major goals of the Tribe that were formalized with 
the completion of our Comprehensive Economic Development Strategy 
(CEDS). Eliminating funding to SNAP, FDPIR, WIC, Early Head Start/Head 
Start, and Free Lunch Programs would disproportionately impact our most 
sensitive populations (seniors, single parents, and children) 'within 
native communities across the country. This at-risk population includes 
both enrolled members of Federally-recognized Tribes and non-Indian 
persons who share the same living conditions.
    The Tribe's Senior Nutrition Program has operated from a variety of 
funding sources including Federal, State, non-profit, and Tribal funds 
over the years. Seniors in the Hoopa community would be 
disproportionately affected by cuts to the Supplemental Nutrition 
Assistance Program. Beyond insuring proper nutrition, this program 
provides an important social outlet for seniors who otherwise might not 
leave their home or socialize with others. Over 17,000 meals were 
served through our programming in 2017. The Senior Nutrition program is 
a resource hub as well, linking seniors to other essential community 
services. In addition to a hot and healthy meal, the Senior program 
connects elders to programs that are essential to filling the gap in 
groceries in their home lives. Programs like the Food Bank offer brown 
bags of foodstuffs to seniors throughout our community, supplementing 
with much needed staples. Other food programs will work out 
arrangements with local farmers to prepare packages of locally grown 
fruits and vegetables for delivery to the homes of seniors. For the 
seniors that cannot make it to the center due to health concerns, a 
home delivery option is also provided both for the hot meal and the 
special bagged food services. Cuts to this program represent the most 
devastating kind, targeting a population that does not have available 
resources to absorb such impacts.
    Any cuts to these programs--SNAP, FDPIR, Senior Nutrition, Early 
Child Care Lunch programs, free lunch programs, and WIC would be a 
great hardship on rural tribal communities that are located in food 
deserts. The impacts would disproportionately impact Indian County as a 
whole, making the nutrition title a primary focus area for tribes.
    We also request that USDA incorporate more traditional foods into 
the variety of feeding programs. USDA has not fully taken advantage of 
the wealth of traditional tribal and locally grown foods for inclusion 
in FDPIR. Matching fund requirements under FDPIR should be stricken.
HVT recommendations include:
  <bullet> Nutrition programs utilized by Tribes throughout the country 
        need to operate at current or increased funding levels.

  <bullet> Eliminate matching policies for all nutrition programming 
        administered by Tribal communities to lessen the hardship for 
        limited resource tribes.

  <bullet> Allow SSI recipients to apply for FDIRP and SNAP benefits.

  <bullet> Funding be provided to train and hire tribal food 
        inspectors, as well as a rural tribal technical assistance 
        office.

  <bullet> Additionally, the Hoopa Valley Tribe supports the lAC 
        testimony that can be incorporated herein as reference.

Credit Title
    Access to credit for Indian Country has been an ongoing and 
difficult issue. Having access to a lending entity that understands 
Indian Country, tribal sovereignty and difficult financial realities is 
critical. Given our remote and isolated location, Hoopa like many 
tribes, lives as a 'credit desert'--tribes need equitable access to 
credit. It is important that rural lending programs are clear and 
explicit about their ability to lend to Indian Country--including with 
programs like the Farm Credit Systems. And USDA needs to ensure that 
banks can't hide behind the myth that individual Indians can' t 
mortgage land to get loans or put onerous requirements on such as short 
loan period. Due to the nature of landholding and land ownership in 
Indian Country, some clarification of this requirement is in order to 
help provide certainty for the FCS in lending in Indian Country. Access 
to credit through FSA and Rural Development must not be hampered by 
outdated program rules that do not match our credit needs.
    Additionally, the Hoopa Valley Tribe supports the lAC testimony 
that can be incorporated herein as reference.
Rural Development Title
    Issue: The reimbursement stmcture for the Community Facilities 
grant program is a hardship on limited resource tribes and tribal non-
profits. The seeking of outside assistance implies a lack of internal 
resources to begin with. Having to purchase all contracted items 
outright prior to receiving the cost-share reimbursement can keep many 
who need assistance out of this program.
    Solution: Structure the grant portion of the program to enable the 
hatching of purchases with a reimbursement schedule that can be paid in 
installments to enable smaller purchases and more realistic outlay of 
limited resources. For example: Rural Development could do a 50 percent 
upfront for each project, or reimburse in increments of25 percent for 
tribes, non-profits, and tribal members.
    Issue: Single Family Housing Repair Loans and Grant Program is 
undemtilized inCA Indian Country. This may be due to inadequate 
outreach regarding this important program, or it may also be due to the 
programmatic stmcture and application process.
    Solution: Employ Rural Development Tribal Liaisons in each state 
who are familiar with distinctions and issues in Indian Country to 
directly outreach to Tribal communities. Insure that that grant program 
applications and processes are streamlined to be more reflective of 
needs in Indian country. Institute Tribal fund pools to insure 
resources are earmarked for Tribal projects to minimize competition 
with municipalities and other entities.
    Additionally, the Hoopa Valley Tribe supports the lAC testimony 
that can be incorporated herein as reference.
Research Title
    USDA also needs to provide improved technical assistance to tribes 
in accessing and understanding USDA programming and requirements. 
Outreach from extension officers to Hoopa and rural tribes has been 
lacking; allowing tribes and universities to better access FRTEP funds 
would help ease this challenge.
    In General, tribal liaisons in each USDA program that has depth of 
understanding of tribal communities and federal/sovereign laws
    Additionally, the Hoopa Valley Tribe supports the lAC testimony 
that can be incorporated herein as reference.
    Forestry Title The Hoopa Valley Tribe supports the lAC testimony 
that can be incorporated herein as reference.
    Energy Title The Hoopa Valley Tribe supports the lAC testimony that 
can be incorporated herein as reference.
    Horticulture and Specialty Crops Title The Hoopa Valley Tribe 
supports the lAC testimony that can be incorporated herein as 
reference.
    Crop Insurance Title The Hoopa Valley Tribe supports the lAC 
testimony that can be incorporated herein as reference.
Miscellaneous
    Tribal Food Inspectors:
    As part of its economic development strategy and prioritization of 
locally grown, traditional foods, Hoopa is in the process of developing 
a marketplace for the processing and production of locally grown foods 
for market. However, federal regulations and certification requirements 
are burdensome and confusing. It is essential that the Farm Bill 
provide for funding of training and provision of tribal food 
inspectors. USDA should also create a mral tribal technical assistance 
office.
    The Hoopa Valley Tribe supports the lAC testimony that can be 
incorporated herein as reference.
    Thank you for receiving the recommendations from the Hoopa Valley 
Tribe.
                                 ______
                                 
  Prepared Statement of Hon. Russell Begaye, President, Navajo Nation
    As the elected leaders of the Navajo Nation we write to outline our 
priorities for the 2018 Farm Bill. We urge you as leaders of the Senate 
Committee on Indian Affairs to support these priorities to be included 
in the final Farm Bill.
    The Navajo Nation's land base is 28,000 square miles across 
Arizona, New Mexico, and Utah. The Navajo Nation faces many of the same 
issues as other rural American communities. Unemployment on the Navajo 
Nation is approximately 40 percent and the labor force participation 
rate is significantly higher. There is a serious lack of access to 
high-speed broadband which reduces economic opportunity. The Navajo 
Nation also relies heavily on employment at two rural coal fired power 
plants. The Nation also faces several federally-created economic and 
legal barriers such as the Former Bennett Freeze Area (FBFA) \1\ a 
congressionally authorized freeze on any building development on Navajo 
and Hopi lands from 1966 to 2009 \2\ and the Gold King Mine Spill, an 
environmental mining spill caused by the Environmental Protection 
Agency that contaminated the San Juan River, which is used by Navajo 
farmers and ranchers.
---------------------------------------------------------------------------
    \1\ For over 40 years, this area was prohibited from improvements 
or developments by the federal government.
    \2\ Since infrastructure is now allowed to be built, the 23rd 
Navajo Nation Council approved funding to provide 36 housing units in 
the area. Moving forward, the Navajo Nation will continue to work with 
federal officials to development basic infrastructure, housing. and 
economic development opportunities within the FBFA.
---------------------------------------------------------------------------
    While there are many challenges that need federal attention, the 
Navajo Nation is using its own resources to fund infrastructure 
projects. The Navajo Nation has sought to of leverage our own funds 
with the assistance of federal, state, or private entities. Some of 
these projects will be highlighted in this letter. While we have had 
some success, the Navajo Nation will continue to request and advocate 
for additional federal funding and programs to supplement financing its 
own projects. The Nation also tmW be eligible to participate in any 
federal matching funds that are available to states.
    The upcoming changes to the Farm Bill will have a substantial 
impact on Navajo's agriculture production, economic development, job 
growth, infrastructure improvement, technological innovation, energy 
security and quality of life of our citizens. It is critical that the 
Navajo Nation and the Navajo people participate in this opportunity to 
update the Farm Bill.
    Program Self-Governance. 1be Farm Bill presents a tremendous 
opportunity for USDA program administration reform and tribal self-
governance. The Nation requests the Committee on Indian Affairs create 
the statutory authority for Indian tribes to administer nutrition and 
other USDA programs. Such a self-governance program has already proven 
to be effective in direct service delivery and local governance, both 
with the Bureau of Indian Affairs (BIA) and with the Indian Health 
Service. It is critical Congress take advantage of this opportunity to 
modernize USDA program administration and direct service delivery.
    Supplemental Nutrition Assistance Program (SNAP). While the exact 
numbers of Navajo citizens receiving SNAP is unknown, \3\ the County 
Community Data Profile of Navajo County, AZ found that an average of 30 
percent of Navajo households were receiving SNAP in 2013. This 
emphasizes the need to continue the SNAP program in the Farm Bill; 
however, the SNAP program can better serve tribal members if the Farm 
Bill also authorizes Indian tribes to manage and administer SNAP. 
Presently, Navajo citizens have to apply through the state creating 
difficulties for our citizens in traveling long distances and 
additional administrative/economic burdens for state agencies.
---------------------------------------------------------------------------
    \3\ The SNAP is a state-administered program that does not 
administer demographic data.
---------------------------------------------------------------------------
    Rural Development. President Trump's USDA Budget Request for FY 
2018 requested an $80 million set-aside for rural infrastructure grants 
to be used for Distance Learning and Telemedicine, Broadband, Community 
Facilities and housing in the Appalachia Region. \4\ The Navajo Nation 
would like to request a portion of the overall requested $162 million 
for Indian tribes located on Indian reservations affected by declining 
coal. In February 2017, the owners of the Navajo Generating Station 
(NGS) informed the Navajo Nation that they intended to shut down the 
coal-burning power plant due to the low price of natural gas as opposed 
to the cost of burning coal. While the plant remains open, the future 
of the plant and the more 3,000 jobs connected to the plant remains 
uncertain. \5\ Thirty-five percent of homes on the Navajo Nation lack 
access to electricity, running water, wastewater, and other utility 
services. The Navajo Tribal Utility Authority (NTUA), a Navajo-owned 
utility company, has previously taken advantage of USDA Rural Utility 
Service (RUS) loans and grants for Water Security Systems, 
telecommunications programs, electric programs, and energy programs. 
Recently, the NTUA built a solar plant to help with energy security on 
a coal dependent community and received an RUS loan that helped putting 
the cost on the rate-payers on the Navajo Nation.
---------------------------------------------------------------------------
    \4\ USDA FY 2018 Budget Summary pg. 30.
    \5\ In early July, the Navajo Nation was able to successfully 
finalize an agreement with the NGS owners to allow the power plant to 
remain in operation until the end of 2019. Since lease extension, the 
Navajo Nation to seek new owners and operators of the power plant. 
Aside from securing new owners and operators, there remains the 
challenge of securing power purchase agreements in order to continue 
selling the power that is generated at the plant beyond 2019 keeping 
the future of continued operations uncertain.
---------------------------------------------------------------------------
    Community Facilities. Cost savings for individual residents, such 
as NTUA's use of the RUS loans, frees up household income to be spend 
in other areas of the Navajo economy. For example, travel costs for 
cancer treatment. Typical cancer treatment requires fifty medical 
visits, which requires a round trip visit for a patient who lives on an 
Indian reservation, that can total 8,000 miles in all. The Indian 
Health Service has no cancer treatment budget and a dedicated source of 
federal funding is needed for tribes to launch their own cancer 
treatment programs. \6\ The Navajo Nation requests the Rural 
Development Community facilities Program be reauthorized in the 2018 
Farm Bill to provide grants for oncology programs and facilities on 
Indian reservations.
---------------------------------------------------------------------------
    \6\ American Indians on five reservations are exposed to mill 
tailings that are the radioactive byproduct of uranium mining and 
milling that helped the federal government win WWII and the Cold War. 
Currently there is research being conducted on the links of Uranium 
exposure to cancer and other medical issues.
---------------------------------------------------------------------------
    E-Connectivity. The Eastern Agency of the Navajo Nation needs more 
quality Internet access. The NTUA has received a USDA Community Connect 
Grant \7\ to provide Internet access for a portion of the Eastern 
Agency. The Navajo Nation would like to request increased funding and 
to allow for ``tribal ownership'' to count for a higher grant score for 
Community Connect Grants. In addition, the Navajo Nation would like to 
gain access to spectrum in the area. The Navajo Nation would like to 
see additional resources for broadband access including allowing tribal 
governments to establish competitive grants for carriers, allowing 
refinancing for projects that serve substantially underserved trust 
areas, and including more Distance Learning and Telemedicine Grants \8\ 
projects on Indian reservations.
---------------------------------------------------------------------------
    \7\ Section 601 of the Rural Electrification Act of 1936, (7 U.S.C. 
950bb).
    \8\ Section 2333(d)(5) of the Food, Agriculture, Conservation, and 
Trade Act of 1990, (7 U.S.C. 950aaa-2).
---------------------------------------------------------------------------
    Individual Farmers and Ranchers. Many individuals participate in 
conservation efforts in order to improve land to launch new farms and 
ranches. For example, the community of Many Farms is a unique fanning 
community with a 25,000 acre foot lake and the potential to 
dramatically expand their fanning operations. There are many families 
who would like the opportunity to develop farmland in their 
communities, but the lack of start-up resources is a challenge. 
Community farms and ranches produce fresh foods for families and 
businesses and provide healthier food options for people on the Navajo 
Nation. The Navajo Nation would like to reauthorize and meaningfully 
increase funding for the Beginning farmer and Rancher Development 
Program in the 2018 farm Bill.
    Infrastructure. Currently, the Navajo Indian Irrigation Project 
(NIIP) provides water for the Navajo Nation's international 
agribusiness Navajo Agriculture Products Industry (NAPI). Despite 
Congress passing the NIIP in 1964, the project has yet to be fully 
constructed. We request the complete construction of a portion of NIIP 
known as ``Block 9,'' which consists of early 10,000 acres. 
Construction is the responsibility of the Bureau of Reclamation (BOR). 
We request the appropriations cap be lifted for construction costs and 
that construction appropriations be increased to finally complete the 
NIIP.
    After construction, the BOR then transfers the project to the BIA 
for maintenance. Federal funding has decreased from approximately $24 
million annually to a current low of $3.3 million for O&M costs. The 
Navajo Nation would like to see increased O&M funds for the NIIP. Based 
on a 2012 study by researchers at the University of Arizona and 
economists with Compass-Lexecon Consulting, NAPI has lost approximately 
$4 billion thanks to federal inability to complete construction. The 
NIIP is not able to reach its full capacity in terms of revenue, 
production, and job creation due to the funding deficiencies.
    Funding Parity and Farm Labor Housing Direct Loans & Grants. In 
April 2016, the Navajo Nation Council approved the ''Permanent Trust 
Fund Income Five-Year Expenditure Plan,'' which provides $150 million 
to increase economic, community, and agricultural development. The 
funding for the expenditure plan is derived from the interest, earned 
from the Navajo Nation's Permanent Trust Fund's principal balance. We 
seek to maximize the usage of outside funding to supplement to cost of 
developing the project listings over the five-year period. We urge 
Congress to ensure that tribes are eligible for any and all matching 
funds available to states. In addition, the we request the Farm Labor 
Housing Direct Loans and Grants to be reauthorized in the 2018 Farm 
Bill to assist traveling agriculture workers.
    Crop Insurance. The Navajo Nation owns 26 tribal ranches and allows 
individuals to produce and maintain livestock on the ranches and 
participates in the USDA Farm Risk Agency Pasture, Rangeland, Forage 
(PRF) Pilot Insurance Program, which allows financial protection 
against drought for production of losses for grazing or harvested hay. 
The Navajo Nation requests the Federal Crop Insurance Corporation is 
authorized to continue the PRF Pilot Insurance Program. \9\
---------------------------------------------------------------------------
    \9\ Section 11026 of the Agricultural Act of 2014, Pub. L 113-79, 
(7 U.S.C. 1523).
---------------------------------------------------------------------------
    Due to low commodity prices and other industry factors, the NAPI 
seeks innovative ways to reduce pest populations and promote its 
international sales. The Navajo Nation supports the protection of 
agricultural resources and international marketing through the USDA 
Marketing and Regulatory Programs and the Agricultural Marking Services 
program.
    Conservation. Conservation is a priority for the Navajo Nation, and 
order to minimize duplicative reviews, we request that USDA Natural 
Resources Conservation Service (NRSC) accept the more detailed Bureau 
of Indian Affairs (BIA) grazing plans \10\ for the USDA conservation 
programs.
---------------------------------------------------------------------------
    \10\ American Indian Agricultural Resource Management Act. Pub. L 
103-177.
---------------------------------------------------------------------------
    The Navajo Nation participates in several USDA Conservation 
Programs including Environmental Quality Incentive Programs (EQUIP), 
the Conservation Stewardship Program (CSP), and the Regional 
Conservation Partnership Program (RCPP), which provide financial 
assistance to install and maintain conservation practices. In 2017, the 
Navajo Nation participate in the RCPP to establish a Watershed Planning 
team \11\ for watersheds in the Little Colorado River Basin, which is 
about 25 percent of the Navajo Nation. Watershed studies are important 
for the region to access quality water sources. \12\ Quality water is a 
challenge due to uranium mining and environmental accidents such as the 
Gold King Mine. The Navajo Nation would like to its preserve funding 
for RCPP.
---------------------------------------------------------------------------
    \11\ The Watershed Planning Team is for 5-years and is for 
watershed pursuant to Pub. L. 83-566.
    \12\ In January 2016, the Navajo Nation Council approved a historic 
legislation that funded $180 million for bulk water projects and water 
sanitation projects--marking the largest ever water infrastructure 
investment by the Navajo Nation. In September 2017, the Navajo Nation 
broke ground on the first of several bulk water infrastructure projects 
in the community of Greasewood, Arizona.
---------------------------------------------------------------------------
    The Navajo Nation requests CSP, EQIP, and RCPP grants be 
reauthorized beyond 2018. The Navajo Nation would like to see these 
programs cover contracted acres where the covered entity still grows 
the covered crops and to see additional outreach to Navajo producers. 
In order to provide additional outreach, the we would like to keep 
Natural Resources Conservation Service offices specifically in St 
Michaels and Chinle, Arizona to retain Navajo Nation members 
conservation engagement.
    Customer Service. The Navajo Nation would like any USDA 
reorganization efforts to increase Indian tribe's prosperity and that 
support for prosperity on tribal lands is elevated within the USDA. In 
order to continue progress and improvement of USDA-tribal relations, we 
request Congress make The Council on Native American Farming and 
Ranching13 a permanent13 statutory advisory committee beyond 2018.
    The Navajo Nation is looks forward to working with the Committee on 
moving forward our priorities for the 2018 Farm Bill.
                                 ______
                                 
Prepared Statement of Hon. Amber Torres, Chairman, Walker River Paiute 
                                 Tribe
    Dear Chairman Hoeven and Vice Chairman Udall,
    On behalf of the Walker River Paiute Tribe of Schurz, Nevada, we 
write to submit testimony for the record urging the Senate Committee on 
Indian Affairs to ensure that Indian Country is included in the 
upcoming Farm Bill. We joined the Native Farm Bill Coalition on October 
12, 2017 with Resolution WR-1 04-2017 and wholeheartedly support their 
ongoing efforts to support the Farm Bill reauthorization and advocate 
for greater Native inclusions in future Farm bills.
    With Congress considering the Farm Bill this session, we request 
the Senate Committee on Indian Affairs to work closely with the Senate 
Agriculture Committee to address Indian Agriculture in this important 
piece of legislation.
    Our reservation is located in rural Nevada, located in the 
northwestern part of the state. Our reservation town is Schurz, Nevada. 
Our land base covers 325,000 acres of land that includes three 
counties--Mineral, Lyon and Churchill. We service 3,643 members on our 
reservation.
    Farmers on our reservation grow alfalfa crops on small farms (est. 
20 acres). We have a Cattleman's Association made up of tribal members 
that graze 550 head of livestock within the reservation boundaries. We 
incorporate our traditional foods into our everyday lifestyle that our 
people have lived on for thousands of years, including Pinenuts, 
Buckberries, fish, deer and small animals such as rabbit and wild 
turkey.
    We have and continue to work with our nearby USDA representatives 
in utilizie funding from the Environmental Quality Incentive Program, 
through the Natural Resource Conservation Service and emergency type 
programs from the Farm Service Agency. We were also fortunate to 
receive a fireworks building through the Rural Development program a 
few years ago; this allowed for a great economic boost to our tribe.
    Agriculture is a very important component for our community, and a 
way of life for most. The Walker River Paiute Tribe requests the Senate 
Committee on Indian Affairs and the Senate Agriculture Committee 
include the following in any legislation regarding the Farm Bill:

  <bullet> Tribal Governmental Parity with State and Local Governments 
        throughout the entire Farm Bill.

  <bullet> Tribal Administration of the SNAP and all Federal Food 
        Assistance Programs through 638 Contracts.

  <bullet> Expand the Substantially Underserved Trust Area (SUTA) 
        provision across all Rural Development programs.

  <bullet> Include Tribes, Native Organizations and Natives in all 
        phases of drafting regulations for programs that will impact 
        Indian country.

    In addition, the Walker River Paiute Tribe supports the following 
recommendations to be included in any agriculture legislation in this 
Congress. We are noting a couple of our priorities below:
    Nutrition Title: This is the most important pnonty to our 
reservation as we have a high population of unemployment. The access to 
the Food Distribution Programs on Indian Reservations is critical to 
our population's health and well-being. The tribal members also 
appreciate the availability of the traditional foods that have been 
incorporated into the food packages, along with the fresh fruits and 
vegetables. The Supplemental Food Assistant Program is very vital 
within our community as well, as this supports a majority of our tribal 
members as well and allows them to make smart and healthy decisions for 
their households. The Women, Infant and Children program is a much 
needed program on our reservations to make sure that our children are 
getting access to all the nutritional values that they need on a daily 
basis to become strong, healthy indigenous leaders of tomorrow. Our 
Tribe wants to make sure that these programs get full funding with no 
budget cuts as this is a trust responsibility of the Federal Government 
to our Native population.
    Commodities Title: The tribes know that the NAP program is funded 
at 75 percent currently and would like to see this increase to at least 
90 percent of agricultural funding. Access to food, and markets is a 
huge barrier, and policies should be designed to keep this in mind. 
Tribes should be at the table for meaningful feedback and consultation 
when drafting regulations that would impacts how they can serve their 
population.
    The entire Farm Bill has programs, funding and resources that our 
Tribe and others depend on. We are requesting that there be no funding 
cuts to any of the programs. We are also endorsing any and all 
recommendations as brought forth by the Native Farm Bill Coalition.
    We also want to advocate for a meeting of the Tribal Nations across 
Indian country to have good, meaningful consultation with you and 
others to discuss this bill.
                                 ______
                                 
   Prepared Statement of Hon. William Iyall, P.E., Chairman, Cowlitz 
                              Indian Tribe
    Dear Chairman Hoeven and Vice Chairman Udall,
    On behalf of the Cowlitz Indian Tribe, we respectfully submit 
testimony for the record urging the Senate Committee on Indian Affairs 
to ensure that Indian Country is included in the upcoming Farm Bill.
    With Congress considering the Farm Bill this session, we request 
the Senate Committee on Indian Affairs to work closely with the Senate 
Agriculture Committee to address Indian Agriculture in this important 
piece of legislation.
    The Cowlitz Indian Tribe represents our area of historic interest 
on the lower Columbia River and southwest Washington. We are the 
stewards of the land. The Cowlitz Indian Tribe was restored to federal 
recognition in 2000. We received a small reservation in 2015. The U.S. 
Forest Service National Forest system has been important to our people, 
as we continue to gather our traditional and cultural resources 
primarily on the Gifford Pinchot National Forest. There are a wide 
variety of resources we have always utilized from the Gifford Pinchot 
National Forest for survival and trading purposes. This activity pre-
dates any land-management policies of the United States.
    Among the primary sources of material or traditional and cultural 
purposes, Western red cedar (Thuja plicata) is one that is very 
significant to us. Cedar bark and roots were and still are used for 
many reasons, such as cedar woven hats and clothing. Cedar wood was and 
is used for making longhouses, canoes, and traditional art carvings. 
Traditionally, this source was important to maintain our way of life, 
and today it also serves to maintain our culture and economies. Other 
significant products include black huckleberry, beargrass, mountain 
goat wool, mushrooms, cones, salal, river rock, and poles.
    The Cowlitz Indian Tribe works with Gifford Pinchot National Forest 
staff to coordinate Cowlitz tribal resource gathering. This gathering 
is established through inherent right and through the Memorandum of 
Understanding and Letter of Authorization specifically outlining the 
Forest Service's understanding that natural resources are vital to the 
Cowlitz Indian Tribe's economic, religious, spiritual, and cultural 
life ways.
    Considering our community, the Cowlitz Indian Tribe requests the 
Senate Committee on Indian Affairs and the Senate Agriculture Committee 
include the following in any legislation regarding the Farm Bill:

  <bullet> Tribal Governmental Parity with State and Local Governments 
        throughout the entire Farm Bill.

  <bullet> Tribal Administration of the SNAP and all Federal Food 
        Assistance Programs through 638 Contracts.

  <bullet> Expand the Substantially Underserved Trust Area (SUTA) 
        provision across all Rural Development programs.

    In addition, the Cowlitz Indian Tribe supports the following 
amendment to be included in any agriculture legislation in this 
Congress.

    Forestry Title VIII

    SEC. 8105. FOREST PRODUCTS FOR TRADITIONAL AND CULTURAL PURPOSES.

    (a) In General--Notwithstanding section 14 of the National Forest 
Management Act of 1976 (16 U.S.C. 472a), the Secretary may provide free 
of charge to Indian tribes any trees, portions of trees, or forest 
products from National Forest System land for traditional and cultural 
purposes.

    (b) Prohibition-Trees, portions of trees, or forest products 
provided under subsection (a) may not be used for commercial purposes.

    (strike above existing language for subsection (b) and insert the 
replacement below)

    (b) Trees, portions of trees, or forest products provided under 
subsection (a) may be used for traditional or cultural purposes by 
Indian tribes of which the final products rendered from forest 
resources may be used for commercial purposes.

    The Cowlitz Indian Tribe asserts that our traditional and cultural 
practices included bartering, trading, and, in modern parlance, sale of 
carvings, canoes, and other wood products as a normal traditional or 
cultural practice. A tremendous amount of traditional, cultural 
products can be derived from just a few trees. Some products, such as 
cedar bark, do not destroy the resource when harvested in the 
traditional manner. Much of the wood materials we gather comes from 
already downed trees, which we salvage in partnership with the Forest 
Service. For our Tribe, Tribal members who sell or barter their 
traditional and cultural products do so for nominal gain (monetarily 
speaking) in order to continue their practice due to the costs 
associated with raw product acquisition, etc. Our Tribe has sustainably 
harvested forest products since time beyond memory. We don't intend to 
do anything different for future practices.
    We thank you for the opportunity to testify on the 2018 Farm Bill. 
Our ability and our tribal members' ability to continue to practice our 
traditional and cultural rights are connected to the US Forest Service 
and primarily Titles II and VIII. We emphasize the importance of 
Traditional Ecological Knowledge and Anchor Forests to our Tribe and 
the United States. We encourage wise and thoughtful management. The 
Cowlitz Indian Tribe is committed stewarding our community towards 
ethical, environmentally sensitive resource conservation and 
utilization

    Attachment: Dated September 29, 2014: Comments regarding: Sale and 
Disposal of National Forest System Timber; Forest Products for 
Traditional and Cultural Purposes.
    Dear Director,
    I am writing on behalf of the Cowlitz Indian Tribe regarding your 
proposed rule to formally implement section 8105 of the 2008 Farm Bill. 
The Cowlitz Tribe was restored to federal recognition in 2000. Although 
federally recognized, we have yet to receive a reservation of our own. 
Without a land base, we continue to rely upon National Forest System 
lands to gather resources for traditional and cultural purposes. We 
will also be dependent on receiving resources on Forest Service lands 
even after we receive our reservation. There are a wide variety of 
resources we have always utilized from the Gifford Pinchot National 
Forest for survival and trading purposes. This activity pre-dates any 
land-management policies of the United States.
    Among the primary sources of material for traditional and cultural 
purposes, Western Red Cedar is one that is very significant to us. 
Cedar bark and roots were and still are used for many reasons, such as 
cedar woven hats, and clothing. Cedar wood was and still is used for 
making longhouses, canoes, and traditional art carvings. Traditionally, 
this source was important to maintain our way of life, and today it 
also serves to maintain our culture.
    Although we appreciate the Forest Service providing an avenue for 
our Tribe to receive forest products through section 8105 of the Farm 
Bill, we have already been securing forest products from the Forest 
Service before the 2008 Farm Bill. Through our inherent right to the 
resource and continued positive relationship with the Gifford Pinchot 
National Forest, we plan to continue to secure necessary resources as 
we have always done. Provisions of section 8105 of the 2008 Farm Bill 
should not impact or trump our previous rights to forest products for 
traditional and cultural purposes, including the nominal barter and 
trade of the ``art'' or subsistence material derived from the forest 
products.
    We would like to mention that although this draft rule provides to 
the Tribe the ability to secure forest products free of charge, there 
still is a cost born on the Tribe for the planning, implementation of 
securing our traditional resource, and the processing of raw material. 
One of the reasons the Tribe secures forest products is to provide 
cultural (artistic) products for display at tribal centers, at various 
centers within our neighboring communities, at museums, at other tribal 
centers, etc. This is important to us, and provides multiple benefits. 
It fosters positive relations and increases awareness and appreciation 
of who we are within the community and beyond. In many cases, we 
receive requests from outside our Tribe for traditional and cultural 
products that are derived from forest products. The only way we can 
uphold and follow through with requests is to receive forest products 
from National Forest System lands. There are also other tribes who are 
challenged on securing a source of suitable wood products of which we 
can assist given the rich resources within our traditional territory of 
the Gifford Pinchot National Forest. All of the examples mentioned come 
at a cost to the Tribe. The draft rule doesn't explain or describe our 
ability to recoup any costs born on the Tribe. In order for our Tribe 
to fully utilize the provisions under this rule, we will need the 
freedom to find ways to recoup costs, and the ability to barter and 
trade to keep important programs alive concerning the products derived 
from forest products.
    The draft rule mentions that sale and/or barter concerns will be 
handled through anticipated special forest products rule promulgation. 
We think that it is necessary that ``wood products'' utilized for 
traditional and cultural purposes (including sale and/or barter) needs 
to be further addressed.
    For at least our Tribe, we have the opinion that any sale or barter 
concerns associated with traditional and cultural products will not 
amount to any significant concerns for the Forest Service. A tremendous 
amount of priceless cultural and traditional products can be derived 
from just a few trees. Some products (such as cedar bark) don't even 
destroy the resource when harvested properly. Much of the wood 
materials we gather from the forest come from already downed trees of 
which we salvage in partnership with the Forest Service. For our Tribe, 
Tribal members who sell or barter their traditional and cultural 
products do so for nominal gain (monetarily speaking) in order to 
continue their practice due to the costs. The tribal/regional benefit 
of the ability to have these forest derived traditional/cultural 
products is priceless. Our Tribe has sustainably harvested forest 
products since time beyond memory. We don't intend to do anything 
different for future practices.
    We thank you for the opportunity to comment on ruling connected to 
forest products for traditional and cultural purposes. Our ability and 
our tribal members' ability of continuing to practice our traditional 
and cultural rights are dependent on our ability to recoup costs in 
order to sustain that practice. Again, this draft rule doesn't address 
the concerns brought forward. We request to be directly contacted on 
future rulemaking as it pertains to all forest products important to 
our Tribe.
                                 ______
                                 
Prepared Statement of Hon. Ronald Trahan, Chairman, Confederated Salish 
                          and Kootenai Tribes
Introduction
    Greetings Chairman Hoeven, Vice Chairman Udall, and members of the 
Committee. My name is Ronald Trahan, Chairman of the Confederated 
Salish and Kootenai Tribes (CSKT) located in western Montana. Thank you 
for this opportunity to provide written testimony concerning tribal 
agriculture, agribusiness opportunities in Indian Country, and the Farm 
Bill. The January 17th Senate Committee on Indian Affairs hearing was 
timely as the Farm Bill is up for reauthorization this year.
    The CSKT of the Flathead Indian Reservation are comprised of three 
tribes: the Salish, the Pend d'Oreille, and the Kootenai. Our ancestors 
lived in the territory now known as western Montana, parts of Idaho, 
British Columbia, and Wyoming. The CSKT aboriginal territory exceeded 
20 million acres at the time of the signing of the Hellgate Treaty on 
July 16, 1855. From th e signing ofthe Treaty until present day, the 
CSKT call the 1.3 million acre Flathead Indian Reservation its home.
    Although our Reservation was opened up to homesteading over 100 
years ago with the passage of the Flathead Allotment Act and its 
Amendments, our tribes have worked hard for many decades to buy back 
lands within our Reservation. Today the CSKT own over 60 percent of 
lands within the exterior boundaries of the Flathead Indian 
Reservation. Through a compact with the BIA, the CSKT manage 345 
agricultural leases on over 104,000 acres of tribally owned and 
allotted lands. The Tribes also manage 54 range unit permits on over 
385,000 acres of tribally owned lands.
    The health and welfare of our tribal membership is ofthe utmost 
importance. Having access to nutritious and traditional foods is a 
priority for our Tribes. Clean drinking water is also crucial for the 
well-being of our people. The availability of economically viable jobs 
through farming, ranching, forestry, preservation, and construction are 
vital for the protection of our agricultural lands, forests, and 
natural resources.
    The CSKT are a member of the Native Farm Bill Coalition. The 
Coalition is made up of tribes and organizations including the 
Intertribal Agriculture Council (lAC), the National Congress of 
American Indians (NCAI), and the Intertribal Food and Agriculture 
Initiative (IFAI) that have identified priorities to be included in the 
2018 Farm Bill. Discussed below are some of the priorities for the CSKT 
(many of which we share with the Coalition) for the upcoming Farm Bill 
reauthorization.
Nutrition
    The CSKT were encouraged that the 2014 Farm Bill included some 
significant provisions for tribes with respect to nutrition programs. 
For example, the Food Distribution Program on Indian Reservations 
Traditional Foods Demonstration Project (FDPIR), which is a federal 
program that provides USDA foods to low-income households, including 
the elderly, living on Indian reservations, created a new demonstration 
project with technical assistance and tribal consultation to allow the 
inclusion of traditional and locally grown foods from Native farmers, 
ranchers, and producers in FDPIR. For the 2018 Farm Bill, in addition 
to opposing further cuts to nutrition programs, tribes like the CSKT 
and tribal organizations are pushing for changes to allow tribes 
greater authority to administer nutrition programs by providing tribal 
governments and tribal organizations the direct authority to administer 
Supplemental Nutrition Assistance Program (SNAP) and all other federal 
food assistance programs which they are currently not allowed to 
directly manage. This can be achieved by providing tribes with 638 
self-governance contract authority for nutrition programs, similar to 
that which exists for Department of the Interior and Indian Health 
Service programs. Changes to the FDPIR program could include 
eliminating or limiting the matching funds requirement for each of the 
FDPIR program sites to participate; providing tribal feeding sites with 
parity to state counterpart programs by allowing them to carryover 
unspent funds from year to year; requiring FDPIR traditional food 
purchases (for example bison, salmon, and other products) to be a 
regular part of food package purchases and not require supplemental or 
special appropriations to purchase these foods; and requiring the 
USDA's Food and Nutrition Service (FNS) to engage in further 
consultation with tribes to improve the FDPIR program.
Rural Development
    As you are aware, Rural Development (RD) programs at USDA offer 
loans, grants and loan guarantees to support economic development and 
essential services in rural areas through support for housing, health 
care, first responder services and equipment, and water, electric and 
communications infrastructure. These RD programs are vitally important 
to tribal governments, communities, individual Indian producers, and 
tribal businesses. In many cases the grants and loans offered byRD are 
the only financing tools available to tribes and neighboring 
communities to enhance or build new infrastructure. Over the years many 
tribes have experienced difficulty in accessing RD programs at USDA so 
Congress included a provision in the 2008 Farm Bill that was intended 
to give USDA enhanced authority to finance projects on tribal lands-
this is known as the Substantially Underserved Trust Areas (SUTA) 
provisions. SUTA applies to some, but not all, RD programs and 
authorities (mainly to basic infrastructure such as water and electric) 
and allowed those beneficiaries who could demonstrate that they existed 
in a ``substantially underserved trust area'' to gain access to 
important waivers of program requirements, lower interest rates, longer 
repayment terms, and similar assistance through RD programs. Broadening 
SUTA in the 2018 Farm Bill to include all RD programs would help ensure 
more equitable access to RD programs and authorities, and the change 
would allow the waiver of matching requirements for projects funded 
through RD. Matching requirements can be a significant barrier to 
socially disadvantaged applicant participation in RD business and 
infrastructure projects.
    A tribal set aside for rural development programs is also needed as 
many applications from tribes for funding under RD programs have been 
denied in recent years. Further, establishing a permanent office 
providing technical assistance across all RD funding authorities is 
needed due to the complexities of lending and infrastructure 
establishment in Indian Country. This office could prepare and monitor 
lessons learned, establish user-friendly application systems, and 
assist staff at the tribal or business level in preparing applications. 
Other provisions of interest to be included in the RD title ofthe bill 
include ensuring that the position of Under Secretary for Rural 
Development at USDA is maintained, as the primary duties of this 
position are to focus on RD programs and funding for Indian Country and 
rural America.
Miscellaneous Administrative Provisions at USDA
    Changes to many offices and programs at USDA could help expand 
Native participation in agriculture. A broad reaching Office of Tribal 
Agriculture should be established within the Office of the Secretary to 
coordinate all USDA programs applicable to tribes. This Office could 
maximize the value of the programs, address issues in compliance and 
access of programs that are carried out within USDA, and serve as a 
liaison between the USDA, tribes, and individual Indian producers. The 
Office of Tribal Agriculture should also be required to report to 
Congress at least once annually on its activities and progress in 
advancing tribal agriculture interests. Adequate funding for the 
existing Office of Tribal Relations (OTR) at USDA is needed to ensure 
that the OTR has the needed resources to provide education, training 
and technical assistance to tribes so USDA programs and services can be 
better accessed. USDA could also establish a new scholarship and 
training program to assist in training the tribal agricultural 
workforce and encourage Native students to pursue careers in 
agriculture. Creating an Interdepartmental Task Force on Indian 
Agriculture with the OTR, the Office of the Secretary, and 
representatives of other agencies and offices across USDA, along with 
the BIA would help to examine and develop administrative efficiency and 
regulatory changes needed to help ensure Native agricu lture is 
supported and has mechanisms to grow. USDA should also be required to 
recruit and appoint tribal members to all of the federal advisory 
committees it seats and supports.
Research and Education
    Changes to research and education programs at USDA can enhance the 
development of tribal research, education, and Native youth 
participation in agriculture by making programs and funding more 
accessible to Tribal Colleges and Universities (TCUs), and supporting a 
tribally led focus on traditional knowledges and practices. One item is 
to strengthen funding for the Federally Recognized Tribes Extension 
Program (FRTEP) that provides support to Extension programs on Ind ian 
Reservations to address the needs and problems of Tribes. FRTEP helps 
to build Indian community capacity through 4-H and tribal youth 
development, agriculture and natural resource management, and 
entrepreneurship and business development, and seeks to address 
inequities in educating and developing Native American extension 
resource programming and Native youth in food and agriculture 
programming. Making TCUs eligible for funding under al l programs 
administered by the USDA's National Institute of Food and Agriculture 
(NIFA) programs would help TCU extension personnel better serve tribes. 
Further, creating a tribal set aside for NIFA programs and requiring 
NIFA to focus a portion of their work on building knowledge and 
capacity in business development unique to tribal lands and individual 
Indian owned land would allow tribes to better access and utilize these 
programs. Changes could also be made to allow tribal governments and 
tribal organizations full access to all nutrition education programs at 
NIFA, including SNAP-Ed--which is an evidence-based program that 
teaches people using or eligible for SNAP about good nutrition and how 
to make their food dollars stretch further. Thus, giving tribes full 
access to SNAP-Ed and all research programs would help build knowledge 
in nutrition, health, obesity, and diabetes prevention in tribal 
communities.
Conservation
    Changes to agriculture conservation programs to improve 
coordination between the USDA's Natural Resources Conservation Service 
(NRCS) and the Bureau of Indian Affairs would help ensure that tribal 
producers have access to conservation programs and other USDA programs 
that require an NRCS-approved conservation plan. This could be achieved 
in the Conservation title of the Farm Bill by explicitly including 
``tribes'' or ``tribal'' where ``state'' or ``local'' or ``regional'' 
agricultural producers are mentioned to ensure tribal access to all 
NRCS programs. Further, all tribal lands falling under the jurisdiction 
of the BIA, tribal governments, tribal agricultural entities, and 
individual tribal producers, landowners, or land operators should 
receive mandatory priority consideration for al l conservation programs 
authorized in the Farm Bill. The bill should also direct funding to 
USDA to provide technical assistance to tribes and tribal producers so 
they can better utilize and access conservation programs.
Commodities and Credit
    Further improvements can be made to Farm Service Agency (FSA) 
programs to address the availability, efficiency and application of 
credit programs to producers in Indian Country. Specifically, changes 
are needed to FSA loans to allow producers to take advantage of pricing 
opportunities on input materials, replacement stock, or expansion 
opportunities, and incentivize operating from available resources. 
Producers should be able to restructure their debt in a manner that 
will not count towards lifetime limits on loan servicing. Creation of a 
joint administrative team at USDA and BIA with the role of reviewing 
and updating federal practices and regulations that hinder tribal food 
production, tribal food system lending, and tribal loan servicing would 
also help producers. With respect to commodity programs, modifications 
can be made to enhance and protect the ability of tribal producers to 
participate in the Livestock Forage Disaster Program, Supplemental 
Agricultural Disaster Assistance Programs, and other USDA programs that 
provide emergency relief funds for livestock. Changes should also be 
made to ensure that tribal producers are represented on FSA County 
Committees. Producers who serve on these committees help decide the 
kind of programs their counties will offer and they work to make sure 
FSA agricultural programs serve the needs of local producers. The FSA 
should conduct an assessment based on Census data and Agricultural 
Census data to determine the population makeup of the county and 
conduct tribal consultation with tribal governments to guarantee that 
tribal citizens are effectively notified of the opportunity to be 
nominated and considered for county committee membership. All FSA 
county committees in areas with significant tribal population and/or 
tribal land base areas should have correlating Native membership.
Forestry
    The Farm Bill could include improvements to the Tribal Forest 
Protection Act (TFPA) to allow tribes to better access, manage and 
develop tribal and federal forests and woodlands to protect tribal 
resources and provide jobs and economic development. Proposals from 
forestry legislation introduced in previous Congresses mandating 
timelines for review, approval and implementation of TFPA projects are 
needed because of the underperformance of the current TFPA authority. 
While the TFPA was signed into law in 2004, only three projects have 
been fully implemented, while others have been mired in years of delay 
and red tape. This has led to tribal forest lands remaining at high 
risk of wildfire coming from adjacent federal lands. Modernizing TFPA 
would give tribes the certainty to pursue TFPA projects with their 
federal neighbors and reduce the risk of wildfire migrating from 
federal lands onto Indian trust land. Specifically, allowing for 
greater tribal participation in TFPA projects by authorizing a 
discretionary pilot program to allow the application of 638 contracting 
authority to TFPA projects on Forest Service or Bureau of Land 
Management (BLM) lands is needed. Authorization for the USDA to fund a 
Native American forestry workforce coordination and development program 
administered through an intertribal organization with expertise in 
Tribal forestry issues could help address workforce issues and the 
growing shortage of trained workers for the management and operation of 
Indian forests. This shortage of forest workers constrains the ability 
of tribes and related federal agencies to effectively manage and 
protect tribal forests and forest-related natural resources and to 
participate in broader landscape-based forest management activities. 
Ensuring that all Tribal Colleges and Universities (TCUs) are eligible 
to access federal programs to support them in offering degree programs 
in forestry and helping the schools perform tribally and state-relevant 
forestry research and develop a well-trained Native forestry workforce 
would also be beneficial.
    Any wildfire provisions in the Farm Bill should ensure that tribal 
forests are appropriately prioritized for fire suppression activities 
and funding. In 2017 alone, there were over 60 fires that burned over 
33,000 acres on our Reservation. As you know, the current system which 
places the protection of private structures above that of tribal forest 
has led in the past to crews being pulled off wildfires on Indian lands 
and reassigned to protecting private structures. This leads to the 
unneeded loss of timber that is vitally important to tribal economies. 
Providing authority to develop more Anchor Forest initiatives will help 
with forest health and management. The Inter-Tribal Timber Council, its 
member Tribes, the U.S. Forest Service, and other forest resource 
stakeholders recently completed a pilot study in Washington State and 
issued a report on an ``Anchor Forest'' concept to foster landscape-
scale forest collaboration and management projects intended to improve 
forest health while preserving local loggi ng, milling, and other 
critical infrastructure. Ensuring tribal consultation to protect sacred 
tribal areas and requiring tribal representation on all local, regional 
and national planning and implementation advisory committees at the 
USDA and the U.S. Forest Service is also critical so tribes have a say 
in policy making and management.
Conclusion
    I would like to thank the Committee for allowing me the opportunity 
to discuss the importance of agricu lture, nutrition, and cultural 
resource preservation for our Tribes. It is vital that the upcoming 
Farm Bill includes input from Indian Country and allows tribes and 
their membership equa l access to USDA programs and funding 
opportunities.
                                 ______
                                 
 Prepared Statement of Hon. Mary Jane Miles, Chairman, Nez Perce Tribe
    Dear Chairman Hoeven and Vice-Chairman Udall:
    The Nez Perce Tribe (Tribe) submits this testimony for the record 
urging the Senate Committee on Indian Affairs to ensure that Indian 
Country is included in the upcoming Farm Bill. In addition, while 
Congress considers the Farm Bill this session, the Tribe requests the 
Senate Committee on Indian Affairs work closely with the Senate 
Agriculture Committee to address Indian agriculture in this important 
legislation.
    Since time immemorial, the Tribe has occupied and used over 13 
million acres of land now comprising north-central Idaho, southeast 
Washington, northeast Oregon, and parts of Montana. The current Nez 
Perce Reservation covers approximately 750,000 acres, 38,000 of which 
is used for agricultural purposes. Like all governments, the Tribe has 
profound economic, social, and political impact on the regional economy 
and is one of the largest employers in north-central Idaho.
    The Tribe provides many services that fall under the purview of the 
Farm Bill. For example, in 2013, the Tribe established the Tribal 
Agricultural Center (TAC) with the mission of producing local, 
sustainable, and healthy food for the Nimiipuu and surrounding 
communities. The TAC, in coordination with U.S. Department of 
Agriculture (USDA) Natural Resources Conservation Service (NRCS), is 
developing guidelines for best agricultural management practices on 
tribal lands, monitoring compliance, evaluating agricultural impacts to 
resources and traditional gatherers on tribal lands, and developing 
restoration protocols for traditional food and Eber plants.
    The Tribe currently provides daily services across the Nez Perce 
Reservation through the Supplemental Nutrition Assistance Program 
(SNAP) and the Food Distribution Program on Indian Reservations 
(FDPIR). The Tribe has also been able to expand and provide 
telecommunication and broadband services throughout the Nez Perce 
Reservation with assistance from the Rural Utility Service programs.
    Considering the state of programs in Indian Country contained in 
past iterations of the Farm Bill, the Tribe requests that both the 
Senate Committee on Indian Affairs and the Senate Agriculture Committee 
include the following in any legislation regarding the Farm Bill:

  <bullet> Tribal governmental parity with state and local governments 
        throughout the entire Farm Bill.

  <bullet> Tribal administration of the SNAP and all federal food 
        assistance programs, such as FDPIR, through 638 Contracts.

  <bullet> Expansion of the Substantially Underserved Trust Area (SUTA) 
        provision across all rural development programs.

    In addition, the Tribe supports inclusion of the following 
recommendations, set forth by the Native Farm Bill Coalition, in any 
agriculture legislation- during this Congress.
Commodities Title
  <bullet> Ensure tribal producers' eligibility for all disaster 
        assistance programs in this Title, and increase payments to 90 
        percent of value to acknowledge their unique land and market 
        issues.

  <bullet> Create parity for tribal producers in Farm Service Agency 
        Committees and decision-making.

Conservation Title

  <bullet> USDA conservation programs must allow for the use of 
        traditional and ecological knowledge-based conservation 
        practices.

  <bullet> Cross-agency coordination between the NRCS and Bureau of 
        Indian Affairs must be improved to ensure all tribal producers 
        have access to conseryation programs and other USDA programs 
        that require an NRCS-approved conservation plan.

  <bullet> Parity must be achieved throughout the Conservation Title by 
        explicitly including ``tribes'' or ``tribal'' where ``State'' 
        or ``local'' or ``regional'' agricultural producers are 
        mentioned to ensure tribal access to all NRCS programs.

Trade Title

  <bullet> Support and maintain tribal food and agriculture businesses' 
        entry into foreign markets by expanding Indian Country's access 
        to the Market Access Program and protecting unique tribal foods 
        against fraud.

  <bullet> Improve interdepartmental coordination and tribal government 
        and individual Indian producer inclusion on all U.S. trade 
        missions.

Nutrition Title

  <bullet> Indian Country needs a consistent, comprehensive, and 
        tribal-led approach to tailor federal food assistance programs 
        to the specific needs of tribal communities and citizens.

  <bullet> Tribes should be allowed the option to enter into Self-
        Determination Contracts pursuant to P.L. 93-638 for 
        administration of the SNAP and all other federal feeding 
        programs.

  <bullet> Funding, flexibility and infrastructure of the FDPIR needs 
        to be improved.

Credit Title

  <bullet> Improvements must continue to be made to Farm Service Agency 
        programs to address the availability, efficiency, and 
        application of credit programs in Indian Country.

Rural Development Title

  <bullet> Recognizing the United States' trust responsibility to the 
        Tribe, the Rural Development (RD) programs at the USDA must 
        have dedicated funding and technical assistance for tribal 
        governments to ensure that tribal communities and the rural 
        communities around them thrive.

  <bullet> Tribes must be consulted during the restructuring of the 
        USDA's RD agency due to its unique impact on tribal economies 
        and tribal economic development. Any budget shifts must be 
        subject to meaningful tribal consultation before changes occur.

Research Title

  <bullet> Research Title programs must allow for the development of 
        tribal research, education, and Native youth in agriculture by 
        making programs and funding more accessible to Tribal Colleges 
        and Universities (TCUs), support a tribally led focus on 
        traditional knowledge and practices, and provide additional 
        opportunities for education.

  <bullet> The Federally Recognized Tribes Extension Program (FRTEP) 
        must be funded at a minimum of $10 million to address the 
        persistent inequity in educating and developing Native American 
        extension resource programming and Native youth in food and 
        agriculture programming.

  <bullet> Dedicated funding and tribal preference at the National 
        Institute of Food and Agriculture must be provided to develop 
        tribal research and educational capacity.

  <bullet> All institutions (non-TCUs) that receive any funding for 
        extension programming in states that have tribal lands and 
        tribal producers must be required to report and demonstrate 
        their work with tribal governments, tribal communities, and 
        tribal producers and their cooperative and respectful 
        coordination with TCUs in close proximity. Further, these 
        institutions should be required to conduct a percentage of 
        their overall work that is equal to the amount of land in the 
        state held by Indians and Indian farms in those states. All 
        such extension programming must be done with Indian communities 
        and by staff experienced in and having knowledge of issues 
        important to Indian Country.

Forestry Title

  <bullet> Tribes must be provided parity throughout the Forestry Title 
        to better access, manage, and develop tribal and federal 
        forests and woodlands to protect tribal resources while also 
        providing jobs and economic development.

Horticulture and Specialty Crops Title

  <bullet> Many traditional Native foods fall under the designation of 
        horticulture crops and are necessary to support food 
        sovereignty and healt-- food access in Indian Country. USDA 
        programs which oversee horticulture crops must engage in tribal 
        consultation to ensure the unique needs of tribal producers are 
        being met.

  <bullet> The Farm Bill must include provisions to protect Native 
        foods in the marketplace, including Native seeds, and 
        traditional foods.

Miscellaneous

  <bullet> Fully fund the Office of Tribal Relations and create a new 
        Office of Tribal Agriculture that will improve the service and 
        coordination of USDA programs for tribes and tribal producers. 
        The new Office of Tribal Agriculture should report to the 
        Office of Tribal Relations and funding for both offices should 
        be mandatory.

  <bullet> Create a mandatory interdepartmental working group between 
        departments at USDA and the Bureau of Indian Affairs to examine 
        and determine solutions in areas where the two agencies 
        overlap, are requiring duplicative documentation or actions on 
        the part of tribes and individual Indian landowners in order to 
        access programs and services, or are generally lacking in 
        coordination and efficiency for tribal agriculture. The 
        identified barriers and problems must be addressed and resolved 
        by sustained, mandatory interdepartmental working groups.

    Thank you for consideration of the Tribe's testimony and your 
support of our recommendations as the Farm Bill is put together.
                                 ______
                                 
  Prepared Statement of James E. Zorn, Executive Administrator, Great 
               Lakes Indian Fish and Wildlife Commission
    Dear Chairman Hoeven and Vice Chairman Udall,
    Thank you for the opportunity to submit written testimony on this 
important topic. The Great Lakes Indian Fish and Wildlife Commission 
(``GLIFWC'' or ``Commission'') is an intertribal natural resource 
agency exercising delegated authority from 11 federally recognized 
Ojibwe Tribes in Minnesota, Wisconsin and Michigan. GLIFWC member 
Tribes retain hunting, fishing, gathering rights, and associated 
governmental management and regulatory authorities, in territories 
ceded to the United States in various treaties. Specifically, portions 
of the Lake Superior, Lake Michigan and Lake Huron basins are within 
territory ceded by the Treaties of 1836, 1837, 1842 and 1854.
    Because of the upcoming deadline, we have not had the opportunity 
to discuss these comments with GLIFWC's governing Board of 
Commissioners or the Voigt Intertribal Task Force. However, as the Farm 
Bill serves as a catalyst to advance food policy nation-wide, and 
GLIFWC's Board of Commissioners and Voigt Intertribal Task Force have 
prioritized efforts to incorporate traditional foods into tribal 
programs, we would be remiss if we did not offer testimony addressing 
this issue.
    GLIFWC's mission includes supporting the exercise of tribal 
sovereignty and intertribal co-management by protecting and enhancing 
treaty-guaranteed rights to hunt, fish and gather within the ceded 
territories. The exercise of these rights supports tribal sovereignty 
in a variety of ways. Harvesting activities and the consumption of 
traditional foods promote health in tribal communities, and connection 
to cultural lifeways. These rights also translate into tangible 
economic benefits for tribal individuals, businesses and communities.
    GLIFWC member Tribes have been encouraged by the inclusion of 
traditional foods in USDA programs, such as within the Food 
Distribution Program on Indian Reservations (FDPIR), and would like to 
see more opportunities for tribal programs to include wild-caught game 
and fish, manoomin (wild rice) and other wild-harvested and locally-
produced foods in their menu options. The 2014 Farm Bill included a 
provision for the use of donated wild-harvested foods in USDA-supported 
programs (Traditional Foods in Public Facilities, 128 Stat. 818). This 
provision is a step in the right direction, however more is needed to 
ensure that traditional foods become a regular part of program menus.
    Addressing this issue in the 2018 Farm Bill would provide tribal 
programs with greater access to healthy, local sources of protein from 
wild game by enabling the purchase of these foods. This would also 
support tribal harvesters by providing compensation for the time and 
effort spent on food production activities. We expect that tribal 
communities, as a whole, would benefit, especially in communities where 
conventional forms of employment are not always available.
    The Guidance from the Food and Nutrition Program to Regional 
Directors of the Special Nutrition Programs and State Directors of the 
Child Nutrition Programs issued in 2015, suggests that wild-caught game 
cannot be considered part of a ``reimbursable meal'' unless slaughtered 
and inspected in a federally-inspected facility, state inspected 
program, or originate from an approved source as established by state 
and local regulatory authorities. Language in this memorandum ignores 
the self-governing authority of tribes to establish laws and food 
safety systems independent of state and federal governments. We note 
that wild-harvested game has been, and continues to be, a regular part 
of the diets of many tribal communities. Some tribes have established 
or are in the process of establishing food codes and inspection 
capabilities to ensure safe consumption of traditional foods. Even 
without the establishment of written standards, tribal communities have 
long-established customary law on food safety addressing appropriate 
killing of animals, standards on processing, transporting and storing 
game meat, and teachings that govern how these meats are prepared for 
consumption.
    GLIFWC member Tribes are also cognizant that concerns regarding the 
conservation of game animals have influenced the development of food 
policy. In the late 19th and early 20th centuries, the conservation 
movement advocated for the adoption of wide-ranging legislation to 
curtail the overharvesting of wild animals. Prohibitions on the sale of 
meat derived from wild-harvested animals was one aspect of the 
legislative agenda. Although certain positive changes were made to 
curtail unsustainable harvesting practices, policy makers failed to 
consider the effect that these changes would have on tribal 
communities. The tribes reserved rights to hunt, fish and gather on and 
off-reservation, and their rights of self-government, were largely 
ignored, leaving tribal communities vulnerable to poverty, disease and 
hunger.
    Tribal nations spent decades suing for recognition of their treaty-
reserved rights. In numerous decisions, the Courts have recognized that 
the tribes' reserved rights include the ability to regulate their 
members differently than the states: tribal conservation codes may 
provide for the use of efficient methods of harvest (as opposed to 
inefficient methods required by states to promote conservation) and to 
sell products derived from their treaty-reserved harvesting. In 
furtherance of their conservation goals, the tribes have developed 
sophisticated systems to maintain sustainable harvests. They work 
together, and with state and federal partners, to study plant and 
animal populations and trends in order to set appropriate quotas and 
maintain a dynamic management approach. They have also developed 
conservation codes and the means of enforcing those codes, including 
effective law enforcement that coordinates with federal and state 
officers, and tribal courts experienced in handling treaty rights 
cases. Tribes continue to adopt forward-thinking environmental 
standards and advocate for the adoption of state and federal policies 
that support healthy ecosystems.
    Because of the importance of these issues and the need to recognize 
the appropriate governmental authority of tribes, and in recognition of 
the federal government's ongoing treaty obligations, the Committee 
should consider adding language that provides for:

  <bullet> Tribal Governmental Parity with State and Local Governments 
        throughout the entire Farm Bill, including recognition of 
        tribal food codes and food safety systems;

  <bullet> Tribal Administration of USDA Programs, including 
        flexibility in purchasing traditional and locally produced 
        foods; and

  <bullet> An exemption for treaty-harvested game meats purchased for 
        Tribal Government programs from federal or state slaughter and 
        inspection requirements.
                                 ______
                                 
 Prepared Statement of Hon. Regina Gasco-Bentley, Tribal Chairperson, 
     Waganakising Odawak, Little Traverse Bay Bands of Odawa Indian
    Dear Chairman Hoeven and Vice Chairman Udall,
    On behalf of the Little Traverse Bay Bands of Odawa Indian of 
Michigan, please accept this testimony for the record urging the Senate 
Committee on Indian Affairs to ensure that Indian Country is included 
in the upcoming Farm Bill.
    With Congress considering the Farm Bill this session, we request 
the Senate Committee on Indian Affairs to work closely with the Senate 
Agriculture Committee to address Indian Agriculture in this important 
piece of legislation.
    Little Traverse Bay Bands of Odawa Indians is headquartered in 
Harbor Springs Michigan Our Tribal Service Area extends to 27 counties 
in Michigan along the Great Lakes. We recognize the importance off the 
Farm Bill and programs within the Farm Bill have helped our Tribe. Our 
tribe owns and operates a farm that is approximately 300 acres, we 
utilize the Food Distribution Program on Indian Reservations and other 
funds for our programing and services to our Tribal Citizens.
    Considering the state of agriculture for our community, Little 
Traverse Bay Bands of Odawa Indians requests the Senate Committee on 
Indian Affairs and the Senate Agriculture Committee include the 
following in any legislation regarding the Farm Bill:

  <bullet> Tribal Governmental Parity with State and Local Governments 
        throughout the entire Farm Bill

  <bullet> Tribal Administration of the SNAP and all Federal Food 
        Assistance Programs through 63 8 Contracts

  <bullet> Expand the Substantially Underserved Trust Area (SUTA) 
        provision across all Rural Development programs

    In addition, the Little Traverse Bay Bands of Odawa Indians 
supports the following recommendations to be included in any 
agriculture legislation in this Congress.
Commodities Title
    --Indian Country is heavily invested in commodity food production, 
especially livestock, which makes up nearly $2 billion of agriculture 
income for tribal producers.
    --Ensure tribal producers' eligibility for all disaster assistance 
programs in Title I, and increase payments to 90 percent of value to 
acknowledge their unique land and market issues.
    --Create parity for tribal producers in Farm Service Agency 
Committees and decision-making. Conservation Title
    --U.S. Department of Agriculture (USDA) conservation programs must 
allow for the use of traditional, ecological, knowledge-based 
conservation practices.
    --Cross-agency coordination between the Natural Resources 
Conservation Service (NRCS) and Bureau of Indian Affairs must be 
improved to ensure all tribal producer have access to conservation 
programs and other USDA programs that require an NRCS-approved 
conservation plan.
    --Parity must be achieved throughout the Conservation title by 
explicitly including ``tribes'' or ``tribal'' where ``state'' or 
``local'' or ``regional'' agricultural producers are mentioned to 
ensure tribal access to all NRCS programs.
Trade Title
    --Support and maintain tribal food and agriculture businesses' 
entry into foreign markets by expanding Indian Country's access to the 
Market Access Program (MAP) and protecting unique tribal foods against 
fraud.
    --Improve interdepartmental coordination and tribal government and 
individual Indian producer inclusion on all U.S. trade missions.
Nutrition Title
    --Approximately 25 percent ofNative Americans receive some type of 
federal food assistance, and in some tribal communities, participation 
is as high as 60-80 percent.
    --Indian Country needs a consistent, comprehensive, and tribal-led 
approach to tailor federal food assistance programs to the specific 
needs of tribal communities and citizens.
    --Allow tribes the option to enter into Self-Determination 
Contracts pursuant to P.L. 93-638 for administration of the 
Supplemental Nutrition Assistance Program (SNAP) and all other federal 
feeding programs.
    --Improve the funding, flexibility and infrastructure of the Food 
Distribution Program on Indian Reservations (FDPIR).
    --Require a CBO or CRS inquiry into the impact of drastic cuts or 
elimination of food assistance programs on the overall agricultural 
economies of tribes.
Credit Title
    --Many tribal communities are located in ``Credit Deserts,'' where 
access to fair and reasonable credit terms is limited or non-existent.
    --Improvements must continue to be made to Farm Service Agency 
(FSA) programs to address the availability, efficiency and application 
of credit programs in Indian Country.
Rural Development Title
    --The Rural Development (RD) programs at the U.S. Department of 
Agriculture (USDA) are essential for rural and reservation tribal 
communities to develop and improve declining infrastructure systems 
while spurring economic development and job creation in tribal 
communities.
    --Many ready-to-go (``shovel-ready'') tribal infrastructure and 
community development projects have gone unfunded over the past several 
years, leaving promises to Indian Country and rural communities 
unrealized.
    --RD must have dedicated funding and technical assistance for 
tribal governments as part of the federal trust responsibility and to 
ensure that tribal communities and the rural communities around them 
thrive. -Tribes must be consulted during the restructuring of the 
USDA's RD agency due to its unique impact on tribal economies and 
tribal economic development. Any budget shifts must also receive tribal 
consUltation before changes occur.
Research Title
    --Research Title programs must allow for the development of tribal 
research, education, and Native youth in agriculture by making programs 
and funding more accessible to Tribal Colleges and Universities (TCUs), 
support a tribally led focus on traditional knowledge and practices, 
and provide additional opportunities for education.
    --Fund the Federally Recognized Tribes Extension Program (FRTEP) at 
a minimum of$10 million to address the persistent inequity in educating 
and developing Native American extension resource programming and 
Native youth in food and agriculture programming.
    --Provide dedicated funding and tribal preference at National 
Institute of Food and Agriculture (NIFA) to build tribal research and 
educational capacity.
    --Require all institutions (non-TCUs) that receive any funding for 
extension programming in states that have tribal lands and tribal 
producers to report and demonstrate their work with tribal governments, 
tribal communities, and tribal producers and their cooperative and 
respectful coordination with TCUs in close proximity. These 
institutions should be required to conduct a percentage of their 
overall work that is equal to the amount of land in the state held by 
Indians, the Indian farms in those states, and such extension 
programming must be done with Indian communities and done by staff 
experienced in and knowledgeable of issues important to Indian Country.
    --Remove FRTEP from the Farm Bill requirements that all Smith-Lever 
programs be competitive and reinstate the consultative requirements for 
FRTEP implementation.
Forestry Title
    --Tribal forests and woodlands make up one third of all tribal 
lands held in trust, and provide resources, jobs, and economic 
development opportunities for many tribal governments.
    -- Many tribal forests and adjacent federal forests contain sacred 
places and important trust and treaty-protected resources.
    --Tribes must be provided parity throughout the Forestry Title to 
better access, manage and develop tribal and federal forests and 
woodlands to protect tribal resources while providing jobs and economic 
development.
Energy Title
    --Tribal lands, individual Indian-owned land, and natural resources 
hold immense potential to develop biobased energy economic development, 
energy infrastructure build-outs, and jobs in tribal communities and 
surrounding rural communities.
    --Establish a Tribal Bio-Based Energy Development Grant Program to 
help tribal governments, tribal producers, and tribal business entities 
develop bio-energy businesses and production.
Horticulture and Specialty Crops Title
    --Many Traditional Native foods fall under the designation of 
horticulture crops and are necessary to support food sovereignty and 
healthy food access in Indian Country.
    --USDA programs which oversee horticulture crops must engage in 
tribal consultation to ensure the unique needs of tribal producers are 
being met.
    --The Farm Bill needs to include provisions to protect Native foods 
in the marketplace, as well as Native seeds and traditional foods
Crop Insurance Title
    --Due to the high risk of agriculture and food production, 
especially in Indian Country, crop insurance products must cover tribal 
producers in unique ways. In addition, livestock producers in Indian 
Country must be afforded the same risk protection as crop producers as 
well as the same payment options since livestock production makes up a 
significant percentage of tribal food production.
Miscellaneous
    Covering a wide variety of topics, as well as issues which span 
multiple titles of the Farm Bill, the Miscellaneous Title is an 
important mechanism for Indian Country.
    -- Fully fund the Office of Tribal Relations and create a new 
Office of Tribal Agriculture to improve the service and coordination of 
USDA programs for tribes and tribal producers. The new Office of Tribal 
Agriculture should report to the Office of Tribal Relations and funding 
for both offices should be mandatory. The current funding limits OTRs 
ability to provide programs and technical assistance.
    --Create a mandatory interdepartmental working group between 
agencies at USDA and the BIA to examine and determine solutions to 
areas where the two departments overlap, are requiring duplicative 
documentation or actions on the part of tribes and individual Indian 
landowners in order to access programs and services, or are generally 
lacking in coordination and efficiency for tribal agriculture. The 
identified barriers and problems must be addressed and resolved by 
sustained mandatory interdepartmental working groups.
                                 ______
                                 
Prepared Statement of Joshua Riley, Sr. Policy Analyst, Choctaw Nation 
                              of Oklahoma
    On behalf of the Choctaw Nation of Oklahoma (``Choctaw Nation'' or 
the ``Nation''), I am writing to urge the Senate Committee on Indian 
Affairs (SCIA) to work closely and collaboratively with the Senate 
Committee on Agriculture to ensure that Indian agriculture and food and 
nutrition interests are included in and supported by the upcoming 2018 
Farm Bill.
    The Choctaw Nation is comprised of 11,000 square miles stretching 
across 10.5 counties in southeastern Oklahoma. Oklahoma became the 
Nation's home in 1831 after we were forcibly removed from our ancestral 
homelands which included parts of what are now Alabama, Florida, 
Louisiana, and most of Mississippi. Today, we have nearly 200,000 
citizens living worldwide, with nearly half of those living within 
Oklahoma.
    The Choctaw Nation has always been an agrarian society. In our 
traditional homelands, our ancestors grew a number of vegetables in a 
unique way. Corn was planted in rows with squash, pumpkins, beans, 
peas, sunflowers, and melons grown in between the rows of corn. 
Choctaws also participated in traditional forms of permaculture. Fruit 
and nut orchards, in particular, were vital to the survival of the 
Choctaw people. (see the document on the history of Choctaw Food) *
---------------------------------------------------------------------------
    * The information referred to has been retained in the Committee 
files.
---------------------------------------------------------------------------
    Today, the Choctaw Nation and our citizens maintain a primarily 
agrarian lifestyle. The Nation has several operating ranches with 
thousands of head of cattle and bison. The Nation also operates, just 
as did our ancestors, a number of pecan orchards, and has recently been 
able to market those pecans for retail sale.
    While the Nation's agribusiness, based on the production of 
traditional foods, is growing, the Nation and many of its members are 
not able to access healthy, quality nutritious food. This is due in 
part because of the Nation's rural location and high rates of poverty, 
which qualify our Reservation as a food desert pursuant to U.S. 
Department of Agriculture (USDA) guideposts. Despite these troubling 
statistics, through the leadership and record success of Choctaw 
Nation, we are improving our situation by establishing strong 
partnerships with federal, state, and local governments, community 
leaders, and non-profits.
    One of our most successful programs within the Choctaw Nation is 
the Food Distribution Program on Indian Reservations (FDPIR). 
Nationwide, this program serves approximately 93,000 Native Americans 
each month. In Choctaw Nation alone, we serve close to 6,000 Native 
Americans monthly, including our own tribal citizens and other Indians 
who reside in our area. This program serves our neediest families in 
Choctaw Nation, providing close to $300,000 worth of food each month.
    FDPIR is intended to be a supplemental program, but for far too 
many of our tribal members, it is their primary source of food. When 
compared to other federal feeding programs, FDPIR is a healthier choice 
for our people. The FDPIR food our citizens receive monthly adheres to 
strict nutritional guidelines. The food has low sodium and low fat 
content, and little to no sugar. Things like cakes, pies, and sodas are 
not available through FDPIR. Our participants receive healthy 
ingredients each month like fresh fruit and vegetables, milk, beans, 
lean meats, and other items that can be prepared into full, nutritional 
meals.
    Choctaw Nation has five locations for food distribution. The 
Choctaw Nation has used its own money to build these facilities for the 
FDPIR program, in order to provide our citizens a well-rounded shopping 
and learning experience as they get their family's food supplies for 
the month. Our five stores are top-notch facilities and provide a real 
grocery store experience for our citizens served by the FDPIR program. 
There are also kitchen facilities and cooking classes offered on a 
regular basis to help teach our citizens how to prepare nutritional 
meals. Before the Choctaw Nation built these stores, program 
participants were handed their food from the back of a truck at 
designated locations on Choctaw Nation. We believed our citizens 
deserved a more dignified way of obtaining food, and that is why we 
invested millions of tribal dollars to help shape this program into a 
well-rounded experience for our citizens.
    In addition to FDPIR, the Nation participates in the following USDA 
programs to assist the Nation achieving our goal of providing Choctaw 
citizens with quality nutrition services: WIC, Senior Farmers Market, 
Summer Food Service Program, and the National School Lunch Program.
    Considering the importance of agriculture in our community, the 
Choctaw Nation requests this Committee and the Senate Agriculture 
Committee implement the following recommendations as you move forward 
in enacting the next Farm Bill:
Recommendations To Apply Throughout the 2018 Farm Bill
    1. Provide tribal governmental parity with state and local 
governments throughout the entire Farm Bill.

    2. Allow all tribes the option to enter into Self-Determination 
Contracts pursuant to P.L. 93-638, as amended, for the negotiation, 
funding and administration of all USDA programs.

    3. Expand the Substantially Underserved Trust Area (SUTA) provision 
to apply across all Rural Development (RD) programs.
Conservation Title
    4. Amend any reference to ``state law'' in the Conservation Title 
to say ``state law or tribal law'' and any reference to ``state 
technical committee'' to ``state or tribal technical committee.''

    5. Codify the current Natural Resources Conservation Service (NRCS) 
practice which explicitly allows a tribe or a group of tribes within a 
state or region to develop traditional, ecological, knowledge-based 
technical standards that control the implementation of all conservation 
projects allowed under the Farm Bill.

    6. Allow the use of Conservation Reserve Program land or other 
lands engaged in conservation practices to be used by tribal citizens 
who are beginning farmers and ranchers in ways that do not damage the 
conditions of the land or resources.

    7. Provide priority consideration for tribal governments, tribal 
agricultural entities, and individual tribal producers, landowners, or 
land operators for all conservation programs authorized in the upcoming 
Farm Bill.

    8. Provide priority consideration for beginning farmers and 
ranchers seeking to establish or reestablish working land activities on 
tribal lands and commercial activities related to the reestablishment 
of working lands or the emergence of beginning farmers and ranchers who 
are tribal citizens utilizing those working lands.

    9. Exempt individual tribal citizens, tribal governments, and 
tribal entities who are, under current law, required to compensate the 
former lessee of the tribal lands for the installation or maintenance 
of such practice when conservation practice installed on tribal or 
individual Indian-owned land expires, or when a lease/permit expires, 
since those practices have already been the subject of cost share with 
the federal government. Any further payment to lessees or users of the 
lands constitutes an unjust enrichment to such user of the land.
Nutrition Title
    10. Remove the ``Urban Place'' definition to allow tribes and USDA 
to work collaboratively to serve even more tribal citizens who need 
nutritious food, regardless of where they live.

    11. Require all FDPIR purchasing of foods to occur on a regional 
basis and include as much locally and regionally tribal-produced food 
as reasonably possible.

    12. Require FDPIR traditional food purchases (bison, wild rice, 
salmon, blue corn, and other products) to be a regular part of food 
package purchases that does not require supplemental or special 
appropriations to purchase these foods.

    13. Allow tribes the option to negotiate, enter into, fund and 
administer Self-Determination Contracts pursuant to P.L. 93-638 for 
administration of the SNAP and all other federal feeding and nutrition 
assistance and training programs.
Rural Development Title
    14. Provide a tribal set-aside each of USDA's RD program 
authorities to address the inadequacy and general lack of rural 
infrastructure in Indian Country. The trust responsibility of the 
federal government to tribes provides the broad foundation for such 
set-aside. Without dedicated funding for tribal rural development, the 
promise of these places will never be realized and Indian Country's 
infrastructure will continue to decline. In many areas around the 
country, tribal governments are the strongest remaining rural 
government entity. In some locations, tribal governments have taken 
over the management of key infrastructure (such as water systems, 
electric, and other utilities) because there is no other sound 
governmental or non-governmental entity that can handle these 
functions.
Forestry Title
    15. Allow for greater tribal participation in the Tribal Forest 
Protect Act (TFPA) projects by authorizing, whether as a mandatory 
across-the-board initiative, or as a pilot program, the application of 
``638'' contracting authority to TFPA projects on Forest Service or 
Bureau of Land Management (BLM) lands.

    16. Establish a pilot program authorizing tribes and the Bureau of 
Indian Affairs to conduct cooperative, discretionary forest restoration 
activities on Forest Service and BLM lands adjacent to the Choctaw 
Nation and other tribal reservations, using existing regulations 
governing the management of Indian forests. Additional means and legal 
and financial arrangements that would support the cooperative 
management of forest lands with and through Tribes must be explored 
with the potential to see the lands ultimately returned to the local 
tribes for local governing.

    17. Ensure that Indian forests are properly prioritized in fire 
suppression activities and funding. Current priorities place protection 
of private structures above protection of tribal forest assets held, 
managed and protected by the U.S. as trustee. As a result, in the 2015 
fire season, suppression crews were removed from wildfires on Indian 
trust forests to protect private structures. The fires on Indian trust 
forests exploded, destroying hundreds of thousands of acres and 
millions of board feet of timber vitally important to tribal economies. 
These priorities, allowing federally protected trust assets essential 
to tribal communities to be sacrificed to protect private structures, 
needs review.

    18. Ensure that interdepartmental efforts to protect Indian sacred 
places are maintained and strengthened, and that the responsibilities 
of USDA and other federal departments to consult with tribes on an 
ongoing basis concerning sacred places continually occurs.

    19. Create parity between Forest Service management agreement 
language and NRCS determination of land control language to preserve 
tribal sovereignty and rights to gather/manage traditional plant stands 
and enhance opportunities for tribes to leverage Environmental Quality 
Incentives Program assistance on traditional lands under Forest Service 
jurisdiction.

    The Choctaw Nation thanks you for the opportunity to provide 
testimony on one of the most important pieces of legislation in Indian 
Country. We would also like to thank our partners at USDA for the great 
work that they do. We hope we can continue to build upon these 
relationships as we make important improvements to the 2018 Farm Bill.
                                 ______
                                 
  Prepared Statement of Wilfrid Cleveland, President, Ho-Chunk Nation
    On behalf ofthe Ho-Chunk Nation of Wisconsin, we write to submit 
testimony for the record urging the Senate Committee on Indian Affairs 
to ensure that Indian Country is included in the upcoming Farm Bill.
    With Congress considering the Farm Bill this session, we request 
the Senate Committee on Indian Affairs to work closely with the Senate 
Agriculture Committee to address Indian Agriculture in this important 
piece of legjslation.
    For some 360 years, our tribal nation was labeled as the Winnebago 
Tribe by the French. In November 1994, the official results of the Ho-
Chunk Nation secretarial election were published, approving the revised 
constitution and the proper name of the nation reverting to the Ho-
Chunk (People of the Big Voice) which we have always called ourselves, 
thus establishing the Ho-Chunk Nation. Our territory extended from 
Green Bay, beyond Lake Winnebago to the Wisconsin River and to the Rock 
River in Illinois, tribal territory was by the Treaty of 1825, 8.5 
million acres. The Wisconsin Ho-Chunk do not have a reservation in 
Wisconsin, but portions of land that hold ``reservation'' status. 
Today, all Wisconsin Ho-Chunk tribal lands are lands we once owned, but 
have had to repurchase.
    The Ho-Chunk Nation has recently formed an agriculture division 
that will focus on growing traditional foods, and organic vegetable and 
fruit production with livestock incorporated in the future.
    The Ho-Chunk Nation utilizes various USDA resources and services 
through multiple agencies within the government. The programs currently 
used are: Animal and Plant Health Inspection Service, Farm Service 
Agency, Food Distribution Program on Indian Reservations, Forest 
Service and Natural Resources Conservation Service.
    Considering the state of agriculture for our community, the Ho-
Chunk Nation requests the Senate Committee on Indian Affairs and the 
Senate Agriculture Committee include the following in any legislation 
regarding the Farm Bill:

  <bullet> Tribal Governmental Parity with State and Local Governments 
        throughout the entire Farm Bill

  <bullet> Tribal Administration of the SNAP and all Federal Food 
        Assistance Programs through 638 Contracts

  <bullet> Expand the Substantially Underserved Trust Area (SUTA) 
        provision across all Rural Development programs

    In addition, the Ho-Chunk Nation supports the following 
recommendations to be included in any agriculture legislation in this 
Congress.
Commodities Title
    Amend Section 1606 on ``Geographically Disadvantaged Farmers and 
Ranchers'' to ensure that tribal governments, tribal entities, and 
tribal producers are explicitly recognized as farmers or ranchers 
eligible to participate in the program, as they are often left out even 
in the ``insular areas'' provision.
Conservation Title
    Develop a new section of the Conservation Title to explicitly allow 
a tribe or a group of tribes within a state or region to develop 
traditional, ecologica!, knowledge-based technical standards that will 
control the implementation of all conservation projects allowed under 
the Farm Bill. This new section would codify current NRCS practices 
that encourage traditional, ecological, knowledge-based conservation 
and would further recognize the fact that tribal jurisdiction and use 
of traditional practices to improve conservation project implementation 
are decisions best left to tribal governments and individual Indian 
producers who live on those lands and are engaged in ongoing activities 
that are designed to improve environmental conditions, habitats, and 
their lands for agricultural purposes. These traditional, ecological, 
knowledge-based standards already have a solid scientific basis and are 
acknowledged by various federal research organizations and agenctes.
Trade Title
    Require the U.S. Department of Agriculture (USDA) to institute a 
system by which fraudulent foods that mimic tribal foods and tribal 
food businesses can be uncovered and prevented in the marketplace. Food 
fraud is on the rise throughout the world, and unscrupulous food 
business entities are already trying to mimic or replicate unique 
tribal food products. Those businesses should not be allowed to 
participate in programs that allow them to access markets with products 
that perpetrate frauds on tribal food producers or food businesses.
Nutrition Title
    Since 2015, several tribal leaders have consulted with the USDA 
Food and Nutrition Service (FNS) over significant improvements needed 
to FDPIR. While tribes have made some headway with USDA, significant 
legislative changes still need to occur within the FDPIR program, 
including:
    --Eliminating the matching funds requirement for each of the FDPIR 
program sites to participate, or limiting the matching requirement to 5 
percent.
    --Providing tribal feeding sites with parity to state counterpart 
programs by allowing them to engage in carryover of unspent funds from 
year to year. This unequal treatment is problematic to tribal feeding 
programs whose funding needs, particularly for food distribution 
infrastructure (e.g., warehouses), could be met by allowing carryover 
funding.
    --Requiring FNS to continue to engage in tribal consultation.
    --Requiring FNS to engage in tribal consultation concerning 
reasonable alternatives to the regulatory-approved practice of 
``tailgating'' at FDPIR program sites. No FDPIR program site should be 
allowed to engage in this demeaning practice.
    --Requiring FNS to consult with tribes and develop a written, 
public contingency plan in the event of any lapses in funding, 
disasters, governm.ent closures, or related incidents that might 
interrupt or cause the stoppage of food delivery.
    --Allowing those who participate in FDPIR to also simultaneously 
participate in SNAP. Neither program provides enough food for 
participants in remote places; by allowing simultaneous usage of the 
programs these two supplemental feeding programs can be combined to 
actually result in addressing food insecurity.
    --Requiring FNS to hire at least one national tribal liaison 
located in its Washington, D.C., offices and one regional tribal 
liaison located in each regional FNS office subject to a federal Native 
American hiring preference or high levels of experience with tribal 
communities.
    --Increase nutrition education funding to at least $5 million per 
year and create an alternative to competitive funding so each tribal 
program receives support for nutrition education program materials 
through a coordinated approach.
    --Requiring FDPIR traditional food purchases (bison, wild rice, 
salmon, blue com, and other products) to be a regular part of food 
package purchases and not require supplemental or special 
appropriations to purchase these foods.
    --Requiring FNS to engage in tribal consultation to compile a 
budget for FDPIR warehouse and other infrastructure needs to be 
included in its entirety in each federal budget cycle and request until 
it is fully funded.
    --Requiring all FDPIR purchasing and distribution to occur on a 
regional basis and include as much locally and regionally tribal-
produced food as reasonably possible.
    --Remove the ``Urban Place'' definition to allow tribes and the 
USDA to work collaboratively to serve even more tribal citizens who 
need nutritious food, regardless of where they live.
Credit Title
    Explicitly exempt tribal producers from the FSA requirement of 
obtaining three denial letters from private credit sources in order to 
participate in an FSA loan program. The general lack of private lending 
available in Indian Country renders the requirement onerous and unduly 
burdensome.
Rural Development Title
    Develop a process to allow small, new and emerging Community 
Development Financial Institutions (CDFis) access to loan authority. 
The concept ofbatching and obligating all loan guarantee authority 
annually is a game changer. The requirements put upon CDFis to 
participate in this endeavor are patently prohibitive. Only the largest 
CDFis could secure any meaningful funding levels, and some had 
threatened litigation to do that.
Research Title
    --Provide tribal set-asides and preferences within all non-FRTEP 
NIFA funding authorities while retaining the competitive nature of the 
funding, which is necessary to continue building capacity and strength.
    --Amend the agricultural legal funding authority contained in the 
2014 Farm Bill to ensure that competition for the funds occurs and 
funding is set-aside to be provided to organizations and entities that 
have a proven specialty and primary focus on Indian law issues that 
intersect with food and agriculture law.
    --Require NIF A funding authorities to focus a portion of their 
work on building knowledge and capacity in business development unique 
to tribal lands and individual Indian owned land, and approach this 
work separately due to the unique complexities in tribal land use, law, 
regulatory burdens, and related issues. Since business training and the 
development of solid business planning tools are also necessary, 
funding would be best focused around risk management education programs 
and the funding authorities in this area.
    --Allow tribal governments and tribal organizations full access to 
all nutrition education programs at NIFA, including SNAP-Ed, and all 
research programs related to building knowledge in nutrition, health, 
obesity, and diabetes prevention.
    --Include a set-aside in Small Business Innovation Research 
projects funded through NIFA for tribal projects leading for 
commercialization of food products or food systems innovations.
    --Ensure that the federal formula funding authorities that support 
basic research, education, and extension funding for 1862 institutions 
is revisited to ensure that the institutions receiving such funds based 
on the federal formula actually provide research, education, and 
extension services to the tribal communities, farms, ranches, farmers, 
and rural citizens who are counted in the formula that establishes 
funding allocations. At present tribal interests are considered in 
establishing formula allocations but there is no follow through to 
determine if actual projects result in such funding allocations.
Forestry Title
    Ensure that interdepartmental efforts to protect Indian sacred 
places are maintained and strengthened, and that the responsibilities 
of USDA and other federal departments to consult with tribes on an 
ongoing basis concerning sacred places continually occurs. The 
Memorandum of Understanding among departments of the federal government 
must be kept in place indefinitely.
Energy Title
    Create a Tribal Bio-Based Energy Development Grant Program in the 
2018 Farm Bill to help spark economic development and energy 
infrastructure development in tribal communities, while providing low-
cost energy to tribal communities and surrounding rural areas. This 
grant program for tribal governments and wholly owned tribal entities 
would operate much like a grant in lieu of tax credit, similar to the 
existing Renewable Energy Production Incentive (REP I) Program. 
Further, the Tribal Bio-Based Energy Development Grant Program should 
specify the eligibility of tribally chartered and federally chartered 
tribal corporations for rural development programs, including for 
grants and loan programs, as well as any technical assistance programs 
available. Since the U.S. Department of Agriculture has made a policy 
statement that it will recognize federally charted Section 17 Tribal 
Corporations as eligible entities for rural development programs, the 
program should codify this and clarify that tribally chartered tribal 
corporations are also eligible.
Horticulture and Specialty Crops Title
    Require USDA to take steps after tribal consultation to ensure that 
tribal seeds are given the maximum protection available under federal 
law and not allowed to be accessed for commercialized purposes without 
the consent of tribal governments. Seeds of traditional foods are among 
the most sacred items to Indigenous peoples and the protection of those 
seeds, not only as food sources but as important cultural systems, must 
be required.
Crop Insurance Title
    Encourage RMA to develop a unique crop insurance policy product 
designed to cover the production systems associated with tribal food 
products, tribal livestock, and traditional food systems. The 
production systems associated with such products should be recognized 
as Good Agricultural Practices (OAPs), and tribal producers should also 
be afforded the same opportunity to pay premiums upon the sale of the 
crop or livestock instead of making an up front payment.
Miscellaneous
    Require the BIA to coordinate with USDA in all aspects of 
supporting any tribe or individual Indian landowner that wishes to 
draft and implement (including receiving Secretary of Interior support) 
an Agricultural Resource Management Plan (ARMP), authorized under the 
American Indian Agricultural Resource Management Act of 1993 (AIARMA). 
This act has never been fully implemented, and only a few tribes and 
individual Indian landowners have placed a plan in motion. The BIA, 
working in concert with USDA, should prioritize finding resources to 
assist tribes (including technical assistance resources) in 
establishing plans authorized under the act. The BIA should be required 
to accept any conservation plan or forest management plan conducted by 
the NRCS or USFS agencies within USDA as equivalent to any 
environmental assessment deemed necessary in implementing the AIARMA. 
Tribes and individual Indian landowner should not be required to 
conduct a full NEP A analysis to conduct food and agriculture 
operations on their lands. The requirement is far more excessive than 
any applicable law, and this interpretation violates principles of 
rights to food, food access, environmental or food justice, and food 
sovereignty. An ARMP created pursuant to the AIARMA should be allowed 
as a fundable EQIP practice, and exempted from full NEPA analysis.
    In closing, the Ho-Chunk Nation urges the Senate Committee on 
Indian Affairs to ensure that Indian Country is included in the 
upcoming Farm Bill.
                                 ______
                                 
 Prepared Statement of Hon. Joseph Wildcat, President, Lac du Flambeau 
                     Band of Lake Superior Chippewa
    Dear Chairman Hoeven and Vice Chairman Udall,
    On behalf of the Lac du Flambeau Band of Lake Superior Chippewa 
Tribe in Wisconsin, we write to submit testimony for the record urging 
the Senate Committee on Indian Affairs to ensure that Indian Country is 
included in the upcoming Farm Bill.
    With Congress considering the Farm Bill this session, we request 
the Senate Committee on Indian Affairs to work closely with the Senate 
Agriculture Committee to address Indian Agriculture in this important 
piece of legislation.
Historv & Background of the Lac du Flambeau Band of Lake Superior
    Waaswagonning, or Place of the Torch, was settled in 1745 by an 
Ojibwe Tribal leader named Kilshkiman, and was later named Lac du 
Flambeau by French fur-traders. Through the Treaties of 1847 and 1854, 
the Lac du Flambeau Indian Reservation was established. Located in 
Northern Wisconsin, the Reservation covers approximately 86,500 acres, 
including 41,733 acres of forested uplands, 24,000 acres of wetlands, 
and 17,897 acres of lakes and rivers (49 percent of the Reservation's 
areas is covered by lakes, rivers and wetlands), within Vilas, Oneida, 
and Iron Counties. Reservation land status includes trust (Tribal and 
allotted) 66 percent and fee land 34 percent. There are currently over 
4000 enrolled members, with approximately over 1,800 members residing 
on the Reservation. Also, there is a high population of non-members 
living within the Reservation boundaries.
    Under the Treaties of 1837, 1842, and 1854, in the ceded 
territories of Wisconsin, Michigan and Minnesota, the Tribe retains and 
exercises their rights to hunt, fish and gather as well as for 
cultural, spiritual and recreational practices. The Tribal population 
depends on resources from both reservation and ceded territory to 
sustain subsistence practices. Water is vital to the cultural, 
spiritual and economic survival of the Lac du Flambeau Band. The name 
of Lac du Flambeau or Waswawagonning reflects the connection of the 
Band and its water-based natural resources. Traditional fishing 
activities, as well as subsistence hunting and gathering, are also 
dependent on those waters. Traditional beliefs and sacred places rely 
on the purity of the waters for their vitality. The ties to water, have 
existed from time immemorial, and the Band continues to rely heavily on 
the Reservation waters and natural resources for its economic and 
cultural survival.
Tribal Agriculture/USDA protects
    The Tribe currently operates the Golden Eagle Farm on the 
reservation; that grows strawberries, blueberries, and pumpkins for 
purchase to the public and tribal elder use.
    The Tribe is solely responsible for aquaculture management that 
stocks walleye, musky, trout, sturgeon, etc. within the reservation and 
in the ceded territory areas. There are approximately 200 +lakes, 
rivers and streams within the reservation.
    The Tribe is responsible for the management and restoration of wild 
rice within the reservation as well as assisting the work in the ceded 
territories.
    The Tribe has utilized USDA funding to build infrastructure for 
water & sewer, buildings and forestry management programs and the need 
continues to improvements and upgrades.
    Considering the state of agriculture for our community, the Lac du 
Flambeau Tribe requests the Senate Committee on Indian Affairs and the 
Senate Agriculture Committee include the following in any legislation 
regarding the Farm Bill:
    Tribal Governmental Parity with State and Local Governments 
throughout the entire Farm Bill Tribal Administration of the SNAP and 
all Federal Food Assistance Programs through 638 Contracts Expand the 
Substantially Underserved Trust Area (SUTA) provision across all Rural 
Development programs In addition, the Lac Du Flambeau Tribe supports 
the following recommendations to be included in any agriculture 
legislation in this Congress.
Commodities
Amend Definitions for the Supplemental Agricultural Disaster Assistance 
        Programs
  <bullet> Section 1501(a)(l)(B)(iv) must be amended to read: ``a 
        corporation, limited liability corporation, or other farm 
        organizational structure organized under Federal, State law and 
        Tribal law.'' This addition creates parity for tribal 
        governments and acknowledges the authority of entities 
        organized under tribal law or under federal law such as Section 
        17 corporations.
  <bullet> Update the livestock definition in Section 150l(a)(3) to 
        include other commonly raised livestock like ``reindeer,'' 
        ``caribou,'' ``elk,'' ``horses,'' or other animals raised or 
        harvested in tribal communities. All of these animals must be 
        further recognized as a livestock and eligible for full 
        protection and program participation Department-wide.
Increase livestock Indemnity Payments for Tribal Producers to 90 
        Percent
  <bullet> The current 75 percent Livestock Indemnity Payment under 
        Section 1501(b) to eligible producers who have incurred 
        livestock death lasses above the normal mortality rate, does 
        not address the lack of land equity that exists for tribal 
        producers on trust lands, and the unique challenges tribal 
        livestock producers have in obtaining secure markets for their 
        animals, which generally causes a lower rate of market return. 
        To put tribal producers on equal footing, indemnity payments 
        for tribally owned livestock should be increased to 90 percent.
Ensure Tribal Eligibility in the livestock Forage Disaster Program
  <bullet> A new provision under Section 1501(c) must be added to 
        protect tribal producers' eligibility in the Livestock Forage 
        Disaster Program through issues of federal government 
        preclusion outside of their control. For example, instances 
        relating to ``normal carrying capacity'' may inadvertently 
        exclude some tribal producers if the Bureau of Indian Affairs 
        does not negotiate or recognize the specific environmental or 
        other variances that impact production.
  <bullet> Due to the unique challenges facing tribal livestock and 
        forage producers, all other provisions of the program shall 
        ensure that payment rates are set at 90 percent levels (as 
        opposed to any lower rates identified in the law for non-tribal 
        producers).
  <bullet> Explicitly exempt tribal producers from any limitations on 
        receiving payments on any losses due to fire on ``public 
        managed land.'' Tribal lands are not ``public'' lands.
Farm Service Agency Co11nty Committee
  <bullet> Amend the FSA County Committee determinations on normal 
        grazing periods and drought monitor intensity to be established 
        at the national FSA office to ensure that separate carrying 
        capacities and normal grazing periods for each type of grazing 
        land or pastureland are set at different rates for tribal lands 
        and individual Indian-owned land after tribal consultation.
  <bullet> Require FSA to do an assessment based on Census data and 
        Agricultural Census data to determine the population makeup of 
        the county and conduct tribal consultation with tribal 
        governments to guarantee that tribal citizens s are effectively 
        and efficiently notified of the opportunity to be nominated and 
        considered for county committee membership. All FSA county 
        committees in predominantly tribal population areas and/or 
        tribal land base areas should have predominantly Native 
        membership and should reference the local administrative areas, 
        which are the voting districts mapped by FSA county committees.
Emergency Assistance for Livestock, Honeybees, and Farm-Raised Fish
  <bullet> Explicitly include tribes and individual Indian producers as 
        eligible for Commodity Credit Corporation emergency relief 
        funds for livestock, bees, and farm-raised fish under Section 
        150l(d).
Trees
  <bullet> Make tribal producers eligible for 80-90 percent of the cost 
        of replacement, salvage, pruning, removal, or preparing the 
        land or replanting under Section 150l(e). This ensures that the 
        higher cost of providing these remediation activities on tribal 
        lands and individual Indian-owned land is accommodated within 
        the limitations of the program and tribal governments.
  <bullet> Recognize tribal business entities organized under tribal 
        law and individual tribal producers as ``legal entities'' and 
        ``persons'' allowed to participate in the program.
Rulemaking Related to Significant Contribution for Active Personal 
        Management
  <bullet> Amend Section 1604 regulations related to ``active personal 
        management'' or ``active engagement in farming/ranching'' to 
        recognize that tribal producers, tribal business entities, and 
        tribal governments should not be excluded from any 
        determination of ``active personal management/engagement'' 
        simply by the existence of an active lease relating to their 
        lands.
  <bullet> Require the Secretary of Agriculture to engage in tribal 
        consultation concerning the application of this requirement to 
        tribal producers.
Geographically Disadvantaged Farmers and Ranchers
  <bullet> Amend Section 1606 on ``Geographically Disadvantaged Farmers 
        and Ranchers'' to ensure that tribal governments, tribal 
        entities, and tribal producers are explicitly recognized as 
        farmers or ranchers eligible to participate in the program, as 
        they are often left out even in the ``insular areas'' 
        provision.
Base Acres
  <bullet> Require the Secretary to consult with tribal governments 
        regarding the determination and election of ``base acres'' 
        applicable to all programs under the Commodity Title.
Conservation
Recognition of Traditional, Ecological Knowledge-Based Conservation
  <bullet> Develop a new section of the Conservation Title to 
        explicitly allow a tribe or a group of tribes within a state or 
        region to develop traditional, ecological, knowledge-based 
        technical standards that will control the implementation of all 
        conservation projects allowed under the Farm Bill. This new 
        section would codify current NRCS practices that encourage 
        traditional, ecological, knowledge-based conservation and would 
        further recognize the fact that tribal jurisdiction and use of 
        traditional practices to improve conservation project 
        implementation are decisions best left to tribal governments 
        and individual Indian producers who live on those lands and are 
        engaged in ongoing activities that are designed to improve 
        environmental conditions, habitats, and their lands for 
        agricultural purposes. These traditional, ecological, 
        knowledge-based standards already have a solid scientific basis 
        and are acknowledged by various federal research organizations 
        and agencies.
Conservation Reserve Program (CRP) And Availability for Beginning 
        Tribal Farmers and Ranchers
  <bullet> Create a new section of the Conservation Title to allow the 
        use of CRP land or other lands engaged in conservation 
        practices to be used by tribal citizens who are beginning 
        farmers and ranchers in ways that do not damage the conditions 
        of the land or resources.
Include Tribal Priorities in Definition of Priority Resource Concerns
  <bullet> Amend the definition of ``Priority Resource Concerns'' in 
        Section 12380(5) of the Farm Bill to include any natural 
        resource as determined by the Secretary that is identified at 
        the national, state, tribal or local level as a priority for a 
        particular area of a state or tribal area and to consider 
        environmental disaster mitigation as a priority resource 
        concern.
Allow Lands Held in Common and by Tribal Entities to Access 
        Conservation Programs
  <bullet> Create a new section of the Conservation Title or in 
        sections related to eligibility determinations to ensure that 
        lands held in common, such as reservation lands that are 
        controlled and farmed/ranched by groups of individuals, can 
        participate in all Conservation Title programs and that special 
        provisions are enacted in regulations to ensure that any tribal 
        government-allowed entity is the recognized conservation 
        program participant (as opposed to specific individuals).
Priority for Enrollment of Tribal Lands in the Conservation Reserve 
        Program
  <bullet> Section 200 I of the 2014 Farm Bill establishes priorities 
        for the Secretary to consider when implementing the 
        Conservation Reserve Program and Conservation Priority Areas. 
        Due to the prolonged periods that tribal lands and individual 
        Indian-owned lands have been under-enrolled in conservation 
        programs and due to the needs of those acres and watersheds to 
        have focused attention on enrollment in conservation programs 
        and utilization of conservation practices, all tribal lands 
        falling under the jurisdiction of the Bureau of Indian Affairs, 
        tribal governments, tribal agricultural entities, and 
        individual tribal producers, landowners, or land operators 
        should receive mandatory priority consideration for all 
        conservation programs authorized in the upcoming Farm Bill. 
        Further priority should be given to beginning farmers and 
        ranchers seeking to establish or reestablish working land 
        activities on tribal lands and commercial activities related to 
        the reestablishment of working lands or the emergence of 
        beginning farmers and ranchers who are tribal citizens 
        utilizing those working lands. In any ranking activity 
        conducted by USDA officials to determine which lands or 
        resources to enroll in a conservation program allowed under 
        this title, the Secretary and/or state conservationists or 
        technical committees (state or tribal) shall give priority to 
        tribal lands for enrollment in relevant programs, provided 
        these lands or resources also meet requirements for inclusion 
        in the programs.
Notice Regarding Conservation Activities and ARMP Compliance
  <bullet> Ensure conservation activities will be required to be in 
        conformance with the tribal government's Agricultural Resource 
        Management Plan, if one is in place, and that proper 
        individuals or officials receive adequate notice of 
        conservation activities.
Recognizing Tribal Law Parity
  <bullet> Amend any reference to ``state law'' in the Conservation 
        Title to say ``state law or tribal law'' and any reference to 
        ``state technical committee'' to ``state technical committee or 
        tribal technical committee.'' Tribal Technical Committee
  <bullet> Require each state conservationist to establish a separate 
        tribal technical committee should any tribal headquarters exist 
        within their state boundaries or any land exist under the 
        jurisdiction of tribal governments or the BIA. These tribal 
        technical committees shall be given the same respect and 
        deference that is currently given to the state technical 
        committee, and each tribal technical committee shall be able to 
        establish separate technical standards utilizing traditional 
        ecological knowledge and, to the extent that they do so, such 
        standards shall be the technical standards under which 
        conservation programming can be deployed on tribal lands. 
        Require establishment of state-level inter-tribal, regional 
        inter-tribal, and national tribal advisory committees regarding 
        conservation matters.
Alternative Funding Arrangements--EQIP and Conservation Stewardship 
        Program (CSP)
  <bullet> The 2014 Farm Bill allowed for entering into alternative 
        funding arrangements with tribal governments to carry out the 
        intention of the EQIP program and the CSP if the Secretary 
        determined that the goals and objectives of the law would be 
        met by such arrangements and that statutory limitations on 
        entering arrangements with individual producers would not be 
        exceeded. This provision needs more attention and improved 
        implementation to ensure that each tribal government is offered 
        the opportunity for alternative arrangements.
Tribal Conservation Technical Committee
  <bullet> Authorize the Secretary to work with the BIA and a technical 
        committee made up of tribal government representatives from 
        each of the BIA regions to formulate a set of initiatives and 
        programs that can be carried out under existing laws as well as 
        a set of programs that may be needed under future conservation 
        program authorities to improve the conditions of tribal lands 
        and individual Indian-owned lands throughout the United States. 
        This interdepartmental entity shall be put in place no later 
        than 12 months after the passage of the 2018 Farm Bill and 
        shall issue its report no later than 24 months after passage of 
        the 2018 Farm Bill. The interdepartmental efficiencies and 
        improvements shall be undertaken immediately upon the issuance 
        of the interdepartmental report, and annual reports of 
        improvements and actions taken under this provision shall be 
        made to Congress.
Conservation Reserve Program (CRP)
  <bullet> Create a pilot program to explore the use of livestock to 
        improve soil health in CRP fields, and allow for a rental rate 
        over and above the CRP payment to be made to the producer. 
        Scientific studies have demonstrated the effect that a lack of 
        animal impact can have on the soil. This program would seek to 
        determine the impacts and benefits of this pilot program, for 
        consideration in subsequent iterations of the Farm Bill or 
        conservation legislation. Preference in the use of this land 
        would be afforded first to SDR producers, Young and Beginning 
        Producers, and then to customary producers. The more need that 
        is met through the rental agreement, the smaller the reduction 
        in CRP payment.
Beginning Producers in Conservation Programs
  <bullet> Encourage and allow all beginning producers to participate 
        in conservation programs and amend all conservation programs to 
        incentivize beginning producers by removing the ``one year of 
        control'' requirement.
Rollback CSP Program to 2013 Standards
  <bullet> Reinstitute the CSP program to 2013 standards.
Next Generation Easement
  <bullet> Incorporate a new ``next generation easement'' in 
        conservation programs. This ``easement'' should incorporate tax 
        credits for landowners who are mentoring new and beginning 
        producers and should include a death tax ``write-off' for farm 
        transfer to the next generation.
Trade
Expand Market Access Program (MAP)
  <bullet> Expand MAP by substantially increasing the funding available 
        to the existing agreements that facilitate coordination and 
        administration of the MAP program and result in increasing 
        tribal food business participation in the program so that 
        tribal audiences and more tribal food and agriculture 
        businesses can benefit from the program. The impact of such 
        engagement will further solidify local food economies and food 
        businesses and stabilize tribal economies.
Supporting Unique Tribal Foods and Fighting Native Food Fraud
  <bullet> Require the U.S. Department of Agriculture (USDA) to 
        institute a system by which fraudulent foods that mimic tribal 
        foods and tribal food businesses can be uncovered and prevented 
        in the marketplace. Food fraud is on the rise throughout the 
        world, and unscrupulous food business entities are already 
        trying to mimic or replicate unique tribal food products. Those 
        businesses should not be allowed to participate in programs 
        that allow them to access markets with products that perpetrate 
        frauds on tribal food producers or food businesses.
No Additional Compensation for Expired Conservation Measures
  <bullet> When a conservation practice installed on tribal or 
        individual Indian-owned land expires, or when a lease/permit 
        expires, do not require individual tribal citizens, tribal 
        governments, or tribal entities to compensate the former lessee 
        of the tribal lands for the installation or maintenance of such 
        practice since those practices have already been the subject of 
        cost share with the federal government. Any further payment to 
        lessees or users of the lands would constitute a windfall or 
        unjust enrichment to such user of the land.
NRCS Report on Natural Resource Inventory Investments Needs on Tribal 
        Lands
  <bullet> Require USDA-NRCS to immediately develop a report to be 
        delivered to all tribal governments and individual Indian 
        producers identifying which tribal lands still need proper 
        Natural Resource Inventory funding support to perform soil and 
        range surveys to create a baseline report of needs for said 
        lands.
Traditional Ecological Knowledge Consideration for Conservation 
        Compliance
  <bullet> Consider traditional ecological knowledge whenever the 
        Secretary determines the level of compliance of landowners who 
        have lands or resources enrolled in any of the Conservation 
        Title programs, particularly when determining whether a 
        meaningful stewardship threshold has been reached.
BIA Actions Responsible for Non-Compliance
  <bullet> Do not determine any tribal landowner or operator of lands 
        in violation of any term of a conservation program enrollment 
        requirement when the BIA can be established as the cause for 
        any alleged non-compliance, whether through delay in action, 
        other non-action in decision-making requirements, or any other 
        reason.
Tribal Priority in Environmental Quality Incentives Program (EQIP)
  <bullet> Give priority consideration to tribal governments, tribal 
        entities, and individual tribal landowners and operators to 
        participate in EQIP program activities, in addition to the 5 
        percent tribal set-aside. This priority shall be widely 
        advertised throughout each state in which the lands are 
        located, and each tribal headquarters in the state shall 
        receive notice of all activities related to the EQIP program. 
        Tribal and individual Indian landowners and operators shall be 
        entitled to additional priority for any activities related to 
        organic and organic transition practices on their farms and 
        ranches. Each tribal government shall be invited to at least 
        two meetings with the state conservationist in a government-to-
        government conversation concerning the implementation of NRCS 
        conservation programs that could be beneficial to tribal lands. 
        When requested by tribal headquarters, the state 
        conservationist shall enter into cooperative agreements and 
        other activities that will establish a plan by which NRCS 
        programming will be deployed on tribal lands for which the 
        tribal government has an ongoing plan for conserving and 
        protecting habitat, grasslands, rangelands, and other lands and 
        land uses within tribal jurisdiction.
Tribal Parity in the Conservation Title
  <bullet> Include a provision in all sections of the Conservation 
        Title allowing tribal governments, tribal producers, and tribal 
        entities or organizations created for conservation and natural 
        resource protection purposes to have full access to every 
        program allowed under the Conservation Title. Wherever 
        reference is made to ``state'' or ``local'' or ``regional'' 
        agricultural producer, the terms ``tribal'' should be inserted 
        into that section to ensure that inadvertent failure to list 
        tribal governments, tribal producers, or tribal organizations 
        does not preclude them from participating or relegate them to a 
        lesser importance or priority within the relevant section.
Technical Assistance Funding for Tribal Governments and Organizations
  <bullet> Due to the relatively low use of all conservation programs 
        on tribal lands and individual Indian-owned land, give the 
        Secretary the authority to create a permanent fund within the 
        available technical assistance funding authorities, 
        appropriations, and programs to ensure that specialized 
        technical assistance is made avaiJable on a continual basis to 
        tribal governments, tribal organizations, and tribal landowners 
        and producers throughout Indian Country, including in all 
        tribal areas of Alaska and Hawaii. These targeted technical 
        assistance funds shall be given priority to tribal 
        organizations that have an established record of providing 
        technical assistance to tribal audiences and shall demonstrate 
        their knowledge of and ability to successfully complete 
        projects involving conservation programming with tribal 
        audiences. The funding shall not be provided to predominately 
        non-Native organizations with little to no experience and 
        knowledge of working with tribal audiences. Multi-year 
        cooperative agreements should be authorized under such 
        technical assistance programs.
Interdepartmental Coordination to Support Tribal Trade
  <bullet> Include Indian Country as the USDA develops a stronger 
        relationship with the Department of Commerce on food and 
        agriculture trade. A special interdepartmental coordination 
        group with USDA, Department of Commerce, Department of State, 
        and other applicable agencies should be created to ensure that 
        tribal food production is properly supported and encouraged on 
        tribal lands and is thereafter made a part of the U.S. trade 
        missions and efforts to promote agricultural trade.
Tribal Representatives on U.S. Trade Missions
  <bullet> Include tribal governments, tribal food businesses, and 
        individual tribal food producers on all foreign trade missions 
        undertaken by the United States to further assist the access of 
        tribal food products to such markets. Study 011 Tribal 
        Representation on USDA Advisory Bodies
  <bullet> Require the Secretary to study all Trade Title programs to 
        ensure that tribal representatives are included on all advisory 
        bodies related to agricultural trade issues and concerns.
Nutrition
Tribal Administration of the SNAP and All Federal Food Assistance 
        Programs
  <bullet> Provide tribal governments and tribal organizations the 
        direct authority to administer SNAP and all other federal food 
        assistance programs which they are currently not allowed to 
        directly manage. This can be achieved by providing tribes with 
        ``638'' self-governance contract authority for nutrition 
        programs which exists for Department of the Interior and Indian 
        Health Service programs. Allowing tribes to take over these 
        functions from the federal government will improve efficiency, 
        reduce regulatory burdens, and support tribal self-governance 
        and self-determination.
    Improvements to the FDPIR and Other Federal Feeding Programs
  <bullet> Since 2015, several tribal leaders have consulted with the 
        USDA Food and Nutrition Service (FNS) over significant 
        improvements needed to FDPIR. While tribes have made some 
        headway with USDA, significant legislative changes still need 
        to occur within the FDPIR program, including:
        --Eliminating the matching funds requirement for each of the 
        FDPIR program sites to participate, or limiting the matching 
        requirement to 5 percent.
        --Providing tribal feeding sites with parity to state 
        counterpart programs by allowing them to engage in carryover of 
        unspent funds from year to year. This unequal treatment is 
        problematic to tribal feeding programs whose funding needs, 
        particularly for food distribution infrastructure (e.g., 
        warehouses), could be met by allowing carryover funding.
        --Requiring FNS to continue to engage in tribal consultation.
        --Requiring FNS to engage in tribal consultation concerning 
        reasonable alternatives to the regulatory-approved practice of 
        ``tailgating'' at FDPIR program sites. No FDPIR program site 
        should be allowed to engage in this demeaning practice.
        --Requiring FNS to consult with tribes and develop a written, 
        public contingency plan in the event of any lapses in funding, 
        disasters, government closures, or related incidents that might 
        interrupt or cause the stoppage of food delivery.
        --Allowing those who participate in FDPIR to also 
        simultaneously participate in SNAP. Neither program provides 
        enough food for participants in remote places; by allowing 
        simultaneous usage of the programs these two supplemental 
        feeding programs can be combined to actually result in 
        addressing food insecurity.
        --Requiring FNS to hire at least one national tribal liaison 
        located in its Washington, D.C., offices and one regional 
        tribal liaison located in each regional FNS office subject to a 
        federal Native American hiring preference or high levels of 
        experience with tribal communities.
        --Increase nutrition education funding to at least $5 million 
        per year and create an alternative to competitive funding so 
        each tribal program receives support for nutrition education 
        program materials through a coordinated approach.
        --Requiring FDPIR traditional food purchases (bison, wild rice, 
        salmon, blue com, and other products) to be a regular part of 
        food package purchases and not require supplemental or special 
        appropriations to purchase these foods.
        --Requiring FNS to engage in tribal consultation to compile a 
        budget for FDPIR warehouse and other infrastructure needs to be 
        included in its entirety in each federal budget cycle and 
        request until it is fully funded.
        --Requiring all FDPIR purchasing and distribution to occur on a 
        regional basis and include as much locally and regionally 
        tribal-produced food as reasonably possible.
        -- Remove the ``Urban Place'' definition to allow tribes and 
        the USDA to work collaboratively to serve even more tribal 
        citizens who need nutritious food, regardless of where they 
        live.
Credit
Structuring Loans to Suit the Business
  <bullet> Authorize several innovative loan structuring measures in 
        the 2018 Farm Bill. For example, currently FSA will lend 100 
        percent the cost of bred livestock. It will then subordinate 
        its lien position to a local commercial lender for annual 
        production costs, increasing the amount of debt secured by the 
        same amount of assets, sometimes by as much as 25 percent. If 
        the first year of operating expenses could be included in the 
        original loan, and amortized over the life of the secured 
        asset, producers would end the year with cash in the bank, 
        allowing producers to take advantage of pricing opportunities 
        on input materials, replacement stock, or expansion 
        opportunities. Such an approach would incentivize operating 
        from available resources, instead of what could be borrowed on 
        an annual basis.
Debt Restructuring for FSA Planning Prices
  <bullet> When commodity price cycles run contrary to the mandated FSA 
        Planning Prices, despite a producer's inclination to plan 
        conservatively, producers are often faced with choice of 
        accepting a plan based on those planning prices or shutting 
        down their operation. In cases that FSA planning prices are 
        more than 20 percent higher than the actual prices, a producer 
        should be able to restructure their debt in a way that will not 
        count towards lifetime limits on loan servicing.
Socially Disadvantaged Interest Rate
  <bullet> Update the Socially Disadvantaged Rate (SDR) interest rate 
        for FSA loans from a static number (currently 5 percent) to be 
        indexed to the prevailing rate and set a commensurate 
        proportion of that rate, 50 percent of the standard rate. The 
        current rate was set years ago when the prevailing interest 
        rate was in the double digits and should already have been 
        revisited and revised.
FSA Food Loan Authority
  <bullet> Under current program guidelines, there is some latitude for 
        producers whose production will take a period to fully ramp up. 
        Initial payments can be made at an 18-month mark rather than 
        within the first year. This same methodology should be employed 
        for producers wishing to take their raw product to the next 
        step in the value chain. Keepseagle-Ciass Forgiveness
  <bullet> The Keepseagle litigation proved there was a systemic and 
        deeply rooted history of discrimination at the USDA against 
        Native and other producers. While Native Americans could avail 
        themselves of the opportunity for debt settlement and a small 
        monetary award to attempt to make them whole, some successful 
        claimants also received a ``clean slate'' when dealing with the 
        FSA in the future. With only 3,000 successful claimants of an 
        anticipated 12,000 potential claimants, many Native producers, 
        still feeling the disenfranchisement of decades of disparate 
        treatment, did not take part in the claims process. Allowing 
        the larger pool of potential Keepseagle claimants to experience 
        a ``clean slate'' would be a no-cost change that would improve 
        future opportunities for many tribal producers.
Remove tile Graduation Requirement for FSA programs
  <bullet> Due to the general lack of credit availability on and near 
        Indian reservations, it is difficult to access viable credit 
        rates for even experienced producers operating farms and 
        ranches on trust lands. Removing the statutory requirement for 
        producers on Indian reservations to have graduated from FSA 
        programs would allow agriculture operations to be more stable 
        and assist other producers who farm and ranch in areas where 
        credit access is tenuous at best.
Remove tile Requirement for Private Credit Denial
  <bullet> Explicitly exempt tribal producers from the FSA requirement 
        of obtaining three denial letters from private credit sources 
        in order to participate in an FSA loan program. The general 
        lack of private lending available in Indian Country renders the 
        requirement onerous and unduly burdensome.
Create Common Definition of Land Owned by Indian Tribes across All USDA
  <bullet> Currently, there is no common definition of ``land owned by 
        Indian Tribes'' across all USDA programs, creating inconsistent 
        program access even within programs run by a single agency.
Miscellaneous
Fully Fund tile Office of Tribal Relations at USDA
  <bullet> Fund the Office of Tribal Relations (OTR) at a minimum of 
        $1.5 million, because insufficient funding limits OTR's ability 
        to provide the programs, technical assistance, content, or even 
        the basic communications to tribes and tribal producers 
        regarding USDA's education and training programs. Adequate 
        funding is essential to carrying out OTR duties, including the 
        oversight of all USDA tribal consultation.
Authorize tile Establishment of an Office of Tribal Agriculture
  <bullet> Establish a broad reaching Office of Tribal Agriculture 
        within the Office of the Secretary to coordinate all USDA 
        programs as those programs apply to tribes, maximize the value 
        of the programs, address issues in compliance and access of 
        programs that are carried out within USDA, and serve as a 
        liaison between the USDA, tribes, and individual Indian 
        producers. Among other requirements, the Office of Tribal 
        Agriculture should periodically report to the House Committee 
        on Agriculture and the Senate Committee on Agriculture, 
        Nutrition, and Forestry at least once each fiscal year on the 
        activities and progress in advancing tribal agriculture. The 
        Office should also report annually to the Senate Committee on 
        Indian Affairs. The Office of Tribal Agriculture should receive 
        an appropriation of $2 million for each fiscal year.
Tax Credits or other Tax Incentives for Buying Indian Food and 
        Agriculture Products
  <bullet> The 2018 Farm Bill should create a new ``Buy Indian'' tax 
        credit or other tax incentives to encourage consumers and those 
        within the food supply chain to buy American Indian and Alaska 
        Native food products. This will not only help Native food 
        products in the supply chain, it will also provide incentive 
        for distributors, retailers, and related food purchasers to 
        examine Native food product purchases to meet their food supply 
        needs.
Increase Cooperative Agreements between APHIS and Tribes
  <bullet> Enhanced authority for the livestock and plant disease 
        agency of the USDA--Animal and Plant Health Inspection Service 
        (APHIS)--could dramatically increase the number of cooperative 
        agreements it has with tribal governments and tribal 
        organizations. Since tribal lands and individual Indian-owned 
        land are among the most remote in the United States, it is 
        important to ensure that animal and plant health is monitored 
        closely and that animal and plant disease is dealt with 
        properly and in ways that do not cripple Native agriculture and 
        food production. Increasing the amount of funding of 
        cooperative agreements is an important way to not only further 
        the growth of agriculture management and governmental control 
        at the tribal government level, but also meet the goals and 
        concerns of APHIS.
Recognize Tribal Departments of Food and Agriculture
  <bullet> Permanently recognize and incorporate Tribal Departments 
        charged with administration of Agriculture and Food Systems 
        into the ongoing interface of all agencies within USDA and the 
        Office of Intergovernmental Affairs at USDA with other offices 
        of government.
Country of Original Labeling and Beef Checkoff
  <bullet> Reinstate Country of Origin Labeling and create a set-aside 
        within the Beef Check off funds that is devoted to the 
        marketing and promotion of Native American Beef. Education, 
        Training and Scholarship Programs to Support Native Producers 
        and Scientists.
  <bullet> Develop a new program that focuses on educating and training 
        the tribal agriculture labor force, provides key scholarships 
        to Native producers, and encourages Native scholars and 
        scientists to focus on food and agriculture. USDA currently has 
        multiple internship, scholarship, mentoring, and other programs 
        focused on increasing the diversity of American agriculture by 
        educating the next generation of tribal leaders in food and 
        agriculture. However, Native representation is low, and 
        outreach to Native communities is weak. A Native scholarship 
        program should be adequately funded and coordinated throughout 
        the land grant system. A minimum of $10 million is needed to 
        adequately endow a centralized scholarship fund for Native 
        youth and scholars. This program should be managed by the 
        Office of Tribal Relations and any new Office of Tribal 
        Agriculture.
Maintain and Fund the Intertribal Technical Assistance Network
  <bullet> Permanently maintain and fund the Intertribal Technical 
        Assistance Network, which has been in place for more than five 
        years through a cooperative agreement between USDA and the 
        Intertribal Agriculture Council, through contributions from 
        each of the agencies and offices of USDA. This effort should be 
        funded at least $3 million annually, and it must continue to 
        maintain regional offices in each of the 12 BIA regions to 
        ensure access for all Native producers. interdepartmental Task 
        Force 011 Indian Agriculture
  <bullet> Create an Interdepartmental Task Force on Indian Agriculture 
        with the Office of Tribal Relations, the Office of the 
        Secretary, and representatives of each of the agencies and 
        offices of USDA, along with the BIA. The purpose of the Task 
        Force shall be to develop administrative efficiency and 
        regulatory changes needed to ensure Native agriculture is 
        supported and allowed to increase. The Task Force must report 
        annually to the Secretary of Agriculture and the Secretary of 
        Interior.
OAO Outreach and Internships for Native Students
  <bullet> Require the USDA Office of Advocacy and Outreach (OAO) to 
        fund internships for Native students at a level equal to the 
        number of internships the office supports for any other 
        socially disadvantaged group (e.g., Hispanic, African American, 
        Asian American, women, etc.). The OAO has been inconsistent in 
        funding these internships for Native students, and they should 
        be required to do so if they fund members of other groups. The 
        Tribal Liaison position within the OAO that focuses on the 
        relationship between the American Indian Higher Education 
        Consortium (AIHEC) and USDA (and staffs the joint leadership 
        council of AIHEC and USDA officials) should be moved to the 
        Office of Tribal Relations.
Coordination with BIA on Agricultural Resource Management Plan
  <bullet> Require the BIA to coordinate with USDA in all aspects of 
        supporting any tribe or individual Indian landowner that wishes 
        to draft and implement (including receiving Secretary of 
        Interior support) an Agricultural Resource Management Plan 
        (ARMP), authorized under the American Indian Agricultural 
        Resource Management Act of 1993 (AIARMA). This act has never 
        been fully implemented, and only a few tribes and individual 
        Indian landowners have placed a plan in motion. The BIA, 
        working in concert with USDA, should prioritize finding 
        resources to assist tribes (including technical assistance 
        resources) in establishing plans authorized under the act. The 
        BIA should be required to accept any conservation plan or 
        forest management plan conducted by the NRCS or USFS agencies 
        within USDA as equivalent to any environmental assessment 
        deemed necessary in implementing the AIARMA. Tribes and 
        individual Indian landowner should not be required to conduct a 
        full NEPA analysis to conduct food and agriculture operations 
        on their lands. The requirement is far more excessive than any 
        applicable law, and this interpretation violates principles of 
        rights to food, food access, environmental or food justice, and 
        food sovereignty. An ARMP created pursuant to the AIARMA should 
        be allowed as a fundable EQIP practice, and exempted from full 
        NEPA analysis.
Increase FSMA Technical Assistance Funding for Tribal Producers
  <bullet> An increase in Food Safety Modernization Act (FSMA) training 
        and technical assistance funding for tribal producers must 
        occur. There are unique legal, jurisdictional, production, 
        water, land use, and related issues and concerns regarding its 
        implementation that will inhibit tribal food production if not 
        addressed through enhanced food safety training and technical 
        assistance. The Native American Outreach, Training, Technical 
        Assistance, and Education cooperative agreement funded through 
        the FDA attempts to reach the technical assistance and training 
        needs of tribal producers, but USDA is not funding such efforts 
        on a regular basis and FDA funding is not at the level 
        necessary to cover the needs of producers in more than 30 
        states and with 567 tribes. The Farm Bill should require that 
        the FDA and USDA double the amount of funding received by the 
        Native outreach organization, since that organization is 
        required to conduct activities that cover twice the land base 
        that any other regional training center covers. The Farm Bill 
        should also require that the USDA fund an additional equivalent 
        amount of activities to ensure that tribal producers are 
        reached with this information, which is vital to their 
        compliance and their ability to reach markets for their 
        products. USDA and FDA must conduct joint tribal consultation 
        with regard to any current and future interpretations of the 
        FSMA rules in order to determine potential continuing impacts 
        on Indian Country producers and food businesses. Produce Safety 
        Alliance (PSC) at Cornell University designs a]) approved 
        curriculum on FDA FSMA implementation but the curriculum is not 
        appropriate to the legal, jurisdictional, land, and water 
        resources or food systems in Indian Country and appropriate 
        curriculum and resources must be focused on the needs of Indian 
        Country producers.
Tribal Representation on All Federal Advisory Committees
  <bullet> Require USDA to recruit and appoint tribal citizens to each 
        of the more than 100 federal advisory committees it seats and 
        supports. In addition, the Council for Native American Farming 
        and Ranching should receive funding to support its work, and it 
        should become a permanent FACA advising the Secretary and USDA.
Weather Reporting Stations
Energy
Establish a Tribal Bio-Based Energy Development Grant Program
  <bullet> Create a Tribal Bio-Based Energy Development Grant Program 
        in the 2018 Farm Bill to help spark economic development and 
        energy infrastructure development in tribal communities, while 
        providing low-cost energy to tribal communities and surrounding 
        rural areas. This grant program for tribal governments and 
        wholly owned tribal entities would operate much like a grant in 
        lieu of tax credit, similar to the existing Renewable Energy 
        Production Incentive (REPI) Program. Further, the Tribal Bio-
        Based Energy Development Grant Program should specify the 
        eligibility of tribally chartered and federally chartered 
        tribal corporations for rural development programs, including 
        for grants and loan programs, as well as any technical 
        assistance programs available. Since the U.S. Department of 
        Agriculture has made a policy statement that it will recognize 
        federally charted Section 17 Tribal Corporations as eligible 
        entities for rural development programs, the program should 
        codify this and clarify that tribally chartered tribal 
        corporations are also eligible.
Horticulture and Specialty Crops
Tribal Consultation on Fruit and Vegetable Programs
  <bullet> Require the U.S. Department of Agriculture (USDA) agencies 
        primarily responsible for specialty crops to engage in ongoing 
        tribal consultation concerning the impact and growth of the 
        fruit and vegetable sector within Indian Country and the 
        opportunities and challenges that can be positively impacted by 
        changes in USDA regulations.
Tribal Inclusion in tile Specialty Crop Block Grant Program
  <bullet> Change the Specialty Crop Block Grant Program to ensure that 
        tribal departments of food and agriculture are eligible for 
        funding under this important program and that tribal projects 
        are not required to go through state funding mechanisms at 
        state departments of agriculture to receive support. There are 
        very few tribal projects that currently receive support and, at 
        the same time, the number of tribal departments of agriculture 
        is likely to continue to grow over time. This program is 
        critical to the growth of this sector in Indian Country, and 
        tribal sovereignty must be respected by allowing these new 
        departments to receive funding parity.
Honey and Beekeeping Reports
  <bullet> Include the growth and increase in beekeeping and honey 
        operations in Indian Country in any reports on honey or 
        beekeeping
Tribal Farmers, Markets
  <bullet> Require that a minimum of 10 percent of available funding in 
        farmers' market and local food promotion programs grant funding 
        authorities go to tribal and tribal producer farmer's markets 
        and local food promotion activities. All definitions of 
        farmers' market and local food promotion activities must ensure 
        that tribal food systems and producers are not excluded from 
        participation based on the unique ways that such markets and 
        activities iterate in Indian Country.
Support for Tribal Organic Producers
  <bullet> Launch a special program in USDA designed to increase 
        technical assistance to those within Indian Country who are 
        interested and prepared to transition to organic production.
Increased Support for FSMA Outreach
  <bullet> Ensure that tribes and tribal producers receive adequate 
        technical assistance from USDA and/or Food and Drug 
        Administration (FDA) on the Food Safety Modernization Act 
        of2011 (FSMA) and that the ongoing implementation of FSMA does 
        not inequitably or disproportionately negatively impact Indian 
        Country food systems. The impact of FSMA implementation on 
        tribal producers is different from the impact on any other U.S. 
        producer due to the unique land base, legal jurisdiction, and 
        production systems in Indian Country. At present, there is not 
        enough funding to adequately reach tribal producers to ensure 
        their knowledge of and compliance with FSMA requirements. In 
        addition, the unique legal and political systems in Indian 
        Country are not taken into consideration by USDA or FDA in 
        fashioning approaches to FSMA compliance.
Protecting Native Foods in the Marketplace
  <bullet> Require USDA to work with tribal governments, tribal 
        organizations, and tribal producers to develop programs that 
        are designed to protect the integrity of Native food products 
        from fraudulent versions of their foods in the marketplace. The 
        federal trust relationship requires that USDA work with tribal 
        governments, tribal food companies, and tribal food producers 
        to ensure that market regulatory mechanisms can be used to 
        augment the ability and inherent legal authority of tribes to 
        protect their unique food products. This can be done through 
        geographic inteUectual property mechanisms put in place by 
        tribal governments to protect unique tribal foods or other 
        appropriate legal mechanisms that must receive recognition by 
        the federal government. These processes for protection should 
        be fully supported and recognized by USDA.
Protect Tribal Seeds and Traditional Foods
  <bullet> Require USDA to take steps after tribal consultation to 
        ensure that tribal seeds are given the maximum protection 
        avai1able under federal law and not all owed to be accessed for 
        commercialized purposes without the consent of tribal 
        governments. Seeds of traditional foods are among the most 
        sacred items to Indigenous peoples and the protection of those 
        seeds, not only as food sources but as important cultural 
        systems, must be required.
Crop Insurance
Parity for Indian Country And Production
  <bullet> With more than 50 percent of the $3.4 billion Indian 
        Agriculture Industry being comprised of cattle, it is critical 
        to design risk management products that meet the need. 
        Currently there are few options available, and those that do 
        exist require up-front premium payments (LFP, LRP). Simply 
        changing the timing of premium payment to coincide with 
        production would ease the burden of participation for Indian 
        producers. Increasing the federal subsidy rate for this type of 
        programs has also been demonstrated to incentivize 
        participation and mitigate federal outlay in times of disaster.
RMA Study on Crop Insurance in Indian Country
  <bullet> Require the Risk Management Agency (RMA) to conduct a study 
        to ascertain the efficacy and applicability of the current crop 
        insurance products as they relate to Indian Country agriculture 
        production as indicated by the 2012 National Agricultural 
        Statistics Service And Census. If that study reveals that 
        either the specific crop insurance products or the general 
        guidance documents of RMA do not adequately consider unique 
        tribal production issues, a separate administrative guidance or 
        notice should be issued by RMA to solve these concerns, and 
        unique crop insurance products and crop insurance 
        administration systems should be pursued.
Development of Crop Insurance for Traditional Foods and Livestock
  <bullet> Encourage RMA to develop a unique crop insurance policy 
        product designed to cover the production systems associated 
        with tribal food products, tribal livestock, and traditional 
        food systems. The production systems associated with such 
        products should be recognized as Good Agricultural Practices 
        (GAPs), and tribal producers should also be afforded the same 
        opportunity to pay premiums upon the sale of the crop or 
        livestock instead of making an up-front payment.
Tribal Producer Education Programs
  <bullet> Ensure that at least 10 percent of all projects funded 
        through RMA' s Risk Management Education Program are focused on 
        tribal producer risk management training needs and tribal food 
        production systems and the unique risks associated with those 
        systems.
Allow Tribal Insurance Companies to Insure Tribal Producers
  <bullet> Engage AMERIND Risk, a 100 percent tribally owned and 
        operated insurance provider, to begin the process of offering 
        crop insurance products in Indian Country because it has 
        significant experience offering and underwriting insurance 
        needs in Indian Country and serves a national intertribal 
        audience. The current crop insurance research, product 
        development, and policy sales areas are not developed for, and 
        do not adequately reach, smaller tribal producers. Many of 
        these unique problems can be addressed by working directly with 
        AMERIND Risk.
Appoint Tribal Producers to FCIC Board
  <bullet> Consider appointing tribal producers to fill future 
        vacancies on the Federal Crop Insurance Corporation (FCIC) 
        Board and thereby ensure that every FCIC Board has at least 
        one, if not more, tribal producers on the board whose role will 
        be to address the unique issues associated with tribal 
        production systems.
  <bullet> Provide tribal set-asides and preferences within all non-
        FRTEP NIFA funding authorities while retaining the competitive 
        nature of the funding, which is necessary to continue building 
        capacity and strength.
  <bullet> Amend the agricultural legal funding authority contained in 
        the 2014 Farm Bill to ensure that competition for the funds 
        occurs and funding is set-aside to be provided to organizations 
        and entities that have a proven specialty and primary focus on 
        Indian Jaw issues that intersect with food and agriculture Jaw.
  <bullet> Require NIF A funding authorities to focus a portion of 
        their work on building knowledge and capacity in business 
        development unique to tribal lands and individual Indian owned 
        land, and approach this work separately due to the unique 
        complexities in tribal land use, law, regulatory burdens, and 
        related issues. Since business training and the development of 
        solid business planning tools are also necessary, funding would 
        be best focused around risk management education programs and 
        the funding authorities in this area.
  <bullet> Allow tribal governments and tribal organizations full 
        access to all nutrition education programs at NIFA, including 
        SNAP-Ed, and all research programs related to building 
        knowledge in nutrition, health, obesity, and diabetes 
        prevention.
  <bullet> Include a set-aside in Small Business Innovation Research 
        projects funded through NIFA for tribal projects leading for 
        commercialization of food products or food systems innovations.
  <bullet> Ensure that the federal formula funding authorities that 
        support basic research, education, and extension funding for 
        1862 institutions is revisited to ensure that the institutions 
        receiving such funds based on the federal formula actually 
        provide research, education, and extension services to the 
        tribal communities, farms, ranches, farmers, and rural citizens 
        who are counted in the formula that establishes funding 
        allocations. At present tribal interests are considered in 
        establishing formula allocations but there is no follow through 
        to determine if actual projects result in such funding 
        allocations.
Sustainable Agriculture Research and Education Program
  <bullet> Reauthorize the Sustainable Agriculture Research and 
        Education Program with a set-aside for tribal sustainable 
        agriculture project funding.
Agricultural Research Service Projects on Traditional Ecological 
        Knowledge
  <bullet> Launch and support a significant number of research projects 
        within the Agricultural Research Service that focus on the 
        important role that traditional knowledge plays in the 
        environmental, natural resource, ecological, food science, 
        nutrition, and health arenas. Funding provided in these unique 
        content areas must be done with full consultation with tribal 
        governments and full compliance with modem cultural practices 
        and recognition.
Multi-Tribal Funding for Research Title Programs
  <bullet> Develop a separate funding authority, like the Sun Grant or 
        Sea Grant authorities, to allow multi-tribal, multi-state, and 
        consortium approaches to meeting the research, education, and 
        extension needs of Indian Country.
Native Youth Grants
  <bullet> Include a provision of grants for youth-focused 
        organizations in Indian Country that focus on developing food 
        and agriculture leadership and scientific knowledge in all 
        grants for youth organizations.
TCU Center of Excellence
  <bullet> Encourage, allow, and include the Centers of Excellence 
        approach to funding in the next Farm Bill Research Title.
Forestry
Improve the Tribal Forest Protection Act (TFPA)
  <bullet> Adopt the legislative text from the Sections 301 and 303 of 
        the 114mCongress's H.R. 2642 (Rep. Westerman) in the new Farm 
        Bill.
  <bullet> Include the TFP A streamlining provisions to improve the 
        timelines for review and implementation of forest restoration 
        projects requested by tribes.
  <bullet> Allow for greater tribal participation in TFP A projects by 
        authorizing, as a discretionary pilot program, the application 
        of ``638'' contracting authority to TFPA projects on Forest 
        Service or Bureau of Land Management (BLM) lands.
Cooperative Management of Adjacent Federal Lands
  <bullet> Since tribes continue to have legal, historic, and economic 
        connections to adjacent federal forests, include a pilot 
        program authorizing tribes and the Bureau of Indian Affairs 
        (BIA) to conduct cooperative, discretionary forest restoration 
        activities on Forest Service and BLM lands using existing 
        regulations governing the management of Indian forests. 
        Additional means and legal and financial arrangements that 
        would support the cooperative management of forest lands with 
        and through Tribes must be explored.
Tribal Forestry Workforce Development
  <bullet> Authorize the U.S. Department of Agriculture (USDA) to fund 
        a Native American forestry workforce coordination and 
        development program through an intertribal organization 
        familiar with Tribal forestry issues. The Indian Forest 
        Management Assessment Team, an independent panel of scientists, 
        has identified the need to recruit, train and retain a future 
        forestry and fire workforce to address the growing shortage of 
        trained workers for the management and operation of Indian 
        forests. This shortage of forest workers constrains the ability 
        of tribes and related federal agencies to effectively manage 
        and protect tribal forests and forest-related natural resources 
        and to participate in broader landscape-based forest management 
        activities.
McIntire-Stennis Parity
  <bullet> Allow Tribal Colleges and Universities (TCUs) offering a 
        bachelor's degree in forestry or higher to perform tribally and 
        state-relevant forestry research and develop a well-trained 
        Native forestry workforce. The Mcintire-Stennis Act of 1962 
        dedicates funds to states to pursue forestry research at state 
        colleges and universities and to help train the next generation 
        of forest scientists and professionals. All 1862land grant 
        institutions and, since the 2008 Farm Bill, 1890 Historically 
        Black Colleges and Universities have access to funding, yet the 
        National Institute of Food and Agriculture made just under $32 
        million available under Mcintire-Stennis. While tribal trust 
        lands are included in the formula that a11ocates funding to the 
        individual states, the 1994 Land Grant TCUs remain ineligible 
        to receive research funding.
Fire Suppression Priorities
  <bullet> Any federal wildfire suppression efforts in the Farm Bill 
        should ensure that Indian forests are properly prioritized in 
        fire suppression activities and funding. Current priorities 
        place protection of private structures above protection of 
        tribal forest assets held, managed and protected by the U.S. as 
        trustee. As a result, in the 2015 fire season, suppression 
        crews were removed from wildfires on Indian trust forests to 
        protect private structures. The fires on Indian trust forests 
        exploded, destroying hundreds of thousands of acres and 
        millions of board feet of timber vitally important to tribal 
        economies. These priorities, allowing federally protected trust 
        assets essential to tribal communities to be sacrificed to 
        protect private structures, needs review.
Support Anchor Forests
  <bullet> Provide authority to develop more Anchor Forest initiatives. 
        The Inter-Tribal Timber Council, its member Tribes, the U.S. 
        Forest Service, and other forest resource stakeholders have 
        recently completed a pilot study in Washington State and report 
        on an ``Anchor Forest'' concept to foster landscape-scale 
        forest collaboration and management projects intended to 
        improve forest health while preserving local logging, milling, 
        and other critical infrastructure. The pilot study was 
        successful and many tribes in the Great Lakes states and 
        Southwest are interested in developing Anchor Forest projects 
        in their own regions.
Protection of Sacred Places
  <bullet> Ensure that interdepartmental efforts to protect Indian 
        sacred places are maintained and strengthened, and that the 
        responsibilities of USDA and other federal departments to 
        consult with tribes on an ongoing basis concerning sacred 
        places continually occurs. The Memorandum of Understanding 
        among departments of the federal government must be kept in 
        place indefinitely.
Tribal Representatives on Forestry Advisory Bodies
  <bullet> Require tribal representation on all local, regional and 
        national planning and implementation bodies which serve in 
        advisory capacities to USDA and the U.S. Forest Service.
Parity between Forest Services and NRCS Land Language
  <bullet> Create parity between Forest Service management agreement 
        language and Natural Resources Conservation Service 
        determination of land control language to preserve tribal 
        sovereignty and rights to gather/manage traditional plant 
        stands and enhance opportunities for tribes to leverage 
        Environmental Quality Incentives Program (EQIP) assistance on 
        traditional lands under Forest Service jurisdiction.
  <bullet> Credit Title or another a section having application broadly 
        across the entire Department, is to place it within the 
        Definitions section of the Conservation Title, where many 
        problems associated with lack of common definition are most 
        pronounced. Regardless of where such definition is placed, 
        attention should be paid to consistency across the family of 
        USDA programs and authorities.
GAO Study on Credit Access in Indian Country
  <bullet> Conduct an in-depth analysis by the Government 
        Accountability Office into the nature of credit in Indian 
        Country; specifically examining compliance with the Community 
        Reinvestment Act by banks on and near Indian reservations.
Rural Development
Implement SUTA Provisions Throughout all Rural Development Programs
  <bullet> Further broaden the Substantially Underserved Trust Area 
        (SUTA) provision across all RD programs. Currently, SUTA is 
        only applied to a small segment of infrastructure programs, but 
        more explicit guidance must be provided to allow the Secretary 
        to exercise this discretion more broadly. This change will help 
        ensure more equitable access to RD programs and authorities, 
        and can be used to provide much-needed support to tribal 
        citizens living in rural communities. The change would, among 
        other things, allow the waiver of matching requirements for 
        projects funded through RD, which can be a significant barrier 
        to socially disadvantaged applicant participation in RD 
        business and infrastructure projects.
Rural Development Tribal Set-Aside
  <bullet> Provide a tribal set-aside in either terms of percentage of 
        the funding portfolio or a specific funding level for tribal 
        applications within each of the RD program authorities to 
        address the inadequacy and general lack of rural infrastructure 
        in Indian Country. The trust responsibility of the federal 
        government to tribes provides the broad foundation for such set 
        aside. Without dedicated funding for tribal rural development, 
        the promise of these places will never be realized and Indian 
        Country's infrastructure will continue to decline. In many 
        areas around the country, tribal governments are the strongest 
        remaining rural government entity. In some locations, tribal 
        governments have taken over the management of key 
        infrastructure (such as water systems, electric, and other 
        utilities) because there is no other sound governmental or non-
        governmental entity that can handle these functions.
Establish a Permanent Rural Development Tribal Technical Assistance 
        Office
  <bullet> Establish a permanent office providing technical assistance 
        across all RD funding authorities via a cooperative agreement 
        with USDA for two reasons. First, the complexities of lending 
        and infrastructure establishment in Indian Country -tied to the 
        nature of the trust land base- call for the establishment of 
        such an office that can prepare and monitor lessons learned, 
        establish user-friendly application systems, and assist staff 
        at the tribal or business level in preparing applications. This 
        is a function the federal government cannot readily undertake. 
        Such assistance will also provide needed insight to federal 
        staff in the ongoing execution of their roles by providing a 
        single point-of-contact for all concerned. Second, the trust 
        responsibility of the federal government to tribes supports the 
        need to establish such assistance interventions. This is not 
        unheard of, as RD (particularly in the infrastructure arena) 
        has field staff who assist agency staff and the applicant in 
        analyzing financial viability, key engineering specifications, 
        and related technical requirements for more complex 
        infrastructure projects.
Maintain the Under Secretary for Rural Development Position
  <bullet> Maintain an Under Secretary for Rural Development in the 
        2018 Farm Bill and all additional sequent legislation and 
        appropriations packages. Having an Under Secretary whose 
        primary duties are to focus on RD programs and funding is 
        critical for Indian Country and rural America. Any changes that 
        would impact the Under Secretary role for Rural Development 
        must be the subject of tribal consultation.
Uplift America by Supporting CDFIs Loan Authority
  <bullet> Develop a process to allow small, new and emerging Community 
        Development Financial Institutions (CDFis) access to loan 
        authority. The concept of hatching and obligating all loan 
        guarantee authority annually is a game changer. The 
        requirements put upon CDFis to participate in this endeavor are 
        patently prohibitive. Only the largest CDFis could secure any 
        meaningful funding levels, and some had threatened litigation 
        to do that.
Extend Rural Electric Loan and Grant Program Authority to CDFIs
  <bullet> Rural electric cooperatives are uniquely poised to be 
        economic development drivers in their communities. Often, they 
        choose not to avail themselves of this opportunity. In cases 
        where a rural electric cooperative chooses not to participate 
        in this program in the past, local CDFis should have the 
        opportunity to carry out the function.
Maintain Rural Water Program Funding
  <bullet> Rural water and wastewater systems are essential to 
        community support and economic growth in Indian Country. The 
        rural water and wastewater program funding in the RD Title 
        should never be lost. Tribal governments, individual Indian 
        producers. reservations, and remote and isolated communities 
        will be severely undercut in the protection and growth of their 
        food systems and their ability to access markets for their food 
        production markets if access to funding for rural water systems 
        is lost or diminished. This is a matter of food insecurity and 
        economic and environmental justice.
Research
Parity in Funding for FRTEP
  <bullet> Increase funding for FRTEP to at least $10 million, and 
        preferably increased to greater levels of funding. FRTEP 
        supports farmers, natural resources managers, youth (via 4-H 
        youth programs), and communities by providing an agent to 
        liaise with other USDA programs, provide training in farm and 
        ranch business management, supervise 4-H and youth development 
        activities, and coordinate special training programs, including 
        the application of new agricultural technologies, among many 
        other vital activities. While there are more than 3,100 
        extension offices available to farmers nationwide (through the 
        institutions in the land grant system). the current $3 million 
        funding level provides only 36 FRTEP extension agents to serve 
        more than 50 million acres of tribal lands, a growing number of 
        tribal food producers, and 567 federally recognized tribal 
        reservations as well as many state-recognized tribal 
        communities. Providing more than $10 million in funding would 
        begin to address this persistent inequity by nearly doubling 
        the FRTEP staff and the number of Native youth served by the 
        program. Greater attention must be given to whether the land 
        grant extension system funding is being used appropriately or 
        in such a way that tribal communities and producers receive the 
        resources they need in relation to the proportionate formula 
        funding distributed. The current system of competitive funding 
        is also in need of adjusting. as it results in long-standing 
        and effective programs being cast aside in favor of new 
        programs with no established track record and states like South 
        Dakota, with nearly 19 percent of the land owned by Indians. 
        not receiving funding at all. Consultative review of all FRTEP 
        applications must be reinstated.
Research Title Funding Mechanisms
  <bullet> Update funding systems to reflect the research and 
        educational needs of tribal communities. The competitive and 
        formula funding mechanisms within the Research Title can 
        provide much-needed research and development, infrastructure 
        development, education, and extension of knowledge, but the 
        assumptions about the funding systems have outlived their 
        usefulness.
TCU Eligibility for all National Institute of Food and Agriculture 
        (NIFA) Funding
  <bullet> Make TCUs eligible for all USDA-NIFA funding authorities. 
        TCU extension professionals are not present among enough 
        tribes, and they are currently not provided with even the 
        minimum level of funding to accomplish their work. However, 
        FRTEP. due to its unique history and implementation. must be 
        excluded from this requirement as the circumstances of the 
        FRTEP program is entirely different.
Additional Resources for Tribal College Extension, Research and 
        Education Programs
  <bullet> Increase non-FRTEP funding considerably for Tribal College 
        extension programs so they can effectively address the needs 
        for tribal research and education related to tribal food 
        systems and food producers.
  <bullet> Require extension programs funded at 1862 institutions to 
        provide services to tribal food systems, so that there is not a 
        gap in tribal educational scholarships, internships. and 
        critical needs. The growth of Native food systems requires the 
        improvement of access and parity within the Research Title.
  <bullet> Commission a comprehensive study to explore the potential 
        ability of 1862 Land Grant Institutions to share administrative 
        functions, classroom and faculty resources, and other related 
        support mechanisms.
Tribal Set-Aside, Preference, and Funding at NIFA
  <bullet> USDA should be required to work alongside other relevant 
        federal departments to ensure that weather reporting systems 
        and stations are located on tribal lands and individual Indian-
        owned lands throughout the U.S., because the gathering of that 
        information is vital to predicting production yields and 
        assessing disaster impacts, among other weather-related needs. 
        Currently, very few weather reporting stations are located on 
        tribal lands, and USDA should take the lead in working with 
        other departments to ensure this is addressed.
Buy Indian and Indian Preference for USDA Food Purchasing
  <bullet> Amend the language that controls USDA contracting and 
        procurement, including the language that controls the 
        procurement of food, to not only recognize and support a ``Buy 
        Indian'' provision, but also allow an ``Indian preference'' 
        particularly when USDA is purchasing any product, including 
        food, being utilized by Native people within their communities 
        (such as food in the commodity food programs, like the Food 
        Distribution Program on Indian Reservations).
Establish an Indian Agriculture Development Trust Fund
  <bullet> Production agriculture has the potential to provide a 
        private sector economy for rural tribal governments. Some of 
        the highest unemployment rates in the country are located on 
        tribal lands- several with chronic unemployment rate as high as 
        80 percent. Many of these tribal communities have land bases 
        that can support production. A secure and stable source of 
        technical assistance and expertise in the development of their 
        agriculture-related economies could improve the quality of life 
        for Indian peoples living on those reservations.
Make the Indian Agriculture Trust Fund Available to All Tribes
  <bullet> Require that all funds used in the Indian Agriculture Trust 
        Fund should also be available to tribes in other parts of the 
        country and that a study be performed by USDA to find other 
        similar sources of income to fund such a trust fund and report 
        back to Congress as to the findings. The need for such a trust 
        fund is pervasive throughout Indian Country, not just in the 
        Midwest or Missouri River basins and watersheds.
USDA and BIA Work Group on Farming and Ranching
  <bullet> Require USDA and the BIA to form a permanent working group 
        that examines all aspects of the interface of farms and ranches 
        on tribal lands and individual Indian owned lands, and reports 
        annually to both the Secretary of Agriculture and the Secretary 
        of Interior concerning administrative changes that should be 
        made to further the access of tribal governments, tribal 
        producers, and tribal food businesses to all programs and 
        authorities of USDA.
Tax Extenders
  <bullet> Extend the Indian Employment Tax Credit (26 U.S.C. <l-arrow> 
        45A) and the Accelerated Depreciation Tax Incentive for 
        business property located on Indian reservations (26 U.S.C. 
        <l-arrow> 168) because agriculture is increasingly dependent on 
        financing and development tools. Both tax incentives expired at 
        the end of 2012; however, many businesses operating on the 
        reservation rely on these tax credits to help subsidize the 
        cost of materials and workers. While these should be extended, 
        the accelerated depreciation and Indian employment tax credits 
        are inconsistent, because they continue to be renewed year 
        after year instead of being made permanent or renewed for a 
        longer duration (four to seven years). This uncertainty makes 
        them unreliable as investment incentives to attract the multi-
        year, large-scale projects they were intended to attract. 
        Making these incentives permanent does not increase costs on an 
        annual basis, and would attract new businesses into Indian 
        Country instead of only benefitting those non-Indian businesses 
        already operating on the reservation.
    Please accept this testimony on behalf of the Lac du Flambeau Band 
of Lake Superior Chippewa Tribe. If you need further information please 
do not hesitate to contact us. Thank You.
                                 ______
                                 
 Prepared Statement of Carole M. Palmer, Food Systems Specialist, COPE
    Dear Chairman Hoeven and Vice Chairman Udall,
    Working closely with community members throughout Navajo Nation, we 
write to submit testimony for the record urging the Senate Committee on 
Indian Affairs to ensure that Indian Country is fully represented in 
the upcoming Farm Bill and included in all relevant discussions.
    With Congress considering the Farm Bill this session, we request 
that the Senate Committee on Indian Affairs consult with the Senate 
Agriculture Committee to address Indian Agriculture in this important 
piece of legislation.
    The Navajo Nation contains nearly 15,000 farm sites, covering 
almost 17 million acres of land, but only a fraction of these are being 
farmed. Navajo farmers face challenges with regard to land and water 
access, and Navajo families face challenges accessing healthy, 
affordable, and traditional foods. Many advocates in Navajo Nation are 
working to pursue food sovereignty and the growth of a healthy, 
sustainable food system. This work occurs at all levels of government: 
federal, state, and tribal.
    Federal efforts to delineate and regulate Navajo lands have caused 
significant land access and land use issues. As a result, today it is 
incredibly challenging for new farmers to access land. Farmers of all 
ages and experience levels also contend with issues including livestock 
overgrazing and the trespass of cattle onto fertile cropland, soil 
degradation, and the lengthy and complex process required to obtain a 
grazing permit. Several programs contained in the Farm Bill have the 
potential to help alleviate these issues.
Primary Goal: Support Training and Technical Assistance for Beginning 
        Farmers
    With over 14,000 small producers and a growing number of small 
farms, it is crucial that Navajo Nation maintain a strong support 
system for tribe members seeking to transition into the agriculture 
sector. Programs such as the Rural Microentrepreneur Assistance Program 
(RMAP) and the Beginning Farmer and Rancher Development Program (BRFDP) 
can help Navajo Nation build support systems for new producers by 
providing loans and grants for organizations that provide technical 
assistance and education to small and beginning farmers. In the 2018 
Farm Bill, Navajo Nation advocates can encourage Congress to increase 
the set-aside funding for socially disadvantaged farmers in the BFRDP, 
and alter the terms of RMAP loans for minority and socially 
disadvantaged farmers, in order to improve the likelihood that farmers 
and organizations in Navajo Nation will benefit from these programs.
Incentivize aging farmers to prioritize transition planning, and 
        provide training and information for farmers and professionals 
        about farm transition planning.
    According to the 2012 USDA Census of Agriculture, the average age 
of a Navajo farmer/rancher is 58 years old. As Navajo's almost 23,000 
farmers and ranchers age, it is vital to ensure that their farmland 
will be protected for the next generation. Engaging younger generations 
and connecting retiring Navajo farmers to younger Navajo Nation members 
interested in farming can help to preserve traditional farming 
practices and provide younger Navajo farmers with access to farmland. 
Farm Bill programs such as the Transition Incentives Program can assist 
farmers with transitioning land to young and beginning farmers. This 
program provides retiring farmers with additional rental payments on 
land enrolled in the Conservation Reserve Program (CRP) if the farmers 
sell or rent that land to beginning and socially disadvantaged farmers 
and ranchers when the enrollment expires. Altering the terms of this 
program in the next farm bill to lower the experience level required 
for applicants, and to give priority consideration to tribal lands, 
could make this program more accessible to farmers in Navajo Nation.
Additional Goals
  <bullet> Provide loans or grants for the purchase of agricultural 
        equipment, tools, and infrastructure

  <bullet> Promote land transfers to Navajo farmers and beginning 
        farmers

  <bullet> Restore tribal land soil quality in the face of 
        environmental degradation.

    Especially as new and beginning farmers gain access to farmland, 
access to infrastructure such as equipment, tools, and training 
represents an important need. Agricultural infrastructure will also be 
critical as climate patterns shift and weather emergencies become more 
frequent and intense-enhanced agricultural resiliency and 
diversification of crops can help Navajo Nation ensure the future 
integrity of their agricultural sector as a cultural, economic, and 
ecological enterprise. The survival and continued use of traditional 
agricultural methods also represents a cultural priority.
    Getting local and healthy foods to markets within Navajo Nation 
remains a challenge, due to factors such as the vast and rural nature 
of the Nation. There are few grocery stores in Navajo Nation, and the 
grocery and convenience stores often do not carry healthy or 
traditional foods. To address these challenges, advocates in Navajo 
Nation are pursuing solutions that prioritize local food production, 
increase access to healthy food in Navajo Nation, and keep economic 
resources within the tribe. The next Farm Bill can support these local 
efforts by providing funding for the development of processing 
facilities, markets, and transportation in Navajo Nation.
Primary Goals: Support the creation of value-added goods, the 
        development of shared-use commercial kitchens and other food 
        processing facilities.
    Access to food processing infrastructure can play a key role in 
building a sustainable local food system. Processing can allow for more 
local goods to be prepared, which can create local jobs while 
increasing access to local, traditional and less highly-processed 
foods. Yet critical processing infrastructure, such as certified 
kitchens and cold storage, is largely absent. Expanded availability of 
commercial kitchens and other infrastructure could increase local food 
processing capacity in the Navajo Nation. Existing farm bill programs 
such as Value-Added Producer Grants and the Community Foods Project 
program provide funding to support these initiatives. Advocates can 
push for maintenance of such programs in the 2018 Farm Bill, with 
modifications such as set-aside funding for socially disadvantaged 
producers or for projects in tribal communities, in order to increase 
access to these programs in Navajo Nation.
Support the creation and operation of mobile slaughterhouse units.
    As of 2012, there were 23,082 farmers and ranchers in Navajo Nation 
and 71,605 cattle and calves. However, many meat slaughter and 
processing facilities are far from the Navajo Nation, and no 
USDAinspected slaughterhouse on the Nation. Development of a 
slaughterhouse that complies with USDA and state requirements is 
extremely expensive. Mobile Slaughter Units (MSUs), while still 
expensive, are a potential solution for rural producers who want to 
process and sell their meat to local consumers. MSUs can reduce 
transportation costs for farmers and could allow for the use of 
traditional slaughter and processing methods. Farm Bill programs such 
as Value-Added Producer Grants and the Rural Business Development 
Program can be used to study the feasibility of an MSU, and to cover 
planning and equipment costs. Advocating for expanded set-asides for 
socially disadvantaged or tribal applicants, and waiving matching 
requirements for these applicants, could increase the likelihood that a 
project in Navajo Nation could receive funding to develop an MSU.
Additional Goals
  <bullet> Support the formation of agricultural cooperatives and food 
        hubs in Navajo Nation.

  <bullet> Support livestock producers by improving access to risk 
        management.

  <bullet> Modify the Geographically Disadvantaged Farmers and Ranchers 
        Program to better support Navajo Nation.

    COPE gives its full support to tribal leadership and grassroots 
efforts on the Navajo Nation to address these critical issues. We 
appreciate your strong consideration of tribal perspectives as you move 
forward with this legislation.
                                 ______
                                 
 Prepared Statement of Hon. Brandon Yellowbird Stevens, Vice-Chairman, 
                             Oneida Nation
    Dear Chairman Hoeven and Vice Chairman Udall,
    On behalf of the Oneida Nation in the State of Wisconsin, we write 
to submit testimony for the record urging the Senate Committee on 
Indian Affairs to ensure that Indian Country is included in the 
upcoming Farm Bill.
    With Congress considering the Farm Bill this session, we request 
the Senate Committee on Indian Affairs to work closely with the Senate 
Agriculture Committee to address Indian Agriculture in this impmiant 
piece of legislation.
    The Oneida Nation is a federally recognized Indian Tribe with 
approximately 17,000 Oneida citizens. Currently, there are 4,487 Oneida 
citizens living on the Oneida Reservation with the remainder living 
worldwide. The Oneida Indian Reservation was established in 1838 and 
covers nearly 65,400 acres. Although, we own approximately 26,000 of 
those acres, the boundaries of our reservation remain unchanged while 
seven local municipalities overlap onto the reservation. Our Nation is 
originally from upstate New York. After the Revolutionary War, we lost 
nearly 5 million acres of our original homelands to the birth of the 
United States and the state ofNew York. Our people began to relocate to 
Wisconsin. In 1838, the Treaty with the Oneida established the 65,400-
acre Oneida Indian Reservation along Duck Creek. For nearly 200 years, 
we have lived here, a place we now call home.
    The Oneida Nation Farms and Agriculture Center grows 5,000 acres of 
crops which includes traditional cash crops, our traditional white 
corn, raises 450-550 head of feeders, 150 head of grazed cow-calf, and 
177 head of grass-fed bison. Other lands in steep soils (slopes) are 
being used for 30 acres of non-cultivated apple crop productions 
without causing soil erosion and 10 acres are used for production of 
strawberries, raspberries, pumpkins, and squash. The Oneida Nation 
recently established an aquaponics system that will produce between 10-
15,000 heads of lettuce and 800 fish.
    The Oneida Nation has utilized many USDA programs such as Natural 
Resources Conservation Service (NRCS), Environmental Quality Incentive 
Program (EQIP), Conservation Reserve Program (CRP), Conservation 
Stewardship Program (CSP), Agricultural Conservation Easement Program 
(ACEP), Food Distribution Program on Indian Reservations, and Rural 
Development. Each of these programs has been extremely helpful in 
improving the quality oflife for reservation residents.
    Considering the state of agriculture for our community, Oneida 
Nation requests the Senate Committee on Indian Affairs and the Senate 
Agriculture Committee include the following in any legislation 
regarding the Farm Bill:

  <bullet> Tribal Governmental Parity with State and Local Govemments 
        throughout the entire Farm Bill, including access to funding, 
        technical assistance, and other programs.

  <bullet> Tribal Administration of Supplemental Nutritional Assistance 
        Program and all Federal Food Assistance Programs through PL 93-
        638 self-determination contracts.

  <bullet> Expand the Substantially Underserved Trust Area (SUTA) 
        provision across all Rural . Development programs.

    In addition, the Oneida Nation supports the following 
recommendations to be included in any agriculture legislation in this 
Congress.

    Conservation Title

  <bullet> To provide base funding to Tribal Organizations that 
        represent a geographic location that gives a voice to Tribes of 
        Wisconsin on agriculture, food, and conservation issues that 
        are important to Native Americans at the state and national 
        levels like the Wisconsin Tribal Conservation Advisory Council 
        (WTCAC). Tribal Conservation Advisory Councils were first 
        authorized in the 1995 Farm Bill as advisory bodies to NRCS and 
        all of USDA on Tribal issues, and WTCAC was the first such 
        council formed in the country 2001. These Tribal Advisory 
        Councils bring in strong partnerships to the USDA's agencies 
        for reviewing policies, regulations, development new programing 
        and standards.

  <bullet> Create a separate permanent Tribal Technical support fund to 
        ensure that specialized technical assistance is made available 
        to tribal entities, with priority given to organizations such 
        as WTCAC which have an established record of providing 
        technical assistance and the ability to successfully complete 
        conservation programming on Tribal Land.

    Forestry Title

  <bullet> Forest Service (FS) and NRCS language needs parity language 
        to preserve tribal sovereignty and rights to gather and manage 
        traditional plant stands and enhance opportunities for tribes 
        to leverage EQIP on traditional lands.

  <bullet> Under the Farm Bill, all Forestry languages, programs, 
        regulations and standards should also reference the ``Tribes'' 
        where ever refelTing to ``states''. This will improve and 
        expand access to the U.S. Forest Service programming and 
        services.

    Crop Insurance Title

  <bullet> Commodities and Crop Insurance: Improvements in recognizing 
        Tribal Agricultural products such as traditional medicinal 
        plants, maple syrup, honey, hazelnuts, white corn, fish, birch, 
        deer, or other animals and ginseng (to name a few) to be 
        included in all USDA agencies as commodities. Recognition of 
        traditional Tribal products will provide equal opportunity to 
        Tribal members, allowing for technical assistance, risk 
        insurance for crop losses, and wanant low interest loans for 
        tribal agriculture start-ups.

    Miscellaneous

  <bullet> The Farm Bill should enable additional research and pilot 
        projects to help plow the path between USDA and US Drug 
        Enforcement Agency to advance legal cultivation, harvest, and 
        use and sale of industrial hemp (with low concentrations 
        ofTHC), authorized at the federal, state, and local level. 
        Through this action, Tribes can refine or offer products for a 
        variety of commercial items including paper, textiles, 
        clothing, biodegradable plastics, paint, insulation, biofuel, 
        food, and animal feed.

  <bullet> Recommend a standardization of definition of language across 
        USDA agencies. Standardization might include defined factors 
        such as plant vigor, healthy plants, and healthy fish as 
        examples. Language that defines the policies, procedures and 
        regulations in the 2018 Farm Bill needs to provide equal 
        opportunity to traditional native agricultural producers. For 
        example: NRCS definition of a field is based on the concept of 
        production, which does not consider Tribal Aquaponics projects, 
        while Farm Services field does include Tribal Aquaponics 
        projects and the Aquaponics growth area is considered a field.

    The Oneida Nation supports many of the recommendations provided by 
the Native Farm Bill Coalition.
    Thank you for the opportunity to comment on the importance of the 
Farm Bill in Indian Country, where agriculture can have both economic 
impacts and cultural significance. We look forward to continuing to 
work with the Committee to protect, expand, and enhance Indian 
Agriculture.
                                 ______
                                 
  Prepared Statement of Hon. Robert Valencia, Chairman, Pascua Yaqui 
                                 Tribe
    Dear Chairman Hoeven and Vice Chairman Udall,
    On behalf of the Pascua Yaqui Tribe of Arizona, we write to submit 
testimony for the record urging the Senate Committee on Indian Affairs 
to ensure that Indian Country is included in the upcoming Farm Bill.
    With Congress considering the Farm Bill this session, we request 
the Senate Committee on Indian Affairs work closely with the Senate 
Agriculture Committee to address Indian Agriculture in this important 
piece of legislation.
    The Pascua Yaqui Tribe is a sovereign nation located in Arizona. 
The Tribe has a reservation southwest ofTucson, with an on-reservation 
population of about five-thousand members. The total population of the 
Tribe is 22,000 enrolled members. In addition to the Reservation, which 
comprises 2,216 acres, the Tribe also has several predominantly Pascua 
Yaqui communities off of the reservation throughout southern and 
central Arizona. These communities predate the Tribe's Federal 
Recognition in 1978, and the designation of the Reservation at that 
same time. While not trust lands, these Pascua Yaqui communities are 
home to tribal members for whom the Tribe provides services, including 
housing, health care, and various other costly services and programs.
    The importance ofthe Nutrition Title programs in Indian Country 
cannot be overstated. The Supplemental Nutrition Assistance Program 
(SNAP) provides benefits to 24 percent of American Indian and Alaska 
Native households and that percentage is even higher at the Pascua 
Yaqui Tribe, with 49 percent of households receiving SNAP. This 
percentage is four times higher than other residents of the State of 
Arizona.
    Tribes' higher participation rates in the nutrition programs hinge 
on limited meaningful employment opportunities, poor transportation 
options to food sources or food retail, lack of food retail locations 
in tribal communities, the age and population characteristics of the 
individuals in the communities, and the prevalence of chronic health 
problems, among other issues. Because the rates of obesity, diabetes, 
chronic heart disease, cancer, and other health problems are so high in 
so many communities in Indian Country, participation rates in the 
nutrition programs coupled with the prevalence of persistent poverty 
create a fragile system of food access across Indian Country. A 
consistent, comprehensive, and tribal-led approach that is tailored to 
Indian Country's needs is paramount.
    Any cuts or changes to reduce direct participation in the programs 
diminish the food, and in some cases the only meals, available to 
Native children, pregnant women, elders, and veterans. No one, 
especially our most vulnerable tribal citizens, should ever have to go 
without food. Tribal governments have consistently sought the authority 
to take over the administration of federal food assistance programs 
like SNAP, which they currently cannot run, to not only improve food 
access and efficiency of the programs, but to further tribal self-
governance and serve the unique needs of their citizens and 
communities.
    The Pascua Yaqui Tribe requests the Senate Committee on Indian 
Affairs and the Senate Agriculture Committee include the following in 
any legislation regarding the Farm Bill:

  <bullet> Tribal Governmental Parity with State and Local Governments 
        throughout the entire Farm Bill;

  <bullet> Tribal Administration of the SNAP and all Federal Food 
        Assistance Programs through 638 Contracts; and

  <bullet> Expansion ofthe Substantially Underserved Trust Area (SUTA) 
        provision across all Rural Development programs.

    In addition, the Pascua Yaqui Tribe supports the following 
recommendations to be included in any agriculture legislation in this 
Congress.
Conservation Title
  <bullet> Create a new section of the Conservation Title or in 
        sections related to eligibility determinations to ensure that 
        lands held in common, such as reservation lands that are 
        controlled and farmed/ranched by groups of individuals, can 
        participate in all Conservation Title programs and that special 
        provisions are enacted in regulations to ensure that any tribal 
        government-allowed entity is the recognized conservation 
        program participant (as opposed to specific individuals).

  <bullet> Amend any reference to ``state law'' in the Conservation 
        Title to say ``state law or tribal law'' and any reference to 
        ``state technical committee'' to ``state technical committee or 
        tribal technical committee.''

  <bullet> Include a provision in all sections of the Conservation 
        Title allowing tribal governments, tribal producers, and tribal 
        entities or organizations created for conservation and natural 
        resource protection purposes to have full access to every 
        program allowed under the Conservation Title. Wherever 
        reference is made to ``state'' or ``local'' or ``regional'' 
        agricultural producer, the terms ``tribal'' should be inserted 
        into that section to ensure that inadvertent failure to list 
        tribal governments, tribal producers, or tribal organizations 
        does not preclude them from participating or relegate them to a 
        lesser importance or priority within the relevant section.
Nutrition Title
Tribal Administration of the SNAP and All Federal Food Assistance 
        Programs
  <bullet> Provide tribal governments and tribal organizations the 
        direct authority to administer SNAP and all other federal food 
        assistance programs which they are currently not allowed to 
        directly manage. This can be achieved by providing tribes with 
        ``638'' selfgovernance contract authority for nutrition 
        programs which exists for Department of the Interior and Indian 
        Health Service programs. Allowing tribes to take over these 
        functions from the federal government will improve efficiency, 
        reduce regulatory burdens, and support tribal self-governance 
        and self-determination.
Improvements to the FDPIR and Other Federal Feeding Programs
  <bullet> Since 2015, several tribal leaders have consulted with the 
        USDA Food and Nutrition Service (FNS) over significant 
        improvements needed to FDPIR. While tribes have made some 
        headway with USDA, significant legislative changes, including 
        those listed below, still need to occur within the FDPIR 
        program.

        --Eliminating the matching funds requirement for each of the 
        FDPIR program sites to participate, or limiting the matching 
        requirement to 5 percent.
        --Providing tribal feeding sites with parity to state 
        counterpart programs by allowing them to engage in carryover of 
        unspent funds from year to year. This unequal treatment is 
        problematic to tribal feeding programs whose funding needs, 
        particularly for food distribution infrastructure (e.g., 
        warehouses), could be met by allowing carryover funding.
        --Requiring FNS to continue to engage in tribal consultation.
        --Requiring FNS to engage in tribal consultation concerning 
        reasonable alternatives to the regulatory-approved practice of 
        ``tailgating'' at FDPIR program sites. No FDPIR program site 
        should be allowed to engage in this demeaning practice.
        --Requiring FNS to consult with tribes and develop a written, 
        public contingency plan in the event of any lapses in funding, 
        disasters, government closures, or related incidents that might 
        interrupt or cause the stoppage of food delivery.
        --Allowing those who participate in FDPIR to also 
        simultaneously participate in SNAP. Neither program provides 
        enough food for participants in remote places; by allowing 
        simultaneous usage of the programs these two supplemental 
        feeding programs can be combined to actually result in 
        addressing food insecurity.
        --Requiring FNS to hire at least one national tribal liaison 
        located in its Washington, D.C., offices and one regional 
        tribal liaison located in each regional FNS office subject to a 
        federal Native American hiring preference or high levels of 
        experience with tribal communities.
        --Increase nutrition education funding to at least $5 million 
        per year and create an alternative to competitive funding so 
        each tribal program receives support for nutrition education 
        program materials through a coordinated approach.
        --Requiring FDPIR traditional food purchases (bison, wild rice, 
        salmon, blue com, and other products) to be a regular part of 
        food package purchases and not require supplemental or special 
        appropriations to purchase these foods.
Rural Development Title
  <bullet> Ensure access to funds for feasibility studies, business 
        plans, and strategic planning for energy development by 
        amending the Rural Cooperative Development Grant Program to 
        authorize rural tribes to apply.
Energy Title
  <bullet> Amend the Rural Energy for America Program to authorize 
        grants and loans to tribally owned enterprises for renewable 
        energy and energy efficiency improvements.

  <bullet> Amend 6407 of the 2002 Farm Bill, 7 USC 81 07a, to include 
        tribes as eligible entities for the rural energy savings 
        program.

  <bullet> Amend the Rural Economic Development Loan and Grant Program, 
        authorized under 7 USC 1932, to include tribes as eligible 
        intermediaries.
Miscellaneous
Fully Fund the Office of Tribal Relations at USDA
  <bullet> Fund the Office of Tribal Relations (OTR) at a minimum of 
        $1.5 million, because insufficient funding limits OTR's ability 
        to provide the programs, technical assistance, content, and 
        even basic communications to tribes and tribal producers 
        regarding USDA's education and training programs. Adequate 
        funding is essential to carrying out OTR duties, including the 
        oversight of all USDA tribal consultation.
Tax Credits or other Tax Incentives for Buying Indian Food and 
        Agriculture Products
  <bullet> The 2018 Farm Bill should create a new ``Buy Indian'' tax 
        credit or other tax incentive to encourage consumers and those 
        within the food supply chain to buy American Indian and Alaska 
        Native food products. This will not only help Native food 
        products in the supply chain, it will also provide incentive 
        for distributors, retailers, and related food purchasers to 
        examine Native food product purchases to meet their food supply 
        needs.
Recognize Tribal Departments of Food and Agriculture
  <bullet> Permanently recognize and incorporate Tribal Departments 
        charged with administration of Agriculture and Food Systems 
        into the ongoing interface of all agencies within USDA and the 
        Office of Intergovernmental Affairs at USDA with other offices 
        of government.
Country of Origin Labeling and Beef Checkoff
  <bullet> Reinstate Country of Origin Labeling and create a set-aside 
        within the Beef Checkoff funds that is devoted to the marketing 
        and promotion of Native American Beef.
Education, Training and Scholarship Programs to Support Native 
        Producers and Scientists
  <bullet> Develop a new program that focuses on educating and training 
        the tribal agriculture labor force, provides key scholarships 
        to Native producers, and encourages Native scholars and 
        scientists to focus on food and agriculture. USDA currently has 
        multiple internship, scholarship, mentoring, and other programs 
        focused on increasing the diversity of American agriculture by 
        educating the next generation of tribal leaders in food and 
        agriculture. However, Native representation is low, and 
        outreach to Native communities is weak. A Native scholarship 
        program should be adequately funded and coordinated throughout 
        the land grant system. A minimum of$10 million is needed to 
        adequately endow a centralized scholarship fund for Native 
        youth and scholars. This program should be managed by the 
        Office of Tribal Relations and any new Office of Tribal 
        Agriculture.
Maintain and Fund the Intertribal Technical Assistance Network
  <bullet> Permanently maintain and fund the Intertribal Technical 
        Assistance Network, which has been in place for more than five 
        years through a cooperative agreement between USDA and the 
        Intertribal Agriculture Council, through contributions from 
        each of the agencies and offices of USDA. This effort should be 
        funded at least $3 million annually, and it must continue to 
        maintain regional offices in each of the 12 BIA regions to 
        ensure access for all Native producers.
OAO Outreaclt and Internships for Native Students
  <bullet> Require the USDA Office of Advocacy and Outreach (OAO) to 
        fund internships for Native students at a level equal to the 
        number of internships the office supports for any other 
        socially disadvantaged group (e.g., Hispanic, African American, 
        Asian American, women, etc.). The OAO has been inconsistent in 
        funding these internships for Native students, and they should 
        be required to do so if they fund members of other groups. The 
        Tribal Liaison position within the OAO that focuses on the 
        relationship between the American Indian Higher Education 
        Consortium (AIHEC) and USDA (and staffs the joint leadership 
        council of AIHEC and USDA officials) should be moved to the 
        Office of Tribal Relations.
Tribal Representation on All Federal Advisory Committees
  <bullet> Require USDA to recruit and appoint tribal citizens to each 
        ofthe more than 100 federal advisory committees it seats and 
        supports. In addition, the Council for Native American Farming 
        and Ranching should receive funding to support its work, and it 
        should become a permanent F ACA advising the Secretary and 
        USDA.
Weather Reporting Stations
  <bullet> USDA should be required to work alongside other relevant 
        federal departments to ensure that weather reporting systems 
        and stations are located on tribal lands and individual Indian-
        owned lands throughout the U.S., because the gathering of that 
        information is vital to predicting production yields and 
        assessing disaster impacts, among other weatherrelated needs. 
        Currently, very few weather reporting stations are located on 
        tribal lands, and USDA should take the lead in working with 
        other departments to ensure this is addressed.
Buy Indian and Indian Preference for USDA Food Purchasing
  <bullet> Amend the language that controls USDA contracting and 
        procurement, including the language that controls the 
        procurement of food, to not only recognize and support a ``Buy 
        Indian'' provision, but also allow an ``Indian preference'' 
        particularly when USDA is purchasing any product, including 
        food, being utilized by Native people within their communities 
        (such as food in the commodity food programs, like the Food 
        Distribution Program on Indian Reservations).

    The Pascua Yaqui Tribe has already demonstrated its ability to 
effectively manage businesses and federal programs. We run two 
successful casinos, run a business assisting tribes with developing 
their own Enhanced Tribal Identification Cards, and have run our own 
successful health clinic for more than two decades. The Pascua Yaqui 
Tribe, with its demonstrated history of good governance, should be 
provided an opportunity to administer the food benefits programs. We 
appreciate the opportunity to tell you about the provisions of the Farm 
Bill that are important to the Pascua Yaqui Tribe.
                                 ______
                                 
 Prepared Statement of Hon. Jefferson Keel, President, Chickasaw Nation
    Dear Chairman Hoeven and Vice Chairman Udall:
    On behalf of the National Congress of American Indians (NCAI), the 
oldest, largest, and most representative organization of American 
Indian and Alaska Native tribal governments, we write to submit 
testimony requesting that the Committee on Indian Affairs work with the 
Committee on Agriculture, Nutrition and Forestry to include Indian 
Country's priorities in the next Farm Bill. For far too long, tribal 
governments, tribal producers and Native people have been left out of 
the Farm Bill. Because of this, Indian Country's agriculture, 
nutrition, conservation and forestry have not yet met their full 
potential. This Farm Bill is the perfect opportunity to include Indian 
Country so that all of America can benefit from this very important 
piece of legislation.
    Agriculture is a major economic factor for rural tribal 
communities. The 2012 Census of Agriculture conducted by the National 
Agricultural Statistics Service (NASS) \1\ noted that Indian Country 
has:

    \1\ NASS has acknowledged that this data is substantially 
undercounted and the economic impact is likely much greater than $3.2 
billion.
---------------------------------------------------------------------------
  <bullet> 56,000 American Indian and Alaska Native Farmers and 
        Ranchers;

  <bullet> Over $3.2 billion market value of products; and

  <bullet> $1.4 billion in crops and $1.8 billion in livestock and 
        poultry.

    The Farm Bill reaches many aspects of life in rural America, and in 
Indian Country as well. Native farmers and ranchers are most directly 
impacted by this piece of legislation. Tribal governments have been 
left out of the Farm Bill, excluding them from critical programs that 
would improve their communities. In this Farm Bill, we ask Congress to 
ensure Indian Country has access to all USDA has to offer. This is the 
time for us to work together to ensure the Farm Bill helps all 
Americans.
    NCAI asks the Committee on Indian Affairs and the Agriculture, 
Nutrition and Forestry Committee to include the following principles in 
the next Farm Bill:

  <bullet> Recognizing Tribal Government Parity;

  <bullet> Allowing Tribes greater access to Rural Development 
        Programs;

  <bullet> Improving Credit Access in Indian Country;

  <bullet> Promoting Traditional Native Foods and recognizing 
        Traditional Ecological Knowledge; and

  <bullet> Improving Interdepartmental coordination between USDA and 
        Interior.

    These principles and the recommendations listed below do not create 
new costs to the Federal Government. In fact, many of the 
recommendations are simply allowing Tribes better access to USDA 
programs.
Tribal Governmental Parity
    Tribal Nations are governments recognized by the United States 
Constitution. The Commerce Clause (Article I, Section 8) grants 
Congress the power ``to regulate commerce with foreign nations, and 
among the several states, and with the Indian tribes.'' Tribes are 
governments, just as states and foreign nations are. To date, the Farm 
Bill has promoted agriculture and food production for the states 
(through all titles) and with foreign nations (through the Trade 
title). Now is the time to acknowledge Tribal Nation's governmental 
parity in all titles of the Farm Bill.
    Congress can uphold tribal government parity by including ``Tribal 
governments'' in all references to ``State and local governments.'' By 
doing so, Congress will ensure that Tribal Governments have the same 
opportunities and engagement with USDA. Tribes have been left out of 
the agricultural progress that the rest of America has experienced. By 
including Tribal Governments in all lists of governments in the Farm 
Bill, Tribes can find self-determined outcomes to promote agriculture 
in their communities. Including Tribal Governments in the Farm Bill in 
this way will support local, smaller governments and remove 
bureaucratic hurdles for rural Americans.
    Specifically, we ask that Congress include the following provisions 
for tribal governmental parity in the Farm Bill:
    Recognize Tribal Departments of Food and Agriculture. Tribal 
Departments charged with administration of agriculture and food systems 
by their Tribal government must have the authority to interface with 
all agencies within USDA and the Office of Intergovernmental Affairs at 
USDA. This would include full treatment as a state for Tribal 
governments thus recognizing their tribal laws, authority, and 
jurisdiction. This would uphold the Government-to-Government 
relationship between tribal Nations and the federal government (USDA) 
Title: Across all Farm Bill titles/miscellaneous
    Tribal Government Management of All Nutrition and Food Assistance 
Programs. Extend 638 contracting authority to USDA Food Assistance 
Programs, programs like the Supplemental Nutrition Assistance Program 
(SNAP) and the Food Distribution Program and the Food Distribution 
Program on Indian Reservations (FDPIR). Local tribal governments will 
be able to more efficiently and better serve their citizens. 638 
authority through Health and Human Services and the Department of the 
Interior (DOI) have shown to be an extremely successful way to deliver 
federal programs in Indian Country. This successful model should be 
extended to USDA Nutrition programs. The devolution of federal funds 
and service delivery allows Tribal governments increased programmatic 
and administrative responsibility and minimizes federal reporting 
burdens, monitoring, and oversight. Smaller, more local solutions are 
needed in USDA Nutrition programs and Tribes know how to deliver those 
programs for the benefit of their communities.
    For years, NCAI has called on Congress to fully fund the Nutrition 
title and its programs. Native people utilize many Nutrition title 
programs including SNAP, the Restaurant Meals Program; Nutrition 
Education and Obesity Prevention Grant Program; the Food Distribution 
Program on Indian Reservations (FDPIR); the Emergency Food Assistance 
Program; the Commodity Supplemental Food Program; the Senior Farmers 
Market Nutrition Program; the Fresh Fruit and Vegetable Program; the 
Food Insecurity Nutrition Incentive Program; the Healthy Food Financing 
Initiative; and the Agriculture Service Learning Program. Again, we ask 
that Congress fully fund these critical programs. Title: Nutrition
    Recognize Tribal Governments and Tribal Law in the Conservation 
Title. All sections of the Conservation Title should recognize that 
tribal governments, tribal producers, and tribal entities or 
organizations created for conservation and natural resource protection 
purposes have full access to every program. Wherever there is a 
reference to ``state'' or ``local'' or ``regional'' agricultural 
producer, the terms ``tribal'' should be inserted into that section to 
ensure that any inadvertent failure to list tribal governments, tribal 
producers, or tribal organizations does not preclude them from 
participating or relegate them to a lesser importance or priority 
within the relevant section. Congress should ensure that any reference 
to ``state law'' in the Conservation Title reads ``state law or tribal 
law.'' This will acknowledge the conservation laws and codes of Tribal 
Governments and will allow Tribal Governments to enforce their laws 
over the lands which they have jurisdiction. Title: Conservation
    Governmental Parity within Forest Service Programs and Authorities. 
Extending the Good Neighbor Authority to include Tribal governments, 
just as it does to state government and specifically including Tribes 
in the title of the State and Private Forestry Program will ensure that 
the Forest Service works with tribal governments. Partnering together, 
in a cooperative manner, to manage the nation's forests and tribal 
forests alongside other state and local governments and private 
landowners is critical to helping our forestlands recover from wildfire 
and become healthier. Title: Forestry
    Recognize Tribal Law for Supplemental Agricultural Disaster 
Assistance Programs. Section 1501(a)(1)(B)(iv) should be amended to 
read: ``a corporation, limited liability corporation, or other farm 
organizational structure organized under Federal, State law and Tribal 
law.'' The Federal Emergency Management Agency (FEMA) acknowledges 
Tribal law by allowing Tribal Governments to issue Tribal Disaster 
Declarations, just as States do. \2\ Agricultural Disaster Assistance 
should be consistent with other Federal disaster protocols in Indian 
Country, like FEMA. This addition creates parity for tribal governments 
and acknowledges the authority of entities organized under tribal law 
or under federal law such as Section 17 corporations. Update the 
livestock definition in Section 1501(a)(3) to include other commonly 
raised livestock like ``reindeer,'' ``caribou,'' ``elk,'' ``horses,'' 
or other animals raised or harvested in tribal communities.
---------------------------------------------------------------------------
    \2\ Sandy Recovery Improvement Act of 2013. https://www.fema.gov/
blog/2013-01-31/changing-laws-better-recognizing-tribal-sovereignty
---------------------------------------------------------------------------
    All of these animals must be further recognized as a livestock and 
eligible for full protection and program participation Department-wide. 
Title: Commodities
    Tribal Inclusion in the Specialty Crop Block Grant Program. Change 
the Specialty Crop Block Grant Program to ensure that tribal 
departments of food and agriculture are eligible for funding under this 
important program and that tribal projects are not required to go 
through state funding mechanisms at state departments of agriculture to 
receive support. This program is critical to the growth of this sector 
in Indian Country, and tribal sovereignty should be respected by 
allowing these new departments to receive funding parity. Title: 
Horticulture and Specialty Crops
    Parity Between Forest Services and NRCS Land Language. Create 
parity between Forest Service management agreement language and Natural 
Resources Conservation Service determination of land control language 
to preserve tribal sovereignty and rights to gather/manage traditional 
plant stands and enhance opportunities for tribes to leverage 
Environmental Quality Incentives Program (EQIP) assistance on 
traditional lands under Forest Service jurisdiction. Title: 
Conservation and Forestry
Rural Development
    Indian Country by nature is mostly rural and disproportionately 
lacks the infrastructure that more urban areas enjoy. The Rural 
Development title of the Farm Bill was intended to bring this much 
needed infrastructure to rural communities. Now is the time to bring 
the Rural Development title to Indian Country.
    With more than 100 million acres of tribal lands and individual 
Indian owned land, located in primarily rural areas across 34 states, 
Rural Development (RD) Title programs and funding are vitally important 
to tribal governments, communities, individual Indian producers, and 
tribal businesses. In fact, the RD grant and loan programs are 
sometimes the only option tribes and their neighboring communities have 
for building new infrastructure or updating antiquated systems 
essential to spur and sustain economic development and growth in their 
rural communities. However, there are still issues with accessing and 
funding RD programs.
    Congress can improve Rural Development in Indian Country by 
including the following recommendations in the Farm Bill.
    Implement SUTA Provisions Throughout all Rural Development 
Programs. Further broaden the Substantially Underserved Trust Area 
(SUTA) provision across all RD programs. Currently, SUTA is only 
applied to a small segment of infrastructure programs at the Rural 
Utility Service, but Congress must allow the Secretary to exercise this 
discretion more broadly. This change will help ensure more equitable 
access to RD programs and authorities, and can be used to provide much-
needed support to tribal citizens living in rural communities. The 
change would, among other things, allow the waiver of matching 
requirements for projects funded through RD, which can be a significant 
barrier to socially disadvantaged applicant participation in RD 
business and infrastructure projects. Title: Rural Development
    Rural Development Tribal Set-Aside. Provide a tribal set-aside in 
either terms of percentage of the funding portfolio or a specific 
funding level for tribal applications within each of the RD program 
authorities to address the inadequacy and general lack of rural 
infrastructure in Indian Country. The trust responsibility of the 
federal government to tribes provides the broad foundation for such 
set-aside. In some locations, tribal governments have taken over the 
management of key infrastructure (such as water systems, electric, and 
other utilities) because there is no other governmental entity that can 
handle these functions. Title: Rural Development
    Expand Tribal Access to the Rural Community Development Initiative 
Grants. Tribal Nations have been greatly underserved in rural 
development, and the Rural Community Development Initiative Grants are 
the gateway to all Rural Development funding. Tribal planning processes 
tend to be siloed into grant-driven programs for housing and 
transportation. Tribes need more resources to integrate planning for 
economic development and jobs, agriculture and natural resources, and 
broad-scale planning for the future needs of tribal communities. Rural 
Development planning is especially important currently, with the need 
to implement the Indian Trust Asset Management Reform Act, to plan 
water development, with the FirstNet broadband project, tribes need 
planning before they can access the benefits. The federal government 
last supported comprehensive planning in Indian Country in the 1980's, 
but those planning efforts must be updated for a new era. Title: Rural 
Development
    Establish a Permanent Rural Development Tribal Technical Assistance 
Office. Establish a permanent office providing technical assistance 
across all RD funding authorities via a cooperative agreement with 
USDA. The complexities of lending and infrastructure establishment in 
Indian Country call for the establishment of such an office that can 
prepare and monitor lessons learned, establish user friendly 
application systems, and assist staff at the tribal or business level 
in preparing applications. The trust responsibility of the federal 
government to tribes supports the need to establish such assistance 
interventions. RD has field staff that assist agency staff and the 
applicant in analyzing financial viability, key engineering 
specifications, and related technical requirements for more complex 
infrastructure projects. Title: Rural Development
    Maintain the Under Secretary for Rural Development Position. 
Maintain an Under Secretary for Rural Development in the 2018 Farm Bill 
and all additional sequent legislation and appropriations packages. 
Having an Under Secretary whose primary duties are to focus on RD 
programs and funding is critical for Indian Country and rural America. 
Any changes that would impact the Under Secretary role for Rural 
Development must be the subject of tribal consultation. Title: Rural 
Development
    Uplift America by Supporting CDFIs Loan Authority. Develop a 
process to allow small, new and emerging Community Development 
Financial Institutions (CDFIs) access to loan authority. The concept of 
batching and obligating all loan guarantee authority annually is a game 
changer. The requirements put upon CDFIs to participate in this 
endeavor are patently prohibitive. Only the largest CDFIs could secure 
any meaningful funding levels, and some had threatened litigation to do 
that. Title: Rural Development
    Extend Rural Electric Loan and Grant Program Authority to CDFIs. 
Rural electric cooperatives are uniquely poised to be economic 
development drivers in their communities. Often, they choose not to 
avail themselves of this opportunity. In cases where a rural electric 
cooperative chooses not to participate in this program in the past, 
local CDFIs should have the opportunity to carry out the function. 
Title: Rural Development
    Maintain Rural Water Program Funding. Rural water and wastewater 
systems are essential to community support and economic growth in 
Indian Country. Tribal governments, individual Indian producers, 
reservations, and remote and isolated communities will be severely 
undercut in the protection and growth of their food systems and their 
ability to access markets for their food products if access to funding 
for rural water systems is lost or diminished. This is a matter of food 
insecurity and economic and environmental justice. Title: Rural 
Development
Improving Credit Access in Indian Country
    Due to the capital-intense nature of farming and ranching and 
agribusiness in general, many titles work together to address the 
financial issues surrounding agriculture: credit, commodity, 
conservation, and crop insurance. Farming, ranching, and agribusiness 
are high-risk enterprises. Having access to a lending entity willing to 
understand these financial realities is critical. During turbulent 
times, Indian Country is always hit as hard or harder than most other 
areas of the country because of the remote and isolated nature of our 
farms, ranches, and agribusinesses and the reality that in most 
reservation communities a ``credit desert'' exists alongside food 
deserts.
    Congress can improve credit access in Indian Country by including 
the following recommendations in the Farm Bill.
    Structuring Loans to Suit the Business. Authorize several 
innovative loan structuring measures in the 2018 Farm Bill. For 
example, currently FSA will lend 100 percent of the cost of bred 
livestock. It will then subordinate its lien position to a local 
commercial lender for annual production costs, increasing the amount of 
debt secured by the same amount of assets, sometimes by as much as 25 
percent. If the first year of operating expenses could be included in 
the original loan, and amortized over the life of the secured asset, 
producers would end the year with cash in the bank, allowing producers 
to take advantage of pricing opportunities on input materials, 
replacement stock, or expansion opportunities. Such an approach would 
incentivize operating from available resources, instead of what could 
be borrowed on an annual basis. Title: Credit
    Debt Restructuring for FSA Planning Prices. When commodity price 
cycles run contrary to the mandated FSA Planning Prices, despite a 
producer's inclination to plan conservatively, producers are often 
faced with choice of accepting a plan based on those planning prices or 
shutting down their operation. In cases that FSA planning prices are 
more than 20 percent higher than the actual prices, a producer should 
be able to restructure their debt in a way that will not count towards 
lifetime limits on loan servicing. Title: Credit
    Socially Disadvantaged Interest Rate. Update the Socially 
Disadvantaged Rate (SDR) interest rate for FSA loans from a static 
number (currently 5 percent) to be indexed to the prevailing rate and 
set a commensurate proportion of that rate, 50 percent of the standard 
rate. The current rate was set years ago when the prevailing interest 
rate was in the double digits and should already have been revisited 
and revised. Title: Credit
    FSA Food Loan Authority. Under current program guidelines there is 
some latitude for producers whose production will take a period to 
fully ramp up. Initial payments can be made at an 18-month mark rather 
than within the first year. This same methodology should be employed 
for producers wishing to take their raw product to the next step in the 
value chain. Title: Credit
    Remove the Requirement for Private Credit Denial. Explicitly exempt 
tribal producers from the FSA requirement of obtaining three denial 
letters from private credit sources in order to participate in an FSA 
loan program. The general lack of private lending available in Indian 
Country renders the requirement onerous and unduly burdensome. Title: 
Credit
    Parity for Indian Country Agriculture Production. With over 50 
percent of the $3.4 billion Indian Agriculture Industry being comprised 
of cattle, it is critical to ensure that risk management products be 
designed to meet the needs. Currently there are few options available; 
and those that do exist require up-front premium payments (LFP, LRP). 
Simply changing the timing of premium payment to coincide with 
production would ease the burden of participation for Indian Producers. 
Increasing the federal subsidy rate for this type of programs has also 
been demonstrated to incentive participation and mitigates federal 
outlay in times of disaster. Title: Crop Insurance
Support Traditional Native Foods and Traditional Ecological Knowledge
    Native people have always put food on their tables. Native 
traditional foods have been a part of our culture for millennia. 
Returning to traditional Native foods will lead to healthier Native 
populations, leading to less healthcare costs and to more tribal self-
determination through food sovereignty. Traditional foods also have the 
potential for breaking into new markets leading to further economic 
development in Indian Country.
    Native people have always been tied to their land. Native people 
were the first Americans to carry out conservation practices. The U.S. 
Fish and Wildlife Service defines Traditional Ecological Knowledge as 
``the evolving knowledge acquired by indigenous and local peoples over 
hundreds or thousands of years through direct contact with the 
environment. \3\'' USFWS continues ``although the collection of TEK is 
not government-to-government consultation, TEK is one way federal 
employees can honor the federal trust responsibility to tribes with 
regard to resources of mutual interest.'' Traditional Ecological 
Knowledge should be recognized in the Conservation title to allow 
tribal knowledge to better inform conservation practices.
---------------------------------------------------------------------------
    \3\ U.S. Fish and Wildlife Service, Traditional Ecological 
Knowledge for Application by Service Scientists Fact Sheet- https://
www.fws.gov/nativeamerican/pdf/tek-fact-sheet.pdf
---------------------------------------------------------------------------
    Supporting traditional foods and traditional ecological knowledge 
can take place in many titles of the Farm Bill: nutrition, research, 
horticulture, crop insurance, trade and, conservation. Congress can 
support Traditional Foods and recognize Traditional Ecological 
Knowledge by including the following recommendations in the Farm Bill.
    Require the Food Distribution Program on Indian Reservations to 
purchase traditional foods. Requiring FDPIR traditional food purchases 
(bison, wild rice, salmon, blue corn, and other products) to be a 
regular part of food package purchases and not require supplemental or 
special appropriations to purchase these foods. This will lead to 
healthier food distributions while also promoting business development 
through agriculture on tribal lands. Title: Nutrition
    Agricultural Research Service Projects on Traditional Ecological 
Knowledge. Launch and support a significant number of research projects 
within the Agricultural Research Service that focus on the important 
role that traditional knowledge plays in the environmental, natural 
resource, ecological, food science, nutrition, and health arenas. 
Funding provided in these unique content areas must be done with full 
consultation with tribal governments and full compliance with modern 
cultural practices and recognition. Title: Research
    Protecting Native Foods in the Marketplace. Require USDA to work 
with tribal governments, tribal organizations, and tribal producers to 
develop programs that are designed to protect the integrity of Native 
food products from fraudulent versions of their foods in the 
marketplace. The federal trust relationship requires that USDA work 
with tribal governments, tribal food companies, and tribal food 
producers to ensure that market regulatory mechanisms can be used to 
augment the ability and inherent legal authority of tribes to protect 
their unique food products. This can be done through geographic 
intellectual property mechanisms put in place by tribal governments to 
protect unique tribal foods or other appropriate legal mechanisms that 
must receive recognition by the federal government. These processes for 
protection should be fully supported and recognized by USDA. Title: 
Horticulture
    Protect Tribal Seeds and Traditional Foods. Require the USDA to 
take steps, after tribal consultation, to ensure that tribal seeds are 
given the maximum protection available under federal law and not 
allowed to be accessed for commercialized purposes without the consent 
of tribal governments. Seeds of traditional foods are among the most 
sacred items to Indigenous peoples and the protection of those seeds, 
not only as food sources but as important cultural systems, must be 
required. Title: Horticulture
    Development of Crop Insurance for Traditional Foods and Livestock. 
Encourage RMA to develop a unique crop insurance policy product 
designed to cover the production systems associated with tribal food 
product, tribal livestock, and traditional food systems. The production 
systems associated with such products should be recognized as Good 
Agricultural Practices (GAPs), and tribal producers should also be 
afforded the same opportunity to pay premiums upon the sale of the crop 
or livestock instead of making an upfront payment. Title: Crop 
Insurance
    Expand Market Access Program (MAP). Expand MAP by substantially 
increasing the funding available to the existing agreements that 
facilitate coordination and administration of the MAP program and 
result in increasing tribal food business participation in the program 
so that tribal audiences and more tribal food and agriculture 
businesses can benefit from the program. The impact of such engagement 
will further solidify local food economies and food businesses and 
stabilize tribal economies. Title: Trade
    Tribal Representatives on US Trade Missions. Include tribal 
governments, tribal food businesses, and individual tribal food 
producers on all foreign trade missions undertaken by the United States 
to further assist the access of tribal food products to such markets. 
Title: Trade
    Supporting Unique Tribal Foods and Fighting Native Food Fraud. 
Require the U.S. Department of Agriculture (USDA) to institute a system 
by which fraudulent foods that mimic tribal foods and tribal food 
businesses can be uncovered and prevented in the marketplace. Food 
fraud is on the rise throughout the world, and unscrupulous food 
business entities are already trying to mimic or replicate unique 
tribal food products. Those businesses should not be allowed to 
participate in programs that allow them to access markets with products 
that perpetrate frauds on tribal food producers or food businesses. 
Title: Trade
    Recognition of Traditional Ecological Knowledge-Based Conservation. 
Develop a new section of the Conservation Title to explicitly allow a 
tribe or a group of tribes within a state or region to develop 
traditional ecological knowledge-based technical standards that will 
control the implementation of all conservation projects allowed under 
the Farm Bill. This new section would codify current NRCS practices 
that encourage traditional ecological knowledge-based conservation and 
would further recognize the fact that tribal jurisdiction and use of 
traditional practices to improve conservation project implementation 
are decisions best left to the tribal governments and individual Indian 
producers who live on those lands. These traditional ecological 
knowledge-based standards already have a solid scientific basis and are 
acknowledged by various federal research organizations and agencies. 
Title: Conservation
    Tribal Technical Committee. Require each state conservationist to 
establish a separate tribal technical committee should any tribal 
headquarters exist within their state boundaries or any land under the 
jurisdiction of tribal governments or the BIA. These tribal technical 
committees should be given the same respect and deference that is 
currently given to the state technical committee and each tribal 
technical committee shall be able to establish separate technical 
standards utilizing traditional ecological knowledge and, to the extent 
that they do so, such standards shall be the technical standards under 
which conservation programming can be deployed on tribal lands. Require 
establishment of state level inter-tribal, regional inter-tribal and 
national tribal advisory committees regarding conservation matters. 
Title: Conservation
    Traditional Ecological Knowledge Consideration for Conservation 
Compliance. Consider traditional ecological knowledge whenever the 
Secretary determines the level of compliance of landowners who have 
lands or resources enrolled in any of the Conservation Title programs, 
particularly when determining whether a meaningful stewardship 
threshold has been reached. Title: Conservation
Improving Interdepartmental Coordination between USDA and DOI
    Improving inter-agency efficiencies should be addressed in this 
Farm Bill. Because of the nature of Indian Country's relationship with 
the Department of the Interior, specifically the Bureau of Indian 
Affairs and the Office of the Special Trustee, coordination between DOI 
and USDA is needed to achieve the best outcomes for tribal producers. 
This will ensure that meaningful assistance is provided by those who 
have deep familiarity with tribal governments, tribal law, Native 
communities, and the challenges unique to Indian Country.
    Authorizing a USDA-DOI Technical Committee. Congress should 
authorize the Secretaries of Agriculture and Interior to develop a 
technical committee made up of tribal government representatives from 
each of the BIA regions to formulate a set of initiatives and programs 
that can be carried out under existing laws as well as a set of 
programs that may be needed under future conservation program 
authorities to improve the conditions of tribal lands and individual 
Indian-owned lands throughout the United States. Title: Miscellaneous
    Cooperative Management of Adjacent Federal Lands. Since tribes 
continue to have legal, historic, and economic connections to adjacent 
federal forests, include a pilot program authorizing tribes and the 
Bureau of Indian Affairs (BIA) to conduct cooperative, discretionary 
forest restoration activities on Forest Service and BLM lands using 
existing regulations governing the management of Indian forests. 
Additional means and legal and financial arrangements that would 
support the cooperative management of forest lands with and through 
Tribes must be explored. Title: Forestry
Conclusion
    Congress must ensure that Indian Country's $3.2 billion agriculture 
industry is included in this Farm Bill. This legislation is a chance to 
empower tribal governments to make decisions on the tribal level, which 
will ultimately lead to increased efficiency in program implementation, 
increased production from tribal producers, and better opportunities 
for tribal and surrounding rural communities. Indian Country's 
agriculture industry is strong and can be made stronger by including 
the above recommendations in the next Farm Bill.
    NCAI and the Native Farm Bill Coalition \4\ ask the Senate 
Committee on Indian Affairs to work on a bipartisan basis with the 
Senate Agriculture Committee to ensure Indian Country shares in the 
benefits of this vital legislation.
---------------------------------------------------------------------------
    \4\ These recommendations are supported by the Native Farm Bill 
Coalition which includes the Inter-Tribal Agriculture Council, the 
Indigenous Food and Agriculture Initiative (research partner), The 
Shakopee Mdewakanton Sioux Community, Bear River Band of the 
Rohnerville Rancheria, Blackfeet Nation, Cabazon Band of Mission 
Indians, Chippewa Cree Tribe, Choctaw Nation of Oklahoma, Colorado 
River Indian Tribes, Colusa Indian Community, Comanche Nation, 
Confederated Salish and Kootenai Tribes of the Flathead Nation, 
Confederated Tribes of the Grand Ronde, Confederated Tribes of the 
Umatilla Indian Reservation, Eastern Band of Cherokee Indians, Fort 
Belknap Indian Community, Fond du Lac Band of Lake Superior Chippewa, 
Hualapai Tribe, Kasigluk Traditional Elders Council, Kickapoo Tribe in 
Kansas, Kiowa Tribe of Oklahoma, Kootenai Tribe of Idaho, Lac du 
Flambeau Band of Lake Superior Chippewa Indians, Mescalero Apache 
Tribe, Menominee Indian Tribe of Wisconsin, Native Village of White 
Mountain, Navajo Nation, Oneida Nation, Organized Village of Saxman, 
Pala Band of Mission Indians, Pascua Yaqui Tribe, Pauma Band of Mission 
Indians, Pokagon Band of Potawatomi Indians, Ponca Tribe of Nebraska, 
Potter Valley Tribe, Quapaw Tribe, Quinault Indian Nation, Red Cliff 
Band of Lake Superior Chippewa, Red Lake Band of Chippewa Indians, San 
Carlos Apache Tribe, Walker River Paiute Tribe, Zuni Tribe of the Zuni 
Indian Reservation, Northwest Indian Fisheries Commission, All Pueblo 
Council of Governors and American Indian Alaska Native Tourism 
Association (AIANTA).
---------------------------------------------------------------------------
                                 ______
                                 
    Prepared Statement of Cheryl Jackson Lewis, Division Director, 
         Nutrition Promotion and Technical Assistance Division
    Recently several representatives of Native communities have 
inquired about serving traditional foods in Child Nutrition Programs 
(CNPs). In particular, Native communities are interested in knowing 
which traditional foods are allowed and how these foods may contribute 
towards a reimbursable meal.
    The United States Department of Agriculture (USDA) understands the 
importance of serving traditional foods and encourages Indian Tribal 
Organizations, along with all operators of CNPs, to source locally 
grown and raised foods. The purpose of this memorandum is to clarify 
that traditional foods may be served in CNPs and to provide examples of 
how several traditional foods may contribute towards a reimbursable 
meal.
The Role of the Food Buying Guide (FBG)
    The FBG is an essential tool that provides information for: 1) 
planning and calculating the required quantities of food to purchase 
for school meals, and 2) determining the specific contribution each 
food makes toward the meal pattern requirements. The FBG enables school 
food authorities and other institutions participating in CNPs to comply 
with the Dietary Guidelines for Americans and ensure that the meal 
pattern requirements are met for each component of a federally 
reimbursable meal http://www.fns.usda.gov/tn/Resources/
foodbuyingguide.html.
    Currently, the Food Buying Guide for Child Nutrition Programs is 
being updated, in phases, to include resources for the new Nutrition 
Standards for School Meals. Updated meal pattern requirements for other 
CNPs such as Child and Adult Care Food Program and Summer Food Service 
Program are available on the FNS Web site at: http://www.fns.usda.gov/
school-meals/child-nutrition-programs.
Crediting Traditional Foods
    While the FBG provides a relatively comprehensive list of products 
commonly served in CNPs, it does not provide yield information on every 
possible food served in reimbursable meals. Foods not listed in the FBG 
may be served in CNPs. However, if a food is served as part of a 
reimbursable meal, but not listed in the FBG, the yield information of 
a similar food or in-house yield may be used to determine the 
contribution towards meal pattern requirements. When this is the case, 
traditional foods can credit like similar products found in the FBG, as 
demonstrated below:

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    When traditional foods that contribute towards the meal pattern 
requirements are not listed or do not have a similar comparison in the 
FBG; then in-house yields may be developed and used. Instructions for 
developing yields are available in the introduction section of the FBG, 
page I-3, at: http://www.fns.usda.gov/sites/default/files/
FBG_introduction_0.pdf.
Traditional Foods That Do Not Contribute Towards the Meal Pattern 
        Requirements
    Not all traditional foods meet the nutrition standards and 
contribute towards a reimbursable meal. Please be aware, traditional 
foods that do not contribute to a specific meal pattern requirement 
(i.e., meats/meat alternatives, grains, fruits, or vegetables 
component) may be served, but will not credit toward a reimbursable 
meal. When served, these foods must be accounted for when assessing 
compliance in the weekly nutrient analysis and count toward dietary 
specifications (limits on calories, saturated fat, sodium, and trans 
fat). For example, acorns do not credit due to their low protein 
content. The acorns may be served with a reimbursable meal, but will 
not contribute towards meal pattern requirements, and would be included 
in the nutrient analysis.
    Traditional foods may also be used during taste tests or other 
educational opportunities outside of the meal programs. To help 
children learn more about where their food comes from, USDA encourages 
schools to provide agriculture, agroforestry, and nutrition education.
Game Meats
    Meat from cultivated game animals and wild game animals, including 
bison, venison and reindeer, may be served in CNPs; however, animals 
need to be slaughtered and inspected in a Federal inspected facility, 
State inspected program, or be from an approved source as established 
by the State and local regulatory authority that licenses and inspects 
food service operations. Please note that State and local authorities 
may have stricter regulations, preventing the service of cultivated and 
wild game animals.
Additional Questions
    In keeping with our intent to encourage inclusion of traditional 
foods in USDA's CNPs, we would like to hear about additional issues or 
concerns so that we may continue to provide technical assistance as 
necessary. For additional guidance concerning this memorandum, please 
contact your regional Farm to School Coordinator http://
www.fns.usda.gov/farmtoschool/usda-farm-school-staff or USDA's Office 
of Tribal Relations for assistance. http://www.usda.gov/wps/portal/
usda/usdahome?contentid=contact-otr.xml
                                 ______
                                 
 Prepared Statement of Hon. James R. Floyd, Principal Chief, Muscogee 
                             (Creek) Nation
    On behalfof the Muscogee (Creek) Nation (``MCN'' or ``Nation'') of 
Oklahoma, I write to submit testimony for the record urging the Senate 
Committee on Indian Affairs (``Committee'') to ensure that tribal 
governments are an equally included stakeholder group in the upcoming 
Farm Bill.
    As Congress considers the Farm Bill reauthorization this session, I 
urge the Committee to work closely with the Senate Agriculture 
Committee to address Indian Agriculture in this important piece of 
legislation.
    The Muscogee (Creek) Nation (``MCN'' or ``Nation'') is the fourth 
largest tribe in the United States with more than 80,000 citizens 
across the United States. The Nation has a jurisdiction that covers 
more than 8 counties, including nearly 450,000 acres of agricultural 
land operated by more than 2,000 American Indian and Alaska Native 
operators. MCN operates several agriculture and natural resource 
programs that rely on agency collaboration and support from within the 
commodities, nutrition, rural development, conservation, research and 
extension, specialty crops and horticulture, and crop insurance titles.
    MCN operates farming and ranching enterprises within the 
jurisdiction. Combined the operation includes nearly 3,000 acres, a 
200-head cowherd, 360 acres of dryland farm ground and 880 acres of hay 
production. Collaborative efforts are underway to reduce soil erosion 
and watersource contamination, protect riparian areas, comply with Food 
Safety Modernization Act protocols, mitigate invasive species such as 
the Eastern Red Cedar and feral swine, extend the growing season for 
specialty crops, and extend outreach and advocacy opportunities for 
Native agricultural producers. Additionally, the Nation provides 
critical access to healthy and nutritious food through operation of an 
elderly food distribution program and Women, Infants, and Children 
(WIC) program. These programs are supported by the Food Distribution 
Program on Indian Reservations (FDPIR) and Supplemental Nutrition 
Program (SNAP), respectively.
    Collectively, the programs authorized under the Farm Bill make a 
significant difference in improving the health, wellness, and economic 
stability of the Nation's citizenship. As such, we offer the following 
recommendations for the Committee to consider as the Senate proceeds in 
its development of the upcoming reauthorization legislation.
    Maintain current authorization levels for SNAP. Thirty percent (30 
percent) of all American Indian and Alaska Native (AI/AN) households 
within the Nation's jurisdiction have annual incomes less than $25,000. 
The assistance provided through SNAP and WIC provide critical funds to 
ensure that these households are able to access healthy foods during a 
crucial period of development.
                                 ______
                                 
     Prepared Statement of Hon. JoDe Goudy, Chairman, Yakama Nation
    Dear Senators Hoeven and Cantwell:
    I write on behalf of the Confederated Tribes and Bands of the 
Yakama Nation (``Yakama Nation'') to provide testimony to the Senate 
Committee on Indian Affairs regarding ``Breaking New Ground in 
Agribusiness Opportunities in Indian Country.'' The Yakama Nation 
supports the committee's work to pass legislation to alleviate 
difficulties experienced in our economy, gaps in education, and 
fulfillment of the United States' trust responsibilities. To further 
that work, the Yakama Nation requests appropriation of funds to correct 
deferred maintenance on the Wapato Irrigation Project, increased 
funding for United States Department of Agriculture (USDA), and parity 
in agricultural funding for Native communities.
    The Yakama Nation has a reservation of over 1.2 million acres, with 
140,000 irrigable acreage, that relies upon the dangerously antiquated 
Wapato Irrigation Project (WIP) for irrigation water. Agriculture is 
and has historically been an important economic driver, employment 
provider, and nutrition sector for the Yakama Nation as we are located 
in a high agricultural production basin.
    Pursuant to Article 5 ofthe Treaty of 1855 (12 Stat. 951), the 
United States government has a trust responsibility to the Yakama 
Nation to support agricultural development within the Yakama 
Reservation. By advocating for legislation and funds to support Tribal 
agriculture, this committee has an opportunity to step back from 
hundreds of years of Euro-American doctrines that have left a legacy of 
dehumanization of Native nations and show that the word of the United 
States is meaningful.
    One of the greatest challenges facing agricultural development on 
the Yakama Reservation is WlP's deferred maintenance at $138 million. 
This is by far the largest amount listed for an Indian irrigation 
project at 31 .5 percent of the $438 million in deferred maintenance 
nationwide. The deferred maintenance has led to certain members of WIP 
having to experience serious water shortages or to simply receive no 
water at all. This creates a domino effect of less lands leased, 
funding reductions for the Yakama Nation through missed leases, and 
reduced Operation and Maintenance fees collected by WlP--and adds to 
the levels of unemployment for both members and non-members on our 
Reservation.
    I hereby request authorization ofthe WIIN Act, Subtitle B funds 
outlined for Indian Irrigation Projects for Repair, Replacement, and 
Maintenance. I am aware that $35 million will be available, if 
appropriated, each year over the next 5 years totaling $175 million in 
funds for Indian Irrigation projects. Pursuant to section 3222 of the 
WI IN Act, WIP clearly meets the eligibility criteria. Addressing the 
deferred maintenance will benefit not only Yakama Nation and its 
members, but also other agriculture throughout the Yakama Reservation. 
Furthennore, The Yakama Nation Engineering Program has successfully 
completed numerous federal contracts aimed at conserving water delivery 
in WIP and would be able to begin work on deferred maintenance 
immediately once funding becomes available.
    The USDA needs increased funding and staff within its fanning, 
forestry, and conservation programs. The Yakama Nation has been 
proactive in implementing and modernizing agricultural technologies and 
irrigation conservation within the WIP, recently through efforts such 
as the Yakima Basin Implementation Plan and USDA Regional Conservation 
Partnership Program. An increase in staff and funding is necessary to 
bolster and continue access to USDA programs and funding authorities.
    A majority of this work can be accomplished through the upcoming 
2018 Farm Bill. Important concepts that should control Farm Bill 
discussions from Native Community perspectives include parity, 
opportunity and consistency. Parity requires that legislation and 
funding for USDA programs and services include Tribal Governments at 
the same level as states and counties in the delivery of meaningful 
food and agriculture, nutrition, health and education programs.
    The Fann Bill should provide opportunities to Native Communities 
through Tribal support and incentive programs as well as a statutory 
requirement to the USDA to focus the provision of all USDA services and 
program to Substantially Underserved Trust Area. Consistency is needed 
in programs and funding to ensure Tribal Governments can establish 
Iong-tenn plans and goals for their communities. Funding for some 
Tribal programs at USDA over the last few years has been reduced and 
then consolidated into broader, non-tribal specific programs. Given the 
expense and effort it takes to ensure tribes know about USDA programs 
and are taking advantage of them, this puts Tribal entities at a 
disadvantage.
    Programs at USDA span a wide range of areas that impact Native 
Communities, including food safety, housing, business development, 
telecommunications, water systems, crop insurance, nutrition, land 
conservation, forestry, research, and the programs designed to assist 
fanners. Most USDA programs haven't yet been utilized by Tribes 
because, for the most part, we are invisible in those relevant Farm 
Bill sections authorizing the programs. It has not been until recently, 
that livestock producers have been included in Farm Bill discussions 
and programs despite over half of Tribal producers' income being 
livestock-generated. Tribal Governments must be included in the 
existing intergovernmental approaches through which many of the USDA 
programs are delivered.
    I would again like to thank the Committee for holding the important 
hearing as well as accepting testimony on ways to continue to grow 
agriculture and agribusiness across Native communities and lands. By 
adjusting, developing, and improving the Fann Bill's programs, we can 
build upon the already great work happening not just on the Yakama 
Reservation, but all Tribal communities surrounding food and 
agricultural.
                                 ______
                                 
 Prepared Statement of Hon. Harlan Baker, Chairman, The Chippewa Cree 
                  Tribe of the Rocky Boy's Reservation
    Dear Chairman Hoeven and Vice Chairman Udall,
    On behalf of The Chippewa Cree Tribe of the Rocky Boy's Reservation 
located in north central Montana, we write to submit testimony for the 
record urging the Senate Committee on Indian Affairs to ensure that 
Indian Country is included in the upcoming Farm Bill.
    With Congress considering the Farm Bill this session, we request 
the Senate Committee on Indian Affairs to work closely with the: Senate 
Agriculture Committee to address Indian Agriculture in this important 
piece of legislation.
    The Chippewa Cree live in north central Montana an estimated 45 
miles south of the Canadian border. The Rocky Boy's Reservation is 
120,000 acres within a contiguous border and all lands are held in 
trust for the full membership with no allotments or private land 
holdings. The main agri-businesses are farming and ranching. The 
reservation is located in a rural area with the Bear's Paw Mountains to 
the south and flat ground to the north, which make it suitable for 
farming and ranching.
    The Tribe's main crops are cereal grains, forest resources, and 
livestock. The type of livestock consists of Angus and Herefords. 
Traditional foods consist of berries, fish, and wild game. Agriculture 
provides employment and is an important source of economic gain for the 
Chippewa Cree Tribe due to its rural setting of the reservation.
    NRCS with its different programs like EQIP and CRP have been 
beneficial to the Chippewa Cree Tribe. Their offices located on the 
Rocky Boy's Reservation are beneficial to the Tribe in providing 
technical knowledge on farm and livestock issues, soil issues, and on 
our timber resources. The Farm Services Agency is another program that 
has proven to be helpful through the tribal liaison providing more 
information about FSA programs.
    Considering the state of agriculture for our community, The 
Chippewa Cree of the Rocky Boy's Reservation requests the Senate 
Committee on Indian Affairs and the Senate Agriculture Committee 
include the following in any legislation regarding the Farm Bill:

  <bullet> Tribal Governmental Parity with State and Local Governments 
        throughout the entire Farm Bill

  <bullet> Tribal Administration of the SNAP and all Federal Food 
        Assistance Programs through 638 Contracts and Self-Governance 
        Compacts

  <bullet> Expand the Substantially Underserved Trust Area (SUTA) 
        provision across all Rural Development programs

    In addition, The Chippewa Cree Tribe of the Rocky Boy' s 
Reservation supports the following recommendations to be included in 
any agriculture legislation in this Congress.
Commodities Title
    Federal procurement of tribal agriculture products at prices that 
align with non-tribal producers or are based on the relative poverty 
levels existent on reservations.
    Ensure tribal producers' eligibility for all disaster assistance 
programs in Title I, and increase payments to 90 percent of value to 
acknowledge their unique land and market issues along with the loss of 
investment opportunity due to historic underfunding.
    Create parity for tribal producers in Farm Service Agency 
Committees and decision-making.
Conservation Title
    U.S. Department of Agriculture (USDA) conservation programs must 
allow for the use of traditional, ecological, knowledge-based 
conservation practices without undue scrutiny and research.
    Cross-agency coordination between the Natural Resources 
Conservation Service (NRCS) and Bureau of Indian Affairs must be 
improved to ensure all tribal producers have access to conservation 
programs and other USDA programs that require an NRCS-approved 
conservation plan.
    Parity must be achieved throughout the Conservation title by 
explicitly including ``tribes'' or ``tribal'' where ``state'' or 
``local'' or ``regional'' agricultural producers are mentioned to 
ensure tribal access to all NRCS programs.
Trade Title
    Support and maintain tribal food and agriculture businesses' entry 
into foreign markets by expanding Indian Country's access to the Market 
Access Program (MAP) and protecting unique tribal foods against fraud.
    Improve interdepartmental coordination and tribal government and 
individual Indian producer inclusion on all U.S. trade missions.
Nutrition Title
    Approximately 25 percent of Native Americans receive some type of 
federal food assistance, and in some tribal communities, participation 
is as high as 60-80 percent. Indian Country needs a consistent, 
comprehensive, and tribal-led approach to tailor federal food 
assistance programs to the specific needs of tribal communities and 
citizens.
    Allow tribes the option to enter into Self-Determination Contracts 
and/or Self-Governance Compacts pursuant to P.L. 93-638 for 
administration of the Supplemental Nutrition Assistance Program (SNAP) 
and all other federal feeding programs.
    Improve the funding, flexibility and infrastructure of the Food 
Distribution Program on Indian Reservations (FDPIR).
    Require a CBO or CRS inquiry into the impact of drastic cuts or 
elimination of food assistance programs on the overall agricultural 
economies of tribes.
Credit Title
    Many tribal communities are located in ``Credit Deserts,'' where 
access to fair and reasonable credit terms is limited or non-existent.
    Improvements must continue to be made to Farm Service Agency (FSA) 
programs to address the availability, efficiency and application of 
credit programs in Indian Country.
Rural Development Title
    The Rural Development (RD) programs at the U.S. Department of 
Agriculture (USDA) are essential for rural and reservation tribal 
communities to develop and improve declining infrastructure systems 
while spurring economic development and job creation in tribal 
communities. Many ready-to-go (``shovel-ready'') tribal infrastructure 
and community development projects have gone unfunded over the past 
several years, leaving promises to Indian Country and rural communities 
unrealized. RD must have dedicated funding and technical assistance for 
tribal governments as part of the federal trust responsibility and to 
ensure that tribal communities and the rural communities around them 
thrive. Tribes must be consulted during the restructuring of the USDA's 
RD agency due to its unique impact on tribal economies and tribal 
economic development. Any budget shifts must also receive tribal 
consultation before changes occur.
Research Title
    Research Title programs must allow for the development of tribal 
research, education, and Native youth in agriculture by making programs 
and funding more accessible to Tribal Colleges and Universities (TCUs), 
support a tribally led focus on traditional knowledges and practices, 
and provide additional opportunities for education. Fund the Federally 
Recognized Tribes Extension Program (FRTEP) at a minimum of $10 million 
to address the persistent inequity in educating and developing Native 
American extension resource programming and Native youth in food and 
agriculture programming. Provide dedicated funding and tribal 
preference at National Institute of Food and Agriculture (NIFA) to 
build tribal research and educational capacity. Require all 
institutions (non-TCUs) that receive any funding for extension 
programming in states that have tribal lands and tribal producers to 
report and demonstrate their work with tribal governments, tribal 
communities, and tribal producers and their cooperative and respectful 
coordination with TCUs in close proximity. These institutions should be 
required to conduct a percentage of their overall work that is equal to 
the amount of land in the state held by Indians, the Indian farms in 
those states, and such extension programming must be done with Indian 
communities and done by staff experienced in and knowledgeable of 
issues important to Indian Country. Remove FRTEP from the Farm Bill 
requirements that all Smith-Lever programs be competitive and reinstate 
the consultative requirements for FRTEP implementation.
Forestry Title
    Tribal forests and woodlands make up one third of all tribal lands 
held in trust, and provide resources, jobs, and economic development 
opportunities for many tribal governments. Many tribal forests and 
adjacent federal forests contain sacred places and important trust and 
treaty-protected resources. Tribes must be provided parity throughout 
the Forestry Title to better access, manage and develop tribal and 
federal forests and woodlands to protect tribal resources while 
providing jobs and economic development.
Energy Title
    Tribal lands, individual Indian-owned land, and natural resources 
hold immense potential to develop bio-based energy economic 
development, energy infrastructure build-outs, and jobs in tribal 
communities and surrounding rural communities. Establish a Tribal Bio-
Based Energy Development Grant Program to help tribal governments, 
tribal producers, and tribal business entities develop bio-energy 
businesses and production.
Horticulture and Specialty Crops Title
    Many traditional Native foods fall under the designation of 
horticulture crops and are necessary to support food sovereignty and 
healthy food access in Indian Country. USDA programs which oversee 
horticulture crops must engage in tribal consultation to ensure the 
unique needs of tribal producers are being met. The Farm Bill needs to 
include provisions to protect Native foods in the marketplace, as well 
as Native seeds and traditional foods.
    Crop Insurance Title
    Due to the high risk of agriculture and food production, especially 
in Indian Country, crop insurance products must cover tribal producers 
in unique ways. In addition, livestock producers in Indian Country must 
be afforded the same risk protection as crop producers as well as the 
same payment options since livestock production makes up a significant 
percentage of tribal food production.
Miscellaneous
    Covering a wide variety of topics, as well as issues which span 
multiple titles of the Farm Bill, the Miscellaneous Title is an 
important mechanism for Indian Country. Fully fund the Office of Tribal 
Relations and create a new Office of Tribal Agriculture to improve the 
service and coordination of USDA programs for tribes and tribal 
producers. The new Office of Tribal Agriculture should report to the 
Office of Tribal Relations and funding for both offices should be 
mandatory. Create a mandatory interdepartmental working group between 
agencies at USDA and the BlA to examine and determine solutions to 
areas where the two departments overlap, are requiring duplicative 
documentation or actions on the part of tribes and individual Indian 
landowners in order to access programs and services, or are generally 
lacking in coordination and efficiency for tribal agriculture. The 
identified barriers and problems must be addressed and resolved by 
sustained mandatory interdepartmental working groups.
Prepared Statement of Pete Watchman, President, Navajo Nation Soil and 
                      Water Conservation District
    Dear Chairman Hoeven and Vice Chairman Udall.
    On behalf of the Navajo Nation Soil and Water Conservation 
District--Fort Defiance, Arizona and New Mexico, we write to submit 
testimony for the record urging the Senate Committee on Indian Affairs 
to ensure that Indian Country is included in the upcoming Farm Bill.
    With Congress considering the Farm Bill this session. we request 
the Senate Committee on Indian Affairs work closely with the Senate 
Agriculture Committee to address Indian Agriculture in this important 
piece of legislation.
    The Navajo Nation five oil and Water Conservation Districts (SWCD) 
were established by the Navajo Tribal Council resolution CF-11-80 on 
February 07, 1980 under the Title 3 Chapter of the Navajo Tribal Code; 
and Location is Window Rock Arizona, serving New Mexico. Arizona and 
Utah.
    Using the USDA assistance from Farm Bill are I. Commodities II. 
Conservation III. Trade IV. Nutrition V. Credit VI. Rural Development 
VII. Research VIII. Forestry IX. Energy X. Horticulture XL Crop 
Insurance XII. Miscellaneous
    Considering the state of agriculture for our community, Navajo 
Nation Soil and Water Conservation requests the Senate Committee on 
Indian Affairs and the Senate Agriculture Committee include the 
following in any legislation regarding the Farm Bill:

  <bullet> Tribal Governmental Parity with State and Local Government 
        throughout the entire Farm Bill

  <bullet> Tribal Administration of the SNAP and all Federal Food 
        Assistance Programs through 638 Contracts

  <bullet> Expand the Substantially Underserved Trust Area (SUTA) 
        provision across all Rural Development programs

    In addition. the Navajo Nation Soil and Water supports the 
following recommendations to be included in any agriculture legislation 
in this Congress.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



     Response to Written Questions Submitted by Hon. Tom Udall to 
                              Diane Cullo
USDA Reorganization and Tribal Consultation
    Question 1. In September, USDA Secretary Sonny Perdue announced a 
USDA reorganization effort to ``streamline the vast bureaucracy, 
improve its efficiency and make it more customer friendly.''1 As part 
of this reorganization, the Secretary has proposed creating an ``Office 
of Partnerships and Public Engagement'' that would group together the 
Office of Tribal Relations with several other USDA Offices, including 
the Office of Advocacy and Outreach, the Faith-Based and Neighborhood 
Partnerships staff, and the Military Veterans Liaison. What is the 
status of this reorganization? Please provide a description of all 
relevant tribal consultations undertaken by USDA to date on the 
reorganization plan.
    Answer. The reorganization was completed as of November 14, 2017 
per the Secretary's Memorandum Improving Customer Service and 
Efficiency. The purpose of the reorganization was to realign a number 
of offices within the U.S. Department of Agriculture (USDA) to improve 
customer engagement, maximize efficiency, and improve agency 
collaboration.
    While the Office of Tribal Relations (OTR) is now housed in Office 
of Partnerships and Public Engagement (OPPE), OTR has been delegated 
the authority to coordinate across multiple initiatives that benefit 
tribes (social disadvantaged, youth, etc.). OTR reports directly to the 
Secretary of Agriculture involving all policy matters and serves as 
USDA's point of contact in accessing Department-wide information 
regarding Tribal issues.
    One of the benefits of the reorganization was to increase OTR's 
footprint across the Department. To accomplish that, the office works 
in collaboration with OPPE to improve customer engagement, maximize 
efficiency, and improve agency collaboration, while increasing its 
capacity to serve Tribal stakeholders.
    The tribal consultation on the reorganization took place on October 
19, 2017, during the National Congress of the American Indian annual 
meeting. The Deputy Secretary of Agriculture served as the consulting 
official for USDA.
    USDA appreciates the feedback provided during the consultation and 
as a result, has ensured that OTR continues to report directly to the 
Secretary of Agriculture for all policy matters while at the same time 
utilizing the infrastructure and additional staff within OPPE.

    Question 1a. Please provide a detailed summary of all responses and 
comments received thus far from tribes.
    Answer. Tribal Leaders have applauded USDA's initiative to better 
synthesize outreach and messaging across the Department. While USDA has 
generally received a positive response from tribes, we heard several 
concerns that USDA would take the Office of Tribal Relations (OTR) out 
of the Office of the Secretary. Tribes commented that removing OTR from 
the immediate Office of the Secretary indicated a decrease in USDA's 
commitment for a government-to-tribal government relationship, which 
was not intended. Because of this concern, within 10 days of Deputy 
Secretary Censky's tenure, he invited Tribal Leaders to consult on the 
reorganization at the National Congress of American Indians Annual 
Conference. All comments and concerns were taken into consideration, 
and the reorganization was amended to clarify the continuation of OTR's 
advisory role to the Secretary on all Tribal issues and the 
coordination with OPPE to improve department-wide collaboration.

    Question 1b When can we expect a final decision from your agency 
about whether or to what extent USDA will incorporate tribal comments 
and recommendations?
    Answewr. A final decision was made after the 30-day comment period. 
That decision incorporated comments and recommendations made by 
interested tribal representations at the consultation to have the 
Office of Tribal Relations continue to report to the Secretary directly 
on policy matters, as well as utilize the outreach and partnership 
staff within OPPE to expand their footprint to tribes throughout the 
country.

    Question 1c. What controls has USDA put in place to ensure that 
tribal input will be adequately weighed and responded to?
    Answer. USDA follows Departmental Regulation 1350-002 https://
www.ocio.usda.gov/document/departmental-regulation-1350-002) to ensure 
appropriate consultation and coordination with Indian Tribes. The 
importance of consultation and coordination with Indian Tribes was 
affirmed through Presidential Memoranda in 1994, 2004 and 2009, and in 
Executive Order ``Consultation and Coordination with Indian Tribal 
Governments'' EO 13084, issued in 1998 and replaced by EO 13175 in 
2000, as well as in numerous statutes and policies. The value of 
collaboration is fully recognized within the USDA for all constituents, 
including Tribes.
    This Departmental Regulation establishes over-arching Department-
wide guidance upon which the USDA and its agencies rely.
    Moreover, under the leadership and vision of Secretary Perdue, 
USDA's priority is to become the most effective, efficient, and 
customer friendly Department in the Federal government.
    Notwithstanding our government-to-government trust responsibility, 
tribal input is always adequately weighed, considered, and responded 
to.

    Question 1d. Will tribes have additional opportunities to comment 
as the reorganization advances towards final?
    Answer. There are no further changes proposed. Tribes and tribal 
citizens have benefitted from Secretary Perdue's commitment to all USDA 
customers by having open and ongoing access to the Office of Tribal 
Relations and its staff. Additionally, OPPE incorporates tribal 
relations in every other aspect of its mission and coordinates with 
every USDA agency to continually improve access to all USDA programs 
and services.
Market Access Program (MAP) and Tribal Access to International Markets
    Question 2. In your written testimony, you point to USDA's work 
with the Intertribal Agricultural Council through the Market Access 
Program (MAP) as evidence that USDA is engaging with tribal 
agribusiness on export issues. However, the Council received less than 
0.5 percent of the funding available under MAP, and it is unclear 
whether there were any tribal grantees. Has USDA ever included a tribal 
representative on any of its trade missions?
    Answer. The Intertribal Agriculture Council is invited to every 
agribusiness trade mission. Trade mission announcements are also posted 
on the Foreign Agricultural Service (FAS) website and broadcast via the 
FAS Twitter account. Agribusiness trade mission application forms do 
not specifically include a category to account for intertribal 
representation, so any such participants would be entirely self-
reported. At least two previous agribusiness trade missions included 
self-identified intertribal representatives (China in 2012 and China in 
2014). FAS would welcome additional intertribal representation on 
future trade missions.

    Question 2a. What is the number of tribal products included in 
those missions?
    Answer. As referenced above, at least two previous agribusiness 
trade missions included self-identified intertribal representatives 
(China in 2012 and China in 2014) and in both instances the single 
featured product was seafood.

    Question 2b. Please provide a detailed list of tribal inclusion in 
the Market Access Program.
    Answer. The Intertribal Agriculture Council (IAC), a Market Access 
Program (MAP) participant since 1998, includes 72-member tribes and 
works with tribal businesses and individual Native American-owned 
businesses. IAC has historically focused on training Native American-
owned companies and business to become exporters and introduces them to 
targeted markets through
    international promotions. The export activities of IAC promote and 
secure sales of Native American agriculture and food products through 
trade shows, cooking demonstrations, and promotions (grocery stories, 
hotels, restaurants). IAC continues to work on developing new markets 
in Asia, Australia, North America, and Europe. In 2017, IAC companies 
had on-site sales of $3.2 million and estimated 12-month sales of $20.9 
million at trade shows. In fiscal year (FY) 2018, IAC received $737,270 
in MAP funds.
    MAP funding levels provided to IAC for five years:

    2018: $737,270

    2017: $750,250

    2016: $788,371

    2015: $788,723

    2014: $728,723

    Emerging Markets Program (EMP):

    2016: $98,624 for China and Thailand

    Question 2c. How does USDA and the Foreign Agricultural Service 
seek out and make resources available for tribal producers with an 
interest in international expansion?
    Answer. As outlined in the previous response, USDA works with the 
IAC to further these efforts through both the MAP and EMP programs and 
conducts regular outreach to Tribal stakeholders regarding trade 
missions and other opportunities.
                               ROUNDTABLE
           advancing native food traditions in indian country
                       THURSDAY, JANUARY 18, 2018
U.S. Senate,
Committee on Indian Affairs,
Washington, D.C.

    The Committee met, pursuant to notice, at 2:35 p.m. in room 628, 
Dirksen Senate Building, the Hon. Tom Udall, Vice Chairman of the 
Committee, presiding.
    Present: Senators Udall, Heitkamp, Cortez Masto, Smith.
    Senator Udall. Good morning, everybody. Thank you so much for being 
here. I am Tom Udall, the Vice Chair.
    I don't know if we have all of our participants here, but we are 
getting pretty close. We have two wonderful Senators who have joined 
us, Tina Smith is here and Heidi Heitkamp, so we are all ready to roll.
    I thought in order to really keep this roundtable going, with the 
number of participants and the number of Senators going in and out, we 
are going to have a real challenge to cover this whole field in an hour 
and a half. If you just look at the time and the subjects to be covered 
and how many people are here, it is clear that we want you to be really 
concise and try to, more than anything, connect your ideas that you may 
have into policy.
    Because the thing that is really facing us, we titled this 
Advancing Native Food Traditions in Indian Country, but the policy part 
of this is dealing with the Farm Bill, because we have a Farm Bill 
coming up this year. I think Senator Heitkamp is on the Farm Committee, 
in addition to Indian Affairs. And so is Tina.
    So there is a real great overlap here that really, really makes a 
difference for us executing policy, both doing it in the Senate Indian 
Affairs Committee and also doing it with the Agriculture Committee.
    So just in the most general way, what we want to be looking at is a 
comprehensive approach to Indian Country needs in the Farm Bill. So any 
ideas that you have on connecting those ideas to policy is where we 
really want to go.
    With that, I am going to open it up. You all see, you each have 
name tags here. I am going to ask you to go around, and tell us what 
organization you are with. We are just opening it up for folks to start 
talking. Please focus on that connection between a great idea and then 
what is good policy when it comes to the Farm Bill.
    My sense is, listening to Heidi and listening to Tina and the 
hearing we had in the last couple of days is, there are so many good 
ideas in every single title of the Farm Bill in order to advance this 
whole discussion in terms of the Native foods and Native traditions and 
where to go there.
    Jackie, why don't we start with you? Tell us who you are with and 
then we will jump into the whole thing.
    Ms. Pata. Hi, I'm Jackie Pata. I am the Executive Director of the 
National Congress of American Indians. I am also the fourth Vice 
President of the Tlingit Haida Tribes of Alaska.
    Ms. Bohlen. Good afternoon. My name is Stacy Bohlen. My native name 
is [phrase in native tongue], which is Turtle Woman, the Responsibility 
of Speaking the Truth for all the People. I am the Executive Director 
of the National Indian Health Board. We serve all 567 federally-
recognized tribes for the advancement of health care and health status 
for all Native people in the U.S.
    Mr. Matteson. Mr. Vice President, I am Gary Matteson. I work for 
the Trade Administration for the Farm Credit System here in Washington, 
the Farm Credit Council. As such, I am active in programs for young, 
beginning, small farmers, and in particular, outreach to minorities. 
That would include the work that I have been doing in Indian Country.
    Ms. Hipp. Hello, my name is Janie Hipp, a citizen of the Chickasaw 
Nation. I am the Director of the Indigenous Food and Agriculture 
Initiative at the University of Arkansas School of Law. We work on 
policy and strategic issues around food and agriculture across all of 
Indian Country.
    Senator Udall. Thank you.
    Mr. Ducheneaux. Good afternoon. My name is Zach Ducheneaux. I am a 
member of the Cheyenne River Sioux Tribe in South Dakota and I am the 
Secretary of the Board of Directors for the InterTribal Agriculture 
Council.
    Mr. Racine. Good afternoon. My name is Ross Racine. I am the 
Executive Director of the InterTribal Agriculture Council, based in 
Billings, Montana. We work for every federally-recognized tribe. We 
have been involved in every Farm Bill since 1990, so we kind of have a 
history. Thank you for the invite.
    Senator Udall. Thanks, Ross. Carrie will come in and say a few 
words. Mariah, go ahead.
    Ms. Gladstone. My name is Mariah Gladstone. I am the founder of an 
online cooking show called IndigiKitchen, which is dedicated to 
revitalizing traditional foods, as well as on the board of the Native 
Youth Food Sovereignty Alliance, and a champion for change through the 
Center for Native American Youth.
    Senator Udall. Thank you for being here. Lionel?
    Mr. Haskie. Good afternoon. My name is Lionel Haskie. I am very 
honored to be here with everyone and to contribute some ideas.
    I work with the Navajo Agriculture Products Industry. I am a 
professional engineer there. My responsibilities include business 
development, infrastructure and the infamous Navajo Indian Irrigation 
Project.
    Senator Udall. Thank you. Keith, before you say anything about 
Shakopee and your responsibilities, I am going to let Tina give a 
little bit of an introduction for you.
    Senator Smith. I am taking Senator's prerogative to introduce my 
friend, Keith Anderson, who is Vice Chairman of the Shakopee 
Mdewakanton Sioux Community. Keith and I have been friends for a long 
time and I greatly appreciate his being here.
    The Shakopee Mdewakanton people pride themselves on their 
generosity and their strong commitment to giving back, not only to the 
geographic community that they live nearby, but to the entire Native 
American community. So it is very wonderful to have you here with us 
today. I am especially grateful for the work that you have been doing, 
and your community has been doing, on the Seas of Native Health 
program, and really looking at how a connection to indigenous food not 
only is a way of improving economic development with the tribe, but 
also a way of improving health and connection to your traditions.
    I think you will bring a lot to this conversation, and I am very 
happy to be able to be a part of it.
    Mr. Anderson. Thank you, Senator. It is a thrill to have you here, 
and to be here. I thank you very much. I hope I can help. I would be 
remiss if I didn't mention that I am working also with Ross, as Ross 
Racine is co-chair of the Native American Farm Bill Coalition. We have 
over 40 tribes now, I think 41 coming on board as of today to identify 
and hold on to what we have with the Farm Bill, but identify more 
opportunities and stand as one in that voice. Zach and Janie as well. 
So thank you for that.
    Senator Smith. Thank you.
    Senator Udall. Thank you, Keith. You kind of hit it on the head 
there, trying to figure it out. I think that is what this roundtable is 
all about, what are our opportunities in terms of the Farm Bill.
    So with that, Ross, go ahead. That is the spirit I like, we will 
get this thing rolling.
    Mr. Racine. Thank you. When we look at advancing Native food 
traditions in Indian Country, I have to remind everybody that 
agriculture is the tradition on our reservations, not the product. We 
have to think about it in that frame of mind. In 1998, we testified 
before a joint Senate Ag and House Ag hearing. We said, we realize our 
future will come from the Indian use of Indian resources. There has 
never been a society in the history of the world that has survived 
without the ability to feed itself.
    A return to our proud stature will come through the ability to 
sustain ourselves on what we have left of our homelands. To me, that 
sets the tone for where we should be going with this Farm Bill. We have 
72,196 Indian operators. We have 56,092 farms. We generate $3.3 billion 
annually with our products.
    So when we start talking about feeding ourselves through the use of 
this Farm Bill, we have to look at specifically those programs, one, 
that we believe this committee can help us with. One of those is access 
to rural development programs. The second is access to credit. I will 
address the rural development programs and I will turn it over to the 
brains of the outfit, Zach, to talk about the credit part.
    When we look at what is being produced out there in Indian Country, 
we are pretty close to about 50 percent livestock and 50 percent grain 
or intensified agriculture products.
    To bring about the ability to feed ourselves and use food as an 
economic tool, to use food processing as an economic development tool, 
we firmly believe that that would provide the much-needed employment on 
our reservations. It would provide for healthier diets and reduce 
health care costs. It would reduce our investment in social programs 
and social rehabilitation programs. It would lessen the carbon 
footprint of food production. And we firmly believe that not only will 
it help our reservation, but it would be a template to rejuvenate rural 
America.
    But to bring food processing ability to success relies heavily on 
rural development programs. Within their infrastructure development 
programs, within their value-added programs, within their cooperative 
development programs. Those are much-needed to assist groups of 
producers and their tribes to bring about bricks and mortar that is 
needed to accomplish this.
    We have asked, and our Farm Bill asks, that the SUTA language, 
basically it is from the Rural Electrification Act, be applied to all 
rural development programs. SUTA stands for substantially underserved 
trust areas and allows the Secretary of Agriculture to use broad 
discretion authority to waive policies and procedures and in turn, 
enables the underserved area's program participation. So we are asking 
that SUTA be applied across the board to all rural development 
programs.
    When we look at eligibility, we truly believe that school 
districts, not counties, should be looked at in determining eligibility 
and the ability to repay some of these programs. That gives you a much 
closer look at those community demographics. I use Blackfeet often as 
the example. Eighty percent of Glacier County is Blackfeet Reservation, 
average household income $14,000. You look at the county average 
household income, it is $26,000. A school district look at that 
community would enable the agency to better determine the ability to 
repay our eligibility for programs.
    Senator Udall. Let me just interrupt you there. Carrie just came 
in, Carrie Billy did, and let her just tell us who she is working with 
and why she is here today wanting to participate in this roundtable.
    Ms. Billy. Thank you very much, sorry to interrupt you. I am Carrie 
Billy, the President and CEO of the American Indian Higher Education 
Consortium, which is the Nation's 36 tribal colleges and universities. 
Thirty-four of our institutions are 1994 land grants. So our tribal 
colleges have a great stake in the Farm Bill reauthorization and in 
agriculture issues in general.
    So thank you very much for inviting us to be here today.
    Senator Udall. Thank you, Carrie.
    One of the things I am going to do, because we want the ideas that 
are put on the table, people to react to them, I wish I had a little 
gong here. In about two minutes, we are going to try to move this along 
so you can react to each other and have a roundtable. So I don't mean 
to be impolite to any body but when you hit the two minutes, I am going 
to say, let's give somebody else a chance to either float another idea 
or interact with you, if that's okay, Ross. And you hit two minutes.
    [Laughter.]
    Senator Udall. Turn it over to Zach, that is good.
    Mr. Racine. I will turn it over to Zach, Mr. Chairman.
    Mr. Ducheneaux. Thank you, Mr. Racine, and thank you, Senator 
Udall.
    The other tenet of what the Intertribal Ag Council and the Native 
Farm Bill Coalition are seeking in the development of the Farm Bill to 
improve agriculture in Indian Country is access to credit. I can be 
pretty brief in my comments, because they can all be summed up by one 
question that I would have liked to have been a Senator for once in my 
life to ask Chairman Berrey and our good friend from NAPI. For Chairman 
Berrey, I would have asked, if you didn't have a casino in Interstate 
44 to generate the revenue, to fund your operation, how far along would 
you be in having the first Native American-owned slaughter facility and 
how much food would you be distributing out of your goodwill to your 
community? And where does a reservation like the Cheyenne River Sioux 
Tribe in South Dakota or the Standing Rock Sioux Tribe in North Dakota 
go to access that resource?
    We have to develop fair access to credit to address the credit 
deserts that exist on every Indian reservation. We have quite a list of 
requests attached to Chairman Berrey's testimony from yesterday. We 
will submit some comments for the record, but I would like to just 
leave that hanging out there, Senator, and pass it on to the next 
person, so we can get a discussion going about that.
    Senator Udall. That is very, very important. What you have hit on 
is the capital and the ability. So some tribes are in a situation where 
they can get that capital going and do something really significant. 
That is why, Gary, you are here, to talk about farm credit a little bit 
and what we could do.
    Mr. Matteson. All right, I think I got a cue there.
    Senator Udall. Yes.
    Mr. Matteson. I would like to point out the difference between what 
Zach was just referring to, which is the tribe having access to credit, 
and individual producers having access to credit. That is really the 
larger problem in saying that individuals lack access. I see it is a 
larger problem for having sustainable and pervasive Indian agriculture 
throughout Indian ag country where it can be done, whether it is 
livestock or whether there is water that something else can be grown.
    The problems, as a private sector lender, trying to deal with 
securing a mortgage, Farm Credit has a requirement that we must have a 
first mortgage for a land loan. That puts us right into the process of 
dealing with the Bureau of Indian Affairs and being able to get a 
certification from them that the land can be in fact mortgaged by 
either, whether it is individually held trust land or tribal trust 
land. It is a mixture of lands, as you know, on reservations. It makes 
that credit, the delivery of credit, subject to, a piece may be fee 
simple, a piece may be under a trust in some way. It has been a source 
of confusion that has allowed the whole, I will take it on all of us 
that lend money, a lot of us to just plain say no, it is too 
complicated, we can't do it.
    Where I would like to move the conversation to, which we are doing 
with the Intertribal Ag Council's creation of a community development 
financial institution is, so how can we get around that problem. I am 
not here to ask you for something in the Farm Bill, Senator. Sorry to 
not give you something for your list. We do think that with concerted 
effort we can address a lot of problems outside of that. I will let 
Zach or someone else who can better talk to the problems of dealing 
with the BIA speak to that issue.
    Senator Udall. Anybody else? Jackie?
    Ms. Pata. Not on that particular issue. But I think it would be 
good, I would like to put some context to the more universal issues. 
Because there are a lot of specifics that people will bring out from 
their own interest areas. NCAI also is a proud partner in this Farm 
Bill Coalition. So it has been really good for us to have these 
conversations.
    But when I look at overall, some of the overarching pieces that we 
need to be very aware of, one of those overarching pieces is a just a 
very simple thing we say all the time, when you talk about local 
governments and State and tribes. So think about that context all the 
time. When we looked at previous Farm Bills, one of the biggest issues 
was the ``and tribes'' was left out. That created a lot of the problems 
that you will hear about from some of those that have specific ideas 
and recommendations to put forward.
    Another overarching principle is remembering the importance of 
self-governance and self-determination. Looking at the principle of 
638, what a great principle that has been in bringing up the capacity 
of tribes when we are dealing with governance issues and governance 
responsibilities. So when we look at the SNAP program, a food 
distribution program and model that is critical, thinking about that 
local government and how that can be empowered by a 638 principle 
behind that. So that is another universal kind of thing I would like to 
put on the table.
    Then I support the recognition of underserved areas. Looking at 
consistent, throughout the bill, throughout the programs, particularly 
in the rural programs, so we don't have to decide when we are included 
and when we are not included. Just make sure that that is covered.
    Then one of the other issues I think that is important is 
understanding the inconsistencies of definitions and what does that 
really mean. So how do we apply these programs with inconsistent 
definitions, whether it be with how we determine the status of Native 
lands or programmatic definitions. It would just make it a lot easier 
for implementing and understanding, even for the lenders, to be able to 
make sure that we have comparable.
    You think about overall, the things that we have been talking to 
you about all year and all last year, which was government parity. So 
what we are asking for again is government parity through the lens of 
the Farm Bill.
    Senator Udall. Great. Thank you, Jackie, that was great. That was 
right on two minutes there. You are going to get a gold star.
    Stacy, and Janie, both of you, there has been a lot of talk about 
health in the areas you work in. Do you have anything you want to react 
to? Mariah, I am going to expect you to jump in here in a minute, too.
    Ms. Bohlen. Well, Chairman, thank you very much for the opportunity 
to speak to this. In the 2002 Indigenous Peoples Global Consultation on 
the Right to Food, activists described how the denial of the right to 
food for indigenous people not only denies us our physical survival, 
but it also denies us our social organization. It denies our culture, 
traditions, languages, spirituality, sovereignty, our total identity. 
It is the denial of our collective indigenous existence.
    In the space that we fill at the National Indian Health Board, I 
would add health, that is a fundamental right to be a healthy person, 
to have access to the traditional cultural foods that are part of 
defining who we are culturally. We find that the intersection of public 
policy and health outcomes for Indian Country has a very profound, 
often unintended negative consequence for American Indians and Alaska 
Natives.
    I will use an example of the Pima Indian Tribe in Arizona. The 
tribe is a border tribe. When the boundaries of the United States were 
formed, half of that tribe ended up in Mexico, half of it ended up in 
the United States. The tribal members who reside in Mexico, there was 
recently a study done on this, they were able to still have access to 
their Native food ways, their cultural practices and their nutrition 
practices. They have experience better health, lower incidence and 
prevalence of diabetes, which is really diabetes, cardiovascular, 
obesity, those are like foundational health challenges that are 
directly tied to food and other factors as well.
    But on the American side, they have some of the worst diabetes 
numbers in the world. They have been removed from their ability to 
produce traditional foods, and to be able to access the ways that they 
would traditionally live. That is duplicated throughout the United 
States. For example, another tribe, the Pima Maricopa Indian Tribe, 
relies on the Gila River traditionally for irrigation, to have fishing 
and all of the traditional practices that they would have to bring food 
in for their traditional ways of being healthy. They even, the river is 
so sacred they even have songs as part of their traditions to honor the 
river.
    But through the last 100 years, the damming of the river, which 
originates in New Mexico, has resulted in it being almost a trickle 
most of the year. There has been some recent movement on getting some 
of their water rights back. But this is foundational to the ability of 
that tribe to feed itself, and to have healthy ways to practice 
indigenous food ways and honor health.
    I want to mention two things. I know there will be an other 
opportunity, so I am not trying to be a two-minute burner. I want to 
mention first, and really support the comments that Jackie made about 
sovereignty and about self-governance. In the health arena, there has 
been a tremendous growth and in the abilities of tribes to run their 
own health systems and implement the health care systems for their 
peoples. It has been tremendously successful.
    This can also be tremendously successful in the area of 
agriculture. When you talk about the SNAP program or the FEED, a 
Federal distribution program on Indian reservations, these programs can 
be run by the tribes. Even the States have difficulty implementing them 
effectively. The States have tremendous resources that the tribes do 
not have.
    So with proper investment, again, not quite the way that it was 
mentioned earlier, but another form of investment to bolster 
administrative ability and bring technical assistance to the tribes, 
tribes have proven that left to their own devices, their own 
traditions, cultures and practices, and the support in the trust 
responsibility, they can do tremendously excellent work in 
administering not just health, but all programs.
    The last thing I want to mention, and I will bring it up later, is 
the special diabetes program for Indians. Probably the most successful 
public health program ever seen in Indian Country and perhaps 
elsewhere. Through this program, tribes have been able to bring 
hemoglobin A1C levels down an entire percentage point. We are very 
disappointed that the reauthorization that was promised us yesterday in 
the House, through the CR, did not occur. We must get this program 
done. I know it is not an Agriculture Bill program, but it dovetails 
with health, access to health and Native foods, and healthy Native ways 
of implementing programs that work.
    Senator Udall. Absolutely. We got it in the last CR, we were 
pushing very, very hard on that. We are going to do everything we can 
to get it in this one.
    Senator Heitkamp?
    Senator Heitkamp. First off, I want to thank Keith and the Shakopee 
for the wonderful work that you guys did. Just be happenstance, I was 
at an Indian gaming meeting and I think your report, Janie, had just 
come out. You had a copy of it and we were able to get a copy of it.
    There is a number of things within the Farm Bill that is not just 
exclusively dedicated to food and food security. There is a number of 
housing things I think are also significant. I think you did a great 
job highlighting where we have fallen down, maybe, on some of the 
housing programs as well. I want to focus on that, since food is a 
critical piece of what we are talking about today. But probably in 
follow-up, talk about some of the housing ideas you have for the Farm 
Bill.
    Mr. Vice Chairman, if I could just run through some of the things 
that we are planning on doing. What I asked my staff to do is take the 
Shakopee report and identify things that we think we could introduce in 
a separate bill to lay down a marker for the Farm Bill. So I want to 
run through some of these, but I want maybe in response, Janie, you to 
tell me if I have hit the right priorities, if there are other things 
we need to look at. Because the report is pretty complete, and I think 
it would be difficult to get everything that is recommended in the 
report.
    So we are looking at introducing a bill probably next week that 
will establish a permanent rural development tribal technical 
assistance office. So there is automatically built-in collaboration 
that recognizes the sovereignty of the tribes.
    We are eliminating the matching funds requirement for food 
distribution programs on Indian Reservations, which I think is 
critical. Sometimes those matching programs make it inaccessible.
    Make Native community development financial institutions, this 
again goes to the housing program, eligible borrowers for new lenders 
under USDA's 502 direct home loan program. Make tribes and tribally-
designated housing entities eligible as borrowers under 502. And then 
establish a 5 percent set-aside for tribes in the tribally-designated 
housing entities in the rural development housing programs. So this 
would not be dependent on going through housing finance agencies.
    Now, I have been around long enough, I did a housing conference. I 
can tell you that some States do it pretty well, some States don't 
want. Kind of ironically, because we always think we do things better 
than South Dakota, South Dakota has been particularly engaged in 
housing issues, through their housing finance agency. It is something 
we should encourage all our counterparts in State government to look 
to.
    But I think when you cull through some of the stuff that you did, 
and you realize how comprehensive and extensive it is, I think we got 
lost in some of the minutiae. It would be really valuable for either of 
you to give us ideas from that report, where you see the top 
priorities. Maybe Keith, you can start out, or Janie, I don't care who 
looks at it.
    Senator Udall. Thank you, Heidi. I know you will be fighting for 
all those ideas on the Ag Committee.
    Keith, please.
    Mr. Anderson. I would like to step back for a second. I would be 
remiss, I needed to credit, Jackie reminded me that her support and 
NCAI's goes along with Zach, and us, and Janie as well. I didn't mean 
to leave you out. I apologize.
    I don't know if I am the best to prioritize that list. I do 
certainly emulate the areas that you have identified. I also have some 
things to add to that. But I think you guys might be better aware of 
how that would prioritize, as far as our report goes.
    Senator Heitkamp. Well, Keith, one of the things Zach raised, which 
is which is value-added agriculture and meat processing, one of the 
challenges we know we are going to have in Standing Rock, if we ever 
get that project off, is training. There is a real opportunity to 
benefit training and other tribal meat processing facilities cross 
training. There are some really great things we can do. But value-added 
agriculture is a critical part of this as well, especially as it 
relates to buffalo and beef.
    Mr. Anderson. There is technical assistance available too, and 
other areas are available, and other bills as well that could apply. We 
were talking about those this morning. That is definitely on a 
priority, I don't know where exactly, but it ranks right up there with 
the technical assistance with the bill, technical assistance beyond 
that.
    Ms. Hipp. And also, when you talk about value-added, remember when 
you are talking about value-added, some of the other things in our 
recommendations that we have talked about together was just being able 
to be part of the whole marketing scheme of agriculture and products. 
So when we talk about the meat slaughter plants, one of the big pieces 
is going to be able to make sure that we will be able to deal with 
export issues and all the other kinds of food production pieces that 
tribes are on a level playing field in those areas.
    Senator Heitkamp. Janie?
    Ms. Hipp. I realize there is a lot of minutiae in that report. As I 
told the Vice Chairman, when they commissioned it from us, I said, I 
may only get one shot at this to get in the weeds. To me, there is a 
lot in there that can be worked on for future Farm Bills as well. What 
I have seen in my experience, over and over and over again at USDA is a 
disconnect with the definitions of who is eligible and how tribes do 
their business.
    A general, because there are really no specialized tribal-only 
programs, really, to speak of, throughout the department, it leads to 
this misunderstanding of how, like for instance, when a tribe creates 
an authority of some ilk, like a State does, to do economic development 
or any other service delivery, that sometimes is seen by the rank and 
file folks at USDA as being non-tribal. It is not a part of the tribal 
government any more. Does that make sense?
    Senator Heitkamp. Yes, you aren't dealing directly with the 
council.
    Ms. Hipp. Right. So to me, those things can be fixed. It literally 
is almost, yes, we need technical assistance on the tribal entry into 
USDA. But we also need USDA technical assistance back to us to really 
get a sense of how modern tribes do their work, how they do it through 
their governments, how they do it through their businesses. That to me 
is one of the areas that I think the department is right to be in those 
conversations. I really do. I think they are ready to be in those 
conversations.
    Senator Heitkamp. Do you think that establishing a permanent rural 
development tribal technical assistance office, is that the first step 
toward that identification and that awareness of sovereignty and that 
these are entities that need to be dealt with directly?
    Ms. Hipp. I believe it is for rural development. Particularly if 
you think about the value-added producer grant program, that thing is 
so technically written by Congress, because they are very keen. The 
folks in Congress are very keen on making sure whoever applies for that 
is actually the owner of the crop, and not some broker out there.
    So convincing the folks who actually manage those programs, that 
they are actually looking at someone who owns the crop, that is an 
important piece. We actually, when I was back there, we actually did a 
year and a half of background work with the Office of General Counsel 
to explain how tribes do their business in food. So that it led to an 
administrative notice that was sent out throughout the entire 
department to actually explain to the rank and file people, all the way 
down, how tribes did food. That kind of technical assistance office 
would help.
    Senator Udall. Ross, just before we go to you, Janie, I am working 
on legislation in terms of 638 of USDA programs. How does that fit into 
what you are talking about right there?
    Ms. Hipp. It is the same piece of the puzzle.
    Senator Udall. Of being able to take it over and do it, right?
    Ms. Hipp. Okay, Ross, go ahead.
    Mr. Racine. I wanted to address Senator Heitkamp's question about 
housing. One of the primary problems as we attempt to take tribal 
housing groups, whether they are recognized by the tribe or an 
association, what have you, there is a direct conflict in the 
regulations of rural development housing development and HUD. One of 
the things this committee could take a very close look at is how can we 
align those two housing programs to benefit, to remove some of those 
barriers and allow tribes to make regular use of rural development 
housing programs.
    Senator Heitkamp. So more harmonization between HUD and USDA.
    Mr. Racine. There you go.
    Senator Heitkamp. Zach, could you comment a little bit on value-
Added and the set challenges you have had in Cheyenne River? I know you 
are familiar with the challenges at Standing Rock also.
    Mr. Ducheneaux. Yes, Senator Heitkamp, I sure will. We got a lot of 
requests with regard to credit and access to credit. They are all tied 
back to having access to capital that will let us take that $3.3 
billion a year and turn it into something on the order of $15 billion a 
year for Indian Country. Because the $3.3 billion a year represents the 
producers' share of the food dollar, which is anywhere from 11 to 14 
cents. So there is some math to be done there.
    It doesn't take a lot of impact before you realize that if we take 
$15 billion and spread it throughout Indian Country that is more than 
the BIA budget, that is more than the Indian Health Service budget. We 
can take care of our own things if we have the resource to develop the 
infrastructure to get the value-added agriculture, so we are selling 
food instead of selling food products into the commodity cycle.
    Senator Udall. One of the other parts of this has to do with Native 
food traditions and education, so that people understand what those 
traditions are. Mariah, you have, I think, something to say on that, 
and Carrie, you do also in terms of coming from the education 
perspective and the work you are doing there at colleges and 
universities. Mariah, why don't you kick it off?
    Ms. Gladstone. Yes. Tying this back into the whole nutrition 
discussion and policy from the nutrition side is the underlying 
statistic that 25 percent of Native people are receiving some type of 
Federal food assistance. Obviously indigenous histories in the U.S. are 
marred with Federal food assistance that has severely disrupted our 
traditional foods and caused us to lose a lot of that traditional 
knowledge.
    Looking at that from the policy side, the real things that we need 
to be promoting in those food programs are more flexibility for tribes 
to be able to tailor Federal food assistance programs to their own 
needs and their own traditions. That includes consultation with tribes 
from the USDA side, it includes regional partnerships for the Federal 
distribution program on Indian reservations. It would additionally, I 
think, require the Federal distribution program on Indian reservations 
to purchase traditional foods, including bison, wild rice, blue corn, 
salmon, things that are known to the community and have been eaten over 
thousands of years.
    Not only is there a nutritional benefit to the recipients of that, 
but there is an additional benefit of promoting the Indian producers. I 
think that is key as well to revitalizing a lot of those traditional 
food ways.
    Then of course, allowing participation in both the FDPIR as well as 
SNAP. That is my brief summary.
    Senator Udall. People can find that on your videos, right? All of 
that?
    Ms. Gladstone. My videos are much faster than that.
    [Laughter.]
    Senator Udall. Carrie, then Tina, I will come to you.
    Ms. Billy. First, before I speak to that issue, let me just throw 
out one idea with the rural development and community facilities funds. 
What would be really useful I think for Indian Country, I definitely 
know for tribal colleges, is if there was sort of a, these are loan 
programs. But if after a time they could be turned into grants, so 
there could be a loan forgiveness after five or ten years, that would 
be extremely helpful to tribal entities that are trying to build tribal 
community facilities.
    But related to this, we have been talking about food. But research 
is critically important. By 2020, we are going to have ten billion 
people on this planet. Right now, we only have the ability to feed half 
of them. So this is a huge global challenge, in addition to being a 
challenge for us as Native people.
    Tribal colleges are doing research to try to address these issues, 
big global challenges. But in a way that is place-based, that is 
related to our land and water and our people. For example, at Nueta 
Hidatsa College in North Dakota, they are doing research on June 
berries, and trying to find native pollinators to restore the habitat 
for native pollinators, so we can export June berries. June berries are 
an ancient plant that has incredible levels of protein, calcium, 
antioxidants, and they sustained generations of people until westward 
expansion practically eliminated them.
    So tribal colleges are doing research in that area through 
specialty crop research. That is one thing we really need to strengthen 
and make sure we maintain throughout the Farm Bill, specialty crop 
research. But there is also a huge inequity in the research funding. So 
right now, the State institutions, the 1862s, get $263 million a year 
in formula funding for research, $263 million. Nineteen HBCUs get $51 
million a year, formula-driven. Thirty-four 1994 land grants get $1.8 
million in research funding that is competitive every year.
    So we have an idea to use Commodity Credit Corporation funding, 
$17.5 million a year from Commodity Credit Corporation to establish 
additional funding to support research in Indian Country for native 
plants and place-based research. That is how historically Hispanic-
serving institutions were funded in the last Farm Bill. There was 
legislation to increase funding for the 1890s that has been introduced 
in the House. So we think that we Native people need legislation 
similar to that that could really help spur the research that we need 
in Indian Country to exploit and to do more value-added crop 
production.
    Senator Udall. Senator Smith, please.
    Senator Smith. Thank you. I have a question, first, on the food 
side of this. We have had some of our tribes in Minnesota that have had 
some success with developing international markets for their food 
products, like wild rice, for example. But I would be really interested 
to hear from any of you about what we could do in the Farm Bill to try 
to expand opportunities for building those markets.
    Mr. Racine. Honestly, I am not trying to hog the show. But IAC 
holds the contract with Foreign Ag Service for the market access 
program. We are the entity that took Red Lake, Leech Lake, all overseas 
to market those products.
    We have been basically flat-lined since 1997, when we first entered 
into this agreement with Foreign Ag Service. It is a wonderful program 
in that what we have found, when you talk to experts, they tell you you 
first need a local market, a regional market, then a U.S. market before 
you ever think about going overseas. Because of the way MAP is set up 
to where we can pay those Native producers, food product producers, pay 
their way, pay their sample product's way to these international food 
shows, the contracts they secure at those often become the first 
infusion of cash into their business, which is totally contrary to the 
traditional export.
    We sold about $150 million worth of Indian products overseas. Red 
Lake was selling wild rice for 60 cents a pound when they got into our 
program. Right now they are selling those for $8 for about a quarter of 
a pound of wild rice. So it has been great benefit to our producer. 
What we need in market access program is to enhance our ability to 
deliver that program out there on the ground, to take more Indian food 
products overseas.
    The greatest thing about that program is there is a lot of Europe 
and the Pacific Rim countries that know more about us as Indians than 
we know about ourselves. So the first thing they look at is that Indian 
motif, and that is the people we want to buy from. There is a ready-
made market, just let us get more products over there.
    Mr. Anderson. To add to that, what Ross is saying is there is an 
opportunity to promote that international trade opportunity and find 
ways to send Zach overseas and----
    [Laughter.]
    Mr. Anderson. But it had happened before. It needs to happen again. 
Just adding on, everybody has a little piece of what I have to say, IHS 
and Interior use a Buy Indian Act requirement that could be applied to 
USDA so its purchases of food affirmatively seek out the Native 
producers and the Native products. Promoting that international trade 
and requiring USDA to purchase a higher portion of food from the local 
and regional sources, and supply those, and not try to send Bison to 
Southern California or wild rice to Alaska, but keep it regionally 
appropriate or culturally appropriate to fit with our traditional 
customary diets.
    I think I am just going to throw this out here as well, you mandate 
that P.L. 93-638 statutes and regulations apply to all aspects of it. I 
think we are hearing those pieces. That is what I took out of what 
Jackie had to say. You apply, get HUD and rural development married, 
you get access to those funds. You buy Native American products and 
regionally support those where appropriate, and not try to, unless Zach 
is going overseas with it, but find ways to apply that comprehensive 
use of Buy Indian and apply it to the USDA.
    I can't help but think about something you said about private 
financing on trust land. I don't know if I understand it fully enough 
to like it or not, but I don't know what that would encompass, 
encumbering trust property. We have a portfolio, a significant 
portfolio of loans to other tribes. We have found ways to use 
depository agreements and so forth. Through the BIA, and that is an 
aspect of the BIA, I think that is flexible, I don't think they want to 
see themselves doing a lot of extra accounting and so forth. If you can 
get it in front of those depositories, it is probably not as solid as 
garnering a piece of asset, such as land. But I don't know if I am 
hearing it right.
    Mr. Matteson. Yes, and no. But I will accentuate the positive and 
say one of the things we have talked about with IAC is the idea of a 
first loss loan fund, so essentially the depository agreement, but a 
source of capital would be put up by tribe or tribes that would allow 
any private lender, Farm Credit or whoever else, to do lending in 
Indian Country, no matter what the ownership of that land was. If we 
could make that ownership irrelevant, because in the first place the 
issue is that securing a mortgage, and then in the second place it 
would be recovery.
    Where that lending could essentially be brought to Indian ag 
country through contractual arrangements, to allow the tribe to have 
full control over what happens on tribal lands, but the lender is 
secured so as to be able to encourage, to actually show up and do 
business there. The CDFI that the Intertribal Ag Council is setting up 
now can serve that sort of introductory function for the very small 
producer, to get them credit-worthy, so that they have access to credit 
from a tribal source that is easy to access and then that relationship 
can be the stepping stone, the basis for larger credit, if that is what 
that producer needs.
    Mr. Anderson. And a way to get in front of those USDA loans, turn 
them into grants and get that depository security that way. I think 
that starts to branch off the Farm Bill.
    Senator Udall. Yes, I agree. Lionel, when I was in the House in 
2006, I took a trip with your general manager, the general manager of 
NAPI, down to Cuba. There were a lot of governors who were taking trips 
like this, it was an agricultural trip. The whole idea was, they have 
11 million people, and we ought to be able to open up markets to sell. 
I remember there was a wonderful discussion down there with the general 
manager and the head of the Cuban government that buys food for the 
Cuban government.
    I would like to expand this discussion a little about 
international, since you are producing significant amounts of food. 
Have you had barriers, have you had problems? Have you tried to market 
internationally? I just raise that as one question, but you may want to 
comment on some of the other things you have heard also.
    Mr. Haskie. Thank you, Vice Chair. Some of the recent barriers that 
come to mind regarding moving our table stock potatoes into Mexico, 
there is a regulatory issue with regard to food safety to prevent 
certain diseases from entering the Mexican producers. We find that one 
of the barriers of moving our potatoes. We have a significant amount of 
potatoes, our volumes change each year.
    Then just to add to the point of the potatoes, one of the 
challenges that we have experienced on the production side related to a 
section in the Farm Bill, 507-51, it is a limitation on land 
eligibility for the producers who own farm land. We own about 75 acres 
of farm land.
    The language in this particular regulation states that some of our 
acreages that are under sub-lease, they are not eligible for us to 
receive CSP conservation funds for cover crop growth. Since potatoes is 
one of the crops that we typically need to use a cover crop after the 
season is over, it has been a challenge on us. We initially, in 2008, 
for CSP, we have been funded a full acreage for cover crop. But 
recently it has been changed.
    Going back to the international market, we moved beans into the 
international markets and also do our sub-lease, the contractors, they 
move a lot of alfalfa into the Asian markets. What we understand is 
that the product quality is very good. I think some of the programs 
that are related to MAP, my understanding is that our invites to some 
of these conferences, some of the challenge is that the buyers want a 
price at that moment.
    Just based on our internal procurement process with our business, 
we have to develop contracts and develop the right pricing by going 
prior, or after we go to these conferences, to make sure that we 
validate the prices that we are going to give.
    Senator Udall. Thank you for that. Janie, please. Janie, just 
before you start. Senator Cortez Masto is coming, Tina is still here. 
We will keep the roundtable discussion going. All of you should know 
that this is part of the record. Janie was a witness yesterday, we have 
made this whole roundtable a part of the record. So if you would like 
to submit additional things after we are finished, please feel free to 
do so. That will be part of the record.
    It will really help us in terms of working with all of you in 
improving the Farm Bill. Go ahead, Janie, and Tina, I am going to give 
you the gavel.
    Thank you very much.
    Senator Smith. [Presiding.] I feel like I have just made a rapid 
rise to power.
    Senator Udall. Don't let it go to your head.
    [Laughter.]
    Senator Smith. Go ahead, Janie.
    Ms. Hipp. I want to pick up on one thing that Lionel was just 
saying and another thing that Carrie was talking about as well.
    With regard to food safety, the Food Safety Modernization Act was 
passed. It is having significant changes in a lot of areas, produce, 
new rules. Animal feed, new rules. International movement of foods, new 
rules.
    Our initiative was selected in a competitive round to be basically 
the Native center for outreach, training technical assistance and 
education in food safety. We received the smallest amount, we cover 
over 30 some odd, likely 40, States. And all the other centers have 
small regions. Granted, they are west, south. It just gives you an 
example.
    And the types of questions that we receive from tribes when we 
actually go out and do the training, which we are being pulled and 
taxed in many very complicated ways, because we received the lowest 
amount of funding. And our funding goes down every year, three years, 
while everybody else's remains stable. Why? I have no idea.
    Look, if the money is out there, I am going to go for it to 
actually do the work. But why? Why was that built in in that way?
    But when we go out and get questions, we don't get questions about 
microbiological issues related to bugs and parasites on food. We get 
issues directly related to enforcement, jurisdiction, land tenure, 
interrelationships between tribal producers and other Federal 
relationships that they have that no one can give us the answer to.
    So that gives you an example that, as Lionel said, the food safety 
regulatory scenario is difficult enough as it is domestically, and that 
is changing. But it is even more challenging when you are dealing with 
an international component, and that is built into the export-readiness 
piece that IAC does.
    The other thing I will share just briefly, and I can write a book 
on it, which I think I will later, is this whole issue of research, 
education and extension is so critical. It is absolutely critical. All 
the tribal colleges are underfunded. Carrie just shared with you why. 
The extension is even worse, absolutely worse. There is not near enough 
money that is allocated. The entities that receive the largest amount 
of extension funding, if you actually trace the plans of work and the 
reports on the plans of work, there is no match-up with the audience 
that the formula is based on with the actual use of the funds.
    So it affects the federally-recognized tribal extension program, 
makes it fight for funding every year, it has been flat since creation, 
basically. And it makes the tribal colleges fight for their piece of 
the puzzle. You can't actually get this sort of technical assistance 
done like on a food safety piece unless you have access to some sort of 
formula money or the competitive overlay that literally allocates 
specifically a set-aside or whatever you want to call it into those 
pots that allow us to have access to that critical information.
    Senator Smith. Jackie?
    Ms. Pata. Thanks, I would like to add to this conversation around 
food. Also, some simple things is trying to make sure the definitions 
are reflective of the traditional foods that should be included. For 
example, in livestock, to include reindeer and elk, caribou, horses, 
those kinds of things are important. Otherwise, it excludes certain 
Native food products from being able to be included. We want to be able 
to make sure that that doesn't happen.
    Another thing that hasn't been in our coalition conversation, so 
don't throw stones at me right now, okay? I'm looking over at the guys 
here. One of the things that has been a big issue, particularly for 
certain areas of the Country, and even in the Protect Native Seeds 
conversation, is this protection and marketing of authentic Native food 
products, being able to make sure that they have the proper labeling, 
that that labeling isn't utilized by those who are not necessarily from 
an authentic Native food source or authentic foods or traditional 
foods. Not any different from genetically engineered versus not, 
genetically engineered food products.
    I think that is going to be really important as Indian Country 
moves more into the distribution models, that we actually are able to 
take credit for those foods that come from our communities. So I wanted 
to bring that up too.
    Senator Smith. Yes. Zach?
    Mr. Ducheneaux. Thank you, Senator Smith. I just wanted to go back 
to the trust land and the mortgage of trust land thing, just to provide 
a point of clarification. Since 1956, an individual Indian has had the 
capacity and ability to mortgage their trust land, and encumber it and 
properly effect a mortgage, with the approval of the Secretary of 
Interior. Tribes have prohibitions on encumbrance of trust land, their 
land, tribal land, in their constitutions.
    So that prohibition is a tribal, that is a community-based 
decision. The individual's right to mortgage trust land is something 
that since 1956 we have had the ability to do it, but banks still will 
not do it in Indian Country. They are hiding behind the myth and we 
need to make sure that we shed light on that. That is one of the 
reasons that the GAO report, that we are requesting to examine. 
Commercial credit's lending in Indian Country agriculture is so 
important and it underlies all the other credit asks that we have.
    Senator Smith. So just so I understand, you are saying there is a 
standard business practice among lenders to sort of ignore this right 
that people have to mortgage their trust land?
    Mr. Ducheneaux. One example that we have on Cheyenne River, there 
was a young fellow that wanted to purchase trust land. He went to the 
bank to get a loan and the bank gave him a six-year note on the land. 
Instead of a 30 to 40 year mortgage to pay that back, they gave him six 
years to pay back the loan that he got to secure that land.
    That is what we talk about when we mention our credit desert. That 
is not fair and equitable and that bank is likely getting discount 
money from the Fed to serve their community. So it is in effect red-
lining, and we have banks that will flat tell you, we are not going to 
loan on your individually-held trust land.
    Ms. Pata. If I could follow up on that a little bit.
    Senator Smith. Please.
    Ms. Pata. In housing, we have done things where tribes have 
actually created their own loan secure fund, what you were talking 
about earlier, for agriculture, basically bearing the right of first 
refusal if there is a default. But really, if you look at the default 
rate in Indian Country, it is significantly low. So it almost 
contradicts the rationale from a lender for why they aren't willing to 
expose themselves to that type of risk.
    I think partially it is the expense of managing the loan and 
actually dealing with some of the initial loan papers, putting those 
pieces together sometimes creates a difficulty in the cost of actually 
managing the loan process. But we have used things like, we have 
created government guarantees, and those are a significant incentive. 
Even with government guarantees, it is difficult to get certain lending 
institutions to come to the table, partially because I think that once 
again, you have to have a general understanding of the tribes, the 
business processes, the community.
    And this element of confidence, and that is why the CDFIs end up 
being such a good vehicle, because there is this lack of financial 
institutions. Being able to have the CDFIs with greater ability to 
provide the services, which are a gap, would be an important, it is 
important in the discussion. I guess I don't want to say that lenders 
should be off the table, I feel like there needs to be more pressure. 
Recently, there hasn't been enough pressure on providing on-reservation 
loans versus off-reservation loans for these kinds of services.
    Senator Smith. So this reminds me of, one other thing, lots of 
things I want to ask about. We had a little bit of a conversation 
yesterday about the needs to help sustain beginning farmers. This 
relates directly to issues of credit and access to capital. But I would 
be really interested to know what your advice to us would be on that 
issue, as we think about helping beginning farmers in Indian Country.
    Mr. Matteson. Well, if I had read my title, please, may I be the 
first to call you Madam Chairman?
    [Laughter.]
    Mr. Matteson. I am working on that power thing you have going.
    That is in my job title. I spent a lot of time and have done it on 
tribal lands with Janie and many different groups of small producers in 
many different tribes, doing financial skills education. Although there 
are lots of USDA programs, I will bring up the one that everybody likes 
to talk about, the Beginning Farmer and Rancher Development Program, to 
assure that there are financial skills components that are required for 
any of those training programs that typically smaller non-profits or 
others get grants in order to do farmer training.
    There needs to be a very consistent requirement for financial 
skills, because those skills are not just for, you are going to be a 
farmer some day on your own, they are really a social skill, they are a 
life skill. An employee with financial skills is a better employee. 
They may never get to be an employer. I think that is something we 
really need to track, that business-mindedness.
    And I would point out that that is really the basis of the Indian 
Ag Youth Summit, that we have been involved with, with the IAC and the 
University of Arkansas for the three years of its existence, is really 
entrepreneurship training. It is getting people ready to have a 
business-minded approach to helping their communities succeed.
    Senator Smith. Thank you. Does anyone else want to comment on that? 
Yes, Carrie.
    Ms. Billy. I would like to say something about that, thank you very 
much. We actually, AIHEC has a small grant from FSA and USDA to develop 
an agri-business course, set up agri-business courses at tribal 
colleges that could then be used throughout the tribal college system 
and in other rural communities. But it is specifically to get at that 
purpose, to try to help train local beginning farmers, young farmers 
and ranchers.
    But also, the FSA loan officers, where we are finding a huge 
disconnect between Indian Country, they are out there, the centers, but 
really not understanding or working with Indian Country, as people have 
said. So we are hoping, through this program, we can begin developing 
American Indian and Native Alaskan loan officers who have more 
sensibility and the cultural awareness so they can work with their 
communities. But it is a very small program, it is a one-time 
initiative that was actually funded by Congress last year.
    But those kinds of training programs need to be continued. We are 
developing, a component of it is going to be an apprenticeship program, 
which we think will be very useful. So these young students will be 
able to get the academic programs and that baseline knowledge, but also 
working in the centers, with the centers, so there will be that kind of 
give and take. So they will be training USDA while they are learning 
the USDA methods. Those kinds of programs that develop those 
relationships really need to be continued in some statutory or 
sustained way.
    Senator Smith. That is great, thank you.
    Mr. Haskie. I would like to add, Madam Chair. So when we look at 
our Native American crop program as a small business unit, it really 
has a tough time making the revenue. So it is usually subsidized by the 
regular business of our conventional crops.
    Some of the crops that we look for in terms of grant funding are 
along the lines of efficient growing techniques to grow these Native 
American types of crops. Then on the education component, the education 
component would assist in developing the menu that we would basically 
supply the food. Locally, we are not set up for distributing to provide 
product in a Federal bid or 638 system to feed the local programs.
    But some of the areas that would help is in the efficient growing 
techniques, the assistance to help traditional Native foods pass some 
of the regulatory inspections that we have to inspect with our other 
products. Then also just to address the ready to serve menus. As a 
producer, we can pretty much grow any crop. It is just a matter of 
growing it efficiently and then knowing what to grow in terms of what 
would fill that gap for an area that would assist our diabetes plague, 
what foods would we grow. Then how do we get that food through that 
program.
    One of the programs that comes to mind is the COPE program. I think 
it is a good source to maybe not guarantee that we will fill that gap, 
but to get the menu circulated to us as a producer, and try to fill it 
with the Native traditional foods.
    Senator Smith. Thank you. So I have been passed a note saying I am 
going to have to leave. I am going to turn to Senator Udall's staff. I 
want to thank you all so much. It has been so interesting, and I think 
we have gotten lots of good food for thought, no pun intended. There 
are so many more things I would love to hear your comments on, especial 
as we think about conservation programs in the Ag Bill. Certainly we 
have hade a good conversation about how some of the nutrition programs 
need to be adapted and how we really need to think about treating 
tribal governments like government governments, as we work to do the 
implementation that happens with so many of the programs and strategies 
that are in the Farm Bill.
    So thank you so much. It was really a treat to have a chance to 
hear all of you. I look forward to continuing this conversation as we 
work on this big bill. Thank you.
    Ms. Romero. Thank you, Senator Smith. Thank you, panelists, for 
your indulgence. Mike and I will fill in for Senator Cortez Masto, who 
I understand is on her way. But we do have a hard stop at 4:00 o'clock, 
so that gives us a little over 10 minutes.
    I thought that I would pivot a little bit, and I think Senator 
Udall has a great interest in hearing from folks about really just 
expanding opportunities for Native youth in farming, bringing Native 
youth back to their homelands to really not just cultivate and harvest 
their foods, but pass on Native food traditions to the next generation.
    So I understand that NAPI has a scholarship program that really 
trains Native farmers, has a scholars program that I think has been 
pretty successful. I know NIHB, through your SDPI work, perhaps you can 
speak to this generally.
    Also I know that there is a Native culinary institute, or Ms. 
Billy, you may speak to this, about how our Native youth are being 
trained to also prepare these foods and reach a larger audience. With 
that, I will kick it off.
    Ms. Gladstone. All right. Janie, as well as the IAC, does some 
really cool work with the Indigenous Food and Agriculture Leadership 
Summit. It is a really cool 10-day intensive program at the university 
of Arkansas, which helps Native youth gain a lot of the skills that 
they need in order to enter the agriculture community. That includes 
everything from training for applying to micro-grants to marketability 
of the products, writing marketing plans. So a very, very intensive 
program. I think there is incredible work that is being done there as 
well as the newly-created Native Youth Food Sovereignty Alliance, which 
is a branch off the IAC, but also works on similar things and promoting 
the same training and values within Native youth and agriculture. So I 
think those are a couple examples of programs that are doing that.
    But of course, for Native youth, it is always important to expand 
upon that training, create more opportunities, especially with the 
early college age students or the new college graduates. There is work 
being done at the high school level that I have been lucky to be a part 
of, but I think there is also potential for expansion beyond that.
    And then of course, access to capital, both micro grants for young 
Native people as well as the ability to use trust lands as leverage and 
gain access to some of those things, so parity within the world of 
capital.
    Mr. Andrews. I did want to get in one quick question. Is there a 
role for Treasury with CDFIs and lending for USDA? If so, could you 
tell us in two minutes kind of tell us what your thoughts on that are?
    Mr. Matteson. I will give you less than two minutes. Treasury 
charters CDFIs and can provide some grant money to direct their 
activity, so that Treasury actually charters the CDFI. That is the 
process that Zach and Ross have been going through. I think Zach is 
more appropriate to answer.
    Mr. Ducheneaux. Beyond chartering the entity, Treasury will also 
provide technical assistance funding to set up the policies and the 
loan products and the governance structure of those CDFIs. Once 
certified, those entities can apply for Treasury funds to seed their 
loan fund. That is absolutely critical in Indian Country, to have 
access, affordable access to the loan fund to get out in your 
community. That is what hamstrings most of our Native CDFIs, is they 
spend more of their time trying to raise loan funds than they can out 
there putting the loan to work in Indian Country. Treasury absolutely 
has a role.
    Senator Cortez Masto. [Presiding.] Thank you, and thank you all for 
being here and being part of this roundtable. I apologize, I have had 
other committee hearings that I had to get to. So I apologize for being 
late.
    I know we have started this conversation in Indian Affairs, and I 
am going to continue it. I think it is important for all of us, as we 
come to address many of these issues.
    One of the things that has been a focus for me as well and the 
tribal communities in Nevada, and I talk to them about this, and we I 
brought it up a little bit at our hearing, is this idea of how 
traditional foods can really address diabetes, obesity, that we see in 
our tribal communities. There was a report that just came out that 
talked about how SNAP is a benefit, and really, if they are looking at 
foods and how they can not only reduce costs but have health benefits 
to our communities.
    So I am curious about your thoughts on that subject, and if there 
is anything that we can do here in Congress also to continue this 
discussion and address this as well and support tribal communities in 
this matter. I will open it up to whoever wants to comment.
    Ms. Bohlen. I am Stacy Bohlen, a Sioux Ste. Marie Chippewa Member 
and the Executive Director of the National Health Board. I am so glad 
that you asked this question, because we find ourselves in the midst of 
a challenge to ensure that the Special Diabetes Program for Indians 
continues.
    I would say that 80 percent of Native American Indians and Alaska 
Natives suffer from obesity. The chronic disease processes that we face 
that are totally preventable are due to a number of factors, including 
social determinants of health, poverty, adverse childhood experiences. 
But no less important is the lack of access to healthy foods, healthy 
Native foods and food sovereignty being present in our communities.
    There are over 300 tribal grantees in the Special Diabetes Program 
for Indians. It is one of the most successful public health programs in 
the United States. And they have actually proven that through these 
programs, run by the tribes, using tribal tradition and the best that 
western medicine has to offer, they have brought down kidney rate 
failure in tribal communities by 54 percent. That saves the Federal 
Government $85,000 per patient per year out of Medicaid alone. The 
program pays for itself.
    There has been a 1 point drop in the mean hemoglobin A1C blood 
level for our diabetic folks. One of the most important aspects of this 
is nutritious food, access to Native food, access to nutritious Native 
foods. It has proven to work over time. I mentioned earlier, it is not 
unique to the Pima Indians. Throughout Indian Country, the historical 
trauma and historical interference we have had with access to our 
Native food supply has led to this crisis in completely preventable 
diseases. Having foods that are not wild rice, that are not bison, that 
are not juniper berries and the variety of foods that we as Native 
people, we have salmon, that we rely upon, has led to the incidence and 
prevalence of diabetes in our communities.
    In the 1970s, there was no diabetes among Alaska Natives. It did 
not exist. And 60 years ago, it didn't exist in Indian Country. The 
high sugar, high fat, high gluten foods that are offered to us as part 
of the western diet have completely contributed to the health crisis 
that we now face.
    But we certainly have the capacity to bring those numbers down, 
when we are supportive, when we have the ability to direct our own 
programs and rely upon our own sovereignty and traditions to meet those 
health challenges through the food.
    I wanted to mention one other thing, if I may. We were just talking 
about Native youth. I wanted to mention that the National Indian Health 
Board has a year-long fellowship with all American Indian and Alaska 
Native tribal youth 18 to 22 years old. It is a brand new program, it 
is part of our First Kids First, generously funded through the Kellogg 
Foundation. We share with the program with the National Congress of 
American Indians, National Indian Education Association, and National 
Indian Child Welfare Association.
    Our part of this is that as part of what we are doing is creating 
this fellowship with policy. We believe that if you are born Native you 
are born into politics. So it is very important to understand and 
respect tribal government, Federal government, Congressional actions 
and how they interplay with us as Native people.
    Our people are having to fight to the Supreme Court for the right 
to our fish. That should give some weight to how profoundly important 
access to our Native foods is. We had 22 kids in our last cohort. They 
put two resolutions forward that could be anything they chose to bring 
to the board of directors of the National Indian Health Board for 
consideration for advancement. And one of them is funding for Native 
food sovereignty. The youth themselves had two, one was the opioid 
epidemic and behavioral health. And one was Native food sovereignty, 
which I would love to submit.
    Senator Cortez Masto. Please, I was just going to ask. We will 
submit it for the record and I will make sure all my colleagues have 
it.
    Ms. Bohlen. But the findings are that our tribes throughout the 
United States oversee successful food sovereignty programs. We need to 
have increased funding to support tribal capacity to develop and 
sustain food sovereignty initiatives throughout Indian Country, which 
this group collectively is looking to do. So thank you for letting me 
share that.
    Senator Cortez Masto. Sure, thank you. Yes, please.
    Ms. Pata. Let me quickly just add. Overall, part of the Coalition 
that many of us are part of, this Farm Bill Coalition from tribal 
governments, and we have the co-chairs here with us right now, one of 
the recommendations is that we look into the SNAP program through a 638 
lens, and that we see the success through HHS and DOI with 638. Having 
the funds going to the local level, having that flexibility in that 
local decision-making will make all the difference, because of the 
identity of tribes and the interest areas that we are in.
    Speaking to that report that you talked about, which I also looked 
at, it showed us that there is 25 percent less medical cost to those 
adults who are participating in the SNAP program. I think even with the 
addition of traditional foods that are more aligned to those who will 
choose to actually eat those foods, I think we will get a greater 
success rate. Having that local determination to 638 could really help 
us with access to the kinds of foods regionally that we could utilize 
better.
    Senator Cortez Masto. Thank you. Yes, please.
    Mr. Ducheneaux. Thank you, Senator Cortez Masto. A couple of 
things, with regard to the youth. At our last membership meeting in 
December, our membership took the action of installing on our board of 
directors a voting member that is represented by the Native Youth Food 
Sovereignty Initiative that Mariah is on the board of directors for. We 
feel it is that important, and we have that much trust in that next 
generation to provide guidance that can steer the entire organization.
    With respect to the 638, I am all about tribal self-determination. 
Fast forward five years from now, if we hit full 638 self-determination 
for SNAP and food distribution programs on Indian reservations, we are 
going to be here wondering why is there no Native American food here. 
We don't have enough to fulfill the need. That ties directly back to 
the access to credit, the lack of commercial credit in Indian Country 
and the need for Federal rural development programs to develop the 
infrastructure to get us there.
    Because I am pro-tribal choice, grow whatever you want, we are 
going to help you. We have to make sure that the resources are there, 
so we can make those better choices. Thank you.
    Senator Cortez Masto. Thank you.
    Ms. Hipp. I just want to briefly say that the Native youth are 
there. Every group that you gather that are Native youth will have food 
as a primary topic. Maybe there are two or three others, but they will 
be talking about food. When we talk to the national FFA, they talk with 
us all the time. There are 12,000 Native youth in 200 chapters all 
across the U.S. If you actually dig into the data that you can get hold 
of in the 4-H, there are 60,000 Native 4-Hers, and about the same 
number of chapters.
    What are we doing to actually do a pipeline in support for them? 
They are self-presenting. And that is just in those two organizations, 
and a lot of kids don't have access to either one of those. So they go 
where they can to present themselves around food.
    So what are we doing to build that pipeline? Because that is the 
pipeline that is going to be our producers, that is going to stay in 
the same, that are going to stay at home, that are going to make sure 
we have the foods.
    But they are also going to be the ones who become the scientists 
and go into the higher education system. We have to build it out for 
them. They are there, and they are hungry for this. They want it to 
happen, because they know it will benefit their communities. At the end 
of the day, something is leading them into food, because they know that 
it is the lifeline for their communities to stay in place and stay 
healthy and move forward.
    Senator Cortez Masto. Thank you.
    I think we were only going until 4:00 o'clock, is that right? Okay, 
I get to close it out. First, let me say thank you. Thank you for being 
here today and accommodating everybody's schedules. I know some of you 
have traveled long distances. This is so important. Every single member 
of the committee is there because they want to be there and they want 
to address the issues. We can't do it without all your help and 
support.
    Please know that we are committed to working on this issue, 
committed to continuing the dialogue and discussion with all of you. We 
cannot thank you enough for being here and participating with us. Thank 
you again, and I will close out the hearing.
    [Whereupon, at 4:04 p.m., the roundtable was concluded.]

                                  <all>
</pre></body></html>
